OCTOBER TERM 2020
No. _____
_______________________________
IN THE SUPREME COURT OF THE UNITED STATES
_______________________________
ALFRED BOURGEOIS,
Petitioner,
v.
T.J. WATSON, Warden, USP-Terre Haute, and UNITED STATES OF AMERICA,
Respondents.
______________________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Seventh Circuit
__________________
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI
VOLUME I
______________________________
--- CAPITAL CASE --EXECUTION SCHEDULED FOR DECEMBER 11, 2020
Victor J. Abreu *
Katherine Thompson
Peter Williams
Federal Community Defender Office
for the Eastern District of Pennsylvania
601 Walnut Street, Suite 545 West
Philadelphia, PA 19106
(215) 928-0520
victor_abreu@fd.org
*Counsel of record for Petitioner, and
Member of the Bar of the Supreme Court

TABLE OF CONTENTS
Volume I of II
Opinion, Bourgeois v. Watson, 977 F.3d 620 (7th Cir. 2020) ..........................PA001
Order Granting Motion for Stay of Execution, Bourgeois v. Superintendent, 2:19cv-992-JMS-DLP (S.D. Ind. March 10, 2020) .................................................PA017
Order Granting Motion for Stay of Execution, Bourgeois v. Superintendent, 2:19cv-992-JMS-DLP (S.D. Ind. March 10, 2020) .................................................PA030
Order Denying Respondent’s Motion to Reconsider and Motion For Leave to File
Surreply, Bourgeois v. Superintendent, 2:19-cv-992-JMS-DLP (S.D. Ind. May 27,
2020) ................................................................................................................ PA032
Memorandum and Order Denying Motion for Relief Pursuant to 28 U.S.C. § 2255,
United States v. Bourgeois, 2:02-cr-216 (S.D. Tex. May 19, 2011) ................PA037
Order Denying Petitioner’s Motion for an Order Authorizing a Successive 28
U.S.C. §2255, In re Bourgeois, No. 18-40270 (5th Cir. Aug. 23 2018) ..........PA262
Opinion Denying Petitioner’s Motion for Rehearing En Banc, Bourgeois v.
Watson, 20-1891 (7th Cir. Dec. 1, 2020) ..........................................................PA265
Notice of Issuance of the Mandate, Bourgeois v. Watson, 20-1891 (7th Cir. Dec. 1,
2020) .................................................................................................................PA267
Final Judgment, Bourgeois v. Watson, 20-1891 (7th Cir. Oct. 6, 2020) ..........PA269
Volume II of II
Petition for Writ of Habeas Corpus Pursuant to 28 U.S.C. §2241, Bourgeois v.
Superintendent, 2:19-cv-992-JMS-DLP (S.D. Ind. Aug. 15, 2019). ................PA270
Motion for Stay of Execution, Bourgeois v. Superintendent, 2:19-cv-992-JMS-DLP
(S.D. Ind. Aug. 15, 2019)..................................................................................PA348
Return to Order to Show Cause by Respondents, Bourgeois v. Superintendent,
2:19-cv-992-JMS-DLP (S.D. Ind. Oct. 18, 2019) ............................................PA362
i

Reply in Support of Petition for Writ of Habeas Corpus and Motion for Stay
Of Execution Bourgeois v. Superintendent, 2:19-cv-992-JMS-DLP (S.D. Ind. Nov.
15, 2019) ...........................................................................................................PA470
Excerpt from Diagnostic and Statistical Manual of Mental Disorders,
Fifth Edition, American Psychiatric Association (2013) (“DSM-5”) ..............PA521
Excerpt from Intellectual Disability – Definition, Classification, and Systems of
Supports - 11th Edition, American Association on Intellectual and Developmental
Disabilities (2010) (“AAIDD-2010”) ...............................................................PA531
Excerpt from User’s Guide to Intellectual Disability – Definition, Classification,
and Systems of Supports - 11th Edition, American Association on Intellectual and
Developmental Disabilities (2012) (“AAIDD-2012”)......................................PA544
Score Report, Woodcock-Johnson III NU Tests of Achievement (Aug. 19,
2009) .................................................................................................................PA550

ii

Bourgeois v. Watson, 977 F.3d 620 (2020)

977 F.3d 620
United States Court of Appeals, Seventh Circuit.
Alfred BOURGEOIS, Petitioner-Appellee,
v.
T.J. WATSON, Warden, and United States
of America, Respondents-Appellants.
No. 20-1891
|
Argued September 9, 2020
|
Decided October 6, 2020

West Headnotes (19)
[1]

[2]

[3]

Scope of

Sentencing and Punishment
findings

Verdict and

Sentencing and Punishment
lower court

Discretion of

A factual or legal error may alone be sufficient
to establish that the court abused its discretion
in making its final determination to stay an
execution.

[4]
Holdings: The Court of Appeals, St. Eve, Circuit Judge, held
that:

Federal Courts
Proceedings

Supersedeas or Stay of

The factors for a stay pending judicial review
are: (1) whether the stay applicant has made
a strong showing that he is likely to succeed
on the merits; (2) whether the applicant will be
irreparably injured absent a stay; (3) whether
issuance of the stay will substantially injure the
other parties interested in the proceeding; and (4)
where the public interest lies.

[1] government did not waive or forfeit argument that FDPA
claim was not cognizable under statutory savings clause
allowing habeas petition if motion to vacate sentence was
inadequate or ineffective, and
[2] motion to vacate sentence was not inadequate or
ineffective.

Procedural Posture(s): Appellate Review; Post-Conviction
Review.

Sentencing and Punishment
review

On appeal from a district court's decision to stay
an execution, the Court of Appeals reviews the
underlying factual findings for clear error and
reviews the legal conclusions de novo.

Stinson, Chief Judge, 2020 WL 1154575, stayed prisoner's
execution, based on likelihood of success on FDPA claim.
Government appealed.

Reversed and remanded with instructions.

Discretion of

The Court of Appeals reviews for abuse of
discretion a district court's decision to enter a stay
of execution.

Synopsis
423 F.3d 501, of federal
Background: After affirmance,
prisoner's murder conviction and death sentence, denial,
2011 WL 1930684, of prisoner's motion to vacate sentence
alleging intellectual disability as bar to execution under
Eighth Amendment and Federal Death Penalty Act (FDPA),
and denial, 902 F.3d 446, of authorization to file successive
motion to vacate sentence, prisoner petitioned for habeas
relief, alleging intellectual disability as bar to execution, and
filed motion to stay execution. The United States District
Court for the Southern District of Indiana, Jane E. Magnus-

Sentencing and Punishment
lower court

[5]

Federal Courts
Proceedings

Supersedeas or Stay of

Stay applicants must satisfy all four of the
requirements for a stay pending judicial review,
including a showing of a significant possibility
of success on the merits.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

PA001

Bourgeois v. Watson, 977 F.3d 620 (2020)

as a civil litigant should be bound by his counsel's
actions.
[6]

Habeas Corpus
proceedings

Supersedeas or stay of

Federal prisoner was not significantly likely to
succeed on merits, as would be required for
stay of execution, of habeas claim asserting
an intellectual disability which precluded his
execution under Federal Death Penalty Act
(FDPA); procedural home for habeas claim was
premised on statutory savings clause allowing
habeas petition if motion to vacate sentence had
been inadequate or ineffective to test legality
of sentence, government had not waived or
forfeited argument that prisoner's FDPA claim
was not cognizable under savings clause, a
forfeiture would have been excusable, and
prisoner's earlier motion to vacate sentence had
allowed him to litigate his intellectual disability
claim under clinical diagnostic standards.
U.S.C.A. § 3596(c);

[10]

Estoppel

[11]

28 U.S.C.A. §§ 2241,

Criminal Law
general

Presentation of questions in

Criminal Law
General

Necessity of Objections in

Federal Courts

Plain error

The determination of what circumstances fit the
criteria for plain error review in civil cases
is solely within the discretion of the Court of
Appeals.

[12]

Plain error

The ability of the Court of Appeals to review for
plain error in civil cases is severely constricted,

Habeas Corpus

Civil or criminal nature

Habeas Corpus
Presentation and
reservation in lower habeas court of grounds of
review
While habeas proceedings arise from criminal
cases, they are civil in nature, and thus, the
standards for plain error review in civil cases are
applicable.

Nature and elements of waiver

In the criminal context, the distinction between
waiver and forfeiture is critical: while waiver
precludes appellate review, forfeiture permits an
appellate court to correct an error under a plain
error standard.

[9]

Federal Courts

18

In civil cases, “waiver” is the intentional
relinquishment or abandonment of a known
right, while “forfeiture” is the mere failure
to raise a timely argument, due to either
inadvertence, neglect, or oversight.

[8]

Plain error

Plain error review is available in civil cases
only in the rare situation where a party can
demonstrate that: (1) exceptional circumstances
exist; (2) substantial rights are affected; and (3)
a miscarriage of justice will occur if plain error
review is not applied.

2255(e).

[7]

Federal Courts

[13]

Habeas Corpus
Presentation and
reservation in lower habeas court of grounds of
review
Government did not waive or forfeit, for appeal
from stay of federal prisoner's execution, its
argument that statutory savings clause, allowing
habeas petition if motion to vacate sentence
was inadequate or ineffective to test legality of
sentence, did not apply to prisoner's claim that
he had an intellectual disability which precluded
his execution under Federal Death Penalty Act
(FDPA), though government's briefing in district
court, concerning cognizability of prisoner's
claims under savings clause, had not addressed
FDPA claim separately from prisoner's Eighth
Amendment claim, where prisoner's petition and
briefing had not parsed out separate claims

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

PA002

Bourgeois v. Watson, 977 F.3d 620 (2020)

out separate claims under Eighth Amendment
and FDPA, and forfeiture would implicate
larger interests in finality of postconviction
proceedings and in judicial efficiency. U.S.

under Eighth Amendment and FDPA, and
government and prisoner agreed that Eighth
Amendment and FDPA provided substantively
identical protection and were governed by same
standard. U.S. Const. Amend. 8;
§ 3596(c);

[14]

28 U.S.C.A. §§ 2241,

Federal Courts

18 U.S.C.A.

Const. Amend. 8;

2255(e).

In general; necessity

18 U.S.C.A. § 3596(c);

28 U.S.C.A. §§ 2241,

[17]

When local rules of court do not permit
filing a surreply as of right, a party does
not waive an argument for purposes of appeal
by failing to seek leave from the district
court to raise the argument in a surreply;
otherwise, arguments before the district court
would proceed ad infinitum, making litigation
unruly and cumbersome.

Habeas Corpus
or Proceedings

2255(e).

Post-Conviction Motions

For a motion to vacate sentence to be inadequate
or ineffective to test the legality of a detention,
so that statutory savings clause allows the filing
of a habeas petition, it is not enough to show
that a motion was unsuccessful; there must be a
compelling showing that, as a practical matter, it
would be impossible to use a motion to vacate
sentence to cure a fundamental problem.

[15]

Criminal Law
General

In exceptional circumstances, the Court of
Appeals has discretion to forgive a party's
forfeiture of appellate review, and exceptional
circumstances include when a forfeited ground
is founded on concerns broader than those of the
parties.

[16]

U.S.C.A. §§ 2241,

Necessity of Objections in

[18]

2255(e).

Sentencing and Punishment

Evidence

In determining whether an offender has an
intellectual disability that precludes execution
under the Eighth Amendment and the Federal
Death Penalty Act (FDPA), a court is not
required to accept an IQ score at face value,
especially when a psychological expert credibly
testifies that the offender did not put forth his best

Habeas Corpus
Presentation and
reservation in lower habeas court of grounds of
review
Government's putative forfeiture, for appeal
from stay of federal prisoner's execution, would
be excused as to argument that statutory
savings clause, allowing habeas petition if
motion to vacate sentence was inadequate or
ineffective to test legality of sentence, did
not apply to prisoner's claim that he had
an intellectual disability which precluded his
execution under Federal Death Penalty Act
(FDPA); government's failure, in its briefing
in district court concerning cognizability of
prisoner's claims under savings clause, to address
FDPA claim separately from prisoner's Eighth
Amendment claim was excusable because
prisoner's petition and briefing had not parsed

28

effort on the test. U.S. Const. Amend. 8;
U.S.C.A. § 3596(c).

[19]

Habeas Corpus
or Proceedings

18

Post-Conviction Motions

Federal prisoner's earlier motion to vacate
sentence, alleging intellectual disability that
precluded his execution under Federal Death
Penalty Act (FDPA), had not been inadequate
or ineffective to test legality of his sentence,
as would implicate statutory savings clause
allowing habeas petition, where motion to
vacate sentence had allowed prisoner to litigate
his intellectual disability claim under clinical
diagnostic standards, though Supreme Court
later clarified, in two Eighth Amendment

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

PA003

Bourgeois v. Watson, 977 F.3d 620 (2020)

decisions, that the adaptive functions inquiry
focused on adaptive deficits; prisoner had been
able to hire an expert to testify to what the
Supreme Court eventually clarified. U.S. Const.
Amend. 8;

18 U.S.C.A. § 3596(c);

U.S.C.A. §§ 2241,

28

2255(e).

*623 Appeal from the United States District Court for the
Southern District of Indiana, Terre Haute Division. No. 2:19cv-00392-JMS-DLP — Jane Magnus-Stinson, Chief Judge.

Victor J. Abreu, Attorney, Katherine Cleary Thompson, Peter
K. Williams, Attorney, Office of the Federal Community
Defender, Philadelphia, PA, for Petitioner-Appellee.
Paula Offenhauser, Attorney, Brian L. Reitz, Attorney, Office
of the United States Attorney, Houston, TX, Christopher
Jackson Smith, Attorney, Department of Justice, Washington,
DC, for Respondents-Appellants.
Before Kanne, Hamilton, and St. Eve, Circuit Judges.
Opinion
St. Eve, Circuit Judge.
Alfred Bourgeois, a federal prisoner, was sentenced to
death after he brutally abused and murdered his two-yearold daughter. Bourgeois now collaterally attacks his death
sentence on the ground that he is intellectually disabled.
18 U.S.C.

§ 3596(c), and the Supreme Court's decision in
Atkins
v. Virginia, 536 U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d
335 (2002), forbid the execution of intellectually disabled
offenders. But that is not the end of the matter. Bourgeois does
not seek relief under
28 U.S.C. § 2255—the main statute
authorizing postconviction relief for *624 federal prisoners.
Indeed, Bourgeois already has fully litigated an intellectualdisability claim under

§ 2255. Instead, Bourgeois brings a

habeas corpus petition under
28 U.S.C. § 2241. To invoke
that statute, however, Bourgeois must show that his case fits
within a narrow exception known as the “savings clause.” See
28 U.S.C. § 2255(e).

eligibility. As a result, his
§ 2241 petition is procedurally
barred. We vacate the stay with instructions for the district
court to dismiss the petition.

I. Background

Attorneys and Law Firms

Both the Federal Death Penalty Act (FDPA),

§ 2241
In the district court, Bourgeois accompanied his
petition with a motion to stay his execution—which the
district court granted. In doing so, the court found that the
government had waived its argument that Bourgeois could
not channel his FDPA claim through the savings clause. We
reverse that determination and further find that Bourgeois
does not meet the stringent requirements for savings-clause

A. Factual Background
We review the underlying facts only briefly, to provide
context for the procedural issues that govern this appeal.
Bourgeois's daughter, “JG,” was born in October 1999. For
the first two and a half years of her life, JG lived with
her mother and grandmother in Texas. In April 2002, JG's
mother petitioned a local court for a paternity test. The test
determined that Bourgeois was JG's father. JG's mother then
petitioned the court for child support from Bourgeois.
At the time, Bourgeois was a truck driver living in Louisiana
with his wife, Robin, and their two children. In May 2002,
Bourgeois came to Texas for JG's child support hearing. At
the hearing, the court granted JG's mother's request for child
support from Bourgeois. The court also granted Bourgeois's
request for visitation rights with JG for the next seven weeks.
Bourgeois took custody of JG after the hearing.
For the next month—the last of JG's life—Bourgeois tortured
and abused JG. He punched her in the face hard enough to give
her black eyes. He whipped her with an electrical cord and
beat her with a belt. He struck her on the head with a plastic
baseball bat so many times that her head swelled in size. He
threw her against walls. He burned the bottom of her foot
with a cigarette lighter and prevented anyone from treating
her injuries. He also emotionally abused JG. Bourgeois, for
example, “taught” JG how to swim by repeatedly tossing
her into a swimming pool, letting her sink, and then pulling
her out as she choked and gasped for air. Even JG's potty
training became a source of torment for her. Bourgeois made
JG spend her days sitting on her “training potty.” When
Bourgeois brought his family (including JG) along on his
trucking routes, Bourgeois forced JG to sleep on her training

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

PA004

Bourgeois v. Watson, 977 F.3d 620 (2020)

potty. Bourgeois punished JG's “accidents” with beatings.
Remarkably, there was more abuse—including evidence of
sexual abuse—but that is enough to lay the groundwork for
the events that followed.
In late June 2002, Bourgeois drove his family in his truck
to Corpus Christi Naval Air Station, where Bourgeois was
delivering a shipment. JG, as usual, was sitting on her training
potty. When Bourgeois backed up his truck, JG wiggled and
tipped over her potty chair. Enraged, Bourgeois started yelling
at JG and spanking her. He then grabbed her by the shoulders
and slammed the back of her head into the truck's front
windows and dashboard four times. Robin woke up soon
after the attack and noticed that JG was limp and motionless.
After trying unsuccessfully to revive JG through CPR, Robin
told Bourgeois that JG needed emergency *625 medical
attention. Bourgeois replied that he would take her to the
emergency room when he was done unloading the truck.
He added that they should say JG had slipped and fallen
out of the truck. Insistent that JG needed medical attention,
Robin handed her to Bourgeois. Bourgeois took JG outside
and put her on the ground. When Robin found her there, she
again tried CPR while a passerby called 911. At that point,
Bourgeois came running from behind the truck to ask what
had happened.
JG died in the hospital the next day. As planned, Bourgeois
and Robin told authorities that JG had fallen out of the truck.
Their story quickly unraveled when the autopsy report came
back. The medical examiner described the autopsy as one of
the most involved of her career, due to the sheer number and
extent of JG's injuries. There were bruises, human bite marks,
scratch marks, loop marks (consistent with an electrical cord),
and a circular hole on the bottom of one of JG's feet. The
examiner also found deep tissue bruising all over JG's body.
Based on these extensive injuries, the examiner concluded
that JG was a chronically abused or battered child. The
ultimate cause of death, in her determination, was an impact to
the head resulting in a devastating brain injury. The location
of the brain injury was consistent with Bourgeois holding JG
by the shoulders and slamming her head against the windows
and dashboard of the truck cab. Robin and one of Bourgeois's
other daughters later told authorities the truth about JG's death
and the consistent abuse she suffered.
B. Procedural Background
Bourgeois was charged with murder on federal property,
in violation of 18 U.S.C. §§ 7 and

1111. After a two-

week trial in the Southern District of Texas, the jury found
Bourgeois guilty and unanimously recommended a sentence
of death, which the court imposed.
Bourgeois directly appealed to the Fifth Circuit. He
challenged the government's use of aggravating factors at
sentencing, the constitutionality of the FDPA, and the district
court's delegation of supervision over his execution to the
Director of the Bureau of Prisons. The Fifth Circuit affirmed,
United States v.
commenting “[t]his is not a close case.”
Bourgeois, 423 F.3d 501, 512 (5th Cir. 2005). The Supreme
Court denied certiorari. Bourgeois v. United States, 547 U.S.
1132, 126 S.Ct. 2020, 164 L.Ed.2d 786 (2006).
Bourgeois then filed a motion for postconviction relief under
28 U.S.C. § 2255. The motion came before the same judge
who oversaw Bourgeois's trial. Bourgeois raised fourteen
grounds for relief, only one of which concerns us here:
Bourgeois argued that he was intellectually disabled 1 and
thus ineligible for the death penalty under the FDPA and
the Supreme Court's constitutional decision in
Atkins.
The district court held a week-long evidentiary hearing that
often extended beyond normal work hours. The court heard
testimony from expert and lay witnesses who testified about
Bourgeois's intellectual and psychological abilities.
The court denied Bourgeois's § 2255 motion in a thorough
225-page opinion that devoted 53 pages to analyzing
Bourgeois's intellectual-disability claim. United States v.
Bourgeois, No. C.A. C–07–223, 2011 WL 1930684 (S.D. Tex.
May 19, 2011). The court began by noting that Bourgeois
had not received a diagnosis of intellectual disability until
after the court had sentenced *626 him to death. Id. at *22.
“Up to that point, Bourgeois had lived a life which, in broad
outlines, did not manifest gross intellectual deficiencies.” Id.
The court then analyzed Bourgeois's intellectual-disability
claim using the “uniformly accepted ... tripartite formulation
for deciding whether an inmate qualifies for
Atkins
protection.” Id. at *24. The “three indispensable criteria”
were: “(1) significantly subaverage intellectual functioning;
(2) related significant limitations in adaptive skill areas;
and (3) manifestation of those limitations before age 18.”
Id. Following
Atkins’s guidance, the court drew this
three-part test from the 11th edition of the American
Association on Intellectual and Developmental Disabilities's
(AAIDD's) manual entitled Intellectual Disability: Definition,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

PA005

Bourgeois v. Watson, 977 F.3d 620 (2020)

Classification, and Systems of Supports (AAIDD-11), and the
4th edition of the American Psychiatric Association's (APA's)
Diagnostic and Statistical Manual of Mental Disorders
(DSM-4). Id. at *23–24 & n.27.
On the first prong (significantly subaverage intellectual
functioning), Bourgeois had tested within the range for
intellectual disability in IQ tests following his death
sentence, but the court found that his test scores did not
accurately measure his intellectual abilities. Id. at *25–
31. Instead, based on “highly credible” testimony from the
government's expert and the court's independent review of
Bourgeois's psychological evaluations, the court determined
that Bourgeois had not put forth his best efforts in testing.
Id. at *27–29. In addition, “a fuller view” of Bourgeois's life
did “not correspond to a finding of significant intellectual
limitations.” Id. at *31. The court stressed that Bourgeois
had “graduated from high school, worked for years as an
over-land trucker, bought a house, managed his own finances,
wrote intricate and detailed letters, communicated without
difficulty, participated actively in his own defense, and
otherwise carried himself without any sign of intellectual
impairment.” Id. at *29 (footnotes omitted). The court
credited the government's expert's testimony that Bourgeois's
competence as a truck driver was “totally inconsistent with
mental retardation.” Id.
On the second prong (significant limitations in
adaptive skill areas), the court began by distinguishing
between the “psychological” and “legal” approaches to
adaptive functioning: whereas the “psychological” approach
considered only “deficits,” the law “compare[d] the
deficiencies to positive life skills, presuming that adaptive
successes blunt the global effect of reported insufficiencies.”
Id. at *32–33. With that in mind, the court turned to
the evidence. The parties had presented conflicting expert
and lay testimony about Bourgeois's adaptive abilities. The
experts had reached “diametrically opposed conclusions
about Bourgeois’ abilities.” Id. at *33. The lay testimony
also pointed in different directions. For example, people who
knew Bourgeois as a youth testified that he had difficulty
learning new activities and grasping new concepts. Id. at
*37–39. Bourgeois's trucking colleagues, on the other hand,
testified that he was an above-average truck driver who ably
discharged the various duties of the job. Id. at *39. One
even described him as an “overachiever.” Id. In the end,
the court found that “[a] broad review of the evidence does
not make Bourgeois’ claim of adaptive deficits believable.”
Id. at *44. Although Bourgeois “may have had difficulties

when younger,” the record did “not conclusively link those
problems to mental retardation rather than a culturally
deprived upbringing, poverty, or abuse.” Id. And “[n]othing
suggested that deficiencies endured into maturity.” Id. To the
contrary, “Bourgeois operated with remarkable competency
in the free world for one with low IQ scores.” Id.
*627 The court's conclusion on the third prong
(manifestation of intellectual limitations before 18) followed
directly from its conclusions on the first two prongs:
“The evidence before the Court failed to point to
any pronounced intellectual impairment before Bourgeois’
eighteenth birthday. Bourgeois has not shown that he
is now, was at the time of the crime, or was during
the developmental period, mentally retarded.” Id. Because
Atkins
Bourgeois “failed to meet all three prongs of the
analysis,” his intellectual-disability claim failed. Id. After
rejecting Bourgeois's remaining claims, the court denied his
§ 2255 motion and denied a certificate of appealability.
Id. at *111. Turning to the Fifth Circuit, Bourgeois requested
a certificate of appealability to appeal some aspects of the
district court's ruling, but he did not challenge the denial of his
intellectual-disability claim. See United States v. Bourgeois,
537 F. App'x 604 (5th Cir. 2013) (per curiam) (denying
Bourgeois's request for a certificate of appealability).
About four years later, Bourgeois sought leave from the Fifth
Circuit to file a successive
§ 2255 motion. See
28
U.S.C. § 2255(h). In his new motion, Bourgeois again raised
an intellectual-disability claim. Bourgeois said he deserved
a second chance to present his claim because the Supreme
Court's decision in

Moore v. Texas, ––– U.S. ––––, 137

S. Ct. 1039, 197 L.Ed.2d 416 (2017) ( Moore I) had
breathed new life into his claim. The Fifth Circuit held that
Bourgeois's successive motion was barred by “§ 2244(b)
(1)’s strict relitigation bar,” which applied to federal prisoners
through
28 U.S.C. § 2255(h). In re Bourgeois, 902 F.3d
446, 447 (5th Cir. 2018).
This brings us to Bourgeois's present petition. Bourgeois
currently resides at the federal penitentiary in Terre Haute,
Indiana. In August 2019, a month after he received an
execution date, 2 Bourgeois filed a habeas corpus petition
under
28 U.S.C. § 2241 in the Southern District of
Indiana. He also moved to stay his execution. Once again,
Bourgeois argued that he was intellectually disabled, and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

PA006

Bourgeois v. Watson, 977 F.3d 620 (2020)

Atkins and the FDPA.
that his death sentence ran afoul of
Relying in part on the FDPA's ban on executing a person
who “is” (present tense) intellectually disabled,

18 U.S.C.

§ 3596(c), he argued that Atkins and the FDPA forbid both
the “imposition” and the “execution” of his death sentence.
Procedurally, Bourgeois tried to channel his petition through
§ 2255(e)’s “savings clause,” 3 which permits a federal
prisoner who has already moved for relief under

§ 2255

to file a habeas corpus petition under
§ 2241 if
§
2255 was “inadequate or ineffective to test the legality of his
detention.”

28 U.S.C. § 2255(e). Bourgeois argued *628

that his
§ 2255 motion was “inadequate or ineffective to
test the legality” of his death sentence because the judge in
the Southern District of Texas who denied his motion relied
on diagnostic standards that the Supreme Court later rejected
in
Moore I and its follow-on decision in
Moore v.
Texas, ––– U.S. ––––, 139 S. Ct. 666, 203 L.Ed.2d 1 (2019)
(

Moore II).

The district judge ordered the government to respond to
Bourgeois's petition. In its lengthy response, the government
argued that Bourgeois had fully litigated his intellectualdisability claim in the Southern District of Texas, and that
the Supreme Court's continued development of the law in
Moore I and
Moore II did not justify savings-clause
relief. In any event, the government argued, the Southern
District of Texas's analysis was consistent with

Moore

I and
Moore II. Throughout its brief, the government
referred to Bourgeois's intellectual-disability claim as his
“ Atkins claim.” It did not mention Bourgeois's FDPA
claim in its analysis. In his reply, Bourgeois argued that the
government “completely fail[ed] to challenge [his] claim that
he is entitled to
§ 2241 review because he challenges the
execution of his sentence, as well as its imposition.”
The district court granted Bourgeois's motion for a stay.
Bourgeois v. Warden, No. 2:19-cv-00392-JMS-DLP, 2020
WL 1154575, at *1 (S.D. Ind. Mar. 10, 2020). Without
addressing his

Atkins claim, the court found that Bourgeois

was likely to succeed on his FDPA claim.
Id. Before
reaching the merits, the court found that the government had

waived any argument that Bourgeois's FDPA claim could not
proceed under

§ 2241 by not separately addressing his

FDPA claim in its briefing.
Id. at *3. The court faulted the
government for “fail[ing] to even mention” the FDPA claim,
“let alone explain why it cannot be brought in a

§ 2241.”

Id. That failure was “inexplicable and inexcusable.” Id.
The court stressed that Bourgeois's reply had “highlighted
[the government's] failure to address the FDPA claim,” yet
the government had “failed to seek leave to file a surreply
addressing that claim.”
Id. That, in turn, led the court to
infer that the government's “failure to address the claim was
more intentional than inadvertent,” thus establishing waiver
(and not merely forfeiture).
Id. Turning to the merits of
Bourgeois's FDPA claim, the court found that he had made a
strong showing of intellectual disability.
Id. at *4–5. The
court granted Bourgeois's motion and stayed his execution.
Id. at *6.
After the court entered the stay, the government sought
leave to file a surreply. The government emphasized that
Bourgeois himself had referred to his

Atkins and FDPA

claims collectively as his “ Atkins claim” throughout his
petition. Because Bourgeois had relied on the same arguments
for both claims—which are governed by identical standards
—the government had similarly not “parse[d] out” a separate
FDPA claim in its response to the petition. The court denied
the government's motion, finding that Bourgeois had, in fact,
presented separate statutory and constitutional claims. The
court reiterated that Bourgeois's reply brief had flagged the
government's failure to address his FDPA claim, yet the
government had not sought leave to file a surreply until after
the court ruled. The government now appeals the district
court's stay order.

II. Discussion
[1] [2] [3] We review the district court's decision to enter
a stay for abuse of discretion. Venckiene v. United States,
929 F.3d 843, 853 (7th Cir. 2019). We review the underlying
factual findings for clear error and legal conclusions de novo.
Id.; *629 Mays v. Dart, ––– F.3d ––––, ––––, No. 20-1792,
2020 WL 5361651, at *5 (7th Cir. Sept. 8, 2020). “[A] factual
or legal error may alone be sufficient to establish that the
court abused its discretion in making its final determination.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

PA007

Bourgeois v. Watson, 977 F.3d 620 (2020)

of plain error review. Id. We took the occasion to “clarify
that ‘our ability to review for plain error in civil cases is
in original) (quoting Lawson Prod., Inc. v. Avnet, Inc., 782
severely constricted,’ as ‘a civil litigant should be bound by
F.2d 1429, 1437 (7th Cir. 1986)).
his counsel's actions.’ ” Id. (quoting SEC v. Yang, 795 F.3d
674, 679 (7th Cir. 2015)). “Plain error review is available
[4]
[5] The four stay factors are: “(1) whether the stay
in civil cases only in the rare situation where a party can
applicant has made a strong showing that he is likely to
demonstrate that: ‘(1) exceptional circumstances exist; (2)
succeed on the merits; (2) whether the applicant will be
substantial rights are affected; and (3) a miscarriage of justice
irreparably injured absent a stay; (3) whether issuance of the
will occur if plain error review is not applied.’ ” Id. (quoting
stay will substantially injure the other parties interested in the
Thorncreek Apartments III, LLC v. Mick, 886 F.3d 626, 636
proceeding; and (4) where the public interest lies.” Nken v.
(7th Cir. 2018)). “The determination of what circumstances fit
Holder, 556 U.S. 418, 434, 129 S.Ct. 1749, 173 L.Ed.2d 550
these criteria is solely within *630 our discretion.” Id. These
(2009). Stay applicants “must satisfy all of the requirements
standards govern here because, although habeas proceedings
for a stay, including a showing of a significant possibility of
arise from criminal cases, they are civil in nature.
Mays, ––– F.3d at ––––, 2020 WL 5361651, at *5 (alteration

success on the merits.”
Hill v. McDonough, 547 U.S. 573,
584, 126 S.Ct. 2096, 165 L.Ed.2d 44 (2006).
[6] The district court found that Bourgeois had met all four
stay factors, but we only reach the first one: likelihood of
success on the merits. The district court's determination that
Bourgeois was likely to succeed on the merits of his FDPA
claim rested on a preliminary finding that the government
had waived any argument that Bourgeois's FDPA claim was

[13] We start with waiver. After reviewing the record
below, we find that there was no basis to conclude that the
government had waived its argument that Bourgeois's FDPA
claim could not pass through the savings clause. To begin,
Bourgeois himself did not clearly parse out separate Atkins
and FDPA claims. Rather, he presented one intellectualdisability claim arising under two sources of law that—as
both parties agree—provide substantively identical protection

not cognizable under
§ 2255(e)’s savings clause. That is
where we part ways with the district court. We find that the
government did not waive, or even forfeit, this argument.
And even if it had forfeited the argument, we would excuse
that forfeiture on these facts. We proceed to consider whether

provide different procedural pathways to relief);

Bourgeois's Atkins and FDPA claims are cognizable under
the savings clause. They are not. With no procedural home for
his claims, Bourgeois's likelihood of success on the merits is
nonexistent. Thus, we vacate the stay.

1150 (Easterbrook, J., dissenting) (“ Atkins and
Hall do
not alter the [FDPA's] substantive standard.”). Bourgeois's
first argument heading was: “Mr. Bourgeois Is Intellectually
Disabled and Is Ineligible for the Death Penalty Under the

A. Waiver and Forfeiture 4
[7] [8] [9] [10] [11] [12] We recently discussed
distinction between waiver and forfeiture in civil cases in
Henry v. Hulett, 969 F.3d 769 (7th Cir. 2020) (en banc).
We observed that, “[w]hereas waiver is the ‘intentional
relinquishment or abandonment of a known right,’ forfeiture
is the mere failure to raise a timely argument, due to either
inadvertence, neglect, or oversight.” Id. at 786 (quoting
United States v. Olano, 507 U.S. 725, 733, 113 S.Ct.
1770, 123 L.Ed.2d 508 (1993)). “In the criminal context,”
we noted, “the distinction between waiver and forfeiture is
critical: while waiver precludes review, forfeiture permits a
court to correct an error under a plain error standard.” Id.
In the civil context, we had been less clear about the role

and are governed by the same standard. See
Webster v.
Daniels, 784 F.3d 1123, 1139 n.6 (7th Cir. 2015) (en banc)
(

Webster I) (noting that

Atkins and the FDPA may
id. at

Federal Death Penalty Act and
Atkins v. Virginia and Its
Progeny.” Bourgeois did not include separate sub-headings
or arguments for his
Atkins and FDPA claims. Instead, he
the
made one set of arguments for both claims, and accompanied
the arguments with citations to both
Atkins and the FDPA.
At times, Bourgeois even referred to both claims collectively
as his “

Atkins claim.” Given that Bourgeois himself did

not treat his
Atkins and FDPA claims as distinct, we
do not believe that the government intentionally chose to
disaggregate the claims and respond to only one of them.
Nor are we aware of any conceivable strategic reason why
the government would intentionally respond to Bourgeois's
Atkins claim while forgoing its right to challenge his FDPA

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

PA008

Bourgeois v. Watson, 977 F.3d 620 (2020)

claim. Why respond to the Atkins claim at all, if Bourgeois
could still proceed with his substantively identical FDPA
claim? Neither Bourgeois nor the court below answer this
question. In these circumstances, we do not consider the
government's failure to respond to be “a deliberate decision
not to present a ground for relief that might be available in the
law.”
2005).

United States v. Cook, 406 F.3d 485, 487 (7th Cir.

The sole reason that the court below gave for its finding of
intentional waiver was the government's failure to seek leave
to file a surreply after Bourgeois's reply brief “highlighted [the
government's] failure to address the FDPA claim.”
2020
WL 1154575, at *3. We respectfully disagree with that
reading of Bourgeois's reply brief. On pages 42–43 of his
45-page reply brief (the portion cited by the district court),
Bourgeois argued that the government “completely fails to
challenge Mr. Bourgeois's claim that he is also entitled to
review under
§ 2241 because his challenge goes not
only to the imposition of his sentence, but also to the
execution thereof.” He went on to argue (as he did in his
opening petition) that both Atkins and the FDPA forbid the
execution of a person who is presently intellectually disabled.
True, he relied on the FDPA's statutory language to make
that argument. But nowhere did he say that the government
failed to respond to—let alone waived its response to—the
cognizability of his FDPA claim. The government's failure to
seek leave to file a surreply to respond to this argument does
not support a finding of waiver.
[14] That is especially true because “surreply briefs are rare
and discouraged in most districts.” Ennin v. CNH Indus.
Am., LLC, 878 F.3d 590, 595 (7th Cir. 2017). Indeed, while
the Southern District of Indiana's local rules allow a party
opposing *631 summary judgment to file a surreply as a
matter of right in certain limited circumstances, they are
otherwise silent on surreplies. S.D. Ind. L.R. 56–1(d). We
have previously held that, when local rules do not permit
filing a surreply as of right, a party does not waive an
argument for purposes of appeal by failing to seek leave
from the district court to raise the argument in a surreply.
Hardrick v. City of Bolingbrook, 522 F.3d 758, 763 n.1 (7th
Cir. 2008); Ennin, 878 F.3d at 596. Otherwise, “arguments
before the district court would proceed ad infinitum making
litigation unruly and cumbersome.”
Hardrick, 522 F.3d at
763 n.1. For similar reasons, we will not infer waiver here

from the government's failure to seek leave to file a surreply
—with no authorization from the local rules—to respond
to an argument that Bourgeois never distinctly presented.
The district court's factual determination that the government
intentionally waived its argument was clearly erroneous and
amounts to an abuse of discretion. See Mays, ––– F.3d at ––––,
2020 WL 5361651, at *5.
We turn next to forfeiture. On appeal, the government
insists that its failure to respond to Bourgeois's FDPA claim
was, at most, forfeiture. Although the district court did
not address forfeiture, its finding of intentional waiver was
incompatible with forfeiture. After reviewing the issue for
ourselves, we are convinced that the government's failure to
respond separately to Bourgeois's FDPA claim—which was
Atkins claim—did
governed by the same standard as his
not result in forfeiture. Forfeiture results from “inadvertence,
neglect, or oversight.” Henry, 969 F.3d at 786. We do not
believe that the government's silence on Bourgeois's FDPA
claim was “oversight” when Bourgeois himself, through his
undifferentiated presentation of the claims, was just as much
to blame for that silence.
[15] In the end, though, our conclusion on forfeiture does
not make a difference because, even if the government had
forfeited the issue, we would forgive it on these unique
facts. As we have said, we have discretion to forgive a
party's forfeiture in exceptional circumstances. Id. These
circumstances include when a forfeited ground is “founded
on concerns broader than those of the parties.”
United
States v. Ford, 683 F.3d 761, 768 (7th Cir. 2012) (quoting
Wood v. Milyard, 566 U.S. 463, 471, 132 S.Ct. 1826,
182 L.Ed.2d 733 (2012)). In
Ford, for instance, we
forgave the government's failure to argue harmless error
because reversing on a harmless error would harm not
just the forfeiting party, but also “innocent third parties,
in particular other users of the court system, whose access
to that system is impaired by additional litigation.”

Id.

at 769. Although
Ford was a criminal case, we relied
there on two Supreme Court decisions that arose in the civil
habeas context. The first was
Granberry v. Greer, 481
U.S. 129, 107 S.Ct. 1671, 95 L.Ed.2d 119 (1987), which held
that a federal appellate court has discretion in “exceptional
cases” to consider a state's forfeited exhaustion argument
because of the significant comity and federalism interests
implicated by the exhaustion requirement.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Id. at 134,

9

PA009

Bourgeois v. Watson, 977 F.3d 620 (2020)

Wood, 566 U.S. 463,
107 S.Ct. 1671. The second was
132 S.Ct. 1826, which held that federal appellate courts
have discretion to consider forfeited statute-of-limitations
defenses, given “the institutional interests served by AEDPA's
statute of limitations,” such as conserving judicial resources
and protecting the accuracy and finality of state-court
judgments.

Id. at 472–73, 132 S.Ct. 1826.

[16] Similar considerations would compel us to look past
any government forfeiture in this case. We have already
explained why the government's failure to *632 separately
address Bourgeois's FDPA claim was excusable as a practical
matter. But there are also broader interests at stake. As we
recently observed in Purkey v. United States, 964 F.3d 603
(7th Cir. 2020), “[f]inality” is a “central goal[ ] of the judicial
system.” Id. at 606. The importance of finality is especially
pronounced where, as here, postconviction proceedings have
tied up a criminal conviction for more than a dozen years.
Beyond finality, there is judicial efficiency. “The idea of
an entitlement to one untainted opportunity to make one's
case is deeply embedded in our law.” Id. The savings
clause embodies that principle by generally prohibiting repeat
claims in federal postconviction proceedings. See id.; see
also
United States v. Giovannetti, 928 F.2d 225, 226
(7th Cir. 1991) (per curiam) (observing that courts may
excuse forfeiture “for the sake of protecting third-party
interests including such systemic interests as the avoidance of
unnecessary court delay”). Taken together, these significant
interests convince us that, even if the government had
forfeited its FDPA argument, that forfeiture would not prevent
us from considering the savings-clause issue.
B. Cognizability Under the Savings Clause
That brings us to the main issue in this case: whether
Bourgeois's case “fits within the narrow confines of the safety
valve.” Purkey, 964 F.3d at 611. Given its finding on waiver,
the district court did not address this question. For that reason,
Bourgeois, anticipating a loss on the waiver issue, asks us
to remand the issue so that the district court can consider
it in the first instance. That is indeed the normal course.
Amcast Indus. Corp. v. Detrex Corp., 2 F.3d 746, 749
(7th Cir. 1993). But that is not the best course here. We are
dealing with a pure issue of law that both sides have fully
briefed. Remanding it to the district court would likely result
in a second appeal on the issue, and we would be right back
where we started. “[T]he district judge's view, while it would
no doubt be interesting, could have no effect on our review,

Id. at 750. Given
which is plenary on matters of law.”
this posture, the extensive briefing on the issue, and the long
pendency of this case, resolving the issue now is the better
use of judicial resources.

1. Savings Clause and

§ 2241

Section 2255 permits a prisoner serving a federal sentence
to “move the court which imposed the sentence to vacate,
set aside or correct the sentence.”

28 U.S.C. § 2255(a).

“In the great majority of cases,”
§ 2255 is the “exclusive
postconviction remedy for a federal prisoner.” Purkey, 964
F.3d at 611.

Section 2255 has a strict one-year statute of

limitations.
28 U.S.C. § 2255(f). In addition, the statute
ordinarily limits prisoners to just one shot at relief. As we
recognized in Purkey, though, there are two exceptions to
that rule. Id. First,
§ 2255(h) authorizes a federal court
of appeals to certify a “second or successive motion” if it
contains “newly discovered evidence” proving innocence,
or if it identifies “a new rule of constitutional law, made
retroactive to cases on collateral review by the Supreme
Court.”
28 U.S.C. § 2255(h). Bourgeois pursued that
option to no avail in the Fifth Circuit. In re Bourgeois, 902
F.3d at 447. The second exception is
§ 2255(e), better
known as “the savings clause.” That subsection provides that
a habeas corpus petition “shall not be entertained” if the
petitioner “has failed to apply for relief, by motion, to the
court which sentenced him, or that such court has denied him
relief, unless it also appears that the remedy by motion is
inadequate or ineffective to test the legality of his detention.”
28 U.S.C. § 2255(e) *633 (emphasis added). A prisoner
who qualifies for this “narrow pathway” to relief may file a
petition under 28 U.S.C. § 2241, the general habeas corpus
statute. Purkey, 964 F.3d at 611.
We recently examined the scope of the savings clause in
two cases that weigh heavily on Bourgeois's appeal. The first
is Purkey, which we have already referenced. In that case,
Wesley Purkey filed a § 2241 petition claiming ineffective
assistance of counsel. Id. at 615. Purkey had previously raised
a claim of ineffective assistance of counsel in his

§ 2255

motion, but in his
§ 2241 petition he identified three new
grounds of ineffective assistance. Id. He blamed his failure

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

PA010

Bourgeois v. Watson, 977 F.3d 620 (2020)

to raise those grounds earlier on the ineffectiveness of his
§ 2255 counsel. Id. Invoking the savings clause, Purkey
argued “that
section 2255 is structurally inadequate to test
the legality of a conviction and sentence any time a defendant
receives ineffective assistance of counsel in his one permitted
motion.” Id. at 614.
[17] We rejected that broad argument and explained that
“the words ‘inadequate or ineffective,’ taken in context, must
mean something more than unsuccessful.” Id. at 615. Instead,
“there must be a compelling showing that, as a practical
matter, it would be impossible to use
section 2255 to cure
a fundamental problem. It is not enough that proper use of the
statute results in denial of relief.” Id.
We found that Purkey was missing that “something more.”
Id. at 615–17. We did not deny that Purkey had raised a
significant question as to the effectiveness of his trial counsel.
Id. at 615. “But that [was] not the proper question before us.”
Id. It was, instead, “whether, having raised in his
section
2255 motion 17 specific ways in which his trial counsel
were ineffective, Purkey is now entitled to add additional
allegations ... through
section 2241.” Id. He was not. We
stressed that, “[a]t the time Purkey filed his motion under
section 2255, nothing formally prevented him from raising
each of the three errors he now seeks to raise in his petition
under 2241.” Id. Even if Purkey's counsel were not up to
par, we were “left with the fundamental problem” that “the
mechanisms of
section 2255 gave him an opportunity to
complain about ineffective assistance of trial counsel, and
he took advantage of that opportunity. There was nothing
structurally inadequate or ineffective about
section 2255
as a vehicle to make those arguments.” Id. at 616–17.
Our second recent decision on the savings clause is Lee
v. Watson, 964 F.3d 663 (7th Cir. 2020). Like Purkey,
Daniel Lewis Lee relied on the savings clause to raise a
claim of ineffective assistance of counsel that his
§ 2255
counsel had missed. Id. at 667. Applying Purkey, we rejected
that use of the savings clause. Id. We reiterated Purkey’s
“unambiguous[ ]” holding that “a
§ 2241 petition may
not proceed under the Savings Clause absent ‘a compelling
showing’ that it was ‘impossible’ to use
the defect identified in the

§ 2255 to cure

(quoting Purkey, 964 F.3d at 615). Because Lee's case was
“indistinguishable from Purkey,” the savings clause did not
apply. Id. at 667.
2. The Law Governing Intellectual-Disability Claims
With Purkey and Lee in mind, we turn to Bourgeois's pitch
for savings-clause relief. At a basic level, Bourgeois says his
intellectual-disability claim qualifies for savings-clause relief
because no court has ever reviewed that claim in accordance
with clinical diagnostic standards. He acknowledges that he
raised an intellectual-disability claim in his § 2255 motion,
but he faults the judge in the Southern District of Texas
who rejected that claim for applying *634 “non-clinical,
unscientific standards” that the Supreme Court later rejected
in
Moore I and
Moore II. To better make sense of
Bourgeois's argument, we briefly review the underlying legal
framework.
The FDPA, which Congress passed in 1994, provides: “A
sentence of death shall not be carried out upon a person
who is mentally retarded.”
18 U.S.C. § 3596(c). As we
have said, the parties agree that the FDPA provides the same
substantive protection as
Atkins and its progeny. Because
Bourgeois's claims are substantively identical, we refer to
them collectively as his “intellectual-disability claim.” Our
analysis applies equally to both claims.
In
Atkins, the Supreme Court held that the Eighth
Amendment's ban on cruel and unusual punishments forbids
the execution of intellectually disabled offenders.
536
U.S. at 321, 122 S.Ct. 2242. Importantly, the Supreme
Court signaled that the law relies on “clinical” definitions
of intellectual disability.
Id. at 318, 122 S.Ct. 2242.
The Supreme Court referenced two “similar” definitions
of intellectual disability (both of which we have already
mentioned). First, it cited an earlier version of AAIDD-11.
Id. at 308, 122 S.Ct. 2242 n.3. Second, it cited DSM-4.
Id. It summarized both definitions as “requir[ing] not
only subaverage intellectual functioning, but also significant
limitations in adaptive skills such as communication, selfcare, and self-direction that became manifest before age 18.”
Id. at 318, 122 S.Ct. 2242.

§ 2241 petition.” Id. at 666

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

PA011

Bourgeois v. Watson, 977 F.3d 620 (2020)

Hall v. Florida, 572 U.S. 701, 134
Twelve years later, in
S.Ct. 1986, 188 L.Ed.2d 1007 (2014), the Supreme Court
reiterated that courts “are informed by the work of medical
experts in determining intellectual disability.”

Id. at 710,

134 S.Ct. 1986. The Court cited both Atkins and the newly
available fifth edition of the APA's Diagnostic and Statistical
Manual of Mental Disorders (DSM-5) for its slightly
refined definition of intellectual disability: “[T]he medical
community defines intellectual disability according to three
criteria: significantly subaverage intellectual functioning,
deficits in adaptive functioning (the inability to learn basic
skills and adjust behavior to changing circumstances), and
onset of these deficits during the developmental period.”
Id. The Court held that Florida's strict requirement of an
IQ score of 70 or less for a finding of intellectual disability
was incompatible with that definition.
1986.

Id. at 723, 134 S.Ct.

Id. In short, by relying
factor for intellectual disability.
on “the wholly nonclinical Briseno factors, the CCA failed
adequately to inform itself of the ‘medical community's
diagnostic framework.’ ” Id. at 1053 (quoting
U.S. at 721, 134 S.Ct. 1986).

Hall, 572

The case came back to the Supreme Court in

Moore II.

On remand following Moore I, the CCA had revisited, and
again rejected, Moore's claim of intellectual disability. In a
per curiam opinion, the Supreme Court reversed the CCA's
decision on remand, finding that the CCA, while purporting to
apply the latest medical diagnostic standards, had, “with small
variations,” simply “repeat[ed] the analysis we previously
found wanting.”
139 S. Ct. at 670. After reviewing the
trial record on its own, the Court concluded that Moore was
intellectually disabled.

A few years later, in
Moore I, the Supreme Court
considered whether Texas was adhering to the medical
community's definition of intellectual disability. The Texas
Court of Criminal Appeals (CCA) had reversed a lower
court for applying the medical community's current definition
of intellectual disability instead of the intellectual-disability
factors that the CCA had adopted in a previous case (the
“ Briseno factors”). 137 S. Ct. at 1044. The Supreme
Court vacated the CCA's decision, finding that the Briseno
factors were “untied to any acknowledged source” and “[n]ot
aligned with the medical community's information.”
Id.
The Court highlighted a few specific ways in which the
CCA had departed from the required framework. First,
the CCA's conclusion that Moore's IQ score of 74 meant
that he was not intellectually disabled was “irreconcilable
with
Hall.”
Id. at 1049. Second, “[i]n concluding
that Moore did not suffer significant adaptive deficits, the
CCA overemphasized Moore's perceived adaptive strengths.”
Id. at 1050. Citing DSM-5 and AAIDD-11, the Court
stressed that “the medical community focuses the adaptivefunctioning inquiry on adaptive deficits.”
Id. Third, the
CCA had sought to blame Moore's adaptive deficits on
other factors, such as his traumatic childhood experiences
and personality disorder, when neither *635 of those
factors was inconsistent with a finding that Moore was
also suffering from an intellectual disability.

Indeed, Moore's traumatic childhood experiences were a risk

Id. at 672.

3. Bourgeois's Eligibility for Savings-Clause Relief
With that context, we consider whether Bourgeois is correct
that
Moore I and
Moore II somehow qualify him for
the “narrow pathway” of review under the savings clause.
Purkey, 964 F.3d at 611. According to Bourgeois, the judge
that denied his

§ 2255 motion made essentially the same

errors that the CCA made in

Moore I and

Moore II.

Bourgeois says the
§ 2255 court relied on “then-binding
Fifth Circuit precedent” to “reject[ ] diagnostic standards in
evaluating Bourgeois's
§ 2255 claim.” On the intellectualfunctioning prong, Bourgeois faults the court for not finding
that his IQ scores (70 and 75) automatically established
significantly subaverage intellectual functioning. Instead, he
says the court relied on “unscientific, erroneous stereotypes”
to conclude that his IQ score did not accurately represent
his level of intellectual functioning. On the adaptive-deficits
prong, Bourgeois criticizes the court for dismissing the
“psychological” approach to adaptive functioning in favor
of a “legal” approach that weighed adaptive deficits against
adaptive strengths. He contends that, like the CCA in
Moore I, the
§ 2255 court erroneously relied on
unscientific stereotypes to evaluate his intellectual disability
and improperly blamed his adaptive deficits on certain
“dysfunctional” aspects of his background.

Id. at 1051.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

PA012

Bourgeois v. Watson, 977 F.3d 620 (2020)

Initially, we note our disagreement with Bourgeois's
contention that the Texas district court “eschewed medical
standards” in denying his

§ 2255 motion. After a week-

long hearing, the court thoroughly analyzed Bourgeois's
§
2255 motion in a 225-page written order that dedicated more
than 50 pages to analyzing his intellectual-disability claim
alone. Bourgeois, 2011 WL 1930684. Far from rejecting
medical standards, as the CCA had done in
Moore I, the
district court identified, and applied, the most recent medical
guidance on intellectual disabilities. Id. at *23–24. The
district court's references to its “legal” approach to adaptive
functioning do not convince us that its treatment of adaptive
functioning was inconsistent with
Moore I because the
court found Bourgeois's alleged adaptive deficiencies to be
slight and uncorroborated, without regard to his adaptive
strengths. See, e.g., id. at *41 (finding that “[t]he evidentiary
hearing testimony ... failed to verify or support most of” of the
academic deficiencies that Bourgeois's expert relied on); id.
at *44 (concluding, after reviewing all the evidence presented
on Bourgeois's adaptive deficits, merely that Bourgeois “may
have had difficulties when younger”).
[18] Contrary to what Bourgeois suggests, moreover, the
court did not view *636 adaptive impairments as a zerosum game, attributable to either one cause (e.g., childhood
abuse) or another (e.g., intellectual disability), but not both.
Rather, the court found that the record did not “conclusively
link” Bourgeois's childhood problems “to mental retardation
rather than a culturally deprived upbringing, poverty, or
abuse.” Id. In other words, there was a lack of evidence
about what caused Bourgeois's alleged impairments. Unlike
the CCA in the Moore cases, the § 2255 court did not view
Bourgeois's other childhood problems as evidence that he
was not intellectually disabled. Lastly, nowhere in

Moore

I or
Moore II did the Supreme Court say that a court
must accept an IQ score at face value, especially when a
psychological expert credibly testifies that the subject did not
put forth his best effort on the test. For these reasons, we are
not convinced that the district court's analysis ran afoul of
clinical diagnostic standards.
In the end, though, it is not for us to decide whether the
§
2255 court got it right or wrong. That point seems lost on
Bourgeois, who goes on at length about why, in his view, the
§ 2255 court was wrong. “[T]hat is not the proper question

before us.” Purkey, 964 F.3d at 615. The savings clause is
not simply another avenue for appeal. Indeed, Bourgeois had
the chance to appeal the court's denial of his intellectualdisability claim, yet he chose not to do so. At this stage of
the proceedings, our only role is to determine whether there
was something “structurally inadequate or ineffective about
section 2255 as a vehicle” for Bourgeois. Id. at 616–17.
There plainly was not.
Atkins was the watershed case on intellectual disability.
Before Atkins, the Supreme Court had not decided whether
the Constitution prevents the execution of intellectually
disabled offenders.
Atkins held that it does, and further
signaled that the law borrows its definition of intellectual
disability from the medical community.
536 U.S. at 308
n.3, 318, 122 S.Ct. 2242. The Supreme Court carried forward
that core insight from

Atkins in

Hall,

Moore I, and

Moore II, and further elaborated on the measurements of
intellectual function and the evaluation of adaptive deficits.
The importance of applying medical standards, however, has
been evident since
court in this case.
[19] Critically,

Atkins and was evident to the

§ 2255

Atkins was on the books when Bourgeois

filed his
§ 2255 motion in 2007. Bourgeois says he never
had the chance to litigate his intellectual-disability claim
under clinical diagnostic standards. But that is precisely what
Bourgeois did in his
§ 2255 motion. The
§ 2255 court
set forth, and applied, the same three-part test for intellectual
disability that now prevails. Bourgeois, 2011 WL 1930684, at
*23–24; see
Webster v. Watson, ––– F.3d ––––, ––––, No.
19-2683, 2020 WL 5638691, at *9 (7th Cir. Sept. 22, 2020)
(

Webster II) (relying on the same three-part test). It drew

that test from

Atkins, DSM-4, and AAIDD-11. Bourgeois,

2011 WL 1930684, at *23–24; see
Webster II, ––– F.3d
at ––––, 2020 WL 5638691, at *14 (relying on DSM-5 and
AAIDD-11). True, some aspects of the court's analysis would
have looked different if the Supreme Court had decided
Moore I by then. But the savings clause does not apply
every time the Supreme Court clarifies the law that governed
a prisoner's § 2255 motion, or, where intellectual disability
is at issue, every time the medical community updates its

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

PA013

Bourgeois v. Watson, 977 F.3d 620 (2020)

diagnostic standards. Were that the case, we would truly be
facing “a never-ending series of reviews and re-reviews.”
Purkey, 964 F.3d at 615.
As in Purkey, “nothing formally prevented [Bourgeois] from
raising each of the ... errors he now seeks to raise in his
§
*637 petition under 2241.” Id. Indeed, Bourgeois's
2255 motion did raise the errors that he now seeks to correct.
Bourgeois makes that point inadvertently when criticizing the
§ 2255 court's analysis. He argues that the court's “refusal
to follow diagnostic criteria” led it to credit the government's
expert, who weighed adaptive deficiencies against adaptive
strengths, over his own expert, who, “consistent with
diagnostic criteria ... explained that the[ ] strengths did not
offset Bourgeois's deficits in any given area.” Far from being
“impossible” to rely on the substantive teachings of

Moore

I and
Moore II, Bourgeois hired an expert to testify
to precisely what the Supreme Court eventually clarified
in
Moore I and
Moore II—namely, that the adaptive
functions inquiry focuses on adaptive deficits. Bourgeois
suggests that binding Fifth Circuit precedent prevented the
court from properly analyzing his adaptive deficits. But
even if that were true, it does not demonstrate that it was
“impossible” for Bourgeois, armed with
Atkins and the
latest clinical diagnostic standards, to demonstrate that he
was intellectually disabled. “[T]he words ‘inadequate or
ineffective,’ taken in context, must mean something more
than unsuccessful.” Purkey, 964 F.3d at 615.
Bourgeois's problems do not stop there. We have held that
the savings clause affords relief in limited circumstances
to federal prisoners who rely on retroactive statutoryinterpretation cases that postdate their

§ 2255 motions.

See, e.g.,
In re Davenport, 147 F.3d 605, 611 (7th Cir.
1998). As we observed in Purkey, “[s]tatutory problems are
simply not covered in

that

Moore I and

Moore II are retroactive. We will not

authorize that end-run around

§ 2255(h).

Bourgeois has two unpersuasive rejoinders. First, Bourgeois
says it does not matter whether
Moore I and
Moore II
are retroactive because the FDPA applies current definitions
of intellectual disability. According to Bourgeois, the FDPA's
ban on executing a person who “is” intellectually disabled,
18 U.S.C. § 3596(c), proscribes executing anyone who
is presently intellectually disabled, as determined by current
legal and diagnostic standards—including those reflected in
Moore I and

Moore II. This is part of Bourgeois's

larger argument that
Atkins and the FDPA forbid both the
“imposition” and the “execution” of death sentences on the
intellectually disabled.
Bourgeois makes much of the FDPA's use of the word
“is.” But what other word would Congress have chosen?
Intellectual disability is a permanent condition that must
manifest before the age of 18. Atkins, 536 U.S. at 318, 122
S.Ct. 2242. It would be senseless to proscribe the execution
of someone who merely “was” intellectually disabled when
they were sentenced, or who “will be” intellectually disabled
when their sentence is carried out. Bourgeois seems to
confuse intellectual disability with the temporary condition
of incompetency, which may come and go. See
Ford v.
Wainwright, 477 U.S. 399, 106 S.Ct. 2595, 91 L.Ed.2d 335
(1986); see also Williams v. Kelley, 858 F.3d 464, 472 (8th
Cir. 2017) (per curiam);
Busby v. Davis, 925 F.3d 699,
713 (5th Cir. 2019). For these reasons, we find no support
for Bourgeois's argument in the word “is.” And with no
textual *638 (or other) support, we are unwilling to accept
Bourgeois's sweeping argument that a fresh intellectualdisability claim arises every time the medical community
updates its literature.

section 2255.” 964 F.3d at 615.

But
Moore I and
Moore II are constitutional cases, not
statutory interpretation cases. That is why Bourgeois relied on
Moore I when he sought permission from the Fifth Circuit
to file a successive
§ 2255 motion. See
28 U.S.C. §
2255(h). The Fifth Circuit denied his request. In re Bourgeois,
902 F.3d at 447. Bourgeois now comes to us with essentially
the same argument, asking us in effect to overrule the Fifth
Circuit. This time, Bourgeois does not even attempt to argue

Next, Bourgeois contends that his case fits within the
parameters of the three main cases where we have found
the savings clause applicable:

Davenport, 147 F.3d 605;

Garza v. Lappin, 253 F.3d 918 (7th Cir. 2001); and
Webster I, 784 F.3d 1123. To the contrary,

Davenport,

Garza, and
Webster I merely illustrate the “something
more” that Bourgeois is missing. Purkey, 964 F.3d at 615. In

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

PA014

Bourgeois v. Watson, 977 F.3d 620 (2020)

Davenport, the successful petitioner (Nichols) had a new,
retroactive Supreme Court statutory decision holding that the

Davenport may best illustrate
relief. Of the three cases,
what Bourgeois is lacking. Nichols, the successful petitioner

conduct for which he was imprisoned was not a crime. 147
F.3d at 611. Garza had a previously unobtainable decision
from an international tribunal finding that his death sentence

in
Davenport, had a retroactive, statutory decision that
completely undermined the legal basis for his conviction.
Bourgeois's only claim, by contrast, is that the law governing
his intellectual-disability claim continued to develop after he

violated international human rights norms.
253 F.3d at
923. And Webster had clear and convincing new evidence
showing that he was intellectually disabled and thus ineligible
for the death penalty.

784 F.3d at 1140–44.

We recently reviewed Webster's new evidence again in
Webster II, ––– F.3d ––––, 2020 WL 5638691, which
further illustrates the type of unusual circumstances that
warrant savings-clause relief. On remand following our
decision in
Webster I, the district court held a lengthy
evidentiary hearing on Webster's intellectual-disability claim.
From the evidence presented at the hearing, the district
court determined that Webster's new evidence of intellectual
disability, which predated his capital trial, had been
unavailable to Webster at trial despite his counsel's diligent
efforts to obtain it at the time.
Id. at ––––, 2020 WL
5638691, at *8. The new evidence was far from cumulative,
moreover, because it showed for the first time that Webster
had been diagnosed as intellectually disabled before he
committed the crimes for which he had been sentenced
to death, “at a time when
Webster had no incentive to
malinger.” Id. at ––––, 2020 WL 5638691, at *15. That was
critical because the government's theory at trial was that
Webster's low IQ scores were the product of malingering.
Id. at ––––, 2020 WL 5638691, at *3. After reviewing the
new evidence and other evidence presented at the hearing, the
district court found that Webster was intellectually disabled.
Id. at –––– – ––––, 2020 WL 5638691, at *9–12. We
upheld the district court's factual findings on appeal because
they contained no clear error.
Id. at –––– – ––––, 2020
WL 5638691, at *12–17. Unlike Webster, Bourgeois has no
newly discovered evidence. Instead, he had a full and fair
opportunity to litigate his intellectual-disability claim before
the district court that decided his

§ 2255 motion.

To be sure, Davenport, Garza, and the Webster cases do
not “create rigid categories delineating when the safety valve
is available.” Purkey, 964 F.3d at 614. But they illustrate the
limited kinds of structural defects that justify savings-clause

lost on that claim in his § 2255 motion. That is not enough.
A federal prisoner is entitled to one “reasonable opportunity
to obtain ... judicial correction of a fundamental defect in
his conviction or sentence.”
Davenport, 147 F.3d at 611.
Bourgeois had that opportunity. That being so, Bourgeois is
not eligible for savings-clause relief on either his
claim or his FDPA claim.

Atkins

*639 III. Conclusion
The question in this appeal is not whether Alfred Bourgeois
is intellectually disabled. It is, instead, whether he was able
to litigate his intellectual-disability claim in his
§ 2255
motion. He was, and he did. The savings clause is a narrow
route to relief that exists only to prevent fundamental errors
that
§ 2255 could not have corrected. It does not invite
federal prisoners to relitigate their claims every time the
Supreme Court refines the relevant legal standard.
Accordingly, we REVERSE the district court's determination
that Bourgeois is likely to succeed on the merits and
REMAND with instructions for the district court to deny
Bourgeois's motion for a stay of execution and dismiss
Bourgeois's

§ 2241 petition.

One final matter: At oral argument, the government requested
that we issue our mandate immediately. We decline that
request. Instead, we exercise our authority to expedite the
issuance of the mandate and adjust the rehearing deadlines.
Fed. R. App. P. 35(c), 40(a), 41(b); see, e.g.,
Boucher v.
Sch. Bd. of Sch. Dist. of Greenfield, 134 F.3d 821, 829 (7th Cir.
1998). The mandate shall issue seven days after the date this
opinion is issued. A petition for panel or en banc rehearing
must be filed within seven days after the issuance of this
opinion. A petition for rehearing shall stay issuance of the
mandate until disposition of the petition. If the petition is
denied, the mandate shall issue immediately upon denial.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15

PA015

Bourgeois v. Watson, 977 F.3d 620 (2020)

All Citations
977 F.3d 620

Footnotes
1

Following the Supreme Court's practice, we use the term “intellectual disability” instead of “mental

2

Atkins, used the latter term.
Hall v. Florida, 572 U.S.
retardation,” even though earlier cases, including
701, 704, 134 S.Ct. 1986, 188 L.Ed.2d 1007 (2014).
In July 2019, the government set Bourgeois's execution for January 13, 2020. The execution did not go
forward because, on November 20, 2019, the district judge presiding over execution-protocol litigation brought
by Bourgeois and others in the District of Columbia preliminarily enjoined the government from carrying out
the executions.

In re Fed. Bureau of Prisons' Execution Protocol Cases, No. 19-mc-145 (TSC), 2019 WL

6691814 (D.D.C. Nov. 20, 2019). On April 2, 2020, the D.C. Circuit vacated that preliminary injunction.
In
re Fed. Bureau of Prisons' Execution Protocol Cases, 955 F.3d 106 (D.C. Cir. 2020). The Supreme Court
denied certiorari. Bourgeois v. Barr, No. 19-1348, ––– U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––, 2020
WL 3492763 (U.S. June 29, 2020). The lower court's stay in the case now before us remains in effect, and
Bourgeois has not received a new execution date.
3

4

We have alternated between referring to § 2255(e) as the “safety valve” and the “savings clause.” Compare
Purkey v. United States, 964 F.3d 603, 611 (7th Cir. 2020) (“safety valve”), with Lee v. Watson, 964 F.3d
663, 666 (7th Cir. 2020) (“savings clause”). We use the term “savings clause” in this opinion.
The government has not asked us to reconsider our conclusion that

§ 2255(e) is non-jurisdictional.

Harris v. Warden, 425 F.3d 386, 388 (7th Cir. 2005); Prevatte v. Merlak, 865 F.3d 894, 901 (7th Cir. 2017).
Thus, we will address the question of waiver. See Moore v. Olson, 368 F.3d 757, 759 (7th Cir. 2004) (“Defects
in subject-matter jurisdiction ... may not be waived or forfeited.”).

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

16

PA016

Case 2:19-cv-00392-JMS-DLP Document 18 Filed 03/10/20 Page 1 of 13 PageID #: 8251

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
ALFRED BOURGEOIS,
Petitioner,
v.
WARDEN, et al.
Respondents.

)
)
)
)
)
)
)
)
)

No. 2:19-cv-00392-JMS-DLP

Order Staying Execution of Alfred Bourgeois
Petitioner Alfred Bourgeois is a federal prisoner incarcerated at the United States
Penitentiary in Terre Haute, Indiana. He was convicted and sentenced to death in the United States
District Court for the Southern District of Texas. His conviction and sentence were affirmed on
direct appeal, and his post-conviction motion for relief pursuant to 28 U.S.C. § 2255 was denied
by the Southern District of Texas.
Mr. Bourgeois now seeks a writ of habeas corpus from this Court pursuant to 28 U.S.C.
§ 2241. He argues that he is intellectually disabled 1 and thus the Eighth Amendment and the
Federal Death Penalty Act (“FDPA”) both forbid his execution. In Atkins v. Virginia, the Supreme
Court held that the Eighth Amendment forbids executing an individual who is intellectually
disabled. 536 U.S. 304, 321 (2002). Similarly, the FDPA states that a “sentence of death shall not
be carried out” upon a person who is intellectually disabled. 18 U.S.C. § 3596(c).

1

The Court uses the term “intellectual disability” rather than the previously used term, “mental
retardation.” See Hall v. Florida, 572 U.S. 701, 704 (2014).

PA017

Case 2:19-cv-00392-JMS-DLP Document 18 Filed 03/10/20 Page 2 of 13 PageID #: 8252

Presently pending is Mr. Bourgeois’s motion to stay his execution until this habeas action
is resolved. To be entitled to a stay, Mr. Bourgeois must make a strong showing that his claims
have merit and show that the equitable factors weigh in his favor.
Mr. Bourgeois has established that the equitable factors all favor granting a stay. As to the
merits of Mr. Bourgeois’s claims, the Court does not discuss his Atkins claim because
Mr. Bourgeois is entitled to a stay based on his FDPA claim alone. Respondent wholly failed to
address Mr. Bourgeois’s FDPA claim, thereby waiving any argument that Mr. Bourgeois’s FDPA
claim cannot proceed in this § 2241 action. And Mr. Bourgeois has made a strong showing that
he is intellectually disabled and thus the FDPA forbids his execution.
For these reasons, Mr. Bourgeois’s motion to stay his execution pending resolution of this
action is granted.
I.
Background
A.

Procedural History
The factual background regarding Mr. Bourgeois’s crimes can be found in the Fifth

Circuit’s opinion affirming his conviction and sentence on direct appeal. See United States v.
Bourgeois, 423 F.3d 501, 502-06 (5th Cir. 2005) (“Bourgeois I”). The underlying facts are
irrelevant to resolving Mr. Bourgeois’s motion to stay, so they will not be detailed here. Instead,
the Court briefly sets forth the procedural history of Mr. Bourgeois’s conviction, sentence, and
subsequent post-conviction challenges.
On July 25, 2002, a Grand Jury in the Southern District of Texas returned a two-count
indictment against Mr. Bourgeois stemming from the abuse and murder of his two-year-old
daughter. See United States v. Bourgeois, No 2:02-cr-216 (S.D. Tex.), Dkts. 1, 5. The second
superseding indictment charged Mr. Bourgeois with a single count of premeditated murder, and

PA018

Case 2:19-cv-00392-JMS-DLP Document 18 Filed 03/10/20 Page 3 of 13 PageID #: 8253

the United States then filed a notice of intent to seek the death penalty. See id., Dkt. 78.
Mr. Bourgeois pleaded not guilty.
A jury found Mr. Bourgeois guilty of premeditated murder. A separate penalty phase
followed.

The jury unanimously recommended that Mr. Bourgeois be sentenced to death.

Judgment was entered on March 25, 2004, sentencing Mr. Bourgeois to death. See id., Dkt. 303.
Mr. Bourgeois appealed his conviction and death sentence to the Fifth Circuit. Bourgeois I, 423
F.3d at 502. The Fifth Circuit rejected all of his claims and affirmed his conviction and death
sentence. Id. at 512.
Mr. Bourgeois next filed a motion to vacate pursuant to § 2255 in the Southern District of
Texas. See United States v. Bourgeois, 2011 WL 1930684 (S.D. Tex. May 19, 2011). The
Southern District of Texas held a week-long evidentiary hearing, after which it rejected his claims.
Id. at *19-20. Two of his claims were the same he raises here—that both the FDPA and the Eighth
Amendment under Atkins bar his execution because he is intellectually disabled. Id. at *22. The
Southern District of Texas rejected his claims, concluding that Mr. Bourgeois did not establish by
a preponderance of the evidence that he was intellectually disabled. Id. at *46. It also denied a
certificate of appealability on all of Mr. Bourgeois’s claims. Id. at *111.
Mr. Bourgeois filed a notice of appeal and sought a certificate of appealability from the
Fifth Circuit. 2

United States v. Bourgeois, 537 Fed. Appx. 604, 610 (5th Cir. 2013)

(“Bourgeois II”). On August 5, 2013, the Fifth Circuit denied Mr. Bourgeois’s request for a
certificate of appealability. Id. at 665.
In 2017, the Supreme Court developed the legal standard governing Atkins claims when it
decided Moore v. Texas, 137 S. Ct. 1039 (2017) (“Moore I”). Following Moore I, Mr. Bourgeois

2

Mr. Bourgeois did not seek a certificate of appealability on the resolution of his Atkins claim. Bourgeois II, 537 Fed.
Appx. at 610 n.17.

PA019

Case 2:19-cv-00392-JMS-DLP Document 18 Filed 03/10/20 Page 4 of 13 PageID #: 8254

asked the Fifth Circuit to authorize a second or successive § 2255 as required by § 2255(h). See
In re Bourgeois, 902 F.3d 446 (5th Cir. 2018) (“Bourgeois III”). On August 23, 2018, the Fifth
Circuit denied Mr. Bourgeois authorization to re-litigate his Atkins claim in a second or successive
§ 2255 proceeding citing the re-litigation bar found in 28 U.S.C. § 2244(b). Id. at 448.
B.

Mr. Bourgeois’s Execution Was Scheduled and then Stayed
On July 25, 2019, the Department of Justice set Mr. Bourgeois’s execution date for

January 13, 2020. He filed the instant habeas petition pursuant to 28 U.S.C. § 2241 on August 15,
2019, and he filed a motion to stay his execution pending resolution of this action on the same
date. The motion to stay remains pending because Mr. Bourgeois’s execution was stayed by the
United States District Court for the District of Columbia prior to his scheduled execution. See In
re In the Matter of the Federal Bureau of Prisons’ Execution Protocol Cases, No. 1:19-mc-00145TSC (D.D.C.), Dkt. 51 (the “Execution Protocol Litigation”). The United States appealed the stay
entered in the Execution Protocol Litigation, and the appeal is pending before the United States
Court of Appeals for the D.C. Circuit. See In re In the Matter of the Federal Bureau of Prisons’
Execution Protocol Cases, No. 19-5322 (D.C. Cir.).
II.
Discussion
Mr. Bourgeois’s motion to stay his execution pending resolution of this action requires him
to establish certain factors. See Lee v. Watson, 2019 WL 6718924, *1 (7th Cir. Dec. 6, 2019). The
Court must consider: “(1) whether the stay applicant has made a strong showing that he is likely
to succeed on the merits; (2) whether the applicant will be irreparably injured absent a stay;
(3) whether issuance of the stay will substantially injure the other parties interested in the
proceeding; and (4) where the public interest lies.” Nken v. Holder, 556 U.S. 418, 434 (2009).
“The first two factors . . . are the most critical.” Id.

PA020

Case 2:19-cv-00392-JMS-DLP Document 18 Filed 03/10/20 Page 5 of 13 PageID #: 8255

Before entering a stay, the Court must also consider “the extent to which the inmate has
delayed unnecessarily in bringing the claim,” Nelson v. Campbell, 541 U.S. 637, 649-50 (2004),
because “someone who waits years before seeking a writ of habeas corpus cannot, by the very act
of delay, justify postponement of the execution,” Lee, 2019 WL 6718924, at *2.
A.

Mr. Bourgeois Has Made a Strong Showing That He is Likely to Succeed on the
Merits of His FDPA Claim
The Court must address two issues to determine the strength of Mr. Bourgeois’s FDPA

claim. 3 First, the Court must determine the likelihood that Mr. Bourgeois’s FDPA claim is
properly brought in a § 2241 action. If it is, the Court must next determine whether Mr. Bourgeois
has made a strong showing that he is intellectually disabled and thus his execution is prohibited
by the FDPA. The Court will address each issue in turn.
1.

Respondent Has Waived Any Contention That Mr. Bourgeois’s FDPA Claim
Cannot Proceed in this § 2241 Action

As noted above, Mr. Bourgeois raises two legal claims that rely on the same legal theory.
He argues that both the Eighth Amendment, as established in Atkins, and the FDPA preclude his
execution because he is intellectually disabled. Mr. Bourgeois specifically argues both in his
habeas petition and in his motion to stay that his FDPA claim can proceed under § 2241. See
Filing No. 1 at 7, 14, 76; Filing No. 3 at 9.
Respondent’s combined response to Mr. Bourgeois’s petition and motion to stay argues at
length that Mr. Bourgeois’s Atkins claim does not meet the Savings Clause and thus cannot proceed
in a § 2241 action.

See Filing No. 10 at 45-86.

But Respondent fails to even mention

Mr. Bourgeois’s FDPA claim, let alone explain why it cannot be brought in a § 2241. See Filing

3

As noted above, the Court need not reach Mr. Bourgeois’s Atkins claim because he is entitled to
a stay based on his FDPA claim alone.

PA021

Case 2:19-cv-00392-JMS-DLP Document 18 Filed 03/10/20 Page 6 of 13 PageID #: 8256

No. 10. Respondent’s failure to address Mr. Bourgeois’s FDPA claim is both inexplicable and
inexcusable, not only because of the stakes of this litigation, but also because there is no binding
legal authority regarding whether FDPA claims can proceed in a § 2241 action. The Court may
have benefitted from a response from Respondent, but that opportunity has now been lost.
The failure to respond to an argument can result in waiver. See Bonte v. U.S. Bank, N.A.,
624 F.3d 461, 466 (7th Cir. 2010). Although subject-matter jurisdiction cannot be waived, see
Ashcroft v. Iqbal, 556 U.S. 662, 671 (2009), the Seventh Circuit has held that “[s]ections 2241 and
2255 deal with remedies; neither one is a jurisdictional clause,” Harris v. Warden, 425 F.3d 386,
388 (7th Cir. 2005). See Prevatte v. Merlak, 865 F.3d 894, 901 (7th Cir. 2017) (holding that
dismissals based on the Savings Clause are not jurisdictional and thus are with prejudice). This
has permitted, for example, the Seventh Circuit to conclude that the United States can concede an
underlying legal issue that would allow a claim to proceed in a § 2241 without the Court having
to decide the legal issue. See Chazen v. Marske, 938 F.3d 851, 863 (7th Cir. 2019). It is thus clear
that Respondent can waive the legal issue of whether a claim can be brought in a § 2241 petition.
The Court finds waiver appropriate here for the reasons stated above. Moreover, Mr.
Bourgeois’s reply highlighted Respondent’s failure to address the FDPA claim. See Filing No. 11
at 46-47. Nevertheless, Respondent failed to seek leave to file a surreply addressing the claim.
This leads the Court to infer that Respondent’s failure to address the claim was more intentional
than inadvertent. Accordingly, the Court deems any argument that Mr. Bourgeois’s FDPA claim
cannot proceed under § 2241 waived.
2.

Mr. Bourgeois Has Made a Strong Showing That He is Intellectually Disabled
and Thus the FDPA Forbids His Execution

The FDPA states that a “sentence of death shall not be carried out” upon a person who is
intellectually disabled. 18 U.S.C. § 3596(c). The Supreme Court in Atkins held that the Eighth

PA022

Case 2:19-cv-00392-JMS-DLP Document 18 Filed 03/10/20 Page 7 of 13 PageID #: 8257

Amendment also forbids the execution someone who is intellectually disabled. 536 U.S. at 321.
The only apparent difference between an Atkins claim and an FDPA claim is the legal source—the
Constitution and a statute, respectively. See Webster, 784 F.3d at 1139 n.6 (suggesting that the
primary difference between an Atkins and an FDPA claim is the source of the right); id. at 1150
(Easterbrook, J., dissenting) (stating that Atkins did “not alter the substantive standard” of
§ 3596(c), it simply held that “the rule of § 3596(c) is part of the Constitution as well as the United
States Code”). The parties do not argue that the substantive analyses required by the claims are
different, so the Court will apply the standards governing an Atkins claim to Mr. Bourgeois’s
FDPA claim. 4
In Hall, the Supreme Court held that “[t]he legal determination of intellectual disability is
distinct from a medical diagnosis, but it is informed by the medical community’s diagnostic
framework.” 572 U.S. at 722. The medical community’s framework consists of analyzing three
criteria: “(1) intellectual-functioning deficits (indicated by an IQ score ‘approximately two
standard deviations below the mean’—i.e., a score of roughly 70—adjusted for ‘the standard error
of measurement’”); (2) adaptive deficits (‘the inability to learn basic skills and adjust behavior to
changing circumstances’); and (3) the onset of these deficits while still a minor.” 5 Moore I, 137

4

To be clear, this means the Court will apply subsequent Supreme Court cases interpreting Atkins,
including Moore I. Although the parties dispute whether Moore I is retroactive, the Court need
not answer this question. When, as here, a claim can be brought via § 2241, the Court applies
current law. See Webster v. Lockett, 2019 WL 2514833, *3 (S.D. Ind. June 18, 2019) (applying
Moore I to an Atkins claim proceeding in a § 2241 action).
5

The Supreme Court in Moore I clarified certain aspects of its holding in Hall. Relevant here, the
Supreme Court held that in making the intellectual-disability determination courts were required
to use “[t]he medical community’s current standards,” and then it discussed several ways in which
the Texas Court of Criminal Appeals’ assessment ran contrary to these standards. Moore, 137 S.
Ct. at 1052-53. Mr. Bourgeois maintains that this Court’s analysis of whether he is intellectually
disabled will be different than the Southern District of Texas’s because it considered certain factors
in denying his Atkins claim that the Supreme Court deemed impermissible in Moore I. See Filing

PA023

Case 2:19-cv-00392-JMS-DLP Document 18 Filed 03/10/20 Page 8 of 13 PageID #: 8258

S. Ct. at 1045. These criteria are drawn from the most recent editions of the Diagnostic and
Statistical Manual of Mental Disorders (“DSM-5”) and the American Association on Intellectual
and Developmental Disabilities publication, AAIDD, Intellectual Disability: Definition,
Classification, and Systems of Supports (11th ed. 2010) (“AAIDD-11”). See Moore I, 137 S. Ct.
at1045 (relying on the DSM-5 and AAIDD-11).
Mr. Bourgeois has made a strong showing that he meets all three criteria. First, he presents
evidence that two IQ tests resulted in appropriately adjusted IQ scores of 68 (a Flynn-corrected
score) and 70 (before Flynn correction). 6 Filing No. 1-4 at 36; Filing No. 1-1 at 45. There is thus
a strong likelihood that Mr. Bourgeois meets the first criteria. See Moore I, 137 S. Ct. at 1045.
Second, Mr. Bourgeois presents strong evidence of adaptive deficits. The DSM-5 states
that this criteria “is met when at least one domain of adaptive functioning—conceptual, social, or
practical—is sufficiently impaired that ongoing support is needed in order for the person to
perform adequately in one or more life settings at school, at work, at home, or in the community.”
Filing No. 1-1 at 84. Importantly, “the medical community focuses the adaptive-functioning
inquiry on adaptive deficits,” not adaptive strengths. Moore I, 137 S. Ct. at 1050; see id. (noting
the AAIDD-11 states that “‘significant limitations in conceptual, social, or practical adaptive skills
[are] not outweighed by the potential strengths in some adaptive skills’” and the DSM-5 states that
this inquiry “should focus on ‘[d]eficits in adaptive functioning’”).

No. 1 at 59-71. While this may be relevant for the Savings Clause analysis of Mr. Bourgeois’s
Atkins claim, the Southern District of Texas’s analysis is irrelevant when assessing the merit of
Mr. Bourgeois’s FDPA claim, as this Court decides the claim anew without any deference to the
Southern District of Texas’s decision. See Webster, 2019 WL 2514833, at *5-11.
6

The Flynn Effect describes research that “has shown that [IQ] scores will tend to become inflated
as times goes on when you’re using an old test,” so there are “formulas [that] have been developed
to . . . give you an idea of how much the test score will be inflated or over represent . . . the person’s
ability.” Filing No. 1-4 at 36.

PA024

Case 2:19-cv-00392-JMS-DLP Document 18 Filed 03/10/20 Page 9 of 13 PageID #: 8259

“In determining the significance of adaptive deficits, clinicians look to whether an
individual’s adaptive performance falls two or more standard deviations below the mean in any of
the three adaptive skill sets (conceptual, social, and practical).” Moore, 137 S. Ct. at 1046.
Mr. Bourgeois presents compelling evidence that his adaptive performance falls more than two
standard deviations below the mean—that is, he scores below 70—in all three adaptive skill sets.
See Filing No. 1 at 25-42 (collecting evidence). For example, adaptive-functioning tests produced
scores of 69 in communication, 66 in daily living skills, and 66 in socialization. Filing No. 1-1 at
6. These scores “also corroborate what . . . other psychologists . . . learned through interviews and
affidavits of Mr. Bourgeois’ relatives and neighbors.”

Filing No. 1-1 at 6.

Given that

Mr. Bourgeois must demonstrate “deficits in only one of the three adaptive-skills domains” to
establish that he is intellectually disabled, Moore I, 137 S. Ct. at 1050, he has made a strong
showing that he meets this factor.
Third, Mr. Bourgeois has made a strong showing that the onset of his deficits occurred
when he was a minor. Among other evidence, Dr. Victoria Swanson attested that “it is absolutely
clear that the onset of Mr. Bourgeois’ deficiencies in both his intellectual and adaptive functioning
began before age 18 and continued into adulthood.” Filing No. 1-1 at 11.
In sum, Mr. Bourgeois has made a strong showing that he is intellectually disabled and
thus the FDPA bars his execution. To be clear, the Court has not conclusively determined that
Mr. Bourgeois is intellectually disabled, only that he has made the strong showing necessary to
warrant a stay of his execution pending resolution of this issue. The Court can only determine
whether Mr. Bourgeois is intellectually disabled following a hearing on the question.

PA025

Case 2:19-cv-00392-JMS-DLP Document 18 Filed 03/10/20 Page 10 of 13 PageID #: 8260

B.

Mr. Bourgeois Faces Irreparable Injury Absent a Stay
Mr. Bourgeois maintains that he will suffer irreparable harm absent a stay because he could

be executed without a court ever deciding whether he is intellectually disabled under the standards
set forth in Moore I. Filing No. 3 at 9-10. Respondent does not address irreparable injury, likely
because “irreparable harm is taken as established in a capital case.” Williams v. Chrans, 50 F.3d
1358, 1360 (7th Cir. 1995); see id. (“There can be no doubt that a defendant facing the death
penalty at the hands of the state faces irreparable injury.”). Accordingly, Mr. Bourgeois has
established irreparable injury.
C.

The Issuance of a Stay Will Not Substantially Injure Respondent and the Public
Interest Favors Ensuring Mr. Bourgeois’s Execution is Lawful
Respondent maintains that staying Mr. Bourgeois’s execution will undermine its strong

interest in enforcing the judgment and that it is in the public interest to allow his execution to
proceed. Filing No. 10 at 106-07. Mr. Bourgeois responds that because there is no “‘penological
purpose”’ in executing someone who is intellectually disabled, Respondent will not be injured by
a stay of execution. Filing No. 3 at 11 (quoting Hall, 134 S. Ct. at 1992). Further, Mr. Bourgeois
argues that the United States has delayed setting any executions for fifteen years, thus it cannot
now argue that additional delay will harm its interests. Filing No. 3 at 11.
Respondent is correct that, as a general matter, the United States has a “strong interest” in
“proceeding with its judgment.” Lambert, 498 F.3d at 452; see Hill v. McDonough, 547 U.S. 573,
584 (2006); Gomez v. U.S. Dist. Court for Northern Dist. of California, 503 U.S. 653, 654 (1992).
But measuring the strength of that interest here shows that it is necessarily diminished by the
United States’ own delays in setting Mr. Bourgeois’s execution.
As detailed above, Mr. Bourgeois’s § 2255 proceedings concluded in the Fifth Circuit on
August 5, 2013. See Bourgeois II, 537 Fed. Appx. 604. Yet the United States did not schedule his

PA026

Case 2:19-cv-00392-JMS-DLP Document 18 Filed 03/10/20 Page 11 of 13 PageID #: 8261

execution for nearly six years, and had not set any executions for fifteen years. Indeed, the United
States did not even have an execution protocol for eight years (from 2011 until 2019). See In re
the Federal Bureau of Prisons’ Execution Protocol Cases, No. 1:19-mc-00145-TSC, Dkt. 50 at 14.
If the United States’ interest in proceeding with its judgment was as strong as Respondent suggests,
it would not have waited several years before setting Mr. Bourgeois’s execution date. Thus, the
United States’ own delay in scheduling Mr. Bourgeois’s execution shows that its interest in
enforcing its judgment is not as strong as it suggests.
Because the United States’ asserted interest in enforcing its judgment is diminished in this
case, this harm does not outweigh Mr. Bourgeois’s strong interest in not facing execution when
the FDPA may forbid it. Moreover, because Mr. Bourgeois has made a strong showing that he
will succeed on the merits of his FDPA claim, the public interest favors ensuring that he is not
unlawfully executed.
D.

Mr. Bourgeois Has Not Unnecessarily Delayed Bringing His Claims
The Court cannot stay an execution before considering “the extent to which the inmate has

delayed unnecessarily in bringing the claim.” Nelson, 541 U.S. at 649-50. Mr. Bourgeois
maintains that he has diligently pursued his claims following the Supreme Court’s decision in
Moore I. Filing No. 3 at 10. Respondent does address this question at all, let alone suggest that
Mr. Bourgeois has not diligently pursued these claims. Filing No. 10 at 104-07.
The Supreme Court decided Moore I on March 28, 2017. Exactly a year later on March
28, 2018, Mr. Bourgeois sought authorization from the Fifth Circuit to file a second or successive
§ 2255 motion raising the claims he raises here. See In re Bourgeois, No. 18-40270 (5th Cir.).
The Fifth Circuit denied Mr. Bourgeois authorization on August 23, 2018, and issued a revised
opinion on September 24, 2018. Bourgeois III, 902 F.3d at 448. The Department of Justice set

PA027

Case 2:19-cv-00392-JMS-DLP Document 18 Filed 03/10/20 Page 12 of 13 PageID #: 8262

Mr. Bourgeois’s execution date on July 25, 2019, and Mr. Bourgeois filed this action three weeks
later on August 15, 2019.
The foregoing timeline shows that Mr. Bourgeois has not unnecessarily delayed bringing
his claims. After Moore I, he sought to bring his claims via § 2255 within a year. Once that avenue
was foreclosed, Mr. Bourgeois sought to bring his claims here via § 2241 less than a year later.
Thus, this is not a case where an inmate waited several years to bring his claims. See, e.g., Dunn
v. Price, 139 S. Ct. 1312 (2019); Lee, 2019 WL 6718924, at *2.
III.
Conclusion
Mr. Bourgeois has established the factors necessary to obtain a stay of his execution
pending resolution of this habeas action. Accordingly, Mr. Bourgeois’s execution is stayed until
further order of this Court. A separate order staying Mr. Bourgeois’s execution shall also issue.
Respondent and Respondent’s counsel are responsible for ensuring that all actors who would have
any involvement in Mr. Bourgeois’s execution comply with the stay issued on this date, including
the Warden of the United States Penitentiary in Terre Haute, Indiana, and the United States
Marshal for this District.
The Court must hold a hearing on the merits of Mr. Bourgeois’s claims to determine
whether they are ultimately meritorious. The hearing will be set by separate order.
IT IS SO ORDERED.

Date: 3/10/2020

PA028

Case 2:19-cv-00392-JMS-DLP Document 18 Filed 03/10/20 Page 13 of 13 PageID #: 8263

Distribution:
Victor Abreu
Federal Community Defender Office
victor_abreu@fd.org
Paula Camille Offenhauser
OFFICE OF THE UNITED STATES ATTORNEY
paula.offenhauser@usdoj.gov
Brian L. Reitz
UNITED STATES ATTORNEY'S OFFICE (Indianapolis)
brian.reitz@usdoj.gov
Katherine Thompson
Federal Community Defender Office
katherine_thompson@fd.org
Peter Konrad Williams
Federal Community Defender Office
pete_williams@fd.org

PA029

Case 2:19-cv-00392-JMS-DLP Document 19 Filed 03/10/20 Page 1 of 2 PageID #: 8264

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
ALFRED BOURGEOIS,
Petitioner,
v.
WARDEN, et al.
Respondents.

)
)
)
)
)
)
)
)
)

No. 2:19-cv-00392-JMS-DLP

Order Staying Execution of Alfred Bourgeois
The Court concluded in an order issued on this date that Petitioner Alfred Bourgeois has
demonstrated that he is entitled to a stay of his execution. Alfred Bourgeois’s execution is
therefore stayed. The Warden of the United States Penitentiary in Terre Haute, Indiana and the
United States of America are prohibited from executing Alfred Bourgeois unless and until the
Court lifts the stay of execution.
IT IS SO ORDERED.

Date: 3/10/2020
Distribution:
Victor Abreu
Federal Community Defender Office
victor_abreu@fd.org
Paula Camille Offenhauser
OFFICE OF THE UNITED STATES ATTORNEY
paula.offenhauser@usdoj.gov
Brian L. Reitz
UNITED STATES ATTORNEY'S OFFICE (Indianapolis)
brian.reitz@usdoj.gov

PA030

Case 2:19-cv-00392-JMS-DLP Document 19 Filed 03/10/20 Page 2 of 2 PageID #: 8265

Katherine Thompson
Federal Community Defender Office
katherine_thompson@fd.org
Peter Konrad Williams
Federal Community Defender Office
pete_williams@fd.org

PA031

Case 2:19-cv-00392-JMS-DLP Document 29 Filed 05/27/20 Page 1 of 5 PageID #: 8335

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
ALFRED BOURGEOIS,

)
)
)
)
)
)
)
)
)

Petitioner,
v.
WARDEN, et al.
Respondents.

No. 2:19-cv-00392-JMS-DLP

Order Denying Respondent's Motion to Reconsider and
Denying Respondent's Motion for Leave to File Surreply
Petitioner Alfred Bourgeois filed this 28 U.S.C. § 2241 petition for a writ of habeas corpus
alleging that the Eighth Amendment and the Federal Death Penalty Act (“FDPA”) both forbid his
execution because he is intellectually disabled. On March 10, 2020, the Court granted a stay of
Mr. Bourgeois's execution based, in part, on a finding that his FDPA claim has a strong likelihood
of success. One basis for this finding was Respondent's waiver of any argument that 28 U.S.C.
§ 2255(e) bars the FDPA claim.
On March 23, 2020, Respondent filed a motion to reconsider the Court's order granting a
stay of execution and a motion for leave to file a surreply to Mr. Bourgeois's motion to stay. The
Court construes Respondent's motion to reconsider as a Rule 59(e) motion to alter or amend
judgment. See Carter v. City of Alton, 922 F.3d 824, 826 n.1 (7th Cir. 2019) (timely motion to
reconsider a judgment should be construed as Rule 59(e) motion, even if motion does not expressly
rely on Rule 59(e)); Fed. R. Civ. P. 54(a) (defining "judgment" to include "any order from which
an appeal lies").
To obtain relief under Rule 59(e), a movant must show "(1) that the court committed a
manifest error of law or fact, or (2) that newly discovered evidence precluded entry of judgment."
1

PA032

Case 2:19-cv-00392-JMS-DLP Document 29 Filed 05/27/20 Page 2 of 5 PageID #: 8336

Blue v. Hartford Life & Acc. Ins. Co., 698 F.3d 587, 598 (7th Cir. 2012). The rule does not provide
an opportunity "for a party to undo its own procedural failures . . . or advance arguments that could
and should have been presented to the district court prior to judgment." Barrington Music
Products, Inc. v. Music & Arts Center, 924 F.3d 966, 968 (7th Cir. 2019) (cleaned up).
Respondent raises three primary arguments in support of the motion to reconsider: (1) the
Court cannot enforce a waiver of § 2255(e); (2) Respondent did not waive § 2255(e) as to the
FDPA claim; and (3) Respondent did not waive Teague and "abuse of the writ" arguments as to
the FDPA claim. The Court will address each of Respondent's claims of error in turn.
A. The Court May Enforce a Waiver of § 2255(e).
Respondent argues that "parties cannot waive the correct application of the law" and that
the Court therefore should have addressed whether § 2255(e) bars Mr. Bourgeois's FDPA claim.
Dkt. 20 at 10−12. Respondent cites out-of-circuit cases to support this proposition while ignoring
contrary Seventh Circuit precedent. See, e.g., Chazen v. Marske, 938 F.3d 851, 863 (7th Cir. 2019)
(accepting government's concession of legal issue that allowed petitioner to raise claim in § 2241
petition); Hicks v. Stancil, 642 F. App'x 620, 621 (7th Cir. 2016) ("We need not decide whether
[the petitioner] meets [§ 2255(e)'s] exception because the government waives its defense that he
does not, and its waiver allows us to decide the petition . . . ."); Brown v. Rios, 696 F.3d 638,
640−41 (7th Cir. 2012) (accepting government's concession that § 2255(e) did not bar § 2241
petition); cf. Gonzalez v. Thaler, 565 U.S. 134, 146−48 (2012) (by failing to raise timely objection,
state waived argument that appeal should be dismissed for improper certificate of appealability in
violation of 28 U.S.C. § 2253(c)). Respondent does not distinguish these cases or point to any
contrary controlling precedent. Respondent therefore has failed to show manifest error in the
Court's conclusion that 28 U.S.C. § 2255(e) may be waived in a particular case.

2

PA033

Case 2:19-cv-00392-JMS-DLP Document 29 Filed 05/27/20 Page 3 of 5 PageID #: 8337

B. Respondent Waived § 2255(e) As to Mr. Bourgeois's FDPA Claim.
Next, Respondent denies waiving § 2255(e) as to Mr. Bourgeois's FDPA claim, even if it
is possible to do so. There is no dispute that Respondent's pre-March 10 pleadings do not mention,
let alone respond to, Mr. Bourgeois's FDPA claim. Dkt. 20 at 6 ("[T]he Respondent did not parse
out a separate FDPA claim in its Return to Order to Show Cause."). Respondent instead alleges
that Mr. Bourgeois himself conflated his FDPA and Atkins claims, inviting Respondent to treat
them as a single claim, so Respondent's choice to do so was not waiver. Id. ("[T]he Respondent
read [Mr.] Bourgeois’s petition to merge his FDPA and Atkins claims as one claim implicating the
same legal standards.").
To be sure, Mr. Bourgeois's FDPA and Atkins claims both rely on the same definition of
"intellectually disabled." But as the Court noted in its order granting a stay of execution,
Mr. Bourgeois "specifically argues both in his habeas petition and in his motion to stay that his
FDPA claim can proceed under § 2241." Dkt. 17 at 5; see, e.g., dkt. 1, ¶ 157 (making statutory and
legislative history arguments for allowing FDPA claim to proceed under § 2241); dkt. 3 at 9
("The FDPA requires such prospective relief to be available, providing as it does that '[a] sentence
of death shall not be carried out upon a person who is mentally retarded.'" (quoting 18 U.S.C.
§ 3596(c))). These arguments are distinct from those Mr. Bourgeois made for allowing his Atkins
claim to proceed in a § 2241 petition. And Respondent failed to address the FDPA claim even after
Mr. Bourgeois highlighted the lack of response. See dkt. 11 at 9.
In short, Respondent has not shown manifest error in the Court's finding that Respondent
waived § 2255(e) as to the FDPA claim.

3

PA034

Case 2:19-cv-00392-JMS-DLP Document 29 Filed 05/27/20 Page 4 of 5 PageID #: 8338

C. Respondent Likewise Waived Any Teague and "Abuse of the Writ" Arguments
as to Mr. Bourgeois's FDPA Claim.
Finally, Respondent argues that the Court erred in finding waiver of Respondent's Teague
and "abuse of the writ" arguments. But as with § 2255(e), Respondent limited these arguments to
Mr. Bourgeois's Atkins claim. See dkt. 10 at 78 ("[Mr.] Bourgeois’ Atkins claim, which failed
under § 2255, cannot merit consideration or relief in this Court. [Mr.] Bourgeois’ attempt to
circumvent § 2255(h) amounts to an invitation to abuse the writ under pre-AEDPA law."); id. at 79
("Teague bars [Mr.] Bourgeois’ reliance on Moore to revitalize his Atkins claim."). Indeed, as
Mr. Bourgeois observes in his reply in support of his motion to stay, "the Teague rule applies to
new rules of constitutional law only," not his statutory FDPA claim. Dkt. 11 at 44−45. Respondent
therefore has not shown that the Court committed manifest error in deeming that Respondent
waived these arguments along with any § 2255(e) argument as to Mr. Bourgeois's FDPA claim.
See dkt. 18 at 6 ("[T]he Court deems any argument that Mr. Bourgeois’s FDPA claim cannot
proceed under § 2241 waived.").
D. Respondent May Not Raise Objections For the First Time in a Surreply after the
Motion to Stay Has Been Decided.
Respondent finally challenges Mr. Bourgeois's FDPA claim—after the Court granted a stay
of execution—in a motion for leave to file a surreply and an accompanying proposed surreply.
Dkts. 20, 21. The proposed surreply does not address the merits of Mr. Bourgeois's FDPA claim;
instead, it argues that § 2255(e) and the "abuse of the writ" doctrine prohibit Mr. Bourgeois from
raising the claim in his § 2241 petition. The Court had already deemed those objections waived
before Respondent raised them, dkt. 18 at 6, and Respondent has not shown that the Court's waiver
conclusion rests on manifest error. Respondent may not file a surreply after the fact to circumvent
the prior waivers.

4

PA035

Case 2:19-cv-00392-JMS-DLP Document 29 Filed 05/27/20 Page 5 of 5 PageID #: 8339

E. Conclusion
Respondent's motion for leave to file a surreply, dkt. [20], is denied. Respondent's motion
to reconsider the order staying execution, dkt. [22], is denied. A hearing on the merits of
Mr. Bourgeois's claims will be set by separate order when the restrictions occasioned by the Covid19 pandemic allow.
IT IS SO ORDERED.

Date: 5/27/2020

Distribution:
Victor Abreu
Federal Community Defender Office
victor_abreu@fd.org
Paula Camille Offenhauser
OFFICE OF THE UNITED STATES ATTORNEY
paula.offenhauser@usdoj.gov
Brian L. Reitz
UNITED STATES ATTORNEY'S OFFICE (Indianapolis)
brian.reitz@usdoj.gov
Katherine Thompson
Federal Community Defender Office
katherine_thompson@fd.org
Peter Konrad Williams
Federal Community Defender Office
pete_williams@fd.org

5

PA036

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 1 of 40

UNITED ST ATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
UNITED STATES OF AMERICA,

§
§

VS.

§
§
§

ALFRED BOURGEOIS,

CRIMINAL ACTION NO. C-02-CR-216
(C.A. No. C-07-223)

MEMORANDUM AND ORDER
In 2004, a jury found Alfred Bourgeois guilty of murdering his two-year-old daughter,
JG 1999. After a separate punishment phase, the same jury decided that he should receive a death
sentence. After he unsuccessfully appealed his conviction and sentence to the Court of Appeals for
the Fifth Circuit, Bourgeois' appointed counsel filed a lengthy Motion for Relief Pursuant to 28
U.S.C. Section 2255 or in the Alternative Pursuant to 28 U.S.C. § 2241. (DE 396). Bourgeois also
filed an extensive memorandum of law supporting his motion. (DE 402). The Court has liberally
allowed Bourgeois to develop the factual basis for his post-conviction claims, including through the
presentation of testimony and evidence in several hearings. The Government has filed a response
arguing that Bourgeois' claims are all procedurally insufficient or substantively without merit. (DE
442).
The Court has fully considered the arguments, evidence, and law supporting Bourgeois'
claims. The Court has given ample consideration to the voluminous pleadings filed by the parties.
After a full review of the record, and with particular emphasis on this Court's own observations from
trial and afterward, the Court finds that Bourgeois has not shown that the Government secured his
conviction and sentence in violation of the Constitution or laws of the United States. See 28 U.S.C.

§ 2255.

PA037

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 2 of 40

TABLE OF CONTENTS

BACKGROUND .............................................................. 6
I.

The Crime . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
A.

Bourgeois Fathers JG1999, Gains Custody, and Begins His Abuse .... 10

B.

JG1999's Last Month ........................................ 12

C.

The Murder ............................................... 13

II.

Defense Counsel's Pre-Trial Preparation ............................... 14

III.

The Trial ........................................................ 20
A.

Guilt/Innocence Phase ....................................... 20

B.

Sentencing Phase ........................................... 25

IV.

Appeal ......................................................... 35

V.

Post-Judgment Proceedings and Evidentiary Hearing ..................... 36

PROCEDURAL ADEQUACY OF BOURGEOIS' CLAIMS .......................... 40

ANALYSIS ................................................................. 42
I.

Bourgeois' Alleged Mental Retardation (claim one) ...................... 42
A.

Background of Bourgeois' Atkins claim ......................... 43

B.

Intellectual Functioning ...................................... 49
1.

Bourgeois' IQ Scores .................................. 50

2.

Legal Evaluation oflntelligence in Atkins Cases ............. 52

3.

Bourgeois' IQ Does Not Persuasively Fall at the Lower End of the
2

PA038

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 3 of 40

Confidence Interval ................................... 55
C.

Significant Limitations in Adaptive Skill Areas ................... 65
1.

II.

Assessment by Testing Instruments ....................... 68
a.

The Woodcock-Johnson .......................... 71

b.

The ABAS-II and the Vineland .................... 72

2.

Lay Accounts of Bourgeois' Functioning .................. 77

3.

Bourgeois' Adaptive Abilities ........................... 81

D.

Manifestation of Limitations Before Age 18 ...................... 91

E.

Trial Counsel's Failure to Develop Evidence of Mental Retardation ... 92

F.

Conclusion of Bourgeois' Atkins Claim ......................... 95

Ineffective Assistance of Counsel for Failing to Present Mitigating Evidence (claim
two) ........................................................... 95
A.

The Strickland Standard ...................................... 97

B.

Trial Counsel's Investigation and Preparation of Mitigating Evidence .100

C.

1.

Counsel's Early Efforts to Prepare a Mitigation Defense ..... 100

2.

Preparations Before the Guilt/Innocence Phase ............. 105

3.

Trial Counsel Made a Constitutionally Sound Investigation ... 113

The Unpresented Evidence .................................. 114
1.

Lay Witnesses ...................................... 115

2.

Expert Testimony .................................... 122
a.

Dr. Cunningham's testimony . . . . . . . . . . . . . . . . . . . . . 123

b.

Borderline personality disorder ................... 129

c.

Neurological impairment ........................ 137
3

PA039

Case 2:02-cr-00216 Document 660

d.

III.

Filed in TXSD on 05/19/11 Page 4 of 40

Premeditation ................................. 142

D.

Conclusion of Deficient Performance Analysis .................. 144

E.

Cumulative Effect of Prejudice ............................... 145

Jurisdiction (claim three) .......................................... 148
A.

The Autopsy and Trial Testimony ............................. 149

B.

Bourgeois' Post-Judgment Arguments and Post-Conviction Testimony
........................................................ 152

C.
IV.

Evidence of Recent, Extensive, and Fatal Head Trauma ............ 160

Trial Counsel Provided Ineffective Assistance by Failing to Call an Expert Witness
to Rebut Forensic Evidence Indicting Sexual Assault (claim four) .......... 165
A.

The Trial Evidence ......................................... 165

B.

Dr. Benton's Observation of Sexual Trauma ..................... 170

C.

Forensic Evidence of Semen ................................. 172

D.

Prejudice From Trial Counsel's Defense Against Allegations of Sexual
Assault .................................................. 180

V.

Trial Counsel Provided Ineffective Assistance by Not Litigating a Daubert Challenge
to Three of the Government's Expert Witnesses (claims five and six) ....... 182
A.

Dr. Oliver's Reliance on the Digitally Enhanced Autopsy Photographs (claim
six) ..................................................... 182

B.

Testimony from Dr. Senn and Dr. Chrz Concerning Bite-Mark Evidence
(claim five) .............................................. 189

VI.

The Government Violated its Duty under Bradyv. Maryland, 373 U.S. 83 (1963), by
Failing to Disclose That the Government Promised Inmates Some Benefit for
4

PA040

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 5 of 40

Testifying Against Bourgeois (claim seven) ........................... 194

VII.

A

No Evidence of Concealed Deals with Government Witnesses ...... 196

B.

Materiality ............................................... 201

Trial Counsel Labored under a Conflict oflnterest Because of His Representation of
Clients Associated with this Case (claim eight) ........................ 204

VIII.

The Government Engaged in Misconduct by Making Improper Argumentative
Statements in the Guilt/Innocence and Penalty Phases (claim nine) ......... 207

IX.

Trial Counsel Provided Ineffective by Not Rebutting Evidence of Bourgeois'
Indifferent Demeanor (claim ten) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..... 214

X.

A Witness Improperly Relied on Bourgeois' Interactions with Counsel as a Basis to
Formulate an Adverse Opinion about Him (claim eleven) ................ 217

XI.

Ineffective Assistance of Appellate Counsel (claim twelve)

XII.

Cumulative Error (claim thirteen) ................................... 223

XIII.

Lethal Injection (claim fourteen) .................................... 223

.............. 219

CERTIFICATE OF APPEALABILITY .......................................... 224

CONCLUSION ............................................................. 225

5

PA041

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 6 of 40

BACKGROUND
Where, as in this case, a jury has found a defendant's crime worthy of the death penalty,
federal law guarantees a full and fair inquiry into his conviction and sentence. Bourgeois has raised
several claims requiring serious judicial consideration.

The events surrounding the murder

Bourgeois committed, the pre-trial preparation by his appointed attorneys, and the circumstances of
his trial provide an important context to the matters he now brings before the Court. The Court will
discuss at length the background for Bourgeois' post-conviction challenge.
In doing so, this Court's role presiding over trial provides a particularly useful vantage point.
Cold transcripts often do not convey the nuances and color of the trial itself. Post-conviction
proceedings frequently fail to depict the tempestuous trial atmosphere. The printed page dulls the
personalities, character, and credibility of the parties and the witnesses. Decisions made in the heat
of trial lose some urgency when subjected to harsh light of hindsight. The slow pace and detachment
of post-conviction review divorces itself from the stress, fear, and anxiety of trial. For example,
passing years have dimmed the powerful effect of some testimony, such as that of Bourgeois'
daughter AB 1994 as she described the murder. In general, this Court's familiarity with the trial
atmosphere, parties, and witnesses provides a colored mosaic that may otherwise be obscured on the
black-and-white page.
This is especially the case with respect to the trial attorneys, Douglas Tinker and John
Gilmore, whose efforts Bourgeois vigorously attacks at this stage of the case. 1 Lamentably, the
record suffers because Mr. Tinker passed away after Bourgeois filed his 2255 motion. With all
sensitivity and respect, the Court allowed the parties to glean what information they could from Mr.

Except as necessary to identify one of his attorneys, the Court will refer to Bourgeois'
lawyers conjunctively as "trial counsel" or "defense counsel."
6

PA042

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 7 of 40

Tinker before he succumbed to cancer. With the omission of his testimony, a hole exists in the
written record about his efforts to defend Bourgeois.
This Court's experience and observation partially fill in the otherwise empty spaces in the
record. For example, this Court's familiarity with Mr. Tinker and Mr. Gilmore as attorneys, both
in this case and in others, informs the consideration of Bourgeois' grounds for relief. The legal
community highly regards both men as competent and zealous attorneys.

Their extensive

experience, trial lawyering, and overall sterling character cannot be gainsaid. 2 The Court appointed
these attorneys because they were among the best in the legal community. As an example of their
character, the Court had to goad Mr. Tinker into filing vouchers for his representation; his concern
was for the client, not for a paycheck.
This is not to say that counsel was mistake-free.

The Court will not manufacture

justifications for mistakes plainly in the record. 3 Nevertheless, this Court's familiarity with defense
counsel's efforts reinforces the "strong presumption that counsel's attention to certain issues to the
exclusion of others reflects trial tactics rather than sheer neglect." Harrington v. Richter,_ U.S.
_ , 131 S. Ct. 770, 790 (2011) (quotations omitted). Thus, this Court must "not simply ... give
the attorneys the benefit of the doubt," but also "affirmatively entertain the range of possible reasons

2

As the Court observed at the close of the sentencing hearing: "I don't think ... your
client[] could have had a better ... advocate or voice in the courtroom ... throughout what has been
a very difficult process." (DE 342 at 102).
3

Bourgeois' attorneys have argued that Mr. Tinker's absence now leaves them "kind
of wrestling with a ghost, in quite a literal sense." (DE 646 at 88). While Mr. Tinker's passing
removes the ability to place his strategic decisions on the record, Strickland is an objective standard
which is also "highly deferential" to counsel's actions. Premo v. Moore,_ U.S._, 131 S. Ct.
733, 740 (2011); Strickland v. Washington, 466 U.S. 668, 693 (1984); see also Harrington v.
Richter,_ U.S._, 131 S. Ct. 770, 791 (2011) ("Strickland . .. calls for an inquiry into the
objective reasonableness of counsel's performance, not counsel's subjective state of mind").
7

PA043

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 8 of 40

... counsel may have had for proceeding as they did[.]" Cullen v. Pinholster, _U.S. __, _
S. Ct._, 2011 WL 1225705, *16 (2011).
With this understanding, the Court will first provide a general background before addressing
Bourgeois' individual grounds for relief.

I.

The Crime
On June 27, 2002, Bourgeois, a long-haul trucker, arrived to deliver a load on the Naval Air

Station Corpus Christi with his wife (Robin), the two daughters they shared (AB 1994 and AB2001 ),
and his out-of-wedlock daughter (JG 1999). 4 An hour later, Robin frantically begged workers to call
an ambulance for two-year-old JG 1999 who lay motionless on the ground. Robin said that JG 1999
had slipped and fallen from the truck. Concerned bystanders looked on as efforts were made to save
the child's life. Alfred Bourgeois, well aware that his daughter lay dying on the pavement,
indifferently supervised the unloading of his trailer and arranged for his next load.
Emergency personnel arrived and tried to save the dying little girl. As the ambulance sped
away, Bourgeois insistently remained behind to finish unloading his truck in preparation for another
run. He casually mentioned that it was a "shame what happened" to the infant. Only with extensive
prodding, and the fact that he could not continue making deliveries because his truck had become
a crime scene, did Bourgeois follow his daughter to the hospital.
At the hospital, doctors soon saw that the extent of JG1999's injuries far exceeded the
explanation given. Finding blood behind her eyes, the doctors ordered an MRI. Medical personnel
disbelieved the explanation for her injuries; the extent of her head trauma was much worse than that

4

This Court's review of the facts comes from the entirety of the trial and post-trial
record, with particular emphasis on the highly credible testimony AB 1994 and Robin Bourgeois
provided at trial.

8

PA044

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 9 of 40

which would be expected from a four-to-five-foot fall. Numerous other injuries in various stages
of healing also raised suspicions. When doctors informed Bourgeois that they needed to transport
JG 1999 to another facility and that she may not live much longer, Bourgeois seemed unfazed.
Given the injuries to the infant, Child Protection Services (CPS) began an investigation.
Bourgeois told Robin that, if CPS took custody of the other two children, he did not want them to
stay with her parents. Bourgeois' preference was unsurprising; he had physically assaulted his
mother-in-law not long before. Bourgeois told Robin not to panic and to "stick with the story."
Suspicion increased when AB 1994 told CPS workers that the falling-out-of-the-truck fiction was
"the story my dad said to tell."
As the life ebbed from JG 1999' s body, Bourgeois returned to the naval base set on continuing
his deliveries. After unsuccessfully trying to get back on the road, Federal Bureau oflnvestigation
officers took Bourgeois back to the hospital. Bourgeois told agents the story from which he has not
deviated: while driving to the Corpus Christi Naval Exchange, JG 1999 sat on his lap and sang her
ABC's. When they arrived, he unloaded his trailer until someone informed him that JG1999 had
fallen from the truck. He claimed that he rushed to her and began CPR, using a towel to wipe blood
from her head or nose. He would not explain the numerous injuries to JG 1999 other than to say that
he never whipped his children. He seemed singularly unconcerned with JG 1999' s critical injuries.
He said that he "didn't want it to suffer" and saw no problem continuing his truck route because "her
mother's going to be here in town. I'm coming back."
Robin, however, began to change her story. When doctors seemed incredulous, Robin
divulged to FBI agents that Bourgeois had abused JG1999, but kept up the story that she fell from
the truck. Only when JG 1999 died did Robin admit that Bourgeois had actually killed his daughter.
Witness accounts and forensic evidence began to unfold a horrific tale of savage abuse that
9

PA045

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 10 of 40

culminated in Bourgeois beating JG 1999 to death.

A.

Bourgeois Fathers JG1999, Gains Custody, and Begins His Abuse

Robin and Bourgeois had a turbulent relationship. Since before their marriage in 1995,
Bourgeois beat Robin, threatened to kill her, periodically refused to provide for his family, and
repeatedly had extramarital affairs. Robin twice sought restraining orders against her husband.
During a separation, Robin also had an affair with a man who owned a limousine service. As part
of their reconciliation, Robin and Bourgeois vandalized her paramour's work vehicles. Bourgeois
threatened to kill Robin on numerous occasions. Violence, disharmony, and selfishness defined
Bourgeois' relationship with his wife.
Bourgeois fathered JG 1999 during an extramarital affair he had with Katrina Harrison, a
woman he met while on a truck route. In April 2002, the State of Texas initiated paternity
proceedings against Bourgeois. In addition to the two daughters he shared with Robin, Bourgeois
was already paying child support for two other children. Without telling Robin where he was going,
Bourgeois left for Livingston, Texas, to reacquaint himself with Ms. Harrison. They shared a
bedroom while he visited his daughter.
When he returned, Bourgeois told Robin about the paternity suit. A confirmatory blood test
debunked his claim that he did not know Ms. Harrison. In May 2002, Bourgeois took Robin, his two
children, and a niece to a child support hearing in Texas. The Texas court ordered Bourgeois to pay
around $160 a month child support. Bourgeois in turn asked for visitation rights. Immediately after
the court hearing, Ms. Harrison prepared a suitcase for JG 1999, who left with Bourgeois.
Bourgeois then entered into a pattern of conduct aimed at controlling or killing his child.
Bourgeois contacted Child Protective Services in Louisiana and falsely claimed that JG 1999' s
mother abused and neglected her. The Louisiana authorities contacted Texas Child Protective
10

PA046

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 11 of 40

Services, who found no basis for the claim of neglect. The social worker became concerned that
Bourgeois did not want custody, he wanted power over and possession of JG1999. Fearing that
JG 1999 was in danger, the social worker asked Child Protective Services in Louisiana to monitor
Bourgeois' custody of JG 1999. No government agency became aware of the vicious abuse JG 1999
suffered until she died.
On May 18, 2002, Robin found blood in JG1999's diaper. Dr. Scott Benton, a forensic
pediatrician, examined the little girl and found no evidence of abuse. His examination would be a
baseline against which to measure Bourgeois' inhumane treatment.
Bourgeois' abuse of JG 1999 began soon after they arrived at his home. Robin began noticing
bruises, marks, and injuries on the infant. She noticed sores on JG 1999' s feet which would not heal
because Bourgeois kept pressing his thumbs into the wounds. Bourgeois began calling JG 1999
names like the "trifling little bitch" and "a mother fucker." When Bourgeois bathed the infant,
Robin could hear screaming as he whipped her. A few days after JG 1999 came to live at the
Bourgeois home, Bourgeois proclaimed that he would teach her to swim. As a video recorder
captured his actions, Bourgeois repeatedly tossed her into the air and let her fall into the swimming
pool where she sank until Bourgeois pulled her out, coughing and gasping for breath.

For

approximately 30 minutes, Bourgeois brought the young girl to the brink of drowning until he let her
go.
Bourgeois assumed control over potty training JG 1999. Bourgeois would strike JG 1999 if
the two-year-old wet her pants. He began a systematic pattern of beating JG 1999, often with
electrical cords or other objects. While no conclusive evidence of sexual abuse existed, strange
behavior hinted that Bourgeois engaged in sexual activity with his daughters. For example, by this
point in their relationship Robin no longer shared a bed with Bourgeois, but each night Bourgeois
11

PA047

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 12 of 40

would lock himself in the bedroom with AB 1994 and JG 1999. JG 1999 would spend the night tied
to her potty chair under a window.
Bourgeois' brutal abuse of JG 1999 intensified. Some nights Robin could hear pounding in
the bedroom accompanied by crying. A bloodstain confirmed that one loud thump Robin heard was
Bourgeois throwing JG 1999 against a wall. Bourgeois' maltreatment of JG 1999 stood in stark
contrast to that of AB 1994 whom he treated "like an angel."

B.

JG1999's Last Month

For the last month of the little girl's life, Bourgeois' abuse extended beyond harsh discipline;
a particular viciousness attended his continual maltreatment. Bourgeois took his family on the road.
The five people- Bourgeois, Robin, their two children AB 1994 and AB2001, and JG 1999- traveled
across America in the tractor-trailer. JG 1999 stayed on her potty chair as they drove. Bourgeois sent
postcards to JG 1999's mother describing a vacation to amusement parks and full of outdoor activity.
In terse phone calls to her mother, Bourgeois instructed the formerly talkative JG 1999 to tell her
mother that she was all right. The reality, however, was far different from the picture Bourgeois
portrayed.
AB 1994 saw her father repeatedly bite JG 1999 on her hands, feet, and forehead. Once,
Bourgeois beat JG 1999 with a belt so hard that it broke. JG 1999 began to show bruises all over her
body. Her hands and feet were swollen and had open sores. He beat her with electrical cords. He
once beat her until she lost consciousness. He occasionally taped her mouth shut. He hit her with
his shoe. She spent her days and nights on the potty chair. Bourgeois would curse at her. He once
locked Robin out of the truck for hours while he remained in the cab alone with the girls. He hit
JG 1999 in the eyes with all his strength until she had to wear sunglasses to mask the injuries. He
once forced JG 1999 to drink urine from a bottle he used to relieve himself while driving. He beat
12

PA048

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 13 of 40

her with a toy baseball bat until her head swelled "like a football." He told JG 1999 that she made
him want to kill her. Robin began to notice injuries such as a hole the same size as a cigarette lighter
in the infant's foot.

He repeatedly held JG 1999 under the waves on a trip to the beach.

Foreshadowing her murder, Bourgeois once knocked JG 1999 unconscious by striking her head
against the truck's steering wheel because she referred to herself by her mother's, not his, surname.
As Bourgeois' violence increased, JG 1999 became sullen. Bourgeois had broken her once
vivacious spirit. It soon became apparent that Bourgeois' abuse would end in the child's death.
Bourgeois told Robin he wanted to kill the child. Once he had killed her, he planned on leaving her
body in the woods or in a swamp and having Robin report her as kidnaped.

C.

The Murder

Bourgeois delivered the killing blows on the naval base on June 27, 2002. The day before,
the Bourgeois family stopped at their home in Louisiana to collect the mail. Bourgeois received a
court order requiring him to pay $519. 99 a month in child support for another daughter. After
delivering a load to the Ingleside Naval Station, Robin went to sleep. Bourgeois' truck entered the
Corpus Christi Naval Air Station at around 10:00 a.m. After asking for directions and having his
truck break down, Bourgeois approached the warehouse where he was to make a delivery. Robin
was still sleeping in the back. After the truck stopped, JG 1999 wiggled on her potty chair and tipped
it over. Bourgeois angrily ordered AB 1994 to hand him the toddler. Bourgeois pulled down the
child's pants and spanked her. He then grabbed her by the shoulders and slammed her head into the
window four times. JG 1999's face became "real sad." Bourgeois handed the child to AB 1994 and
he exited the truck.
Robin woke up and saw the child sitting motionless. She touched the infant, but JG 1999's
arm fell limply. Robin began trying to revive JG 1999. Panicking, she honked the truck's horn. She
13

PA049

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 14 of 40

confronted Bourgeois when he returned to the truck, asking: "What did you do to her? She's dying."
Bourgeois bluntly said he had to finish unloading his truck when Robin begged him to take the child
to the emergency room.
Robin began performing CPR, but fluid came out of JG1999's mouth. Robin handed
Bourgeois the child and began crying hysterically. She implored: "You're going to have all of us
going to jail." Bourgeois then crafted their story: AB 1994 forgot to close the cab door as she exited
and JG 1999 fell as she followed. Bourgeois took JG 1999 out of the truck and laid her on the ground.
Moments later, Robin exited, saw JG 1999 laying on the ground, and began administering CPR again.
Paramedics took over the CPR. While Robin was "very upset" and could not "keep her eyes off the
baby," Bourgeois was "on the phone most of the time trying to see about getting ... his next load
. . . [to] Kingsville."
As bystanders questioned what happened, Robin said the "little girl fell from the truck."
With time, it became apparent that no one believed Bourgeois' story. Robin first told authorities
about Bourgeois' cruelty toward the child. Finally, by the morning of the day that JG1999 died,
Robin admitted that the story about her falling from the truck was a lie. Bourgeois was arrested.

II.

Defense Counsel's Pre-Trial Preparation
On July 25, 2002, a grand jury returned a two-count indictment charging Bourgeois with

murder under 18 U.S.C. §§ 7 and 1111, and injury to a child under 18 U.S.C. § 13. The Court
appointed John Gilmore on October 2, 2002, to represent Bourgeois. Mr. Gilmore had extensive
experience handling capital cases. As a prosecutor, he had tried two death penalty cases. As defense
counsel, he represented ten or eleven defendants facing a death sentence. He also tried several
capital cases in which the prosecution did not seek a death sentence. Outside the death-penalty
context, he maintained an active criminal practice, trying an estimated twenty cases each year. In
14

PA050

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 15 of 40

2000 and 2008, the local bar named him criminal defense attorney of the year. Mr. Gilmore brought
to the defense a background rich in criminal trial experience.
Soon after his appointment, Mr. Gilmore interviewed his client. Mr. Gilmore did not observe
any indication of mental illness or mental retardation in Bourgeois' presentation. During their initial
conversations, Mr. Gilmore discussed with Bourgeois the possibility of seeking a favorable plea deal
with the Government. Bourgeois refused to talk about a plea, making his position clear and
unmoveable: he blamed the murder on Robin. 5
Mr. Gilmore began preparing a defense. Mr. Gilmore requested, and the Court granted,
appointment of expert and investigative assistance. (DE 32, 33). Initially, the Court appointed
Douglas Tenore as an investigator. Mr. Tenore would assist in the preparations throughout the
course of the trial proceedings. As the defense team continued preparing for trial, the Court
appointed additional investigative and expert assistance.
On April 9, 2003, a grand jury returned a superceding indictment against Bourgeois listing
two counts: unlawful killing with premeditation and malice aforethought under 18 U.S.C. § 7 and
111, and physical assault of a child under 18 U.S.C. § 13 and Texas Penal Code § 22.04(a)(l ). At
rearraignment, Bourgeois again pleaded not guilty. (DE 44). At this stage of the proceedings, Mr.
Douglas Tinker volunteered to help represent Bourgeois. (DE 86). 6 Mr. Tinker brought a wealth

In a hearing, Bourgeois expressed his steadfast decision not to plead guilty: "Your
Honor, my mind is made up[.] I'm not going to plea .... My mind was made up when I got arrested
that I wasn't going to plea. I don't want to plea. I don't want to talk about a plea." (DE 356 at 1617). In fact, Bourgeois wrote the Court asking to dismiss his attorneys when they tried to discuss
reaching a plea agreement with the Government. (DE 356 at 5-17).
6

The Court issued a written order appointing Mr. Tinker on July 28, 2003. (DE 83).
The Court later amended the appointment of counsel to reflect his work on the case before his
official designation as attorney of record. (DE 86).
15

PA051

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 16 of 40

of experience to the table. He had represented over a dozen clients facing a death sentence. In 1995,
the Criminal Justice Section of the State Bar of Texas named him Outstanding Criminal Defense
Lawyer of the Year. He often spoke at conferences for state and national criminal defense attorney
organizations. He was well known as a "defense attorney's defense attorney." Importantly, his
experience with cases involving genetic material gave him the reputation as an expert in DNA. The
Court appointed Mr. Gilmore and Mr. Tinker because the Court's interaction with them showed that
they were among the most zealous, competent attorneys in the local bar.
Defense counsel began a double-pronged effort to avert a death sentence even before the
Government certified this as a capital case. See 18 U.S.C. § 3593(a) (requiring the Government to
serve the defendant with notice of its intent to seek a death sentence "a reasonable time before the
trial or before acceptance by the court of a plea of guilty"). 7 First, defense counsel tried to convince
the Government not to seek a death sentence. Mr. Gilmore met with the United States Attorney for
the Southern District of Texas and had discussions with members of the Attorney General's Office
in Washington, D.C., lobbying against the Government seeking a death sentence.
Second, defense counsel realistically evaluated the case against their client, acknowledging
that a jury would likely convict and then have to decide his sentence. Accordingly, the defense
began preparations for a capital sentencing hearing even before the Government noticed this as a
death-penalty case. Defense counsel requested the appointment of a mitigating investigator and

7

The attorneys divided the responsibilities for defending Bourgeois. According to Mr.
Tinker's recollection: "Mr. Gilmore was responsible for handling all of the government's lay
witnesses and law enforcement witnesses. Additionally, he was in charge of coordinating the
investigation of the availability of non-expert defense witnesses and presenting their testimony at
trial." Mr. Tinker, however, "was in charge of dealing with the government's expert witnesses and
obtaining and presenting rebuttal expert testimony." The two attorneys, however, "made the
majority of the trial decisions jointly." (PX-82 at 4).
16

PA052

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 17 of 40

received authorization to expend significant funds in preparation for a mitigation case. On June 30,
2003, Mr. Gilmore contacted Dr. Marc Cunningham, a well-known psychologist who has routinely
testified in capital trials, to secure his assistance. Dr. Cunningham agreed to participate as an expert
witness on mitigation evidence and on violence in prison society. Dr. Cunningham outlined the
assignment of responsibilities as he saw them: a mitigation investigator would examine Bourgeois'
background and then Dr. Cunningham would "conduct more strategic interviews[.]"

Dr.

Cunningham informed trial counsel that, "assuming an investigator began aggressively working on
a social history," he could be ready for a January trial date. (PX-8).8
On July 9, 2003, trial counsel asked Dr. Cunningham if he could recommend a competent
investigator for the penalty phase preparation. Dr. Cunningham provided trial counsel a list of
experienced mitigation specialists, including Lisa Milstein. After trying to contact others, trial
counsel secured the help of Ms. Milstein. She, in tum, solicited help from her associate Gerald
Bierbaum, an attorney who now works for the Capital Habeas Unit of the Federal Defender's Office
in Las Vegas, Nevada. At Dr. Cunningham's recommendation trial counsel had every reason to trust
that they would perform a competent and probing review of Bourgeois' life history.
In a status conference on July 16, 2003, the Government announced that they received
authorization to seek a death sentence. (DE 74). The Government outlined the aggravating factors
it would rely on as required by 18 U.S.C. § 3593(a). (DE 78, 79). 9 The Court set trial for February

8

The Court will refer to the exhibits introduced by Bourgeois in the evidentiary hearing
held September 20 through 24, 2010, as "PX" and the Government's exhibits as "GX."
9

The Government's notice that it would seek a death sentence listed the following
factors that the jury would eventually consider in evaluating whether Bourgeois' crime merited a
death sentence: (1) the heinous, cruel, or depraved manner in which he committed the offense; (2)
the substantial planning and premeditation that went into the crime; (3) the likelihood that Bourgeois
(continued ... )
17

PA053

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 18 of 40

16, 2004. (DE 76).
On July 25, 2003, Mr. Gilmore sent Dr. Cunningham an email describing their efforts to
secure the services of a mitigation expert and informing him that: "The case was reset to February
2004, to allow you to gather information for your evaluation. . . . There is one problem, however.
The judge has ordered reciprocal discovery and has set a deadline of mid-December to disclose your
information. Please let me know if you can work within these parameters." (PX-8 at 15). The
Court, however, later changed the required discovery deadline until the end of jury selection. (DE
185). With several months remaining before the trial date, the defense team consisted of two highly
experienced attorneys, an investigator, two mitigation investigators, and an expert witness on
mitigation evidence. 10 In addition, Bourgeois himself took an intensely active part in the defense.
An expert witness attested that Bourgeois seemed more like a member of the defense team than a
defendant. (DE 348 at 286).
Yet defending Bourgeois would be a herculean undertaking for several reasons. The
obviously horrendous facts of the case would trouble any juror. Expert and lay witnesses would
chronicle at trial the unrelenting abuse that JG 1999 suffered at Bourgeois' hands. Bourgeois had
wished for the infant's death and made plans for disposing her body. His brutal beatings assured the
toddler's eventual demise. He indifferently manipulated others into supporting his transparent
attempt to label her death an accident. The crime itself made his conviction a near certainty. The

9

( ... continued)
would commit future acts of violence; (4) the impact of the victim's loss to the family and her
personal characteristics as a human being; and (5) the vulnerability of the victim. (DE 78, 79); see
also 18 U.S.C. § 3592 (outlining the statutorily defined aggravating and mitigating factors).
10

In the months before trial, the mitigation investigators interviewed dozens of potential
witnesses, some of them several times. The Court also liberally allowed the defense to retain other
experts, including a jury selection specialist, a forensic pathologist, and two mental-health experts.
18

PA054

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 19 of 40

jury would not see Bourgeois as a sympathetic defendant.
Also, Bourgeois often provided misinformation to the defense team, making a mitigation
defense difficult. Additionally, Bourgeois' violent behavior continued while he was incarcerated as
a pre-trial detainee. Bourgeois threatened to have witnesses killed. 11 His threats were not toothless;
witnesses, including JG 1999' s mother, were murdered before trial. (DE 24). Notwithstanding court
orders designed to halt all communication (DE 24, 28), Bourgeois continued to imperil the safety
of those involved in his trial. His threats to harm and attempted assaults onjailors and United States
Marshals assured that custody could not contain his violent behavior.

In a case where the

punishment phase would examine his ability to comport to the rules and regulations of prison life,
Bourgeois hobbled his attorneys' efforts to demonstrate that he could be a model prisoner if the jury
spared his life. 12

11

Bourgeois also threatened to kill prosecutors, FBI agents, and the trial judge. Even
though Bourgeois made the threats at the same time, the Court decided that only those made against
witnesses could come before the jury. (DE 387 at 8-10).
12

The Court cautioned Bourgeois:

There's some indication that you've intimidated witnesses, attempted to intimidate
witnesses, get your brother on them or other family members. It's all going to come
out at trial. It's certainly not going to be helpful to you. And you're in a deep
enough hole right now without making it any worse.
So you have two of the greatest lawyers I've ever known representing you. You're
going to have to put your trust in them. You're going to have to let them do the work
that we've got them to do, whether it's mitigation experts or school records or
interviews with people. They have really worked hard. And you're putting your
whole defense at risk by doing this. I cannot emphasize it strongly enough. Not only
are you disobeying this - there's nothing I can do to punish you for the contempt of
court that you've done. You're already there. You're already in jail. And that may
be why you're continuing to do it because you know that there's very little I can do.

(continued ... )

19

PA055

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 20 of 40

And critically, Bourgeois' insiste nee that he bore no culpability for JG 1999's death
compounded the challenges trial counsel faced. The Constitution guaranteed that Bourgeois, ifhe
so chose, could have his day in court. His truculent assertions of innocence in light of overwhelming
evidence, however, limited his counsel's strategic choices. Aside from a brief flirtation with
pleading guilty immediately before trial to save AB 1994 from testifying (PX-8 at 31 ), Bourgeois
eschewed any discussion of a favorable plea. Notwithstanding the highly incriminating evidence
against him, Bourgeois took the stand in both phases of trial to blame his wife for JG 1999' s death.
These vocal protestations of innocence posed a dilemma for counsel. Counterpoised between
Bourgeois' persistent attempt to deflect responsibility and the character of the evidence against him,
his attorneys were sometimes required to present inconsistent information to the jury.

III.

The Trial
A.

Guilt/Innocence Phase

The Government called three groups of witnesses in the guilt/innocence phase. First, several
individuals put the murder into context. Witnesses described Bourgeois' first delivery on the day
of the murder, his entry onto the naval base, the breakdown of his truck before reaching the
warehouse, and the events immediately after he killed. The Government called several witnesses
who observed Bourgeois' reaction to his daughter's life-threatening injuries, describing him as
casual, preoccupied with making his deliveries, and indifferent. An FBI agent summed up
Bourgeois' attitude: "He seemed to be more concerned about the delivery of his next load than he

12

continued)
But, what you are doing is putting the sand over your head, as we speak, with every
one of these letters.
( ...

(DE 351 at 36).

20

PA056

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 21 of 40

was about the welfare of his soon to be deceased daughter[.]" (DE 338 at 102). Other law
enforcement witnesses described their interaction afterward with Bourgeois and Robin. They
explained how Robin's story broke down as the victim died.
Second, forensic witnesses described the injuries JG 1999 sustained at her father's hands, both
on the day of the murder and weeks before. Carole McLaughlin, a registered nurse on duty when
JG 1999 arrived, observed injuries on the infant such as bruising around the eyes, swollen
extremities, and hard, calloused hands and feet. Dr. Noorullah Akhtar testified that JG 1999 was
"virtually dead" when she arrived at the hospital. (DE 344 at 95). He opined that falling from a
truck could not cause the extensive blood in and edema of JG 1999' s brain. Instead, her injuries were
equivalent to her falling "four or five stories, head first, on a hard floor." (DE 344 at 93). A CT scan
showed "blood in all areas in and around the brain, and the brain is swollen." (DE 344 at 96). The
injuries were so severe that JG 1999 would not last long. When Dr. Akhtar told Robin that
information she cried; Bourgeois "didn't show much expression or grief." (DE 344 at 97). In
addition to the blood in her eyes, Dr. Ronald R. Kuffel, Jr., an ophthalmologist, observed several
recent head injuries, including a fresh hemorrhage on the right of her head above the hair line.
Dr. Elizabeth A. Rouse performed the autopsy which revealed both the severe head injuries
that caused her death and numerous non-lethal wounds all over her body. Of the ten different head
injuries, Dr. Rouse identified internal injuries corresponding to the external wounds. Other than the
brutal head wounds, Dr. Rouse observed scratch marks near the ears, deep injuries to the hands and
feet, looped injuries as if struck with an electrical cord, burns possibly from a cigarette lighter, and
deep tissue bruising in nearly every part of her body.
Dr. Scott Anthony Benton, a medical doctor who had examined JG 1999 a month before her
murder, reviewed the autopsy photographs. He observed a completely different child; none of the

21

PA057

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 22 of 40

injuries had been present before. Aside from intense head injuries, he also saw evidence of abuse
all over her body. Of particular note, he concluded that there was some evidence of vaginal trauma
since his earlier examination. (DE 346 at 45-46). Another witness testified that rectal swabs taken
from the victim after her death suggested the presence of semen.
William Russell Oliver, an expert in forensic pathology and forensic imaging, enhanced the
autopsy photographs to accentuate the external injuries. He estimated that she had suffered the
following external injuries: 25 to 26 whip marks, 78 healed scars, 73 to 105 nonspecific contusions,
8 pattern contusions, 9 to 10 abrasions or excoriations, 7 to 9 healing ulcerations, a possible bite
mark, and three lacerations. (DE 345 at 226). Dr. David Senn, a forensic odontologist, could not
exclude Bourgeois, Robin, or AB1994 as the probable biter for an injury on JG1999's arm. He
could, however, exclude Robin and AB 1994 as the possible biters for wounds on her back, leaving
Bourgeois as the only possible biter with access to JG 1999. Another forensic odontologist, Dr.
Bryan Chrz, agreed that Bourgeois was probably the one who bit JG 1999 on the back.
The final category of testimony came from the witnesses who observed Bourgeois'
unrelenting, escalating, and homicidal abuse, saw the effects of the beatings, or heard his confessions
to those acts. Some witnesses described seeing various injuries on JG1999's body, most of which
Bourgeois attributed to her natural mother. The Government called three inmates - Darick Moore,
Orlando Campos, and Wiley Taylor-who had been housed in county jail facilities with Bourgeois.
These men explained that Bourgeois initially claimed that the victim died in an accident, but later,
"as he ... got comfortable, he started like telling [them] really what happened." (DE 344 at 205).
Bourgeois said he killed his daughter and was going to make it look like an accident. (DE 344 at
219). Bourgeois admitted that he beat JG 1999 with several objects. Bourgeois described his
daughter as a "bad child" who "[u]sed to shake her butt all the time[.]" (DE 344 at 205). Also,
22

PA058

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 23 of 40

Bourgeois described "with pride" how he beat his wife. (DE 344 at 219).
Bourgeois' sister Claudia Williams testified that he had made comments foreshadowing the
murder. He told Ms. Williams: "You get your black dress out. . . . I'm just going through a lot. I
don't know what I'm going to do." (DE 223 at 8). Ms Williams became so concerned that she asked
Robin if Bourgeois had any weapons in the truck. (DE 223 at 9).
The most damning testimony of the trial came from those who observed Bourgeois' cruelty
firsthand. Robin Bourgeois was asleep when her husband murdered JG 1999, but she could still
describe his incessant prior abuse and his manufacture of the story afterward. The most chilling
testimony came from AB 1994 as she described how her father killed her little sister. She credibly,
and bravely, chronicled the events leading to the murder and sadly reported on how her father killed
JG 1999. Nothing weakened her testimony or challenged her version of events. 13
After the Government rested, the defense moved for an instructed verdict, arguing that
insufficient evidence proved Bourgeois' guilt and his premeditation for the murder. The Court
denied the motion.

13

In his Motion to Vacate, Bourgeois brazenly argues that

[t]rial counsel also failed to present readily available evidence through either
crossexamination or through the presentation of live witnesses of the bad character
and reputation in the community of Robin and AB-1994 for being truthful and
honest. The credibility of these witnesses was critical to the Government's case simply put, if the jury believed either of these witnesses Petitioner was going to be
convicted.
(DE 396 at 61). Bourgeois has not supported his accusations with any evidence calling AB1994's
credibility or honesty into question. Any attempt by trial counsel to impugn her credibility would
have seriously backfired. This Court vividly remembers AB 1994' s heart-wrenching account of her
father's abuse and murder. Time cannot obscure her forthright testimony and its effect on the jury.
The only lies AB 1994 told were those she initially conveyed at Bourgeois' direction. The jury
accepted her eyewitness testimony of the murder as a valid report of how Bourgeois killed his
daughter, and Bourgeois has given the Court no reason to supercede its judgment.
23

PA059

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 24 of 40

Notwithstanding the overwhelming evidence against Bourgeois, the trial attorneys followed
their client's instructions. The cross-examination of witnesses tried to place reasonable doubt on
whether Robin could have been the killer. Bourgeois himself was the only witness called by the
defense in the guilt/innocence phase. Bourgeois' testimony stuck to the same story he told
investigators: that JG 1999 fell from the truck. Notwithstanding the extensive credible testimony
about the abuse JG 1999 had suffered, Bourgeois testified that he never harmed her, never touched
her inappropriately, and never killed her. (DE 338 at 5-6). A blistering cross-examination left
Bourgeois looking even worse before the jury. Bourgeois admitted that he had disciplined JG 1999
twice by spanking her, but disclaimed any other abuse. As the Government asked about the
numerous injuries found on the infant's body, Bourgeois began supplying implausible excuses for
each wound. With some injuries, such as the whip marks found on her thighs, Bourgeois denied
having any knowledge about them. Instead, he cast blame on Robin Bourgeois. When asked to
explain testimony that inculpated him, such as that given by his sister and others, he accused the
witnesses of lying. Even with all the testimony showing his detached and indifferent demeanor
about the loss of his baby, he unpersuasively claimed: "How can you say I'm not upset. I lost my
baby. Yes, I'm upset. ... I'm highly hurt by this." (DE 338 at 54).
The parties delivered their closing arguments on Tuesday, March 16, 2004. The Government
emotionally and forcefully outlined the evidence showing that Bourgeois abused and killed the
victim, emphasizing that Bourgeois had planned to kill his daughter beforehand. Both Mr. Tinker
and Mr. Gilmore made closing arguments in the guilt/innocence phase. Mr. Tinker begged the jury
not to be swayed by emotion and the horrible circumstances of the victim's death, but to look at the
facts. Like Bourgeois' own testimony, Mr. Tinker tried to pin the murder on Robin Bourgeois. He
hoped that the jury would find that she had a motive to kill the child and had abused the little girl
24

PA060

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 25 of 40

herself. He tried to minimize the testimony about Bourgeois' indifferent actions after the murder.
In the event that the jury believed Robin and AB1994's account, Mr. Tinker discounted the
testimony showing intent and premeditation, making the murder an act of momentary anger.
Mr. Gilmore also briefly argued that the Government had ignored Robin Bourgeois' role in
the killing. He characterized Robin Bourgeois as one whose evolving story increasingly blamed
Bourgeois as it exculpated herself.
The jury deliberated for less than two hours before finding Bourgeois guilty of both counts
in the indictment.

B.

Sentencing Phase

The defense's focus shifted to securing a life sentence for Bourgeois. Months before trial,
the mitigation experts had interviewed many of Bourgeois' friends and family members. Although
their reports of each conversation were brief, the investigators gave trial counsel and their expert Dr.
Cunningham an outline of Bourgeois' background. As the actual sentencing hearing approached,
trial counsel were still deciding precisely which witnesses to call, depending on the case put on by
the Government. Before the hearing, defense counsel rented a conference room in a hotel nearby the
courthouse. Over the course of a day, the attorneys spoke with approximately 50 individuals,
shifting through their testimony to find that which would benefit and not harm Bourgeois. Trial
counsel also still had to make difficult decisions about using its expert witnesses, including whether
to call Dr. Cunningham to the stand. 14
The sentencing hearing began on Monday March 22, 2004. The course of the Government's

14

For instance, on the first day of the sentencing hearing the Court noted that trial
counsel did not want the jury instructed before proceeding on specific mitigating factors but
"want[ed] to build their case as it goes along." (DE 348 at 7). The defense chose to have the
mitigating factors listed in the jury's final charge.
25

PA061

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 26 of 40

case would shape the defense's response. The prosecutor's opening promised to bring forth
witnesses who would "testify about Alfred Bourgeois, about the last couple of decades of [his] life,
so you know who this Defendant is; other acts of cruelty and violence he has committed, so that you
may use those and apply those with what you have already heard." (DE 348 at 24).
As a threshold matter, the jury had to find that Bourgeois intentionally killed the victim.
Also, the Government alleged as statutory aggravating factors: that (1) Bourgeois killed in an
"especially heinous, cruel, or depraved manner" that involved "torture and serious physical abuse";
(2) he killed after "substantial planning and premeditation"; and (3) JG 1999 was "particularly
vulnerable due to her youth." Non-statutory aggravating factors included that (1) Bourgeois "is
likely to commit criminal acts of violence in the future which would be a continuing and serious
threat to the lives and safety of others" 15 and he "caused injury, harm, and loss to the family of
JG 1999 because of [her] personal characteristics as an individual human being and the impact upon
the victim's family." The instructions required the jury to find any of those issues beyond a
reasonable doubt.
The defense alleged that it had proven the following mitigating factors by a preponderance
of the evidence: (1) Bourgeois had an impaired capacity to understand the wrongfulness of his
conduct; (2) he was under "unusual and substantial duress"; (3) he did not have a "significant prior
history of other criminal conduct"; (4) he committed the offense under "severe mental or emotional
disturbance"; and (5) other relevant information. As non-statutory mitigating factors, the defense
hoped the jury would find that ( 1) Bourgeois had been abused as a child; (2) other persons "who may
be culpable in the offense may not be punished"; (3) he was "under stress from family and economic

15

The Government alleged that Bourgeois had (a) threatened others with violence, (b)
demonstrated low rehabilitating potential, and/or demonstrated lack of remorse.

26

PA062

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 27 of 40

factors"; and (4) at the time of the offense he "was driving across the country with three children and
one other adult in the cab of an 18-wheeler truck."
The Government adduced the following information in the punishment phase:

•

Bourgeois' mother-in-law Veronica Batiste who described how, while Robin
was in the hospital giving birth to AB2001, Bourgeois confronted Mrs.
Batiste at her home. When Mrs. Batiste expressed disapproval of how
Bourgeois abused Robin, he responded: "I'll beat her if I want. That's my
fucking wife." (DE 348 at 35). After a heated, profanity-laden tirade by
Bourgeois, she asked him to leave. He punched her in the mouth, grabbed a
lamp and struck her with it, and then continued beating her. AB 1994
witnessed the whole confrontation. (DE 348 at 35-37). Felony charges from
the incident remained pending at the time of trial. (DE 348 at 38). At
Bourgeois' wedding he fought with his brother-in-law when he told
Bourgeois never to beat Robin. (DE 348 at 42-43). Bourgeois repeatedly hit
Robin, including at a neighborhood gas station. (DE 348 at 48).

•

A young nephew testified that once while driving Bourgeois got angry, pulled
him from the car, and held him by the feet over the side of a high bridge. (DE
348 at 52-53). Bourgeois laughed as the scared child cried. That same day,
Bourgeois again held the child by his ankles over a pier at a boat launch. (DE
348 at 53-54). Another time, Bourgeois repeatedly dunked the child who
could not swim well under the water, even after he threw up from swallowing
so much water. (DE 348 at 56-57). Once, Bourgeois woke the child from his
sleep by grabbing his ankles. Bourgeois swung him around until the child's
head hit their dog. (DE 348 at 55).

•

Bourgeois' first wife, Sheila Bourgeois described how during their fourmonth marriage Bourgeois argued with her, pushed her, and choked her, even
when she was pregnant. When he pushed her over a chair and she "busted
up" her nose, she left him. (DE 348 at 61-62).

•

Another ex-wife, Cynthia Bourgeois, explained how her young child from
another relationship would "shake every time [Bourgeois] would come in her
presence." (DE 348 at 70). Once when Bourgeois took the girl away alone
she returned with a "big knot" on her head, a swollen forehead, a limp, and
a mark like a footprint on her back. (DE 348 at 70-71). The child said that
Bourgeois "had pulled her hair out, put her head in the commode." (DE 348
at 74). Cynthia left her husband and never let him see the child again. 16

16

Trial counsel's cross-examination showed that she only divorced Bourgeois after she
(continued ... )
27

PA063

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 28 of 40

•

Another wife, Gaynell Belvin James, testified that one time after she divorced
Bourgeois she let him take their son for the day. The three-year-old child
returned "very shaky, nervous" and "withdrawn" with a bruise on his thigh.
(DE 348 at 82). The child was too afraid to go with Bourgeois again for
many years. When he was thirteen, Bourgeois took him for what was
supposed to be a day. Bourgeois kept him for a month. (DE 348 at 87).

•

Another wife, Gaynell Collins Bourgeois, testified that Bourgeois had a bad
temper. During their marriage he would push and choke her. (DE 348 at
100). Bourgeois had an affair with Robin and got her pregnant while married
to Gaynell. She saw Bourgeois repeatedly hit Robin while she was pregnant.
(DE 348 at 102).

•

Before trial, Bourgeois told a Deputy United States Marshal, "Ifl was going
to hit somebody, I would hit you." (DE 348 at 108). Later, Bourgeois lunged
at the officer during a transfer. (DE 348 at 109).

•

Bourgeois' cousin, Isaac Bourgeois, III, got in a scuffle with Bourgeois over
insults to his mother. Bourgeois bit his pinky finger to the bone. (DE 348 at
115). The next day Bourgeois and his brother Lloyd confronted Isaac and his
mother with pistols and threatened to kill them. They then got in Lloyd's
truck, circled around the two, and told them they "could die today." (DE 348
at 116). Bourgeois was convicted of disorderly conduct as a result of the
incident. (DE 348 at 118). Isaac's mother, Beatrice Bourgeois, also testified
about the event. She explained that, while Lloyd later apologized for the
assault, Bourgeois never did. (DE 348 at 124).

•

Inmates testified about Bourgeois' incriminating admissions and threats while
incarcerated before trial. 17 Bourgeois knew that inmate Adam Longoria was
a member of the Texas Syndicate prison gang. When ajailor jokingly told
Bourgeois that Longoria was a hit man, Bourgeois communicated that he
wanted his cousin Lisa Monroe killed because "he wrote a threatening letter
to her, and she turned it in to the Judge." (DE 348 at 155). He said he also
wanted his wife and girlfriend "eliminated." (DE 348 at 155-56, 162).

16

( ... continued)
had an affair. (DE 348 at 79). Bourgeois had hired an investigator to follow her and prove she was
committing adultery. (DE 348 at 79).
17

In a carefully crafted instruction, the Court informed the jury that "the parties have
stipulated that as of January 23 of the year 2003, as part of the terms and conditions of Mr.
Bourgeois's confinement, he was prohibited from communicating with any other inmate. He could
only communicate with his attorneys or guards or the Court." (DE 348 at 144).
28

PA064

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 29 of 40

Bourgeois gave Longoria "names, addresses and everything." (DE 348 at
156). He promised that his brother Lloyd would give Longoria"[a] $100,000
18-wheeler, and names of people for drug runs[.]" (DE 348 at 157, 162).
Bourgeois confessed that he beat JG1999 "[w]ith a bat, some extension
cords." (DE 348 at 166). Bourgeois told inmate Orlando Campos that he
"beat[] up his ex-girlfriends"and "was going to kill [Robin] when he got
out[.]" (DE 341at81). He told Wiley Taylor and Darick Venore Moore that
he beat his wives and girlfriends. (DE 341 at 82, 87). He told Taylor he
"was trying to have [Robin] killed ... so that she wouldn't testify against
him." (DE 341 at 83). Bourgeois also confessed that he and his brother
made most of his money from running drugs and illegal aliens (DE 341 at
83, 87).
•

Robin Bourgeois testified that Bourgeois admitted that he did not have a
conscience. (DE 248 at 188). Robin read a lengthy letter that Bourgeois had
written to her uncle. (DE 348 at 188-211 ). Bourgeois intended her uncle to
tell Robin about the letter's contents. In the letter, Bourgeois repeatedly
insulted Robin and accused her of dishonesty. Bourgeois wrote: "in the name
of God, Robin[' s] days will be short. That niece of yours will have a short
life." (DE 348 at 196, 199). Robin understood the letter to be a threat against
her. (DE 348 at 211). Bourgeois' letter also alternated between accusing
Robin of killing JG 1999 and writing that she "fell out of the truck." (DE 348
at 202). He claimed: "All this shit about extension cord beatings, biting this
child, brutalizing this child, your niece told those people all this." (DE 348
at 198, 203). Bourgeois discussed extensively his view of the forensic
evidence in the case. (DE 348 a 206-08).

•

JG 1999' s grandmother provided sympathetic victim-impact testimony about
the toddler's life. (DE 348 at 219-41).

•

An FBI agent's testimony further indicated that Bourgeois was a liar and
manipulative. (DE 348 at 249-51 ).

On the first day of the punishment hearing, the Government called Dr. Estrada to testify. As
anticipated by the parties' agreement to his appointment as a witness, Dr. Estrada's testimony both
hurt and helped Bourgeois' case. Dr. Estrada, a psychiatrist, conducted an evaluation of Bourgeois
before trial which included reviewing letters and phone calls Bourgeois made while incarcerated.
Dr. Estrada briefly testified for the Government, primarily identifying aggravating
psychological issues from his testing. Dr. Estrada opined that Bourgeois had a "narcissistic

29

PA065

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 30 of 40

personality disorder" which made his "basic motivation in life ... the aggrandizing of his selfesteem." (DE 348 at 284). He "need[ed] to have this continuous positive feedback for [his] selfesteem[.]" (DE 348 at 284). Bourgeois' narcissism made him "lively, likeable. exciting, interesting,
sometimes very persuasive or charismatic," but his self-interest would inevitably "result in friction
that may lead to simply break-up of relationships ... or actual violence." (DE 348 at 285). As a
function of his narcissism, Bourgeois' self-reporting to Dr. Estrada exposed that he was a liar. 18
Dr. Estrada also found that Bourgeois met "a number of specific items that have been found
associated with violence" such as "being the subject ofrejection, neglect, and abandonment, being
the survivor of actual physical or sexual or emotional abuse," all of which can create "a very high
predisposition for violence as adults." (DE 348 at 281 ). Because of that background, Bourgeois had
"a much higher tendency toward violence than an ordinary person." (DE 348 at 285). In sum, Dr.
Estrada found Bourgeois to be both narcissistic and violent.
The defense began its case for mitigation through the much-longer cross-examination of Dr.
Estrada which left the jury with a more sympathetic picture of Bourgeois' life. 19 Dr. Estrada began
by putting Bourgeois' early life into context. He was the child from an illegitimate relationship. He
did not know his father when young. His mother singled him out for abuse. (DE 341 at 24).
Importantly, Dr. Estrada showed how Bourgeois' early life transformed him into a violent adult. Dr.
Estrada explained that, when he asked about abusive childhood, Bourgeois was "initially kind of

18

For instance, while Bourgeois claimed to lose consciousness from a car accident, Dr.
Estrada could not corroborate that. (DE 348 at 276). Also, Dr. Estrada could not confirm that
Bourgeois was as wealthy as he claimed to be. (DE 348 at 276).
19

This tactic allowed trial counsel to argue in closing that Dr. Estrada "is their expert.
Dr. Estrada is some who - who they say you as a jury should believe. They wouldn't put him on
there if they didn't think that you should be able to rely on what he tells you." (DE 342 at 57).
30

PA066

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 31 of 40

vague and a little reluctant." (DE 341 at 22). Dr. Estrada was not surprised because "individuals
who later may be abusive of their own children ... either gloss over or give excuses to their own
parents' neglect or abuse." (DE 341at23). Bourgeois "had suffered neglect and rejection, and there
was some physical abuse by his mother." (DE 341 at 23 ).
Dr. Estrada tied the abuse of JG 1999 to Bourgeois' background and the stressors he felt at
the time. Dr. Estrada explained that adults who abuse their children had commonly been abused
themselves. (DE 341 at 39). Bourgeois lived in a "family or subcultural type of environment where
a certain measure of violence in family relationships is accepted[.]" (DE 341at45). Because of his
own abused childhood and the lack of cultural opprobrium of abuse, "[i]t is not unusual in that
culture or context to be physically harsh in the disciplining of children." (DE 341 at 47). The stress
Bourgeois found himself under exacerbated his violent tendencies. Dr. Estrada explained:
My opinion was that Mr. Bourgeois at the time was going through a number of
stresses. Number one, he was - discovered that he had had an affair and a child as
a result of that affair. He was very angry about that. Second, he was under financial
stress with debts. Third, he had a serious marital problem with his wife, they had
been arguing about a number of things, and their mutual affairs. And they were in
a confined situation that made any little accident in the toilet the trigger for an
explosion of anger that came from a number of different directions, and ended up
focus[ed] on the child.
(DE 341 at 41 ). Notwithstanding his problems, Dr. Estrada opined that Bourgeois was not a
sociopath. (DE 341 at 66).
Dr. Estrada explained that Bourgeois was hard working, had a successful career as a trucker,
and had no history of violence outside the family context. (DE 341 at 46). Because he had "a
pattern of abusive relationships again and again and again," Dr. Estrada opined that Bourgeois would
continue to be violent "in a family situation." (DE 341 at 50). Dr. Estrada, however, could not
reliably predict whether "the conditions in which he will be in the future are going to be such that

31

PA067

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 32 of 40

will allow [violent] behaviors to manifest itself or not." (DE 341 at 50, 51). Dr. Estrada conceded
that with "higher ... supervision available" Bourgeois would have a "lesser degree of all kinds of
violent incidents[.]" (DE 341 at 52). Dr. Estrada could not predict how Bourgeois would act in a
prison situation, but he anticipated Bourgeois would be in a highly structured environment and, given
his age, would adjust better than others may. (DE 341 at 51-52).
The Government's redirect of Dr. Estrada questioned whether Bourgeois had actually
suffered abuse as a child. (DE 341 at 54-56). The Government, however, got Dr. Estrada to agree
to this summary of his testimony: "he's self-centered, ... he's angry, and ... he has a high risk
towards violence." (DE 341 at 62).
The record plainly shows that trial counsel struggled with which other witnesses to call. (DE
341 at 5). At the time of trial, the defense had "a whole room full of witnesses[.]" (DE 342 at 9192). Of those, trial counsel selected three people to testify in the penalty phase, each of whom knew
Bourgeois as a child. Bourgeois' sister Michelle Denise Armont, his cousin Carl Kevin Henry, 20 and
former neighbor Herman Clayton, Jr., described his impoverished and abused childhood. The
witnesses described how Bourgeois "suffered a lot of abuse ... from his mother." (DE 341at113).
He received many "whippings." (DE 341 at 125). His mother singled him out for abuse and even
"whipped [him] for something someone else did[.]" (DE 341 at 125). His mother would also
"chastise" him severely. (DE 341 at 114). The witnesses described some specific incidents
displaying his mother's cruelty. She would clean his nose with her long fingernails "and as time go
on it developed a real, real bad sore" that "always would be bloody." (DE 341at114). His mother
would "whip[] him with the extension cord from the fan" (DE 341at114). One time she threw the

20

Bourgeois insisted that trial counsel call Mr. Henry as a witness. The Government
impeached Mr. Henry, a former police officer, with his prior convictions for insurance fraud.
32

PA068

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 33 of 40

telephone receiver at him and hit him in the head. (DE 341 at 115). This abuse continued until he
reached high-school age. (DE 341 at 115).
During his childhood, Bourgeois went to live with Mary Clayton, an elderly neighbor who
everyone called Ms. Mary. (DE 341 at 98). Ms. Mary repeatedly asked Bourgeois' mother to let him
come live with her. Conditions improved for him as Ms. Mary "made sure that he had all his basic
needs as far as going to school, his clothing, his books, and all his necessities[.]" (DE 341 at 116).
Even so, children in the neighborhood teased him, primarily because his father was not around. (DE
341at116). His siblings joined in the teasing. When Ms. Mary died, Bourgeois went to live with
his sister, Ms. Armont. (DE 341 at 99). He did not move back in with his mother "because there
was a conflict that he had with his mother at that time[.]" (DE 341 at 99). Bourgeois had a temper
and would "get[] red in the face," but his sister could usually calm him down. (DE 341 at 100).
Despite her past abuse, however, Ms. Armont testified that Bourgeois and his mother "resolved the
problem [in] the end[.]" (DE 341 at 98).
Bourgeois also addressed the jury himself in the punishment phase. He told jurors:
My sympathy goes out to the soul of JG 1999, my baby, her family, relatives and
friends, and I'm very sorry for the death of my child. It's a hurting pain and a
sorrowful thing that happened. And I feel or believe that I have been wrongfully
accused of this crime that I've been convicted for. ...
So I feel like you all have been misled and I've been wrongfully convicted, and I'm
just sorry for the pain and suffering, that I've been wrongfully accused for the death
of my baby, and I did not kill my baby.
I just want to close with that I loved JG 1999, she's an infant that didn't actually come
in this world and I think the real murderer got off with this crime. I just think you all
should know that I have been wrongfully convicted. I feel my wife had a lot to do
with this and she walked away free, and I just had to say this. If I never get an
opportunity to say this to nobody else, my family, Katrina's family, JG1999 came
from a lovely family. When I picked her up, when she got in my custody I had no
problems with JG 1999. She was a lovely kid, very lovely. I realize some of the
pictures that you all seen in the swimming pool, I will say I was a little rough like
33

PA069

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 34 of 40

that. I'm like that with all my children. And I just feel you all have been wrongfully
misled.
I just think I want to close with that, saying that I love my baby, I love her family, I
love my family. And I thank each and every one of you for participating, the lawyers
for the job they did, and for everybody that communicated. And God bless all of you
all.
(DE 342 at 23-24).
Mr. Gilmore's closing argument began with the recognition that defense counsel faced a
daunting task: "[I]t's difficult for me to come up here and argue to you about this punishment and
what you're going to do [to] him knowing that [Bourgeois] maintains his innocence, and knowing
that you don't believe that[.]" (DE 342 at 45). The bulk of his argument, however, assumed that
Bourgeois killed JG 1999. After discussing the jury's role, Mr. Gilmore discussed mitigating factors
in Bourgeois' background. Mr. Gilmore highlighted that "his brothers and sisters made fun of him.
And his mother singled him out for abuse." (DE 342 at 47). Mr. Gilmore argued that Bourgeois'
abused background was not an excuse, but put context into the crime. The highly stressful
environment around Bourgeois - with economic, marital, and other difficulties - compounded
lingering problems from his childhood. In the context of the events swirling around Bourgeois, Mr.
Gilmore encouraged the jury to find that he "snapped. Intending to discipline her, ... it got out of
hand and it ended up killing her. That's not to excuse his behavior; it's to - in an attempt to try to
explain what happened." (DE 342 at 50). Mr. Gilmore urged the jury to find that life imprisonment
would be a sufficient, and violence-inhibiting, punishment for Bourgeois.
Mr. Tinker emphasized the severity of a life sentencing, including the high security that
would surround Bourgeois.

Mr. Tinker also wanted the jury to understand "who is Alfred

Bourgeois?" (DE 342 at 58). He discussed how Bourgeois was an "unwanted child in a large
family" with a mother who abused him. (DE 342 at 56). He discussed how, notwithstanding his
34

PA070

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 35 of 40

turbulent background, Bourgeois finished high school and worked as a trucker. Still, his poor home
life- where "he grew up in a society where it was accepted conduct to hit children with items, sticks,
switches, electrical cords" - was the "kind of rearing Alfred Bourgeois had and that's why he is what
he is today." (DE 342 at 60). His culture allowed that violence as a means of dealing with other
stressors, independent of the child's actions. (DE 342 at 61). But even so, Mr. Tinker argued that
living his life in "a cage within a cage within a cage" would prevent him from acting violently. (DE
342 at 63). Mr. Tinker then begged the jury not to impose a death sentence. (DE 342 at 66).
The jury instructions required a death sentence if the jury unanimously found that the
aggravating factors outweighed the mitigating factors. After five-and-a-half hours deliberation, the
jury returned a verdict of death. The jury found that the Government had proven all of the
aggravating and non-aggravating mitigating factors. The jury only found that Bourgeois had shown
two mitigating factors: six jurors found that he was under stress and all found that he was driving
across the country. (DE 299). The Court sentenced Bourgeois to die by lethal injection. (DE 303).
IV.

Appeal

Mr. Gilmore and Mr. Tinker represented Bourgeois on appeal to the Court of Appeals for the
Fifth Circuit. Bourgeois' appeal focused on the constitutionality of the aggravating factors that made
his a death-eligible offense. Specifically, Bourgeois raised four claims:
( 1) the government failed to charge any aggravating factors in the indictment, (2) the
FDPA statutory-intent factor that renders a defendant with a reckless state of mind
eligible for the death penalty violates the Eighth Amendment, (3) the district court
erred when it delegated to the Director of the Federal Bureau of Prisons supervision
over Bourgeois's execution, and (4) the aggravating factors used in his sentencing
were vague and ambiguous.

United States v. Bourgeois, 423 F.3d 501, 502 (5th Cir. 2005). In a detailed opinion, the Fifth
Circuit found no reversible error. The Fifth Circuit commented that: "This is not a close case.

35

PA071

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 36 of 40

Bourgeois fails to prove that there was any error, much less plain error, in any aspect of his trial.
Bourgeois's conviction and sentence are, in all respects, AFFIRMED." Id. at 512. The United States
Supreme Court refused certiorari review. United States v. Bourgeois, 547 U.S. 1132 (2005). 21 The
instant proceedings followed.

V.

Post-Judgment Proceedings and Evidentiary Hearing
This Court appointed counsel to represent Bourgeois in this post-judgment action. Bourgeois

filed a lengthy Motion for Relief Pursuant to 28 U.S.C. Section 2255 or in the Alternative Pursuant
to 28 U.S.C. 2241. (DE 396). Bourgeois also filed a Memorandum of Law in support of his motion.
(DE 402). Federal law focuses a 2255 action on whether an inmate's sentence "was imposed in
violation of the Constitution or laws of the United States, or that the Court was without jurisdiction
to impose such sentence, or that the sentence was in excess of the maximum authorized by law, or
is otherwise subject to collateral attack." 28 U.S.C. § 2255. "Relief under 28 U.S.C. § 2255 is
reserved for transgressions of constitutional rights and for a narrow range of injuries that could not
have been raised on direct appeal and would, if condoned, result in a complete miscarriage of
justice." United States v. Vaughn, 955 F.2d 367, 368 (5th Cir. 1992). Section 2255 actions are not
a retrial. See United States v. Kastenbaum, 613 F.2d 86, 89 (5th Cir. 1980) ("The guilt or innocence
of the defendant is not in issue on a§ 2255 proceeding, but rather the validity and the fairness of the
proceedings against him."). By this point, the presumption of innocence has run its course and the
inmate appears as one lawfully convicted. See Strickland v. Washington, 466 U.S. 668, 697 (1984)
("[T]he presumption that a criminal judgment is final is at its strongest in collateral attacks on that
judgment."); United States v. Cervantes, 132 F.3d 1106, 1109 (5th Cir. 1998) ("Following a

21

Keith S. Hampton and Adrienne Urrutia represented Bourgeois before the United
States Supreme Court.
36

PA072

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 37 of 40

conviction and exhaustion or waiver of the right to direct appeal, we presume a defendant stands
fairly and finally convicted."). A movant bears the ultimate burden of establishing his claims of
error by a preponderance of the evidence. See Wright v. United States, 624 F.2d 557, 558 (5th Cir.
1980).
Bourgeois' section 2255 motion raises the following grounds for relief:
1.

Bourgeois suffers from mental retardation, making him ineligible for
execution under Atkins v. Virginia, 536 U.S. 304 (2002), and the Federal
Death Penalty Act.

2.

Trial counsel provided ineffective assistance at the punishment phase of trial
by failing to present available mitigating evidence, including that of his
alleged mental retardation.

3.

Bourgeois' conviction violates due process because the fatal injury occurred
outside the Territorial Jurisdiction of the United States. Trial counsel should
have disputed the location of the crime.

4.

Trial counsel provided ineffective assistance by failing to present available
expert testimony that would have shown that Bourgeois did not sexually
assault the victim.

5.

Trial counsel provided ineffective assistance by not litigating a Daubert
challenge to testimony from Dr. Senn and Dr. Chrz concerning bite-mark
evidence.

6.

Trial counsel provided ineffective assistance by not litigating a Daubert
challenge to testimony from Dr. Oliver concerning the digitally enhanced
autopsy photographs.

7.

The Government violated its duty under Brady v. Maryland, 373 U.S. 83
(1963), by failing to disclose that four inmates were promised some benefit
for testifying against Bourgeois.

8.

Trial counsel labored under a conflict ofinterest because of his representation
of clients associated with this case.

9.

The Government engaged in misconduct by making improper argumentative
statements in the guilt/innocence and penalty phases.

10.

Trial counsel provided ineffective assistance by not rebutting evidence of
37

PA073

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 38 of 40

Bourgeois' indifferent demeanor at trial.
11.

A witness improperly relied on Bourgeois' interactions with counsel as a
basis to formulate an adverse opinion about him.

12.

Appellate counsel provided ineffective assistance by failing to advance
several claims.

13.

The cumulative effect of the claimed errors results in a constitutional
violation.

14.

The method by which the Government would carry out Bourgeois' execution
violates the Constitution.

Respondent filed an answer and motion to dismiss arguing that Bourgeois' claims are all
either procedurally insufficient or substantively without merit. (DE 442). Afterward, Bourgeois
filed a motion asking the Court to hold an evidentiary hearing on his claims. (DE 460). A court
should hold an evidentiary hearing and make findings of fact, "[u]nless the motion and the files and
records of the case conclusively show that the prisoner is entitled to no relief."§ 2255(b); see also
Rule 8, RULES GOVERNING SECTION 225 5 PROCEEDINGS FOR THE UNITED STATES DISTRICT COURTS
(requiring an evidentiary hearing when "warranted"). The Court held oral arguments on April 20,
2010, to designate the issues needing resolution through an evidentiary hearing. (DE 496). In the
end, the Court has, to a greater or lesser extent, allowed Bourgeois to present testimony and evidence
supporting nearly all his section 2255 claims. This Court has liberally allowed Bourgeois to prepare
the factual basis for his post-judgment claims through expert and investigative assistance. The
parties have developed a rich factual record through the submission of written interrogatories,
declarations, and record documents.
The Court held a week-long evidentiary hearing for the parties to present witnesses. 22

22

Bourgeois called the following witnesses in the hearing: Dr. Victoria Swanson, Dr.
(continued ... )
38

PA074

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 39 of 40

Testimony during that week often extended long after normal court hours. Aside from the witnesses
called during that hearing, the Court has heard testimony at different dates and allowed the taking
of video depositions of other witnesses. 23 The Court has spent many hours reviewing the testimony
of the out-of-court witnesses. The Court has afforded Bourgeois a full and fair opportunity to
develop his arguments.
The witnesses and evidence before the Court fall into three groups. First, Bourgeois called
witnesses who challenged particular pieces of forensic evidence presented at trial. Specifically
relating to claims 3, 4, 5, and 6, witnesses alleged that the Government's case at trial relied on
inaccurate evidence about where Bourgeois killed JG 1999, whether he sexually assaulted her, and
ifhe was the one who bit her. Second, several witnesses provided testimony relating to claims 1 and
2. This testimony included testimony from trial counsel Mr. Gilmore, one of Bourgeois' trial
investigators, and people who knew him while growing up. Importantly, experts provided detailed
testimony about Bourgeois' alleged intellectual and psychological deficiencies. Finally, witnesses
provided information about Bourgeois' seventh claim that the Government withheld the fact that it

22

continued)
Donald Weiner, Dr. Jethro Toomer, Kathleen Kaib, Claudia Williams, Beverly Frank, Brenda
Goodman, Dr. Mark Cunningham, Carl Henry, Donald Reese, Murray Bourgeois, Jon Dailey,
George Walker Holden, Jennifer Valdez, Dr. Charles Michael Bowers, John Gilmore, Kerry Brown,
Timothy Allen, and Gerald Bierbaum. The Government called Danny Clark, Robert Patterson,
William Shotts, Christopher Key, Rhonda Davis, Dr. J. Randall Price, and Dr. Roger Bryan Moore,
Jr.
( ...

23

On September 10, 2010, the parties deposed Dr. Carlos Estrada. On that same date,
Dr. Michael M. Gelbort gave live testimony in this Court. Most of the witnesses testified in the
evidentiary hearing held from September 20 through September 24, 2010. The parties deposed Dr.
William Russell Oliver and Dr. Manfred Schenk on October 28, 2010. The parties also took
additional deposition testimony from Dr. Randall Price on November 10, 2010. They also deposed
Dr. Jan. E. Leetsma on January 10, 2011. On January 13, 2011, the Court heard testimony from
William Edward May, Jr., James Sales, Dr. Elizabeth Aldrich Rouse, Debra Hohle, and Patti Hubert
Booth.
39

PA075

Case 2:02-cr-00216 Document 660

Filed in TXSD on 05/19/11 Page 40 of 40

had made deals with trial witnesses. These three categories of witnesses inferentially provided
testimony relating to the remaining claims, such as that the cumulative effect of the alleged errors
prejudiced Bourgeois.
The Court will address the relevance, importance, and credibility of each post-conviction
witness' testimony in conjunction with the related ground for relief.

PROCEDURAL ADEQUACY OF BOURGEOIS' CLAIMS
Before turning to the substance of Bourgeois' claims, he must show that he brings them
before the Court in a procedurally adequate manner. Respondent argues that Bourgeois has defaulted
claims 3, 7-9, 11, 13, and 14 by not raising them on direct appeal. Post-judgment relief exists only
for errors that an inmate could not raise on direct appeal. See Massaro v. United States, 538 U.S.
500, 504 (2003) (finding that, with the exception of ineffective-assistance-of-counsel claims, "claims
not raised on direct appeal may not be raised on collateral review unless the petitioner shows cause
and prejudice"). Bourgeois could, and should, have raised some issues on direct appeal. For
instance, his allegations that the Government did not prove the jurisdictional element of his crime
beyond a reasonable doubt (claim three); the Government's closing argument amounted to
prosecutorial misconduct (claim nine); and a witness' testimony improperly relied on Bourgeois'
trial demeanor to form an opinion (claim eleven), all rest on the trial record. Also, as the Court will
discuss later, his fourteenth claim that attacks the Government's method-of-execution is not properly
before the Court. The merits of those claims are not fully available for the Court's consideration.
However, the Court also finds that aspects of the challenged claims extend beyond the record
as it existed on appeal. For instance, a portion of Bourgeois' third claim imputes ineffective
assistance to trial counsel for failing to challenge the Government's proof ofjurisdiction. Bourgeois'

Brady claim (claim seven) and his conflict-of-interest claim (claim eight) both involve factual bases
40

PA076

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 1 of 40

not available at the time of appeal. His cumulative-error claim (claim thirteen) asks the Court to take
into consideration issues that he properly raised for the first time in his Motion to Vacate. The
Court, therefore, finds that a procedural bar only forecloses consideration of Bourgeois' ninth,
eleventh, and part of his third claims.
A procedural bar is not insuperable. An inmate may overcome the procedural bar by (1)
demonstrating "cause" for not raising the issue on direct appeal and "actual prejudice" resulting from
the error or (2) showing that he is "actually innocent" of the crime for which he was convicted. See
United States v. Frady, 456 U.S. 152, 157 (1982); United Statesv. Kallestad, 236 F.3d 225, 227 (5th
Cir. 2000); United States v. Flores, 981F.2d231, 234-37 (5th Cir. 1993). 24 Bourgeois does not
claim to be actually innocent. Instead, Bourgeois argues that he can overcome any procedural bar
because appellate counsel's failure to raise the defaulted issues amounts to ineffective assistance.
As the Court will discuss at greater length with respect to Bourgeois' related substantive ineffectiveassistance-of-appellate-counsel claim (claim twelve), he has not shown that his appellate counsel
violated his constitutional rights by omitting any issue on appeal. The Court, therefore, finds that
a procedural bar forecloses relief on Bourgeois' ninth, eleventh, and part of his third claim. Given
the severity of the sentence Bourgeois faces and the importance of ensuring the fundamental fairness
of capital trials, however, the Court will briefly address the merits of the procedurally barred claims
in their respective order.

24

Bourgeois also argues that the International Covenant on Civil and Political Rights
(ICCPR) trumps the American judicial system's procedural-bar jurisprudence. Bourgeois has not
pointed to any authority forgiving procedural deficiencies based on that, or another, international
treaty. The Supreme Court has found that other international treaties do not preempt the operation
of procedural bars. See Medellin v. Texas, 552 U.S. 491, 512 (2008); Sanchez-Llamas v. Oregon,
548 U.S. 331, 351 (2006).

41

PA077

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 2 of 40

ANALYSIS
I.

Bourgeois' Alleged Mental Retardation (claim one)

Bourgeois alleges that mental retardation precludes his execution under Atkins v. Virginia,
536 U.S. 304 (2002). No mental health professional identified Bourgeois as mentally retarded until
after he received a death sentence. Up to that point, Bourgeois had lived a life which, in broad
outlines, did not manifest gross intellectual deficiencies. Bourgeois graduated from high school at
age 18, with the only record of his grades showing B's, C's, and D's. He worked for many years as
a long-haul truck driver. He bought a house, purchased cars, and handled his own finances. IQ
testing before trial resulted in low scores, but one expert nonetheless described his intelligence in
a manner inconsistent with mental retardation. Trial counsel's extensive interaction with Bourgeois
did not hint that he was mentally retarded. Bourgeois' trial testimony, long colloquies with the
Court, and detailed writings never called into question his intellectual functioning.
Bourgeois now claims that the accomplishments of his life mask an intellect falling within
the lowest two percent of the population. According to Bourgeois, his loved ones always considered
him to have low intelligence. He owed his academic grades and high school graduation to social
promotion, not intellectual competency. Success, such as it came to him, only resulted from
significant support and assistance from others. Through his life, Bourgeois purportedly compensated
for his low intelligence by subtly eliciting the help. However, no one ever tested Bourgeois for
mental retardation until the Government charged him with capital murder. Until after he received
a death sentence, Bourgeois allegedly hid his mental deficiencies and gave the appearance of
operating with adequate intelligence. This left his current attorneys with the task of trying to prove
his mental retardation through retroactive assessment- something the psychological profession did
not design its tests to do.
42

PA078

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 3 of 40

Bourgeois has amassed lay accounts and expert opinions to support his claim that he falls
within the category of offenders the Supreme Court intended to exempt from execution. He also
argues that trial counsel provided deficient performance by failing to recognize and develop evidence
of his mental retardation. The Government has responded with significant evidence showing that,
while Bourgeois' intellectual functioning maybe below normal, he is not mentally retarded. A full
review of the evidence and applicable law demonstrates that Bourgeois' Atkins claim is without
merit.

A.

Background of Bourgeois' Atkins claim

Bourgeois claims both statutory and Constitutional law precludes his execution. In Atkins,
the Supreme Court found under the Eighth Amendment's "evolving standards of decency" review
that "death is not a suitable punishment for a mentally retarded criminal." Atkins, 536 U.S. at 321.
Even before Atkins, however, the Federal Death Penalty Act of 1994 mandated that "[a] sentence of
death shall not be carried out upon a person who is mentally retarded." 18 U.S.C.A. § 3596(c). 25
"The only substantive change ... ushered in by Atkins with respect to federal capital defendants,
then, is the recognition of a new source offederal law (i.e., constitutional) that bars their execution."

United States v. Webster, 421 F.3d 308, 311 (5th Cir. 2005). 26

25

A dearth ofjurisprudence exists with regard to Atkins cases under the FDPA. Federal
cases do not meaningfully distinguish Atkins cases under the FDP A from those originating in state
court. The Court, therefore, will look to death penalty cases arising from state jurisdictions, which
federal courts evaluate whether a judgment is "contrary to, or involved an unreasonable application
of, clearly established Federal law[.]" 28 U.S.C. § 2254(d)(l).
26

In the memorandum oflaw supporting his section 225 5 motion, Bourgeois argues that
his history of mental problems should prevent his execution. (DE 402 at 15). In other words,
Bourgeois asks the Court to extend Atkins beyond prohibiting the execution of the mentally retarded
to anyone with mental illness. The Fifth Circuit has found that, absent any indication of insanity,
the Constitution does not prevent the execution of mentally ill inmates. See Shis!nday v.
(continued ... )
43

PA079

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 4 of 40

The Atkins Court, however, approached the new constitutional constraint on executions with
caution. While acknowledging that prevalent societal norms protected the mentally retarded, the
Supreme Court left the contours of that new exemption murky. The Atkins Court conceded that "[t]o
the extent that there is serious disagreement about the execution of mentally retarded offenders, it
is in determining which offenders are in fact retarded." 536 U.S. at 317. Instead of creating a
bright-line test to determine intellectual ineligibility for death, the Supreme Court "did not provide
definitive procedural or substantive guides for determining when a person who claims mental
retardation will be so impaired as to fall within Atkins' compass." Bobby v. Bies, _U.S._, 129
S. Ct. 2145, 2150 (2009) (quotation omitted); see also Moore v. Quarterman, 454 F.3d 484, 493 (5th
Cir. 2006) ("[T]he Atkins Court did not adopt a particular criteria for determining whether a
defendant is mentally retarded[.]").
Accordingly, a" welter of uncertainty follow[ ed] Atkins" because "the Supreme Court neither
conclusively defined mental retardation nor provided guidance on how its ruling should be applied
to prisoners already convicted of capital murder." Bell v. Cockrell, 310 F.3d 330, 332 (5th Cir.
2002). Time has produced a patchwork of judicial standards, all informed to a greater or lesser
extent by the psychological profession's understanding of mental retardation. This case, like many
following in Atkins' wake, depends on the interplay between constitutional law and psychological
science.
The psychological profession generally agrees as to what standards govern a diagnosis of
mental retardation, though the experts in this case have differed drastically in their application of

26

continued)
Quarterman, 511F.3d514, 521 (5th Cir. 2007). Bourgeois has not alleged that he is incompetent
for execution, and nothing in the record at this point suggests a similar mental condition. Bourgeois
has not shown that this Court should extend the Atkins decision to mentally ill death row inmates.
( ...

44

PA080

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 5 of 40

those standards. Two sources provide equally valid definitions of mental retardation. The Atkins
Court relied on the definition provided by the American Association on Mental Retardation
("AAMR"), which is now known as the American Association on Intellectual and Developmental
Disabilities ("AAIDD"):
Mental retardation refers to substantial limitations in present functioning. It is
characterized by significantly subaverage intellectual functioning, existing
concurrently with related limitations in two or more of the following applicable
adaptive skill areas: communication, self-care, home living, social skills, community
use, self-direction, health and safety, functional academics, leisure, and work. Mental
retardation manifests before age 18.

Atkins, 536 U.S. at 309 n.3 (quoting AMERICAN ASSOCIATION OF MENTAL RETARDATION' MENTAL
RETARDATION: DEFINITION, CLASSIFICATION, AND SYSTEMS OF SUPPORTS 5 (9th ed. 1992) ("AAMR
9th")) (emphasis added). 27 In addition to the AAMR, the Atkins Court also referenced the American

27

The Atkins Court relied on the AAMR 9th edition's understanding of mental
retardation. In May 2002, the AAMR released a 10th edition that slightly modified its definition:
"Mental retardation is a disability characterized by significant limitations both in intellectual
functioning and in adaptive behavior as expressed in conceptual, social, and practical adaptive skills.
This disability originates before age 18." AAMR lOTH at 1 (10th Ed. 2002). The AAIDD has
recently published an 11th edition of the manual, with the following definition: "Intellectual
disability is characterized by significant limitations both in intellectual functioning and adaptive
behavior as expressed in conceptual, social, and practical skills. This disability originates before age
18." AAIDD 11th at 1. The definition now includes five "assumptions":
(1) limitations in present functioning must be considered within the
context of community environments typical of the individual's age
peers and culture;
(2) valid assessment considers cultural and linguistic diversity as well
as differences in communication, sensory, motor, and behavioral
factors;
(3) within an individual, limitations often coexist with strengths;
(4) an important purpose of describing limitations is to develop a
profile of needed supports; and
(continued ... )
45

PA081

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 6 of 40

Psychiatric Association's ("APA") definition of mental retardation. See Atkins, 536 U.S. at 309 n.3
(quoting DIAGNOSTIC AND STA TIS TI CAL MANUAL OF MENTAL DISORDERS 41 (4th ed. 2000)
("DSM-IV-TR"). The AP A definition states
The essential feature of Mental Retardation is significantly subaverage general
intellectual functioning (Criterion A) that is accompanied by significant limitations
in adaptive functioning in at least two of the following skill areas: communication,
self-care, home living, social/interpersonal skills, use of community resources,
self-direction, functional academics, work, leisure, health, and safety (Criterion B).
The onset must occur before age 18 years (Criterion C).
DSM-IV-TR at 41 (emphasis added). Together, the APA and the AAIDD standards for mental
retardation thus contain three indispensable criteria for arriving at a diagnosis of mental retardation:
(1) significantly subaverage intellectual functioning; (2) related significant limitations in adaptive
skill areas; and (3) manifestation of those limitations before age 18. See Clark v. Quarterman, 457
F.3d 441, 446 (5th Cir. 2006). 28

27

( ... continued)
(5) with appropriate personalized supports over a sustained period,
the life functioning of the person with intellectual disability generally
will improve.

Id. Dr. Swanson and Dr. Moore relied on the 11th edition. Dr. Price relied on the DSM-IV
definition, but mentioned the AAMR 9th standards. Dr. Gelbart did not specifically assess for
adaptive deficits, but mentioned a standard similar to the 10th or 11th editions. The experts did not
describe any meaningful distinction between the various editions as to the substance of what
constitutes mental retardation. Dr. Price explained that the 11th edition is "a restatement of the same
thing" without "significant differences." (DE 595 at 282). To date, the Fifth Circuit "has never
distinguished between" the various editions of the psychological manual. Moore v. Quarterman, 342
F. App'x 65, 72 n.6 (5th Cir. 2009). The Court will generally refer to the 11th edition when referring
to the evidence in this case, but will also occasionally mention the earlier editions under which
significant Atkins jurisprudence has developed.
28

Because the witnesses referred to the AAIDD by both its current and former names,
the Court will also do so interchangeably. The AAIDD currently uses the term "intellectual
disability" instead of mental retardation. See AAIDD 11th at xvi. The AP A, however, has not yet
adopted the term "intellectual disability" and the current diagnostic manual still contains the phrase
(continued ... )
46

PA082

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 7 of 40

Courts have uniformly accepted this tripartite formulation for deciding whether an inmate
qualifies for Atkins protection. Yet courts have also struggled to guarantee that convicted capital
murderers who claim to be mentally retarded are evaluated in a nonarbitrary manner.

An

examination for mental retardation, and particularly the adaptive-skills component of that inquiry,
involves the subjective evaluation of skills, aptitudes, and life experiences. Transposing the
psychological community's understanding of mental retardation unto the legal context amplifies the
subjectivity of this analysis.
Here, as in most Atkins cases, equally qualified experts have examined Bourgeois and his life
and reached drastically different professional opinions about his intellectual functioning. See Wiley

v. Epps, 625 F.3d 199, 215 (5th Cir. 2010) (noting that most Atkins cases involve "essentially a battle
of the experts, who gave competing opinions as to [an inmate's] IQ and intellectual functioning").
As will be discussed below, Bourgeois' experts conclude that he is mentally retarded. The law,
however, has not completely turned the question of eligibility for execution over to the psychological
community. See Clark, 457 F.3d at 445 (recognizing that the Supreme Court in Atkins did not hold
that courts "must track the approach of the [AAIDD] or the APA exactly"). The law observes that
"[p ]sychiatry is not ... an exact science, and psychiatrists disagree widely and frequently on what
constitutes mental illness, on the appropriate diagnosis to be attached to given behavior, [and] on
cure and treatment[.]" Ake v. Oklahoma, 470 U.S. 68, 81 (1985); see also Jones v. United States,
463 U.S. 354, 365 (1983) ("The only certain thing that can be said about the present state of
knowledge and therapy regarding mental disease is that science has not reached finality of

28

( ... continued)
"mental retardation." To preserve continuity with existing jurisprudence, the Court will use the term
"mental retardation" throughout this Memorandum and Order.

47

PA083

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 8 of 40

judgment."). 29 The Atkins decision did not delegate to psychologists the determination of whether
an inmate should not face execution, but left the contours of the constitutional protection to the
courts. Thus, psychology informs, but does not determinatively decide, whether an inmate is exempt
from execution. See Hall v. Quarterman, 534 F.3d 365, 395 (5th Cir. 2008) (observing that federal
courts cannot "commit the ultimate decision of mental retardation to the experts" alone).
With those principles in mind, the Court turns to the expert and lay evidence relating to
mental retardation. 30

29

The psychological community's understanding ofmental retardation is evolving. The
few short years since the Atkins decision has seen change in the definition of mental retardation,
renovation of the name of the most prominent advocacy organization, and even abandonment of the
very term mental retardation. Adoption of the phrase "intellectual disability" is only the most-recent
terminology in the psychological community's developing understanding of mental retardation. See
AAIDD 11th at 7-11 (outlining the various definitions of and terms for mental retardation used by
the mental health community in the last century). As the AAIDD observed in the 10th edition of its
guidebook:
The field of mental retardation is currently in a state of flux regarding not just a fuller
understanding of the condition of mental retardation, but also the language and
process used in naming, defining, and classifying. For example, we are in the midst
of discussions about the nature of intelligence; the relationship between intelligence;
the implementation of the supports paradigm; the best way to conceptualize disabling
conditions; the impact of consumer and reform movements; and the effects of
terminology upon individual lives.
This state of flux is both frustrating and challenging. It is frustrating because it
prohibits one from relying on past language, definitions, and models of mental
retardation that can be a source of stability and permanence to some. However, the
state is also challenging, as it provides the opportunity to incorporate the current and
evolving understanding of the condition of mental retardation and the factors that
influence the lives of people in their societies. Whether perceived from a positivistic
or social perspective, the condition of mental retardation is being thought of
differently today throughout the world.
AAMR 10th at xii.
30

An inmate bears the burden of proof on his Atkins claim and must prove the existence
(continued ... )
48

PA084

Case 2:02-cr-00216 Document 660-1

B.

Filed in TXSD on 05/19/11 Page 9 of 40

Intellectual Functioning

To qualify for a diagnosis of mental retardation, an individual must first show significantly
substantial limitations in intellectual functioning. The psychological profession uses a Full-Scale
IQ score "of about 70 or below (approximately 2 standard deviations below the mean)." as the key
indicator of intellectual ability. Atkins, 536 U.S. at 309 n.5. Because IQ tests typically have a
standard error of measurement (also called a "confidence interval" or "confidence band"), a base IQ
score actually represents a range that could be five points higher or lower. Thus, the psychological
profession accepts 7 5 as a qualifying score for a diagnosis of mental retardation. See DSM-IV-TR
at 41-42; Clark, 457 F .3d at 445. A higher IQ score signifies borderline intellectual functioning, not
mental retardation. 31

30

( ... continued)
of mental retardation. See Lockett v. Anderson, 230 F.3d 695, 707 (5th Cir. 2000) (holding that a
habeas petitioner generally has "[t]he burden of demonstrating that a constitutional violation
occurred"). Yet neither Atkins nor the Federal Death Penalty Act clarify what standard governs
mental-retardation claims. Circuits have held that the Constitution prohibits the application of a
beyond-a-reasonable-doubt standard to Atkins claims. See Hill v. Schofield, 608 F.3d 1272, 1278-82
(11th Cir. 201 O); Webster, 421 F.3d at 311. Under 18 U.S.C. § 4241, district courts generally resolve
matters regarding mental illness and competency under a preponderance-of-the-evidence standard.
Some state courts have adopted a similar standard in adjudicating Atkins claims. See Webster, 421
F .3d at 312 (reviewing state cases). Others, however, require a defendant to prove mental retardation
by clear and convincing evidence. See State v. Grell, 135 P .3d 696, 523 (Ariz. 2006). The Fifth
Circuit has, in another context, questioned whether'" some heightened standard of proof might apply
to sentencing determinations which bear significantly on the severity of sentence."' United States
v. Greer, 158 F.3d 228, 240 (5th Cir. 1998) (quoting Almendarez-Torres v. United States, 523 U.S.
224, 248 (1998)). For instance, a defendant has the burden of proving the affirmative defense of
insanity under a clear-and-convincing evidence standard. See 18 U.S.C. § 17. While the application
of a stringent burden of proof in Atkins cases would impose "a significant risk of an erroneous
determination," Cooper v. Oklahoma, 517 U.S. 348, 363 (1996), this Court need not decide which
standard governs Bourgeois' claim. As the Court will discuss at length above, Bourgeois has not
shown mental retardation even ifhe must only meet a preponderance-of-the-evidence standard.

31

The APA recognizes four categories of mental retardation: mild, moderate, severe,
and profound. See DSM IV-TR at 42-44. Individuals with IQ scores between 55 and 70 - around
(continued ... )
49

PA085

Case 2:02-cr-00216 Document 660-1

I.

Filed in TXSD on 05/19/11 Page 10 of 40

Bourgeois' IQ Scores

The record contains two IQ scores for Bourgeois, both of which potentially qualify him for
a diagnosis of mental retardation. One week before trial, Dr. Donald Weiner, a psychologist,
administered the Wechsler Adult Intelligence Scale-Revised ("WAIS-R") test to Bourgeois.
Bourgeois obtained a Verbal Score of 76, a Performance Score of 76, and a Full Scale score of 75
on the WAIS-R. 32 The WAIS-R, however, was not the most-current version of the Wechsler. By the
time of trial, that test was outdated, the up-to-date testing instrument being the Wechsler Adult
Intelligence Scale-III (WAIS-III).33 Dr. Weiner's purpose in examining Bourgeois, however, was
not to diagnose or rule out mental retardation; the defense retained him to identify neurological
deficits. (DE 594 at 267). Dr. Weiner chose to administer the outdated test because more research

31

( ... continued)
85% of the mentally retarded population- are classified as mildly mentally retarded if they satisfy
the adaptive-functioning and age-at-onset criteria. See also AAIDDl lth at 32 (observing that
between 75% to 89% of the population with mental retardation is mildly mentally retarded). The
law has not drawn a distinction between these categories of mental retardation for the purpose of
Atkins protection.
32

Due to a transcription error, Dr. Weiner initially recorded the Full-Scale score as 76.
Dr. Weiner explained in the evidentiary hearing:
[T]his report had to be gotten out very quickly in the context of other things that were
scheduled and I don't remember, I might have typed this one myself to get it back in
time and if so I just made a typographical error, looking at the results from the test
and then transcribing it; and ifit was my typist, who is usually very accurate, she then
would have gotten this report back to me much more quickly than usual and could
have made an error that I just didn't catch.
(DE 594 at 219). At the time of trial, this error made little difference because Dr. Weiner "wasn't
asked to do an assessment for mental retardation." (DE 594 at 263).
33

Federal courts have recognized the WAIS-Illas a "gold standard" testing instrument.
See Thomas v. Quarterman, 335 F. App'x 386, 391 (5th Cir. 2009). A fourth version of the
Wechsler, the WAIS-IV, is the currently updated test. No expert has administered the WAIS-IV to
Bourgeois.
50

PA086

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 11 of 40

was available linking WAIS-R scores to neurological deficiencies than was available for the WAISIII. (DE 594 at 218, 263, 251).34
Dr. Michael Gelbort performed the only psychological testing intended to assess whether
Bourgeois has substantial limitations in intellectual functioning. Bourgeois' current attorneys did
not ask Dr. Gelbort to make a final diagnosis of mental retardation, only to evaluate his intellectual
capacity. (DE 560 at 78). In 2007 Dr. Gelbort administered the WAIS-III, with Bourgeois obtaining
a Verbal Score of 67, a Performance Score of 78, and a Full Scale Score of70. Bourgeois' Full
Scale IQ scores facially make a diagnosis of mental retardation possible.
Bourgeois relies on the naked IQ scores to satisfy Atkins' first prong. Bourgeois called Dr.
Gelbort in the evidentiary hearing to explain the results of his examination. Dr. Gelbort testified
that:
Mr. Bourgeois is of limited intellectual ability. He comes out - he tests out pretty
much in the borderline to mildly defective range. He shows indication of difficulties,
... of having frontal lobe impairments, that he did take the tests as requested and put
forth good effort. His learning is problematic, especially when he has to understand
conceptually the information being presented to him. So he can memorize
adequately, but he has trouble taking in or encoding and forming new memories and
making lasting memories for information that's more conceptual or complex.

34

On some subtests of the WAIS-R, Bourgeois exhibited "low average abilities," in
others, average. He only exhibited "a significant deficit in assembling an object from its parts." Dr.
Weiner also administered the Wide Range Achievement Test, Third Edition ("WRAT-III").
Bourgeois WRAT-III scores showed higher aptitude. Bourgeois obtained high-school equivalent
scores in reading and spelling, but only at the sixth-grade level for arithmetic. Dr. Weiner opined
that Bourgeois "is functioning at the expected level for a high school graduate in reading and
spelling. Arithmetic is an area of weakness for him, but he does not have any specific learning
disabilities." However, in his videotaped examination by Dr. Price, Bourgeois seemed able to do
mental mathematical computations adequately. Notwithstanding his low scores on the WAIS-R, Dr.
Weiner opined that, while his "overall level of intellectual functioning is in the borderline range,"
he "shows no indications of having any specific learning disabilities."
51

PA087

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 12 of 40

(DE 560 at 29). 35 Dr. Gelbort's testimony did not address whether Bourgeois' life manifested
intellectual deficiencies outside of the testing context.

He explained: "when I'm basing an

assessment of their intellect, I'm going to use my intellectual tests" and not factor in information
such as whether Bourgeois' interactions with the Court manifest mental retardation. (DE 560 at
134).

2.

Legal Evaluation of Intelligence in Atkins Cases

Even though Bourgeois' testing has twice resulted in scores that possibly qualify him for
mental retardation, the law has not recognized an IQ score below 75 as automatically meeting the
significantly substantial limitations prong. Atkins itself did not establish a cut-off IQ score that
exempts inmates from execution. Much of the case law since Atkins has focused on inmates who
score in the borderline area around 70. While the Fifth Circuit has specified that "mental retardation

can be found in range of 70-75," Moore v. Quarterman, 342 F. App'x 65, 68 n.5 (5th Cir. 2009)
(emphasis added), all cases in which the Fifth Circuit has found that an inmate warrants Atkins relief
have involved at least one base score below 70 without adjustment. See Thomas v. Quarterman, 335
F. App'x 386, 388 (5th Cir. 2009) ("[S]ubaverage intellect ... is typically established ... a score of
70 or below."). 36

35

Dr. Gelbart did not administer any formal instrument to assess whether Bourgeois
was malingering. (DE 560 at 113). Dr. Gelbart based his opinion that Bourgeois put forth good
effort based on "how the data line[d] up," both internally and in comparison to Dr. Weiner's testing,
because "there's good consistency across time." (DE 560 at 31-32, 34).
36

The Fifth Circuit has only granted relief on Atkins claims in three cases, and each
presented at least one score below 70. See Wileyv. Epps, _F.3d_, 2010 WL 4227405, at* 7
(5th Cir. 2010) (noting a childhood score of 68); Moore v. Quarterman, 342 F. App'x 65, 68 (5th
Cir. 2009) (finding significantly subaverage intellectual functioning with IQ scores ranging from 66
to 76); Rivera v. Quarterman, 505 F.3d 349, 361 (5th Cir. 2007) (finding mental retardation with
scores as low as 66). In each of those cases, the AEDPA's deferential standard did not constrain the
(continued ... )
52

PA088

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 13 of 40

As previously mentioned, psychology does not look at IQ as a fixed point, but as existing
along a range. The confidence interval associated with WAIS-Rand WAIS-III scores means that
a given score may actually represent an IQ five points higher or lower. See Clark, 457 F .3d at 444. 37

36

( ••• continued)

federal analysis. Most often, the Fifth Circuit has denied relief when an inmate has IQ scores both
under and over 70. See Hall v. Thaler, 597 F.3d 746, 746-47 (5th Cir. 2010) (scores ranging from
67 to 84); Thomas v. Quarterman, 335 F. App'x 386, 388-89 (5th Cir. 2009) (three IQ tests scoring
67, 75, and 77); Rosales v. Quarterman, 291 F. App'x 558, 561 (5th Cir. 2008) (a pre-Atkins score
of 82 and a post-Atkins scores of 61 and 73); Moore v. Quarterman, 517 F.3d 781, 784 (5th Cir.
2008) (finding no mental retardation with full-scale IQ scores of 63, 68, 72, 76, and 76); Morris v.
Quarterman, No. 07-70012 (5th Cir. Apr. 17, 2008) (pre-Atkins score of97 and post-Atkins scores
of 53 and 64); Perkins v. Quarterman, 254 F. App'x 366, 369 (5th Cir. 2007) (scores ranging from
66 to 80); Taylor v. Quarterman, 498 F.3d 306, 307-08 (5th Cir. 2007) (pre-Atkins score of 75 and
post-Atkins scores of 65 and 69); Woods v. Quarterman, 493 F.3d 580, 585-86 (5th Cir. 2007) (preAtkins scores of 78 and 80 and post-Atkins score of 68); Clark v. Quarterman, 457 F .3d 441, 445-46
(5th Cir. 2006) (pre-Atkins score of 74 and post-Atkins scores of 65 and 68). The Fifth Circuit has
also denied relief when an inmate's scores all fall above 70. See Pierce v. Thaler, 604 F.3d 197,
214-15 (5th Cir. 2010)(WAIS-III score of 70); Williams v. Quarterman, 293 F. App'x 298, 310-11
(5th Cir. 2008) (three different IQ tests scoring a 70 or 71); Eldridge v. Quarterman, 325 F. App'x
322, 325 (5th Cir. 2009) (scores ranging from 72 to 112).
37

Bourgeois asks the Court to treat his results on the WAIS-Ras much lower than the
raw full scale score of 75 based on a phenomenon known as the Flynn Effect. "The Flynn Effect .
. . posits that, over time, the IQ scores of a population rise without corresponding increases in
intelligence and thus the test must be re-normalized overtime." In re Mathis, 483 F.3d 395, 398 n.1
(5th Cir. 2007). The AAIDD 11th edition advises that "best practices require recognition of a
potential Flynn Effect when older editions of an intelligence test (with corresponding older norms)
are used in the assessment or interpretation of an IQ score." AAIDD 1lth, at 37 (emphasis added).
All the experts who testified in the evidentiary hearing agreed that the Flynn Effect is a phenomenon
that exists in IQ scores throughout society, but they disagreed about whether the general elevation
of IQ scores over time requires adjustment of individual test results. For instance, Dr. Swanson
testified that the Flynn Effect would place Bourgeois' scores to a "true score ... somewhere between
68 and 70," (DE 594 at 37), but qualified that the Flynn Effect was "not relevant" in "this particular
case because the scores are there ... they are the scores we are looking for in an Atkins case." (DE
594 at 35). Yet she also explained that "[t]here's two large schools of thought on that. The
[AAIDD] ... say[s] you should adjust the individual score. The other camp is youcan'ttake a group
statistic study and adjust a single score on that, there's no science for doing this yet." (DE 594 at
36). Dr. Weinsten would have applied the Flynn Effect to his scores. Dr. Weiner explained that,
"since that WAIS-R has older normative data[,] ... his true IQ is probably four or five points lower
than that." (DE 594 at 222-23). Nevertheless, Dr. Moore explained that adjusting IQ scores based
(continued ... )
53

PA089

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 14 of 40

The psychological profession allows any score falling along that range to qualify for a diagnosis of
mental retardation. Accordingly, psychologists generally do not question whether an inmate's true
IQ falls in the higher or lower end of that range. Indeed, with the main purpose of most IQ testing
being to qualify an individual for needed supports or services, the mental health community has little
reason to question the results oflQ testing.
Courts, however, endeavor to determine whether a borderline score represents an intelligence
capacity above or below the mental-retardation threshold. In the legal context, whether an inmate
had significantly subaverage intellectual functioning is a question of fact that the Court decides. See

Clark, 457 F.3d at 444 (citing United States v. Webster, 162 F.3d 308, 351-52 (5th Cir. 1998)). In
oral argument, Bourgeois' attorneys conceded that this Court must look at the IQ scores but then
reach its own determination of whether he has significantly subaverage intelligence (DE 646 at 7980). Federal law does not require a court "to find [an inmate] to be mentally retarded merely because
the low end of [his] confidence band was below 70,just as it would not be required to find that [he]
could be executed on the basis that the high end of this band fell above 70." Clark, 457 F.3d at 446.
When faced with a borderline IQ score, courts assess whether an inmate's intellectual faculty
demonstrates the characteristics of mental retardation, rather than low intelligence. In doing so, the

37

( ... continued)
on the Flynn Effect is "significantly controversial." (DE 599 at 89). In another case, a district court
found credible Dr. Moore's testimony that "he had only observed the IQ score adjusted downward
for the Flynn effect in evaluations done by the defense in mental retardation hearings." Sasser v.
Hobbs,_ F.Supp.2d _ , 2010 WL 4569870, at *13 (W.D. Ark. Nov. 3, 2010). Here, Dr.
Swanson conceded that the term "Flynn Effect is primarily used in a courtroom setting," (DE 594
at 156), and the Government argued that it is "[a] litigation tool to try to lower scores and enable
people to apply [the Atkins] defense to them[.]" (DE 646 at 82). Nevertheless, the Fifth Circuit has
not adopted the Flynn Effect "as scientifically valid," Maldonado, 625 F.3d at 238 (citing In re
Salazar, 443 F.3d 430, 433 n. 1 (5th Cir. 2006)). The testimony in this case did not persuasively
show a consensus among psychologists that would require the adoption of the Flynn Effect as a legal
method to lower an inmate's Full Scale IQ Score.

54

PA090

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 15 of 40

Fifth Circuit has denied relief when the evidence more persuasively suggests that, notwithstanding
borderline IQ scores, an inmate's intelligence is more consistent with the higher end of the
confidence interval. See Clark, 457 F.3d at 446.
Here, two factors suggest that Bourgeois' IQ score does not fall in the lower end of the
confidence interval. First, the circumstances do not suggest that Bourgeois' testing resulted in a
valid measure of his intellectual abilities. Second, a full review of Bourgeois' life signals that he has
not suffered the impairment associated with mental retardation and that he functions at the highest
end of the confidence interval, if not even higher. The evidence before the Court shows that it is
much more probable that Bourgeois' true IQ exists above the threshold cutoff for mental retardation.

3.

Bourgeois' IQ Does Not Persuasively Fall at the Lower End of the
Confidence Interval

The Government primarily rebutted Dr. Gelbort' s testimony through Dr. Price who examined
Bourgeois in 20 I 0. 38 Because he worried that videotaping his administration of psychological testing

38

In addition to those two witnesses, others briefly testified about Bourgeois' IQ scores.
For instance, Dr. Moore primarily testified about Bourgeois' adaptive behaviors, but agreed with Dr.
Price that the scores on WAIS subtests were "puzzling" when compared to his life and aptitudes.
(DE 599 at 100). Dr. Swanson did not question the results of the IQ testing as a precursor to a
diagnosis of mental retardation. Dr. Toomer only affirmed that the IQ scores qualified him for a
diagnosis of mental retardation (DE 594 at 324) Dr. Toomer said: "I did not evaluate him
specifically with regard to mental retardation, but as part of the evaluative process information
presents itself that serves as a basis for the provisional opinion[.]" (DE 594 at 324). Dr. Estrada
opined that he would put no credence on the IQ test results, but would base his whole mentalretardation opinion of adaptive deficits. Dr. Swanson found no errors in the administration of the
IQ tests. She also observed that the two administering experts "noticed no signs of malingering and
they felt he had put forth good effort." (DE 594 at 30). Comparing the subtests between the two IQ
test administrations, Dr. Swanson observed that the "scores are fairly consistent across
administrations." (DE 594 at 31). Insofar as other experts had observed some strengths in his
testing, Dr. Swanson opined that "it's not atypical for a person with mental retardation to have a
strength ... in one area[.]" (DE 594 at 34). Dr. Swanson opined that "Mr. Bourgeois ... functions
with very low cognition, and his cognitive ability is in the mild deficit range for these tests, and so
no matter what, no matter if we don't go any further, we are looking at a person who has extremely
(continued ... )
55

PA091

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 16 of 40

would compromise its integrity, Dr. Price did not give Bourgeois any normed IQ test but still
performed a probing psychological examination. Dr. Price agreed that with Dr. Gelbort on some
important issues, such as that Bourgeois' test results placed him in the borderline deficient range for
intellectual functioning. (DE at 595 at 238). Also, Dr. Price agreed with Dr. Gelbort that Bourgeois
did not malinger during his testing. (DE 595 at 258). Dr. Price, however, did not agree that
Bourgeois was eligible for a formal diagnosis of mental retardation. Dr. Price credibly testified that
aspects of Bourgeois' testing, such as his ability to concentrate for a length of time, was inconsistent
with mental retardation. (DE 595 at 201 ). Dr. Price found it discrepant "to be able to read and
understand and conceptualize some of the things that he was able to talk about[.]" (DE 599 at 50).
Importantly, Dr. Price credibly explained that Bourgeois' "cognitive abilities exceed his measured
cognitive intelligence." (DE 595 at 215).
Dr. Price did not trust that the IQ testing adequately measured Bourgeois' intelligence.
Psychology recognizes that an individual's performance and intentions may influence testing results.
Various factors may cause artificially low scores on the WAIS testing instrument. See Maldonado
v. Thaler, 625 F.3d 229, 238 (5th Cir. 2010) ("[T]he WAIS-III manual instructs that an artificially
low score may result from, among other factors, ' [c]ultural or linguistic discrepancy from the test
standardization table, distractability, anxiety, deafness, poor motivation or inadequate
persistence[.]'"). While IQ scores should represent an accurate measure of the inmate's intellectual
functioning, the Fifth Circuit has routinely weighed IQ scores against factors such as an inmate's
poor performance during testing and whether the scores adequately comport with other information

38

(. •. continued)
low cognitive ability. That criteria I think is clearly met." (DE 594 at 39).

56

PA092

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 17 of 40

about his intelligence. 39
Although none of the experts accused Bourgeois of outright malingering on his IQ test, a lack
of malingering does not mean that other factors may not have compromised the validity of his test
results. Dr. Price credibly provided two reasons to believe that Bourgeois' IQ scores may not reflect
his true level of intellectual functioning.

As Dr. Price explained, "I would not say that it's

malingering. I would say that it's not putting forth full effort and carelessness." (DE 595 at 210);

see also DE 595 at 225 (explaining that "it's not intentionally trying to get the wrong answer on easy
things, it's just not trying" and is "careless, sub optimal effort, not putting forth good effort, with not
trying hard").
Bourgeois is apparently an individual who does not perform well on standardized testing
instruments. Dr. Price suggested that Bourgeois' idiosyncratic abilities may have caused the testing
to underestimate his intellectual level:

39

Several Fifth Circuit cases have refused to credit IQ scores when the evidence
suggested that an inmate had malingered or not put forth his best effort. See Esparaza v. Thaler,_
F. App'x _ , 2010 WL 4559214 at *6 (5th Cir. 2010) (finding "pervasive evidence of poor test
taking attitude characterized by low motivation, poor attention and concentration, and low task
involvement and persistence."); Eldridge, 325 F. App'x at 325 (refusing to honor a score of 72 as
a predicate for mental retardation when the expert who administered the test failed to assess for
malingering or a lack of effort, to consider possibilities other than mental retardation for the test
results, and relied on limited information about the inmate's background); Williams, 293 F. App'x
at 311 (refusing to credit IQ scores when the record suggested that the inmate had malingered and
"the evidence as a whole ... was inconsistent with a finding of mental retardation."); Moore, 517
F.3d at 784 (refusing to find mental retardation after tests showing 63, 68, 72, 72, 76 and 76 because
of "other expert indicating that [the inmate] did not suffer from such functioning and he
underperformed on at least some of the tests); Woods, 493 F.3d at 586-87 (emphasizing earlier,
higher IQ scores when the later scores were less reliable and the inmate has "a motivation to score
poorly"); Clark, 457 F .3d at 445 (finding that state court's determination was not unreasonable when
it refused to credit an IQ score when the inmate "had motivation to lower his scores deliberately").
The Fifth Circuit has also refuse to find adaptive deficits when, notwithstanding an IQ score of 64,
the inmate "appeared to be poorly motivated and may have exaggerated his deficits." Moreno, 450
F.3d at 164.
57

PA093

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 18 of 40

he, like a number of different kinds of people, doesn't test well. I mean he doesn't,
it's harder to gethim involved in objective testing. It's very easy to get him involved
in talking about himself, his life, his situation. It's easy to engage him there. It's
even difficult to ... disengage him from doing that. But objective testing, he kind of
shuts down a little bit.
(DE 595 at 202). Bourgeois' inability to test well could be because he "is someone who has been
somewhat culturally deprived, didn't profit from education as much as someone else, not experience
things that were intellectually academically enriching or didn't profit from those, but the abilities are
there and that's inconsistent with mental retardation." (DE 595 at 216). Poor testing taking skills
could have caused Bourgeois to underperform on the psychological testing, thus giving an incorrect
interpretation of his intellectual ability. See Esparaza v. Thaler,_ F. App'x _ , 2010 WL
4559214 at *6 (5th Cir. 2010) (finding that an inmate's low IQ scores did not amount to subaverage
intellectual functioning after testimony that the inmate had "pervasive evidence of poor test taking
attitude characterized by low motivation, poor attention and concentration, and low task involvement
and persistence.").
In a related vein, some of the experts suggested that Bourgeois may have not put forth his
best effort during the examinations. Dr. Price explained that a lack of effort is "a response style that
can invalidate the results. It's more difficult to assess. It's less severe. It's present in a lot of cases
for a lot of reasons other than the intentional ... feigning or gross exaggeration of a condition for
an external incentive." (DE 595 at 258). 40 This Court's observations match Dr. Price's opinion.

40

Dr. Price elaborated:

Effort and response style are on a continuum. At one end is full-blown malingering
where the person is feigning, completely making something up for an external
incentive. At the other end of the continuum is someone that is doing their very best
on the test and being as honest as they possibly can be. . . . So everybody falls
someplace on that continuum that's being evaluated, the closer you get to the end,
(continued ... )
58

PA094

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 19 of 40

Even independent of the expert testimony, this Court finds that Bourgeois did not put forth his best
effort in the psychological testing. The Court has viewed many hours of video from the examination
by Dr. Price and Dr. Moore. Bourgeois answers the questions asked of him, engages in conversation,
has logical thoughts, and does not otherwise give any impression of mental retardation. Certain
features of Bourgeois' examination suggest he underperformed on the psychological testing. For
instance, when the examiner was in the room, Bourgeois answered questions sluggishly. Yet when
he was unobserved, Bourgeois moved through the answers quickly. In another example, Bourgeois
took an unreasonably long amount of time to compose a paragraph at Dr. Price's request. (PX-159).
Dr. Swanson considered the time which he took to write as indication of mental retardation. (DE
594 at 55). Nevertheless, the speed in which he wrote that paragraph contrasts sharply with his
voluminous amount of writings each of which, if written at that pace, would have taken days to
finish. 41

40

( ... continued)

whether malingering comes closer to that. Poor effort is someplace in the middle,
and so it needs to be considered about the validity of the findings.
(E 595 at 259-60).
41

Moreover, Dr. Swanson looked at the "overall grammar and syntax of' the statement
and found that "it would be similar to someone who is third grade." (DE 594 at 136). The paragraph
read:
I Alfred Bourgeois strongly believe without a shadow of a doubt that I have been
framed and railroaded by Rush of Judgement and have been wrongfully convicted of
a crime that was fought by vengeance. I believe this child [JK 1999] was not
murdered, and without a doubt was not injured in the State of Texas nor on federal
land. I believe Robin M. Bourgeois is assaulted my belovth baby long before
arriving in Texas or long before on the naval ground. This case is tainted and
fabricated.
(PX-159). Dr. Swanson' s testimony in that regard is not credible as the content of the paragraph
(continued ... )
59

PA095

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 20 of 40

This was possibly not a conscious behavior. Nevertheless, with an awareness that the results
of the IQ testing would affect his death eligibility, Bourgeois certainly had reason to put lackluster
effort into his testing. The Court finds highly credible Dr. Price's testimony that Bourgeois
underperformed on his testing. Bourgeois' performance on the testing instruments does not indicate
that his actual IQ score should fall at the lower, rather than higher, end of the confidence interval.
This finding harmonizes with a broader review of how Bourgeois' level of intelligence has
manifested itself throughout his life. 42 Even when an inmate scores within the range psychology has
set for a diagnosis of mental retardation, the Fifth Circuit has reviewed the whole record to decide
if an inmate has exaggerated his deficits or if the circumstances of his life are inconsistent with
mental retardation. See, e.g., Moreno v. Dretke, 450 F3d 158, 165 (5th Cir. 2006) (finding a postAtkins score of 64 did not meet Atkins' first prong). The most perplexing feature of Bourgeois'

intellectual testing is that his abilities seem to surpass that anticipated by his IQ score. Dr. Price
testified that it was "very unusual" that the results of academic achievement scores administered by
Dr. Gelbort, Dr. Weiner, and Dr. Swanson which mostly showed high-school age proficiency were
higher than his IQ scores. (DE 595 at 270). Nonetheless, Bourgeois' experts placed his intellectual
functioning as equal to that of a child. A disconnect exists between the level at which Bourgeois'
experts said he could function and what he could actually do.

Reviewing Bourgeois' life,

independent of the psychological test results, should manifest a markedly low level of intelligence.
Bourgeois' life, however, contradicts such pervasive mental impairment; Bourgeois' behavior and

41

( ••• continued)
and complexity of thought transcend what society expects of the average third grader.

42

This review does not conflate the Atkins prongs, but recognizes that a person whose
IQ falls within the lowest two percent of the population should manifest commensurate impairments
throughout their life. Intelligence of that low level should be obvious.
60

PA096

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 21 of 40

characteristics are inconsistent with an IQ that would fall below 70. See Williams v. Quarterman,
293 F. App'x 298, 309-11 (5th Cir. 2008) (looking at "the evidence as a whole-including [the
petitioner's] performance in the classroom and on standardized achievement tests, his writing ability,
and the opinions of numerous witnesses who did not believe that [he] was retarded" in deciding that
his "IQ scores [were] not an accurate indication of his intellectual functioning").
A persistent feature of the testimony from Bourgeois' experts was a failure to consider fully
his alleged intellectual limitations against the whole background of his life. While testimony from
various individuals questioned his intellect when younger, those who knew him as an adult did not
suspect that he was mentally retarded. Bourgeois graduated from high school, 43 worked for years
as an over-land trucker, 44 bought a house, managed his own finances, wrote intricate and detailed
letters, communicated without difficulty, participated actively in his own defense, and otherwise
carried himself without any sign of intellectual impairment. With respect to his employment and
other areas, Bourgeois' experts apparently believed that he only performed his job with a system of
supports in place. The testimony before the Court did not support that conclusion. Rather, Dr. Price
credibly explained that "it's highly inconsistent for him to have had a job as a cross-country truck
driver and performed as he did, just totally inconsistent with mental retardation." (DE 595 at 208).
Courts routinely review an inmate's written correspondence for indicia of mental impairment.

43

Bourgeois has at times claimed to have gone to college, though the record has never
substantiated his claims. Ms. Armont, however, told Dr. Moore that he had attended college classes.
(DE 599 at 158-59).
44

The AAIDD 11th particularly notes that an employment history is not consistent with
mental retardation, but the kind of work Bourgeois did possibly is. "Although it is true that people
with [mental retardation] who have higher IQ scores are more likely to be employed than people with
lower IQ scores, their employment rate (27.6%) is far below the national average in the general
community (75.1 %) and more often consists of part-time work in entry-level service jobs, with low
wages and minimal benefits." AAIDD 11th at 157.
61

PA097

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 22 of 40

See Maldonado, 625 F.3d at 243; Eldridge v. Quarterman, 325 F. App'x 322, 326 (5th Cir. 2009).
The record contains numerous items written by Bourgeois. See, e.g., GX-23 through 27, 32, 33, 176
through 200. Bourgeois' extensive writings, while not polished masterpieces, certainly do not
contain indicia of gross mental impairment. Dr. Price credibly described his writings: "[T]hey are
very detailed, very, very detailed. Now, his sentence structure, his syntax is not that of an attorney
or a person that's been to college, perhaps, but it's certainly, he can communicate when he writes.
He can express himself in complete thoughts, and very detailed complete thoughts." (DE 595 at
220). Dr. Moore explained:
He certainly appears to be able to use written communication effectively.
[C]ertainly the vocabulary is good. The ideas are complex. The sentences are often
compound. He's able to follow a flow of thought, communicate his ideas effectively.
He certainly seems to be a vigilant record keeper, well aware of dates and perhaps
locations.
(DE 599 at 139). 45 Bourgeois' writings show an ability to observe the world around him, process
relevant information, form strategy, and communicate his thoughts to others. His letters exceed the
complexity and sophistication expected of someone operating at a grade-school level. Bourgeois'
own writings discount the possibility that he is mentally retarded.
Notably, this Court's interactions with Bourgeois have provided an important point of
observation. See Esparaza, _F. App'x at_, 2010 WL 4559214, at *6 (denying an Atkins claim
when "[t]hroughout his trial testimony, [Esparza] furnished coherent, even combative testimony fully

45

A brief sample from correspondence early in this case exemplifies his lack of mental
retardation. He instructed trial counsel: "I, Alfred Bourgeois, have every intention of winning my
case. I have been falsely arrested, and please take your time and read this letter real well. This will
explain how we can win this case in the death of my child, [JG 1999]." (DE 598 at 148). In another
letter he asked: "Dear Mr. Gilmore, I want a copy of your strategy on my case. I would like to know
how you plan to attack my case and what you think the outcome will be. I would appreciate if you
could put together a brief memorandum in support of me, Alfred Bourgeois, your Defendant, and
position, regarding to my trial." (DE 598 at 151).
62

PA098

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 23 of 40

responsive to both his own trial counsel's and the prosecutor's questions and demonstrated a detailed
understanding of the testimony and other evidence introduced during his capital murder trial.").
During trial, Bourgeois communicated with the Court on several occasions. The Court viewed his
testimony before the jury in both phases of trial. The Court had sufficient interaction with Bourgeois
to make a lay assessment of whether he functions at the low level described by his expert witnesses.
Bourgeois never gave the Court any impression that he functioned at an intellectual level equal to
that of a child. He completely understood the proceedings against him, intelligently assessed the
circumstances he faced, actively participated in his defense, formulated strategy, intelligibly
communicated his version of events, cogently answered questions put to him, and otherwise
appeared to have an adequate level of intelligence. Based on this Court's own observations, the
testimony that Bourgeois has significant intellectual limitations is not credible or persuasive.46
This does not mean that Bourgeois has high, or even necessarily average, intelligence. True,
his intellectual ability was bewildering. He scored low on the testing, but exhibited many obvious
intellectual aptitudes. For example, Dr. Estrada's pre-trial report - made without the benefit of any
direct examination for mental retardation - commented that Bourgeois was of above-average
intelligence. Dr. Price disagreed, opining that Bourgeois' verbal abilities and social skills give off
the impression that he is smarter that he is. Bourgeois' ability to appear intelligent likely stems from
his narcissism and desire to look good. 47 But Dr. Swanson's testimony that Bourgeois has

46

Over the 17 years that the undersigned has presided on the bench, more than 4,750
criminal defendants have come before the Court, almost a ll of whom the undersigned has
interviewed for signs of incompetency or other mental impairment. This experiences informs the
Court's lay assessment that, until it became expedient to avoid execution, Bourgeois never
manifested any indication of mental retardation.
47

A constant theme throughout the evidentiary hearing was that, as a narcissist,
(continued ... )
63

PA099

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 24 of 40

"extremely low cognitive ability" and functions in about the "lowest two percent of the population"
seems ludicrous when looking beyond his IQ scores. (DE 594 at 39). The testimony finding no
disconnect between his test scores and his life lacked credibility. He does not operate as a child.
In the end, "[t]he calculation of a person's IQ score is imprecise at best and may come down
to a matter of the examiner's judgment." Wiley v. Epps, 625 F.3d 199, 215 (5th Cir. 2010). The
Court does not invalidate or ignore Bourgeois' IQ test scores, but finds that a fuller view of his
abilities does not correspond to a finding of significant intellectual limitations. This is not a case
where a man's life depends on a few points' difference in test results. As the Court will discuss
below, Bourgeois' functional ability and healthy adaptive skills are inconsistent with mental
retardation. Even assuming that Bourgeois has low intelligence, his ability to function independently

47

( ... continued)
Bourgeois would make himselflook better than he was. Dr. Gelbort explained:

The narcissism oftentimes coupled with what I'm calling low intellect, because that's
what I believe is here, you get individuals who are trying to cover or mask or hide
their deficiencies. And one of the ways they do that, especially when you have a
gregarious narcissistic person who talks a lot, is that they try to steer conversations
or they tell you what they want to know, or more often than not, they tell you what
they know about or what they think they know about, rather than just simply
answering questions.
(DE 560 at 65). Dr. Price, however, credibly described how Bourgeois'
presentation was not consistent with mental retardation. The most similar thing to
that that is talked about in the literature often is this idea of the cloaking of
competence or masking where a person with limited intellectual abilities will say they
can do things that they can't. His, in my opinion, really exceeded that and had a
different flavor to it in that it was, I mean he would admit when he couldn't do
something but he certainly wanted to impress. And his history and the records, I see
that that's been a style of his, to impress others that he's very successful and has been
- even though he has been occupationally. It was, it went beyond the cloaking of
competence.
(DE 595 at 205).
64

PA100

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 25 of 40

in society contradict the modifier in "significantly subaverage intellectual functioning" as a
distinctive feature of mental retardation. The question of whether he has significantly substantial
limitations in intellectual functioning is not close. The Court finds that Bourgeois has not met the
first prong of the mental-retardation analysis.

C.

Significant Limitations in Adaptive Skill Areas

While failing to meet one prong ofthe Atkins analysis dooms Bourgeois' claim, in the interest
ofjustice the Court will address the other requirements for a diagnosis of mental retardation. As Dr.
Estrada explained, "the IQ ... [is] like a snapshot of the individual function at one given point in
time." (PX-163 at 72). Psychology, thus, relies on "adaptive skill areas" or "adaptive functioning,"

Atkins, 536 U.S. at 318, as an "assessment of the way the person deals with the real issues in their
life," (DE PX-163 at 72). The AAIDD defines deficits in adaptive skill areas as "significant
limitations in an individual's effectiveness in meeting the standards of maturation, learning, personal
independence, and/or social responsibility that are expected for his or her age level and cultural
group[.]"' Maldonado, 625 F.3d at 241 (quotation omitted). Or, in other words, "how effectively
individuals cope with common life demands and how well they meet the standards of personal
independence expected of someone in their particular age group, sociocultural background, and
community setting." DSM-IV-TR at 42 (quoted in Wiley, 625 F.3d at 216).
The AAIDD and AP A definitions for mental retardation both break the adaptive-limitations
inquiry into subcategories of deficiencies. The AAIDD evaluates "significant limitations ... in
adaptive behavior as expressed in conceptual, social, and practical adaptive skills." AAMR 11th at
1. 48 The AP A looks for "significant limitations in at least two of the following skill areas:

48

The AAIDD 11th gives examples of multidimensional representative skills within
(continued ... )
65

PA101

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 26 of 40

communication, self-care, home living, social/interpersonal skills, use of community resources,
self-direction, functional academic skills, work, leisure, health, and safety." DSM-IV-TR at 41.
While collapsing the adaptive deficits into distinct subgroups, the AP A and AAIDD approaches
apparently capture the same range of functional aptitude.
Both Dr. Swanson and Dr. Moore formally measured Bourgeois' adaptive functioning,
though other experts touched on the same inquiry informally. Psychologists look to multiple sources
for data about an inmate's adaptive abilities. Psychology prefers that "adaptive deficits ... be
'determined by clinical assessment and, usually, standardized scales[.]"' Maldonado, 625 F.3d at
241 (quotation omitted). Other sources of information, such as lay accounts of an individual's
aptitude, educational history, and vocational records, also contribute to the adaptive functioning
analysis. Both Dr. Swanson and Dr. Moore augmented the results of their psychological testing by
interviewing several people who knew Bourgeois. 49 In addition, Dr. Swanson relied on her own
"informal functional assessments" of Bourgeois' ability to perform certain tasks. (DE 594 at 23).
Dr. Swanson found that Bourgeois possessed deficits in all three of the AAIDD domains and
three of the skill areas (health and safety, functional academics, and social/interpersonal skills) from
the DSM-IV-TR. Dr. Swanson concluded that these functional deficits were present in Bourgeois'

48

( ... continued)
the three categories: (1) conceptual skills involve "language; reading and writing; and money, time,
and number concepts"; (2) social skills mean "interpersonal skills, social responsibility, self-esteem,
gullibility, naivete (i.e., wariness), follows rules/obeys laws, avoid being victimized, and social
problem solving"; and (3) practical skills include "activities of daily living (personal care),
occupational skills, use of money, safety, health care, travel/transportation, schedules/routines, and
use of the telephone." AAIDD 11th at 44.
49

Dr. Swanson also interviewed Claudia Williams (maternal sister); Michelle Arment
(paternal sister); Murray Bourgeois (maternal cousin); Carl Henry (maternal cousin and former coworker); Lloyd Ferdinand (maternal brother); Donald Reese (former co-worker); Gwendolyn
Thomas Smith (special education teacher); and Fred Thompkins (former co-worker). (PX-33 at 2).
66

PA102

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 27 of 40

youth and persisted into adulthood. She attributed his apparently competent life skills to support
from others. Dr. Moore, however, used similar methods and still concluded that Bourgeois did not
have deficits in any adaptive skill area.
Before turning to the evidence, the Court notes the difference between the legal and
psychological inquiries into possible mental retardation. The mental health community ignores an
individual's strengths when looking at adaptive functioning. For instance, Dr. Swanson testified that
"in order to diagnose mental retardation you are looking for a collection of deficits in these areas,
intellectual or adaptive, but it doesn'tmean that someone couldn't have a strength as well." (DE 594
at 17-18). In fact, the 11th edition of the AAIDD manual has expressly adopted as an underlying
"assumption" in the definition of mental retardation that "within an individual, limitations often
coexist with strengths." AAIDD 11th at 1. 50 The mental health profession looks only at what an
individual cannot do, presumably as a function of its role in providing support and services to
impaired individuals.
The Fifth Circuit, however, teaches that the Atkins inquiry should not be so narrow as to
ignore that which an inmate can do, even if the psychological profession approaches the issue
differently. See Williams, 293 F. App'x at 314; Clark, 457 F.3d at 447; Webster, 421 F.3d at 313.

50

Dr. Swanson testified that when a psychologist encounters a strength

in a person that has an accumulation of deficits and you want to know why is the
strength there, is the strength there for a specific reason or is it there because people
have put supports in place throughout this person's life to make it look like a
strength, or is it an area that that person had a unique opportunity as a child.
(DE 594 at 18). Dr. Swanson acknowledged that she looked for strengths in Bourgeois' life, but only
did so to see if he has had a unique opportunity to become competent in that area or had supports that
would allow him to succeed (DE 594 at 18). Positive abilities did not influence her to weigh the
influence of negative ones.
67

PA103

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 28 of 40

The subjective Atkins question is not myopic and must take into account the whole of an individual's
capabilities. The law makes a holistic view of an individual, recognizing that a few reported
problems may not negate an inmate's ability to communicate, to abstract from mistakes, to learn
from experience, to engage in logical reasoning, and to have healthy relationships with others.
Accordingly, the federal inquiry into adaptive deficits takes on a much different flavor than that done
by mental health professionals.
To that end, the federal inquiry probes more deeply the accuracy of the reported deficiencies
and aims to put them into context. Thus, for example, a declaration in which someone has cherrypicked a few incidents where an inmate exhibited maladaptive behavior may be sufficient to
diagnose mental retardation, but the law will seek to verify the described incidents and to understand
if they represent a pervasive disability. The law will compare the deficiencies to positive life skills,
presuming that adaptive successes blunt the global effect ofreported insufficiencies. This review
includes information about an inmate's positive adaptive ability after his eighteenth birthday.
With the holistic nature of the federal review of Atkins claims in mind, the Court turns to
Bourgeois' arguments that he has deficits in adaptive functioning.

I.

Assessment by Testing Instruments

The experts in this case used three testing instruments to assess Bourgeois' functional
adaptive skills. Dr. Swanson gave Bourgeois the Woodcock-Johnson Test of Cognitive Abilities
"which is a battery of academic tests, as well as tests for listening comprehension, oral expression."
(DE594 at 23). Also, experts used what Dr. Swanson described as "two gold standards for adaptive
assessments": the Vineland Adaptive Behavior Scale, Second Edition ("VABS-II" or "Vineland")
and the Adaptive Behavior Assessment System, Second Edition ("ABAS-II"). (DE 594 at 42).
These tests decide, through a series of ratings, the extent to which an individual can do certain
68

PA104

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 29 of 40

things. Psychologists can administer these tests to the inmate himself or to a reporting party who has
sufficient familiarity with the inmate to assess his abilities. To that end, Dr. Swanson administered
the VABS-II and the ABAS-II to one person, Beverly Frank, who knew Bourgeois as a youth.
Dr. Moore had four people who knew Bourgeois as an adult answer questions from the
ABAS-II: Michelle Armont (a childhood friend), Rhonda Davis (co-worker), Danny Clark (coworker); and Nathaniel Banks (childhood friend). Both Dr. Swanson and Dr. Moore asked the
reporting individuals to fill out the VABS-II and the ABAS-II which, through a long series of
questions, explored Bourgeois' proficiency at certain activities.
Experts in Atkins cases measure retrospectively what an inmate could do at a given point in
time, often decades before. Here, for example, Dr. Swanson asked reporting individuals to recount
what aptitudes Bourgeois had in his young childhood, nearly thirty years earlier. Dr. Swanson and
Dr. Moore came to diametrically opposed conclusions about Bourgeois' abilities, confirming that
"[t]he assessment of adaptive functioning deficits is no easy task." Wiley, 625 F.3d at 217. Atkins
has made that inquiry a particular challenge for the mental health practitioners. Designers intended
that the testing instruments which measure adaptive skills would make a co ntemporaneous
assessment of functioning. By definition, psychology's conceptualization of mental retardation
centers on the formative period, which ends for their purposes on an individual's eighteenth birthday.
Yet the Constitution prohibits infliction of a death sentence before age 18, see Roper v. Simmons,
543 U.S. 551 (2005), ensuring that observations in an Atkins case will take place after the
developmental period. As Dr. Swanson explained, the Atkins inquiry asks the psychological
profession to do something its testing instruments were never designed to do: make a retrospective
evaluation of an individual's adaptive behavior. (DE 594 at 193 ).
Caution attends undue reliance on those backward-glancing assessments. The retrospective
69

PA105

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 30 of 40

review assumes that those reporting on an inmate's past adaptive abilities can provide competent,
honest, and objective observations of his abilities. Thus, the AAIDD 11th Edition warns to use
respondents who are "very familiar with the person and have known him/her for some time and have
had the opportunity to observe the person function across community settings and times." AAIDD
11th at 47. Care must be taken to extract information from those with sufficient familiarity and
understanding to provide reliable data. The professional organizations recommend "that because the
adaptive functioning assessment typically takes the form ofinterviewing third-parties, the respondent
should be someone who is well acquainted with the subject's behavior over an extended period, such
as a parent, teacher, or direct-service provider." Wiley, 625 F.3d at 218 (quoting AAMR 10th ed.
at 85). Also, as became a concern in this case, the responder should be one with sufficient age,
maturity, and understanding during the time period they observed the inmate to provide a reliable
assessment of their behavior. To that end, the AAIDD 11th instructs "for clinicians to assess the
reliability of any respondent providing adaptive behavior information." AAIDD 11th, at 47.51
The process also assumes that time has not dimmed accurate memory. For instance, the
experts administering the standardized assessment tests turned the reporting individual's attention
to a specific point in the developmental period, highlighting attendant concerns about memory loss
and other factors which degrade the reliability of information. As Dr. Moore explained, "the struggle
with the adaptive functioning measures in an adult is the farther you go back, the less reliable the
information is." (DE 599 at 197). The testing performed by Bourgeois' experts asked people to look
back over decades to evaluate what Bourgeois could do at a young age. Time blurs memories,

51

Dr. Swanson agreed that the adaptive-deficits tests were normed for retrospective
evaluations, their reliability in that capacity is unknown, and thus their results should be interpreted
with caution. (DE 594 at 145).
70

PA106

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 31 of 40

relationships may taint perspective, and a lack of contemporaneous accounts degrades reliability.
This concern becomes particularly important when, knowing that their information may make a
difference between life and death, mental health professionals ask loved ones to look back decades
and evaluate an individual's aptitudes.
While psychology has apparently tried to provide its practitioners a means to ascertain
intelligence retrospectively, see AAIDD 11th at 95-96, mental retardation as understood by Atkins
complicates the traditional methods of the mental health community. To that end, Dr. Swanson
acknowledged that the reliability of using the adaptive-functions measures in a retrospective
evaluation was unknown and that caution should attend reviewing the results. (DE 594 at 145).
a.

The Woodcock-Johnson

Dr. Swanson administered the Woodcock-Johnson to assess whether Bourgeois had deficits
in the functional academic or conceptual categories. She explained that the "Woodcock-Johnson
would meet the gold standard of an academic achievement test. It's actually a battery of many tests
assessing many types of adaptive skills and then collapsing them into broad areas." (DE 594 at 44 ).
As a result of his Woodcock-Johnson scores, Dr. Swanson determined that Bourgeois lacked
adaptive skills in two subcategories of the AAIDD's conceptual domain. She testified that, in the
functional academic category, his scoring showed the intelligence of an elementary school child:
"His academic fluency is at the fifth grade level and his actual ability to apply academics actually
is at the third grade level, so this is consistent with what you would see with a person who has mild
mental retardation." (DE 594 at 58). In oral communication, she opined:
[I]n that test you give them oral comprehension and other tests that probe for oral
language and listening comprehension. On ... the first two broad cluster scores ..
. his scores ... were at the third grade level and the fourth grade level. Overall that
was like at a 9th to 16th percentile, which is consistent, in my opinion, with people
having communication deficits which is also under conceptual.
71

PA107

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 32 of 40

(DE 594 at 58-59). Because Dr. Swanson explained that individuals with mental retardation may
"function overall at about as high as a sixth grade level," (DE 594 at 45), she opined that his lowest
scores on the Woodcock-Johnson indicated impairments in the conceptual adaptive domain under
the AAIDD and the functional academics area of the AP A.
Nevertheless, Dr. Swanson conceded on cross-examination that Bourgeois scored well in
several areas of the Woodcock-Johnson. (DE 594 at 143-44). In essence, she focused on his areas
of weakness without fully considering his strengths. Dr. Moore described Bourgeois' scores: "By
and large, he's functioning in the lower part of the low average range, with a couple of areas that he
was significantly below in." (DE 599 at 109). Based on Bourgeois' scores which generally fell
outside the impaired range, Dr. Moore disagreed that Bourgeois' Woodcock-Johnson scores
indicated global adaptive deficits. He testified that, "in comparison to the general population,"
Bourgeois was not impaired. (DE 599 at 108-09).
b.

The ABAS-II and the Vineland

Dr. Swanson administered the ABAS-II and the VABS-II to Ms. Frank, asking her to focus
on Bourgeois' adaptive abilities when he lived with her grandmother, Ms. Mary, at age seven. Dr.
Swanson's testing served as the basis for other experts to find adaptive deficits. Dr. Cunningham,
for instance, accepted Dr. Swanson's testing as a valid measure of Bourgeois' abilities. Based on
several answers on the ABAS-II and the Vineland, the Court questions whether Ms. Frank could
accurately assess Bourgeois' aptitudes. As discussed below, Ms. Frank's answers suggest that Dr.
Swanson should have exhibited more care in selecting her only informant.
Dr. Swanson characterized Ms. Frank as a "prime subject to whom to administer the
Vineland-II instrument." (GX-175 at 2; DE 459 at 28). Interestingly, Dr. Swanson did not select
an informant who lived with Bourgeois or knew him for a long period of time. Ms. Frank is
72

PA108

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 33 of 40

approximately sixteen years older than Bourgeois. 52 She moved away from the Bend - the
community Bourgeois grew up in - when she was a teenager, but "came in daily to check with her
grandmother. She sometimes stayed at night with her grandmother." (DE 594 at 68). Her daily
observation, however, only lasted for several months while she was unemployed. (DE 597 at 94-95).
Dr. Swanson selected as an informant someone who only saw Bourgeois daily for only a brief period
when he was a young child.
Dr. Swanson testified that, in her opinion, Ms. Frank "got to observe her grandmother as she
was working with him, so she had direct knowledge on a daily basis of how he met these different
skills." (DE 594 at 72). In a supplemental report, Dr. Swanson described Ms. Frank as someone
who was "in a position to observe [Bourgeois] extensively, across multiple settings, over a long
period of time." (PX-33 at 2). 53 However, Ms Frank's limited contact with Bourgeois during a brief
period of his youth constrained her ability to answer questions reliably. Dr. Swanson conceded that
the best practice would have been to pick an informant who could assess the inmate nearer his
eighteenth birthday. (DE 594 at 147, 155). Still, she thought that Ms. Frank could answer her

52

Dr. Swanson asked Ms. Frank to evaluate Bourgeois for the time period when he was
seven years old. Dr. Swanson erroneously assumed that Ms. Frank was a teenager when she
observed Bourgeois, (DE 594 at 72), when she was actually in her early twenties. Bourgeois was
seven years old when he moved in with Ms. Mary, making Ms. Frank about 23 or 24. She had
moved away from the community before Bourgeois was born. However, she would visit her
grandmother "two or three times a week, and sometimes on weekends" but visited her more
frequently when she was out of work. (DE 597 at 93, 95). Ms. Frankhad contact with Bourgeois
for about two years. (DE 597 at 113). After that, she only saw him occasionally. (DE 597 at 117).
53

Still, Dr. Swanson testified that she "had a lot of concerns on whether Ms. Franks was
a good informant or not and how much she would remember[.]" (DE 594 at 73). Dr. Swanson
seemed to base her conclusion that Ms. Franks was a reliable informant on the fact that she answered
all the questions on the ABAS-II. After finding that Ms. Franks could answer all the questions on
the ABAS-II, she administered the Vineland. (DE 594 at 73). The Vineland produced scores in "the
mild deficit range[.]" (DE 594 at 75).
73

PA109

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 34 of 40

questions most clearly. (DE 594 at 147).
Ms. Frank's assessment of Bourgeois' abilities presumed a confidence in her memory that
negated the decades since she had observed him. Ms. Frank answered questions on the testing
without making any guesses at how Bourgeois could function. Dr. Moore found it "surprising ...
that she was able to recall back to that and not guess on anything." (DE 599 at 222). The conflicting
answers she gave suggest that Ms. Frank could not reliably assess Bourgeois' adaptive abilities. For
instance, on the Vineland Ms. Frank reported that Bourgeois could not even hold a fork at age seven,
which indicates a degree of impairment far greater than that even suggested by his low IQ scores.
In contradiction, on the Vineland Ms. Frank said he could correctly hold a fork. (DE 594 at 152). 54
She reported on the ABAS II that Bourgeois could not form a sentence using nouns and verbs. Aside
from indicating that she could not properly assess Bourgeois, this answer conflicted with her answer
on the Vineland that he could form proper sentences. (DE 594 at 153-54). In her evidentiary hearing
testimony, Dr. Swanson acknowledged these problematic answers but explained that they would not
weigh against using Ms. Frank as an informant. The best Dr. Swanson could say is that it would be
more reliable to have had more than one reporting individual, and preferably someone who knew
Bourgeois along a variety of settings closer to age 18. (DE 594 at 155).
Dr. Moore also administered the ABAS-11, but did so to multiple respondents. Dr. Moore
explicated: "we want to have people who know the individual well and across a variety of settings.
Certainly, we want to be aware of whether the person has a vested interest in the outcome. So we
want to make sure we get good and objective data. And in a forensic setting, that becomes even more
of a challenge." (DE 599 at 104). His focus, however, was not on Bourgeois' childhood; Dr. Moore

54

While Dr. Swanson did not rely in the ABAS-11 in her report, her evidentiary hearing
testimony treated the results from both testing instruments as valid.
74

PA110

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 35 of 40

selected respondents who observed Bourgeois both closer to age 18 and when he was older. Dr.
Moore explained that he selected informants who had "known Mr. Bourgeois over a fairly extended
period- in this case, I was trying to look for, you know, a number of years- and they had been able
to spend social time with him, had seen him on a more casual basis[.]" (DE599 at 174). Because
Dr. Moore doubted the validity of the results on the ABAS-11 from two of the four informants he
selected, 55 he only based his assessment on the information provided by Michelle Davis and
Nathaniel Banks.
Ms. Davis was a dispatcher at the trucking company where Bourgeois worked for years. She
"and her family had known [Bourgeois] for many, many, many years, but also she talked about some
of the times that they had talked when her mom brought meals in and things like that." (DE 599 at

55

Dr. Moore discounted the results he obtained from Ms. Armont. He explained: "In
looking at the results of the ABAS that Ms. Armont had completed, there were significant questions
about validity of that measure. I had concerns while she was taking it, but in looking at the results,
those concerns were certainly verified." (DE 599 at 118). Ms. Armont claimed that Bourgeois was
so debilitated that he could not perform functions which the record amply proved that he could do.
Dr. Moore suggested that someone had instructed her to answer the questions in a way that would
make Bourgeois seem retarded. (DE 599 at 188). Dr. Moore testified: "And Ms. Armont's scores,
or the results from the administration to Ms. Armont was significantly below that, significantly
different from that. He was in the, basically in the average range, average to slightly above average
on the conceptual, social, practical and global for Davis and Clark. He was in the significantly
impaired range for Ms. Armont." (DE 599 at 131). Dr. Moore also discounted the scores from
Bourgeois' co-worker for fifteen years, Danny Clark. Dr. Moore explained: "Mr. Clark, it became
apparent that he had not fully understood the instructions for the ABAS, and thus had completed the
form in a manner that invalidated the scores." (DE 599 at 123). Specifically, he made too many
guesses about Bourgeois' abilities. (DE 599 at 165). Mr. Clark, however, testified in the evidentiary
hearing. From his testimony, he obviously never considered Bourgeois mentally retarded. He
described Bourgeois as a competent driver, neat and clean in his appearance, polite, and in other
ways much different than the severely impaired individual described by Dr. Swanson. Dr. Moore
also attempted to administer the ABAS-11 to Claudia Williams, but "she decided not to complete the
ABAS because she indicated she didn't want to do anything that could be potentially of harm to her
brother." (DE 599 at 119).
75

PA111

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 36 of 40

174). Ms. Davis' answers on the ABAS-II resulted in generally average or above average score.56
Ms. Davis testified in the evidentiary hearing. She was a friendly, credible witness who seemed to
have fond remembrances of Bourgeois. She testified that nothing hinted that he was mentally
retarded or even slow. (DE 595 at 151, 184).
Mr. Banks did not testify in the evidentiary hearing. Dr. Moore explained that Mr. Banks
"was a childhood friend of Mr. Bourgeois and knew him throughout his childhood up to the point
that they graduated from - well, knew him throughout his life, but had ongoing contact with him
until he was about 18." (DE 599 at 196). 57 Dr. Moore relied on Mr. Banks because "it seemed clear
that they knew each other well, that they had a good friendship, but also that Mr. Banks seemed
willing to ask his friend about inconsistencies, and seemed to be really trying to get a bead or
understanding about what had happened." (DE 599 at 216). Importantly, Dr. Moore asked Mr.
Banks to assess Bourgeois age right at about 18. Mr. Banks' assessment was somewhat lower than
the others Dr. Moore used, but that suggested "an upward course of improvement in adaptive
functioning." (DE 599 at 218). Even so, Mr. Banks only rated Bourgeois below average in two
areas, the rest being average or above average. (DE 599 at 218). 58

56

While Ms. Davis made many guesses on the ABAS-II, Dr. Moore opined that it did
not invalidate her scoring because "she was certainly a very fastidious, perhaps over-cautious, in
endorsing guessed items. But she made seemingly, was vigilant to, if she didn't see it happen, that
she checked a guess on there. So there was certainly a lot of guessed responses on there, and she
appeared to be, again, taking that, you know, very much tuned into that issue." (DE 599 at 126).
57

Mr. Banks testified in the guilt/innocence phase that Bourgeois and his family visited
before the murder. Mr. Banks described JG 1999 as sad and bruised. Bourgeois told him that he
natural mother neglected her and her mother's boyfriend abused her. (DE 344 at 109-111).
58

In the evidentiary hearing, Bourgeois objected to any discussion ofNathaniel Banks'
ABAS-II responses because the Government did not call him as a witness. (DE 599 at 120-21 ). The
Court sustained that objection. (DE 599 at 121 ). Bourgeois, however, later opened the door to
(continued ... )
76

PA112

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 37 of 40

Dr. Moore's ABAS-II testing generally resulted in scores falling within the average range,
with only a few in the below-average category. None of the responses in Dr. Moore's testing
suggested significant impairment. In Dr. Moore's opinion, Bourgeois' "adaptive functioning was
generally in the skill level expected of the average adult male." (GX-15 at 12). Dr. Moore's
testimony, which the Court still must approach with caution because of its retrospective focus, more
credibly measured Bourgeois' functioning. As discussed below, the lay testimony that came before
the Court amply supported the conclusions from Dr. Moore's testing.
2.

Lay Accounts of Bourgeois' Functioning

Standardized testing instruments cannot provide the only data for finding functional adaptive
deficits. The AAIDD 11th instructs that "[o]btaining information from multiple respondents and
other relevant sources (e.g., school records, employment history, previous evaluations) is essential
to providing corroborating information that provides a comprehensive picture of the individual's
functioning." AAIDD I Ith, at 47. 59 Dr. Swanson provided a supplemental declaration after she
interviewed several informants. (PX-33). From those interviews, she painted the picture of
Bourgeois as a profoundly impaired individual.

She described Bourgeois as a "significantly

deficient" person who relied on "family, friends, and co-workers ... in order to perform daily life
activities." (PX-33 at 2). Of those informants, Claudia Williams, Beverly Frank, Brenda Goodman,

58

continued)
consideration of Mr. Banks' responses by asking Dr. Moore about them. (DE 599 ay 198, 215).
( ...

59

"If adaptive behavior assessment are used and reported in the records reviewed,
clinicians should weigh the extent to which (a) multiple informants were used and multiple contexts
samples; (b) that limitations in present functioning were considered within the context of community
environments typical of the individual's age peers and culture; (c) important social behavioral skills,
such as gullibility and naivete, were assessed; (d) behaviors that are currently viewed as
developmentally and socially relevant were included; and (e) adaptive behavior was assessed in
reference to typical and actual functioning in the community." AAIDD 11th, at 46.
77

PA113

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 38 of 40

Carl Henry, Murray Bourgeois, and Donald Resse testified in the evidentiary hearing. A review of
the evidentiary hearing testimony confirms that Dr. Swanson should have more critically examined
the data upon which she based her conclusions. The testimony from Bourgeois' witnesses was as
follows:

•

Bourgeois' sister Claudia Williams could provide broad outlines showing that
he had a difficult childhood, but she was not a good historian. To some
extent, her confusion was understandable. She was young when she
interacted with Bourgeois and was asked to evaluate his aptitude based on her
childhood observations. 60 Her testimony showed that she had umeasonable
expectations about the tasks Bourgeois should have been able to perform as
a child. For example, Ms. Williams expected Bourgeois to clean the
bathroom by himself at age four. (DE 597 at 29-30). She described how,
when she was about twelve, she would occasionally help him with his
Kindergarten homework because he was "very slow." Her assistance, though,
consisted of mostly helping him "writing [his] ABC's," a skill that the
experts agree he excels at now. (DE 597 at 36-38, 58-59). Unlike some other
witnesses, Ms. Williams observed Bourgeois near the end of the
developmental period. Bourgeois moved in with Ms. Williams when he was
"probably about 18 or 19, something like that." (DE 597 at 39). Dr.
Swanson primarily used Ms. Williams' account from that time period to
assume that Bourgeois would "rely on [Ms. Williams] for cooking and
washing his clothes and things like that." (DE 594 at 91). It was not clear,
however, that Bourgeois was incapable of performing those actions; it was
clear from her testimony that Ms. Williams was the one in the house that
cooked. (DE 597 at 64). She reported that by then Bourgeois dressed
himself and had good hygiene. (DE 597 at 40-41). In all, her testimony,
while somewhat confused, suggested that any gross impairment in Bourgeois'
youth did not extend into his later teenage years.

•

Beverly Frank provided detailed testimony about Bourgeois. As previously
noted, she observed him as a youth when she, in her twenties, visited her
grandmother's house. Ms. Frank explained that he was slow and had
problems understanding the games played by the other children. (DE 597 at
98). She identified problems he had at about age seven such as counting

60

The Government's objection to her testimony summarized the inherent problems with
relying on her as a reliable witness: "Your Honor, I'm going to object. She's asking for some kind
ofretroactive interpretation of a 12-year-old, that's how old she would have been ... How can she
make, how can she make that opinion? I mean, it's ludicrous, a 12-year-old, from the eyes of a
12-year-old, and what is she now? At least 39." (DE 597 at 31).
78

PA114

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 39 of 40

change, dressing in mismatched clothing, and properly buttoning a shirt. (DE
597 at 98-99, 109-10). She, however, did not have contact with him as he
aged.
•

Brenda Goodman, another of Ms. Mary's granddaughters who was 12 years
older than Bourgeois, also testified. Ms. Goodman moved away from the
Bend around the time of Bourgeois' birth, but would visit regularly. She
testified that when young Bourgeois could not put his shoes on the right feet,
wear appropriate clothing, button his shirt, or follow directions well. (DE
597 at 138-39). He had problems communicating because he stuttered. (DE
597 at 139). She, however, also testified that Bourgeois would "pitch in" to
help with his brother who had cerebral palsy. (DE 597 at 134). Her
testimony, nevertheless, did not address Bourgeois' functioning closer to the
end of the developmental period.

•

Donald Reese, a co-worker from when Bourgeois first began driving, testified
about events that led him to question Bourgeois' intelligence. However, he
could not provide specific information that conclusively pointed to mental
retardation. For example, Dr. Swanson relied on Mr. Reese to assume that
Bourgeois only secured his driver's licence by obtaining the exam answers
beforehand. Mr. Reese related that many drivers cheated on the examination
for their chauffeur's licence, however he had no personal knowledge if
Bourgeois cheated. (DE 597 at 391-92). Dr. Swanson relied on Mr. Reese
to show Bourgeois' alleged difficulty in operating a truck independently. For
example, Mr. Reese said on the first day he and Bourgeois were assigned as
team drivers, Bourgeois got in the cab and began pushing buttons randomly
until he found one to make the truck go. (DE 597 at 368-69). However, from
his testimony it became clear that he did not know if Bourgeois had been
trained on that particular truck. Mr. Reese himself did not know what all the
buttons did. (DE 597 at 380-83). Mr. Reese described two occasions in
which Bourgeois became lost, one of which landed the trailer in a ditch. (DE
597 at 371-75). He also suspected that Bourgeois did not prepare properly
for a three-week route (DE 597 at 377-78), but did not specifically testify that
he had problems with hygiene. Mr. Reese's testimony added little to the
question of whether Bourgeois is mentally retarded.

•

Bourgeois' cousin, Carl Henry, testified that he had problems as a child
learning new games and riding a bicycle. (DE 597 at 324, 360). After
Bourgeois had already been employed at his first job, Mr. Henry played some
part in Bourgeois getting a position to drive a "buggy truck" that picked up
shopping carts in local neighborhoods. Mr. Henry did not describe any
problems Bourgeois had in performing that job. When they moved him up
to a delivery truck, but "he had a few problems," so they moved him back to
the buggy truck. (DE 597 at 326). With additional training, however, he
moved back to the delivery truck. (DE 597 at 327). Mr. Henry, however,
79

PA115

Case 2:02-cr-00216 Document 660-1

Filed in TXSD on 05/19/11 Page 40 of 40

still had to help Bourgeois fill out forms. (DE 597 at 329). Years later, when
Mr. Henry drove with Bourgeois he noticed that he would not use the new
communication system in his truck, but would call the dispatcher instead.
(DE 597 at 337). He still then had others help with his paperwork. (DE 597
at 338).
This testimony, however, conflicted with that from the
Government's witnesses who said that Bourgeois could perform all the duties
of a truck driver without assistance.

•

Murray Bourgeois testified how, when he returned from military service and
his cousin was ten, Bourgeois hung around his mechanic's shop but he could
not grasp how to work on cars. (DE 597 at 399). He explained that
Bourgeois was "slow to catch on. This mechanic thing was like too fast of a
pace for him. (DE 597 at 399-400). He testified that Bourgeois had
problems when first driving an 18-wheeler and was unsafe. (DE 597 at 400).
As an adult, Bourgeois was " slower than most of the guys, you know,
catching on to a lot of things." (DE 597 at 401). One time, Bourgeois
claimed to be able to ride a three-wheeler ATV, but crashed it. (DE 597 at
402-03). His testimony, however, only showed that Bourgeois "wasn't used
to riding it." (DE 597 at 403, 413).

Taken together, the testimony about Bourgeois' childhood and young adulthood suggests that
he was slower than other youth, but the reliability of those accounts are impaired somewhat by a
failure to have age-appropriate expectations for his behavior. Most of the impairments described
consisted of difficulty learning new concepts or activities. For instance, Mr. Henry described how
Bourgeois had some difficulty learning to drive some vehicles, but he obviously became proficient
with time. Bourgeois succeeded when given more time or training. While Murray Bourgeois still
considered him slow, he could obviously learn to operate competently in society. Bourgeois'
childhood friends and his relatives testified that he was slow as a youth, but the information was
mixed as he got older.
The Government's witnesses described competent adaptive abilities as an adult.

The

Government called Danny Clark, Robert Patterson, William Shots, Christopher Key, and Rhonda
Davis as witnesses to describe Bourgeois' aptitudes as an adult. Each of the Government's witnesses
knew Bourgeois in the work context, some of whom had worked for the same trucking company as
80

PA116

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 1 of 40

him for many years. Their descriptions of his work ability ranged from being a competent truck
driver (DE 595 at 7) to an "above-average driver" (DE 595 at 59) to one of the "top two or three
drivers" (DE 595 at 62) to one who customers often complimented and requested (DE 595 at 75-77,
114). Bourgeois completed entries in his log book satisfactorily (DE 595 at 60, 85) and examined
his load slips for accuracy (DE 595 at 184). He could figure out how many miles he had traveled
and how many more he could travel in order to comply with regulations. (DE 595 at 18). One
witness assured that Bourgeois knew how to work the onboard computer because he was the only
one in the truck at times. (DE 595 at 100). 61 He did not just travel dedicated routes but navigated
throughout the nation without apparent difficulty. (DE 595 at 93-94). 62 In fact, one witness
described him as an "overachiever." (DE 595 at 113). His appearance and grooming were beyond
presentable, but noteworthy. He had a "very professional appearance." (DE 595 at 149). In short,
none of the Government's witnesses suspected that Bourgeois had mental impairments. The Court
found each of the Government's witnesses to be credible, reliable informants of Bourgeois' abilities
as an adult.

3.

Bourgeois' Adaptive Abilities

The evidentiary hearing and record create a complex picture of Bourgeois' life, resulting in
an entangled mosaic of strengths and limitations. Without question, Bourgeois' life manifested some
level of difficulty at certain points in his life. This Court's task in reviewing Atkins second prong
is to decide whether, on a global level, those problems amount to significant deficits in adaptive

61

After the murder Bourgeois told FBI agents that "the trucking company could see his
location and send him messages via his computer, and he could send messages back to them via
computer." (DE 344 at 181).
62

Dr. Price's videotaped examination showed that Bourgeois could use a map to

navigate.
81

PA117

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 2 of 40

functioning. As previously mentioned, this Court's review differs from that employed by the
psychological community. The Court looks at the underlying credibility of the witnesses who
reported about Bourgeois' scores on the ABAS and Vineland. Also, the Court compares the alleged
deficiencies against his whole life experience.
In some respects, Bourgeois is a subject whose precise faculties are difficult to pin down.
Bourgeois' narcissistic tendencies make him exaggerate his abilities and present himself as more
capable than he is. He overestimates what he can do and likes to present himself in the best possible
manner. Dr. Swanson correctly noted that "he wants to present well, he presents very well." (DE 594
at 101 ). Bourgeois' narcissism may mask impairments and camouflage poor adaptive skills. At the
same time, exaggeration of weaknesses gives a distorted view of his complete capacities.
One persistent problem in this case has been that Dr. Swanson took at face value statements
made about Bourgeois' abilities without assessing them for credibility, testing them for validity, or
weighing them against things known about his life. As previously noted, some of the witnesses who
testified in the evidentiary hearing lacked a reliable ability to remember credibly events that
transpired many years before. Also, the inherent desire to save a loved one from a death sentence
can alter recollections in his favor. Dr. Swanson's failure to test the validity of the lay interviews
highlights the challenge in adjudicating Atkins' second prong and makes her conclusion that he had
adaptive deficits not credible. Unlike Bourgeois' experts, the Court cannot rely on his scores from
his expert's adaptive-limitations testing because the witnesses could not accurately report his
abilities.
A fuller examination of Bourgeois' life calls into question the testimony implying that he had
severe impairments as a child. The tenuousness of the evidence supporting his claim of having
deficient adaptive functioning becomes evident when considering the three areas that Dr. Swanson
82

PA118

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 3 of 40

identified as supporting a diagnosis of mental retardation: functional academics; social/interpersonal
skills; and health and safety). 63
Conceptual Domain - Functional Academics Dr. Swanson based her opinion of Bourgeois'

aptitude in functional academics on his scores on the Woodcock-Johnson and on her lay interviews. 64
The experts debated whether his scores on the Woodcock-Johnson supported a diagnosis of mental
retardation. Dr. Moore explained that most of his scores on that test were not low enough to indicate
mental retardation. 65 Bourgeois scored low on some areas, but also in the high school range for
spelling and reading. The testing provided a mixed picture of Bourgeois' mental abilities, but on the
whole, he scored in a range above that signaling significant impairment. His testing on other
instruments such as the WRAT-III confirmed that, while his scores in arithmetic dropped to the
threshold allowable for mental retardation, the remainder of his scores were in the high school
proficiency range. 66 Test scores did not persuasively show that Bourgeois had adaptive deficits.

63

Because her evidentiary hearing testimony mentioned that she found adaptive deficits,
but did not extensively discuss which factors supported each category, the Court's discussion also
relies on Dr. Swanson's supplemental report.
64

Dr. Swanson opined that the DSM-IV-TR's functional academic skill area overlaps
with the AAIDD's conceptual domain. (PX-33 at 3).
65

Dr. Moore explained that "a person with mental retardation is significantly impaired.
Generally about two standard deviations below the mean. And the standard scores here have a mean
of 100 and a standard deviation of 15. So two standard deviations below the mean or significantly
impaired would be a score of about 70 or below." (DE 599at108). Most of Bourgeois' scores were
at 80 or above, though five subparts were at 70 or below (brief math, story recall, applied problems,
and story recall delay).
66

Dr. Weiner and Dr. Gelbart administered the Wide Range Achievement Test-III
(WRAT-III). Dr. Gelbart testified that the Woodcock-Johnson "is much more in depth and gets at
the same stuff, but with a lot more accuracy and validity [that the WRAT-III], because it's looking
at a deeper level." (DE 560 at 43). On both tests, Bourgeois scored at the grade equivalent of high
school in reading and spelling, and at the fifth or sixth grade level in arithmetic. Dr. Swanson relied
(continued ... )
83

PA119

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 4 of 40

Lay depictions of Bourgeois' schooling should bolster his scoring on objective testing. As
explained in her supplemental report, Dr. Swanson based her finding of functional academics on the
following factors:

•

individuals said that Bourgeois failed a grade early in school;

•

others helped him with his elementary school homework, but he did not seem
to understand the concepts;

•

in elementary school he received speech therapy;67

•

he relied on others for help, including in high school he had others do his
homework;

•

others helped him complete job applications;

•

he received written answers to driver's licence examinations beforehand;

•

he had difficulty managing and understanding money .

(PX-33 at 3).
The evidentiary hearing testimony, however, failed to verify or support most of those factors.
Some testimony suggested that Bourgeois was held back a grade in elementary school. Even so, the
record leaves silent whether this was because of mental retardation, another learning disability, or
even absenteeism. The unavailability of educational records hampered a probing look into his school
years, but existent material shows that he graduated from high school with adequate grades. While
testimony suggested that he may have been held back from one grade, his unstable home life does
not preclude excessive absences, the hampering effects of a deprived home environment, or a general

66

( ... continued)
on the low score in arithmetic to find deficits in functional academics.

67

Dr. Swanson never explained how speech therapy necessarily showed mental
retardation instead of some other impairment.
84

PA120

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 5 of 40

lack of effort from being the cause for that decision.
The record now before the Court does not suggest that Bourgeois did not earn the admittedly
low, but not failing, grades he attained in high school. No one testified that Bourgeois needed
assistance with homework in high school. Bourgeois graduated from high school with all passing
grades. His school records do not show any accommodation for mental retardation and no one
testified that he did not earn the grades he received. Even taking into account the testimony that he
had problems learning in the early years, no one testified about his ability to perform in high school,
the only period for which records remain. 68
Also, Dr. Swanson opined that she had received information from Donald Resse, a former
coworker, that Bourgeois had received the answers to the driver's licence exam beforehand. (DE
594 at 162). However, Mr. Reese testified that it was common for applicants to have the answers
beforehand, but he had no personal knowledge that Bourgeois had received help. (DE 597 at 392).
Dr. Swanson assumed that Bourgeois had cheated on his driver's licence exam, but did not explore
whether the facts would prove that supposition. Dr. Swanson also assumed that his employer
recruited him because he was mentally retarded, though she admitted that she did not have any
personal information that it was so. (DE 594 at 95).
In addition, while considering that Bourgeois had problems with money Dr. Swanson did not
consider the whole of his financial dealings. Dr. Swanson looked at a limited amount of information

68

Dr. Swanson apparently selected evidence that supported her conclusion that
Bourgeois had mental retardation, but never probed that information for validity or reliability. For
instance, she never explored the extent to which Bourgeois needed help in school and how long that
need persisted. Claudia Williams testified that Bourgeois had problems doing his homework in
elementary school and he "was very slow. You had to constantly show him what to do and how to
do it." (DE 597 at 17, 27). But Ms. Williams was confused about when she helped, what she helped
with, and how much help he needed. On cross-examination, Ms. Williams testified that Bourgeois
received better grades than she did in high school. (DE 597 at 62).

85

PA121

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 6 of 40

suggesting that Bourgeois made poor financial decisions. (DE 594 at 163-64). In her supplemental
report, Dr. Swanson listed the information she relied upon to find an inability to manage finances:
Bourgeois' brother "provided him a lot of assistance in financial matters. He had signed a lease that
had put him in considerable debt on this truck that he had. He had fallen behind on paying on his
house. He owed money on credit cards." (DE 594 at 164). But it was evident that Dr. Swanson had
not looked at all his financial deals nor factored into her consideration his whole abilities. She saw
how he meticulously tracked his financial affairs, as later explained by Dr. Moore. (DE 599 at 13338). She watched his interview with Dr. Moore in which he elaborated on how he successfully
operated in the trucking industry. (DE 594 at 163). She heard how Bourgeois blamed his financial
misfortunes on Robin Bourgeois' overspending. (DE 594at163, 174). Dr. Swanson, however, only
factored into her analysis at information that suggested poor money skills without probing the
reliability of the information before her, the etiology of the alleged problems, whether financial
difficulties came from mental retardation or other factors, or strong indications that Bourgeois
understood how to handle money. Bourgeois was not a financial genius, but the evidence did not
persuasively demonstrate that mental retardation was to blame for his money problems. Dr. Price
credibly thought that "[l]iving beyond his means and being in financial trouble is more likely related
to his personality disorder, especially his impulsivity and sense of entitlement." (GX-1 at 9).
Bourgeois' money management showed "a personality disorder trait or ... a maladaptive personality
trait," not mental retardation. (DE 595 at 223).
Dr. Swanson's reliance on Bourgeois' writing ability to show adaptive deficits exemplifies
her myopic review. For instance, Dr. Swanson included her observations of how long it took
Bourgeois to write a paragraph as an indicator of deficits. (DE 594 at 50-51, 54). She felt that he
took an unreasonable amount of time to write, but would not factor the content of his writing into
86

PA122

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 7 of 40

her analysis. When the Government challenged her conclusions, Dr. Swanson became defensive and
would not accommodate any information that disproved her conclusions. Dr. Swanson admitted that
the content of his letters provided "an example that does not support [her] conclusion," but did not
revise her conclusion on that basis. In another example, Dr. Swanson assumed that Bourgeois had
difficulty understanding and managing money because he made unwise financial deals, (DE 594 at
163), although he assiduously maintained his checking account. Dr. Swanson opined that it "took
[Bourgeois] much, much longer than it did the typical person" to learn to drive a truck, but he did
learn and apparently did it with adequate proficiency. (DE 594 at I 00). Cherry-picking information
in isolation limits the data from which an expert draws conclusions, thus guiding the analysis. 69
Choosing narrowly the information that experts will consider leads them toward a conclusion that
may not represent the inmate's full abilities.
Dr. Moore, on the other hand, took a full range of behavior into consideration when
evaluating informal accounts for adaptive deficits. Dr. Moore criticized picking out individual and
isolated problems because"[w ]hen we look at adaptive functioning, we're looking at far more broadbased than that." (DE 599 at 206). According to Dr. Moore, Bourgeois' letter writing discounted
adaptive deficits. (DE 599 at 13). Factors such as his fastidious record keeping, cogent letter
writing, competent spelling, and others signal that insufficient evidence supports a finding of deficits
in functional academics. Dr. Swanson lessened her credibility when she only focused on information
supporting mental retardation without giving weight to or reconciling factors that disproved her
conclusions.

69

In fact, Dr. Swanson later refused to factor Bourgeois' long colloquies with the Court
because "you can't use ... one comment or conversation to infer and make a total global assessment
of someone's adaptive abilities." (DE 594 at 179). In fact, she herself based her finding of adaptive
deficits on selected, isolated information without considering the whole.
87

PA123

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 8 of 40

Practical Domain - Health and safety Dr. Swanson based her finding of deficits in the
practical domain on Bourgeois' work history. She claimed that he has "profound delays in learning
new skills." (PX-33 at 3). According to her, Bourgeois only got his first job because of his mental
retardation . She related that he took longer than most to learn how to drive a commercial truck and
was "sheltered at one trucking job by a relative who held a supervisory position[.]" (PX-33 at 3).
Even later, he had difficulty driving and often got lost, ran over things, and received speeding tickets.
He relied on others to navigate the roadways. Through his decades as a truck driver, "he would ask
people to join him on his over the road jobs so that they could help him with directions and other
tasks." (PX-33 at 4).
The testimony from the evidentiary hearing did not confirm that Bourgeois received his first
job because of mental retardation. 70 While possibly showing that it took him longer to learn skills,
the abundant evidence before the Court shows that Bourgeois was not only competent in his work
skills, but he excelled at his employment. 71 While he initially had problems at his first job, he
learned to drive different kinds of trucks and mastered driving tractor-trailers. (DE 597 at 358-59).
Dr. Swanson never interviewed any of the witnesses who testified about Bourgeois' successful

70

Dr. Swanson assumed that Ms. Mary got Bourgeois first job. (DE 594 at 93). The
testimony was mixed about whether Bourgeois got his first job on his own. Only Ms. Williams, who
provided less-than-believable testimony otherwise, said that her husband got him the job. Compare
DE 597 at 43 with DE 597 at 350. Mr. Henry did not testify that retardation played any part in
Bourgeois' hiring, his duties, accommodations made for him, or other employment decisions.
71

Dr. Swanson also mentioned that Bourgeois had problems tying shoes, counting
money, and riding a bike. Testimony about Bourgeois' impeccable dress and ability to maintain his
own finances when older undercut the testimony about his inability to dress properly or count money
when young, even if it may have taken him longer to do so as a youth.
88

PA124

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 9 of 40

decades as a truck driver. 72 Dr. Moore explained that his employment as a truck driver was
inconsistent with mental retardation: "This isn't a simple repetitive job that he went to in a factory
putting lids on widgets, but a job that had him going out and around the country, living, at least
driving independently, picking up loads, taking care of his self-care during that period, interacting
with people across a lot of different certainly social styles, as we move across the country." (DE 599
at 133).
Dr. Swanson also found deficits in the AP A's related area of health and safety. Dr. Swanson
based her finding that he met the health and safety prong on specious evidence. For instance, she
found that Bourgeois "had problems keeping himself safe" and mentioned how he "drove himself
into a pole, causing himself serious injury." (PX-33 at 4). While Murray Bourgeois testified that
Bourgeois had crashed an ATV, his testimony attributed the accident more to unfamiliarity than
mental impairment. Dr. Swanson also relied on other unsafe practices, speeding tickets, and his
getting lost as a support for her conclusion. She ignored, however, the fact that he drove a tractortrailer across the country for decades without a major accident. His work put him on the roadways
continually and the testimony did not indicate that he had ever crashed, caused a major accident, or
received anything but minor injuries himself from carelessness. Given his long and successful
history as a truck driver, Dr. Swanson's finding of adaptive deficits based on his work history lessens

72

Testimony from Donald Resse included incidents where Bourgeois was lost or
confused while driving, though he complained that since "[t]hat was over 20 years ago" he could not
remember some specifics. (DE 597 at 386). What Dr. Swanson did not figure into her analysis was
the decades afterward that Bourgeois apparently worked as a truck driver without significant
difficulty. Even the trial testimony showed Bourgeois maneuvering about the country with an able
understanding of direction and an apparent comprehension of how to perform his job effectively.
Bourgeois' many years successfully performing his job duties undercut Mr. Reese's testimony.
Other witnesses described Bourgeois' employment skills in a way that precluded blaming the
problems Mr. Reese identified on mental retardation.
89

PA125

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 10 of 40

her credibility and implies that she only searched for information that would support her conclusion.
Social Domain - Social/interpersonal skills Finally, Dr. Swanson weakly found deficits in

Bourgeois' social skills. Dr. Swanson listed Bourgeois talkativeness, which according to her made
him "absolutely unable to participate in a two-way conversation" as the primary basis for this
diagnosis. (PX-33 at 4; DE 594 at 166-67). Dr. Swanson saw it as a deficit, mainly because he
dominated conversations. (PX-33 at 4). Dr. Price saw Bourgeois' loquacious nature, "the gift of
gab," as a positive factor. (GX-1 at 8). This Court communicated with Bourgeois many times
during the trial. As the record of those colloquies amply shows, Bourgeois may be talkative, but he
can engage in the give-and-take of normal conversation without any hint of impairment. 73 This
Court's observation of Bourgeois, both in the courtroom and in his video recordings, does not
suggest any impairment in the social domain.
In the end, Dr. Swanson failed to make a full review of available evidence relating to
Bourgeois' adaptive abilities. To the extent that Bourgeois may have had difficulties when younger,
the record does not conclusively link those problems to mental retardation rather than a culturally
deprived upbringing, poverty, or abuse. Dr. Swanson did not explore whether or not his childhood
problems found their root in substantial mental impairment.
Nothing suggested that deficiencies endured into maturity. 74 Dr. Moore more credibly

73

Dr. Swanson also mentioned how Bourgeois' family "tolerated [his] odd manner" and
how he had "informal supports to help him initiate and maintain any semblance of relationships."
(PX-33 at 4). The record simply did not bear out these extreme statements.
74

Of the DSM-IV-TR's three areas, Dr. Swanson only found conclusive evidence of
one as Bourgeois aged. She testified that there was "firm evidence of conceptual deficits persisting
into adulthood." (DE 594 at 105). While she saw "problems in his practical skill[s]," she explained
that they were not "sufficient deficits that would qualify in the area of practical." (DE 594 at 104).
She saw "a lot of deficits in the area of social" which merged with his personality disorder, but
(continued ... )
90

PA126

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 11 of 40

explained: "while his functioning may have been relatively impaired in his early childhood, he
appears to have developed greater independence of functioning by the time he finished high school."
(GX-15 at 16). 75 Bourgeois operated with remarkable competency in the free world for one with low
IQ scores. A broad review of the evidence does not make Bourgeois' claim of adaptive deficits
believable. To the extent that Bourgeois showed problems in his life, such as in functional
academics, the evidence does not unquestionably place the blame for those deficiencies on mental
retardation, instead of on a failure to exert sufficient effort, possibly in conjunction with additional
psychological or behavioral problems. Bourgeois has not made a convincing showing that he suffers
from significant adaptive deficits that would serve as a predicate for mental retardation. The record
shows strengths that more than coexist with weaknesses, they call into question the depth and
accuracy of reports of those weaknesses. The Court finds that Bourgeois has not shown substantial
adaptive deficits by a preponderance of the evidence.

D.

Manifestation of Limitations Before Age 18

The evidence before the Court failed to point to any pronounced intellectual impairment
before Bourgeois' eighteenth birthday. Bourgeois has not shown that he is now, was at the time of
the crime, or was during the developmental period, mentally retarded. Some evidence indicated that

74

( ... continued)

seemed more unsure of whether they were significant deficits. (DE 594 at 104-06).
75

Dr. Estrada explained: "I have seen reports from his school indicating very low
performance, reports from family members and friends indicating that he was slow to understand
things, had difficulty making correct decisions, et cetera, et cetera. And I have also read reports and
information of being able to take care of business and good reports, so I have had a mixed review
regarding his cognitive capacities throughout his life." (PX-163 at 32). Again, the record "gives a
mixed picture of good things, bad things" but Bourgeois clearly "had a good adaptive capacity in
many areas of functioning." (PX-163 at 37). Dr. Estrada blamed other psychological issues, like
rage episodes, for the problems in Bourgeois' life.
91

PA127

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 12 of 40

Bourgeois was a slow learner and took additional time to complete tasks while young. The Court,
however, must balance that information against indications that mental retardation did not plague
his youth.
As previously discussed, problems with time and perspective plague the most-developed lay
testimony about his intellectual functioning as a youth. The evidence may show some problems
before Bourgeois eighteenth birthday, but does not convincingly point to a diagnosis of mental
retardation before that point in time. 76 The Court finds that Bourgeois has failed to meet all three
prongs of the Atkins analysis.

E.

Trial Counsel's Failure to Develop Evidence of Mental Retardation

In conjunction with his Atkins claim, Bourgeois faults defense counsel for not developing
evidence of his alleged mental retardation at the time of trial.

Evidence of possible mental

retardation would play two roles in the sentencing phase. First, mental retardation could preclude
a death sentence under the FDPA, 18 U.S.C.A. § 3596(c), and Atkins. Second, trial counsel could
develop evidence of Bourgeois' possible mental retardation as testimony to mitigate against a

76

Even to the extent that Bourgeois has shown some signs of intellectual disability, his
claim to have suffered traumatic brain injury hampers his Atkins claim. According to Dr. Moore,
the brain injuries Bourgeois' allegedly suffered cloud the question of pre-adult mental retardation:
But in this particular case there is the contention that there were two significant
injuries, two significant head injuries, one of which purportedly led to a behavioral
change. And to me, that would create a snag or a difficulty to being able to
extrapolate those scores back. We don't know whether those head injuries would
have led to a decrease in his IQ functioning. And in fact, if they were significant and
led to behavioral change, it's likely that they could have led to a change. So I can't
take the scores of the present and simply extrapolate them back and say there's been
no change in intellectual functioning.
(DE 599 at 145-46). Bourgeois' medical records, however, did not substantiate his claim to have
had head injuries that put him a coma, calling into question the severity of any alleged head trauma.

92

PA128

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 13 of 40

sentence of death. While the Court has explicitly found that Bourgeois is not mentally retarded, that
ultimate conclusion would not foreclose counsel from presenting the same information to show that
Bourgeois has below average or low intelligence.
"Mental retardation as a mitigator and mental retardation under Atkins ... are discrete legal
issues." Bies,_ U.S. at_, 129 S. Ct. at 2153. Even when an inmate has valid IQ scores
suggesting low intelligence, an attorney faces difficult questions when deciding whether to present
such evidence to the jury because "[b]orderline retardation is not always viewed as a mitigating
circumstance." Riley v. Dretke, 362 F.3d 302, 307 (5th Cir. 2004). Atkins recognized that "reliance
on mental retardation as a mitigating factor can be a two-edged sword that may enhance the
likelihood that the aggravating factor of future dangerousness will be found by the jury." 536 U.S.
at 321; see also Penry v. Lynaugh, 492 U.S. 302, 324 (1989) ("Penry's mental retardation ... is a
two-edged sword: it may diminish his blameworthiness for his crime even as it indicates that there
is a probability that he will be dangerous in the future."). The Fifth Circuit has previously found no

Strickland prejudice in failing to present evidence oflow IQ because "'the upper borderline of mild
retardation' does not amount to 'any significant organic damage or mental illness."' Riley, 362 F.3d
at 307 (quoting Smith v. Black, 904 F.2d 950, 977-78 (5th Cir. 1990)).
The Court finds that trial counsel did not violate Bourgeois' constitutional rights by not
investigating Bourgeois' mental retardation further. Trial counsel initially withheld any judgment
about Bourgeois' level of intelligence until after Dr. Estrada's testing. (DE 388 at 7). However, Mr.
Gilmore testified in the hearing that he never thought that Bourgeois was mentally retarded. (DE
598 at 145). Bourgeois was "very active in the defense team." (DE 598 at 145). Bourgeois wrote
his attorneys detailed letters giving them precise instructions on the handling ofhis defense. He even
asked his attorneys to provide him a copy of their defense strategy in written form. (DE 598 at 151 ).
93

PA129

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 14 of 40

He informed his attorneys which witnesses he wanted to testify. (DE 598 at 154). Bourgeois gave
him no reason to question Dr. Estrada's statement that he had above-average intelligence. (DE 598
at 156). Mr. Tinker explained: "Based on the information we had, from experts and family members,
we were unaware that Mr. Bourgeois was mentally retarded, or near retardation level." PX-82 at 9).
Dr. Weiner's testing resulted in an IQ score that on its face fell within the range eligible for
a diagnosis of mental retardation. The purpose of Dr. Weiner's testing, however, was to identify
neurological deficits. He did not test for mental retardation, and thus did not encourage counsel to
investigate that possible defense further.

Dr. Weiner explained why he did not investigate

Bourgeois' intellectual functioning:
Well, I really didn't have any way to reliably determine what his actual level of
functioning was because he presented himself as someone who had better grades in
school than he actually made, who went to college, which to my knowledge he
didn't, who didn't tell me about multiple stressful circumstances in his life, the abuse
and so on, so it would, in all likelihood, even ifl could have administered an adaptive
behavior instrument to Mr. Bourgeois, it would have been invalid because he would
have probably exaggerated, made himself look like he was more capable of
performing out in the world than he actually is.
(DE 594 at 267). 77
Even though trial counsel did not seek expert assistance in that regard, Mr. Gilmore testified
that he was left "just a gut feeling" that he was not mentally retarded. (DE 598 at 214). The
evidence adduced after trial has shown that, had trial counsel chosen that defense strategy, the
resultant information would not have excluded Bourgeois from execution. As discussed at greater
length with respect to Bourgeois' failure-to-present-mitigating-evidence claim, reliance on evidence
of a low IQ alone would not have brought about a reasonable probability of a different result.
Bourgeois cannot show Strickland deficient performance or actual prejudice on trial counsel's failure

77

Mr. Tinker dealt with Dr. Weiner exclusively. (DE 598 at 215).
94

PA130

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 15 of 40

to argue that Bourgeois is mentally retarded.

F.

Conclusion of Bourgeois' Atkins Claim

This Court has afforded Bourgeois a full and fair opportunity to show whether mental
retardation precludes his execution. A holistic review of Bourgeois' life does not manifest the
characteristics that Atkins identified as making mentally retarded offenders less culpable:
Because of [mentally retarded offenders'] impairments ... by definition they have
diminished capacities to understand and process information, to communicate, to
abstract from mistakes and learn from experience, to engage in logical reasoning, to
control impulses, and to understand the reactions of others. There is no evidence that
they are more likely to engage in criminal conduct than others, but there is abundant
evidence that they often act on impulse rather than pursuant to a premeditated plan,
and that in group settings they are followers rather than leaders.

Atkins, 536 U.S. at 318 (footnote omitted). Bourgeois' life indicates that he can communicate
effectively, learn from experience, and engage in logical thinking. 78 Bourgeois' intellectual and
adaptive functioning, while possibly low, does not bear the characteristics that would render his
sentence a cruel and unusual punishment. The Court finds that Bourgeois has not shown by a
preponderance of the evidence that he is mentally retarded. This Court denies Bourgeois' first
ground for relief.

II.

Ineffective Assistance of Counsel for Failing to Present Mitigating Evidence (claim two)
Bourgeois' second ground for relief faults trial counsel's preparation and presentation of

evidence to mitigate against a punishment of death. The importance of mitigating evidence in a
capital case cannot be gainsaid. A capital sentencing jury must have the opportunity to consider
"relevant facets of the character and record of the individual offender or the circumstances of the

78

While some expert witnesses focused on Bourgeois' impaired ability to control
impulses, they attributed that deficit to other psychological deficiencies, rather than ment al
retardation.
95

PA131

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 16 of 40

particular offense" including "compassionate or mitigating factors stemming from the diverse
frailties of humankind."

Woodson v. North Carolina, 428 U.S. 280, 304 (1976); see also

Abdul-Kabir v. Quarterman, 550 U.S. 233, 263-64 (2007) ("[B]efore a jury can undertake the grave
task of imposing a death sentence, it must be allowed to consider a defendant's moral culpability and
decide whether death is an appropriate punishment for that individual in light of his personal history
and characteristics and the circumstances of the offense.").
Capital defense attorneys carry a heavy burden in identifying and developing evidence to
mitigate against a sentence of death. See Florida v. Nixon, 543 U.S. 175, 191 (2004). Nevertheless,
"[t]rial counsel's failure to present mitigating evidence during the penalty phase is not per se
ineffective assistance" if based on reasoned strategic decision making. Smith v. Quarterman, 515
F.3d 392, 405 (5th Cir. 2008); see also Villegas v. Quarterman, 274 F. App'x 378, 382 (5th Cir.
2008); Rileyv. Cockrell, 339 F.3d 308, 316-17 (5th Cir. 2003); Moore v. Johnson, 194 F.3d 586, 615
(5th Cir. 1999); Ransom v. Johnson, 126 F.3d 716, 723 (5th Cir. 1997). Although the Constitution
does not "require counsel to investigate every conceivable line of mitigating evidence no matter how
unlikely the effort would be" or "require defense counsel to present mitigating evidence ... in every
case," Wiggins, 539 U.S. at 533-34, "defense counsel has the obligation to conduct a 'reasonably
substantial, independent investigation' into potential mitigating circumstances." Neal v. Puckett, 286
F.3d 236, 236-37 (5th Cir. 2002)(quoting Baldwin v. Maggio, 704 F.2d 1325, 1332 (5th Cir. 1983))
Bourgeois alleges that trial counsel did little to explore his background and gave the jury only a
thumbnail sketch of the available evidence.
As previously discussed, Bourgeois' trial attorneys presented the jury with some information
about his background. Bourgeois now argues that "the jury in this case was not provided with the
true, accurate and available mitigating evidence" about (1) childhood physical abuse; (2) childhood
96

PA132

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 17 of 40

sexual abuse; (3) cognitive impairments, including borderline mental retardation and organic brain
damage; (4) current mental disorders such as borderline personality disorder; and (5) mental health
evidence about how his abusive childhood influenced his adult behavior. (DE 396 at 18-20).
Bourgeois claims that trial counsel should have built a sturdier case against a death sentence through
both lay witnesses and expert assistance.
The Court has before it an ample view of available evidence and counsel's decision making.
Bourgeois supported his Motion to Vacate with declarations from numerous individuals attesting to
the difficult circumstances in his childhood. He selected a few of those individuals to testify in the
evidentiary hearing. Coupled with that information, mental health experts testified about the
lingering psychological effects of his childhood and other mental problems. The Court has provided
Bourgeois a full and fair opportunity to present evidence on this claim. The Court will now review
the standards governing defense attorneys' representation, pre-trial efforts, selection oflay witnesses,
use of expert witnesses, and finally the cumulative effect of their choices.

A.

The Strickland Standard

"The benchmark for judging any claim of ineffectiveness must be whether counsel's conduct
so undermined the proper functioning of the adversarial process that the trial cannot be relied on as
having produced a just result." Strickland v. Washington, 466 U.S. 668, 686 (1984). Strickland
established a familiar two-pronged analysis under which a criminal defendant's Sixth Amendment
rights are "denied when a defense attorney's performance falls below an objective standard of
reasonableness and thereby prejudices the defense." Yarborough v. Gentry, 540 U.S. 1, 3, (2003)
(emphasis added); see also Wiggins v. Smith, 539 U.S. 510, 520 (2003). "Failure to make the
required showing of either deficient performance or sufficient prejudice defeats the ineffectiveness
claim." Strickland, 466 U.S. at 700.
97

PA133

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 18 of 40

To establish deficient performance, an inmate must show that "counsel made errors so
serious that counsel was not functioning as the 'counsel' guaranteed ... by the Sixth Amendment."
Strickland, 466 U.S. at 687. The Supreme Court has "declined to articulate specific guidelines for
appropriate attorney conduct." Wiggins, 539 U.S. at 521. Instead, "[t]here are countless ways to
provide effective assistance in any given case." Strickland, 466 U.S. at 689. "The proper measure
of attorney performance remains simply reasonableness under prevailing professional norms."
Strickland, 466 U.S. at 688. 79 In reviewing ineffectiveness claims, "judicial scrutiny of counsel's
performance must be highly deferential," id at 689, and courts afford counsel a "strong presumption
of competence[.]" Cullen v. Pinholster, -

U.S. -, - S. Ct.

-

, 2011 WL 1225705, at* 16

(2011); see also Premo v. Moore,_U.S. _ , 131 S. Ct. 733, 742 (2011) ("[S]ubstantial deference
must be accorded to counsel's judgment[.]"); Rompilla v. Beard, 545 U.S. 374, 381 (2005)
(recognizing the "heavy measure of deference to counsel's judgments"). Even when the record fails

79

Movant extensively argues that trial counsel's representation fell short of the
American Bar Association's Guidelines for the Appointment and Performance ofCounsel in Death
Penalty Cases ("Guidelines"). Recent Supreme Court precedent has relied on the Guidelines as a
useful measure of what activities a reasonable attorney should engage in when representing a capital
defendant. See Rompilla v. Beard, 545 U.S. 374, 387 (2005); Wiggins, 539 U.S. at 524; see also
Strickland, 466 U.S. at 688-89 ("Prevailing norms of practice as reflected in American Bar
Association standards and the like ... are guides to determining what is reasonable"). Nevertheless,
[n]o particular set of detailed rules for counsel's conduct can satisfactorily take
account of the variety of circumstances faced by defense counsel or the range of
legitimate decisions regarding how best to represent a criminal defendant. Any such
set of rules would interfere with the constitutionally protected independence of
counsel and restrict the wide latitude counsel must have in making tactical decisions.
Indeed, the existence of detailed guidelines for representation could distract from the
overriding mission of vigorous advocacy of the defendant's cause.
Strickland, 466 U.S. at 688-89. The Supreme Court has not held that the guidelines are a checklist
to effective representation. Guidelines established by professional organizations do not supplant,
but rather inform, Strickland's penetrating performance and prejudice inquiry. See Wiggins, 539
U.S. at 521; Roe v. Flores-Ortega, 528 U.S. 470, 477 (2000).
98

PA134

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 19 of 40

to explain all of trial counsel's decision making, as it does in some places here, "the defendant must
overcome the presumption that, under the circumstances, the challenged action might be considered
sound trial strategy." Bell v. Cone, 535 U.S. 685, 698 (2002) (quotation omitted); see also Gentry,
540 U.S. at 8 ("When counsel focuses on some issues to the exclusion of others, there is a strong
presumption that he did so for tactical reasons rather than through sheer neglect."); Strickland, 466
U.S. at 690 (stating that counsel is "strongly presumed" to make decisions in the exercise of
professional judgment). 80 In assessing an attorney's performance with respect to a capital sentencing
proceeding, courts "look to such factors as what counsel did to prepare for sentencing, what
mitigating evidence he had accumulated, what additional 'leads' he had, and what results he might
reasonably have expected from these leads." Neal, 286 F.3d at 237.
To establish actual prejudice, a petitioner must show "a reasonable probability that, but for
counsel's unprofessional errors, the result of the proceedings would have been different." Strickland,
466 U.S. at 694; see also Wiggins, 539 U.S. at 534. A reasonable probability is one that is sufficient
to undermine confidence in the outcome. See Strickland, 466 U.S. at 689; Wiggins, 539 U.S. at 534.
The Court does not consider prejudice in a vacuum. "In making this determination, a court hearing
an ineffectiveness claim must consider the totality of the evidence before the judge or jury."

Strickland, 466 U.S. at 695.

80

The Court has before it an incomplete account of the efforts by trial counsel, the
investigators, and the expert witnesses to advert a death sentence. Gaps exist in the record, partially
owing to Mr. Tinker's passing, partially due to the nature of the information submitted. For instance,
Mr. Gilmore's testimony clearly showed that Mr. Tenore played an important part in the defense
team and interacted regularly with the mitigation investigators, but his entire role cannot be
ascertained from the material. (DE 598 at 192). Some email communications between the defense
team members are before the Court, but many are one-sided, without responses, and capture only a
portion of an obviously on-going conversation. Nevertheless, the record provides a sufficient basis
to decide "whether the investigation supporting counsel's decision not to introduce mitigating
evidence of [his client's] background was itselfreasonable." Wiggins, 539 U.S. at 523.
99

PA135

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 20 of 40

A court reviewing for error under Strickland recognizes that the years that have passed may
distort the landscape as viewed through trial counsel's eyes. See Harrington v. Richter,_ U.S.
_, _

S. Ct._ (2011) ("Unlike a later reviewing court, the attorney observed the relevant

proceedings, knew of materials outside the record, and interacted with the client, with opposing
counsel, and with the judge."); Strickland, 466 U.S. at 689 ("A fair assessment of attorney
performance requires that every effort be made to eliminate the distorting effects of hindsight [and]
to reconstruct the circumstances of counsel's challenged conduct[.]").

Thus, an ineffective-

assistance claim focuses on "counsel's challenged conduct on the facts of the particular case, viewed
as of the time of counsel's conduct[,]" because "[i]t is all too tempting for a defendant to secondguess counsel's assistance after conviction or adverse sentence[.]" Id. at 689-90; see also Richter,
_U.S. at_, 131 S. Ct. at 790 ("After an adverse verdict at trial even the most experienced
counsel may find it difficult to resist asking whether a different strategy might have been better, and,
in the course of that reflection, to magnify their own responsibility for an unfavorable outcome.").

B.

Trial Counsel's Investigation and Preparation of Mitigating Evidence

Bourgeois claims that trial counsel's investigation was too hasty, too superficial, and too
truncated to pass constitutional muster. This Court has already briefly recounted trial counsel's case
at the penalty phase. From the transcript alone, it is obvious that this is not a case where defense
counsel completely abandoned the heavy duty to investigate and present mitigating evidence. The
Court, however, will discuss at length trial counsel's efforts to build an effective punishment
defense.

1.

Counsel's Early Efforts to Prepare a Mitigation Defense

Early on, Bourgeois established himself as the one who would guide his defense, as evinced
by a letter he wrote to trial counsel: "Dear Mr. Gilmore, I want a copy of your strategy on my case.
100

PA136

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 21 of 40

I would like to know how you plan to attack my case and what you think the outcome will be. I
would appreciate if you could put together a brief memorandum in support of me, Alfred Bourgeois,
your Defendant, and position regarding to my trial." (GX-180). Bourgeois, who was "very active
in the defense team," decided that the defense's theory would be that "his wife committed the crime"
and never wavered from that defense. (DE 598 at 144-45). Accordingly, trial counsel "built [their]
case around" that theory. (DE 598 at 145).
Contemplating that Bourgeois' chosen defensive theory would not be greeted with success,
his attorneys began preparing a mitigation case before the Government certified that it would seek
a death sentence. The defense first retained the services of Doug Tenore as an investigator. Mr.
Gilmore retained Dr. Cunningham who advised him to secure the assistance of a mitigation
investigator. 81 At Dr. Cunningham's recommendation, Lisa Milstein and Gerald Bierbaum joined
the defense team.
After the Government gave notice that this would be a capital case, the Court set jury
selection to begin on February 12, 2004. Trial counsel had seven months to prepare for trial. From
the outset, defense counsel pursued both lay witnesses and expert assistance. While the mitigation
investigators delayed the beginning of their investigation into lay witnesses, this is certainly not a
case where the defense "did not even take the first step of interviewing witnesses or requesting
records." Porter v. McCollum, _U.S._, 130 S. Ct. 447, 453 (2009).
The mitigation investigators met with Bourgeois for the first time on October 23, 2003. (PX-

81

Mr. Gilmore sent Dr. Cunningham an email on July 25, 2003, informing him of his
appointment. He described how "[t]he case was reset to February 2004, to allow you to gather
information for your evaluation." He told Dr. Cunningham that he had contacted an investigator for
"your investigation." The record does not contain any communication from Dr. Cunningham
clarifying the relationship he expected between the attorneys, the investigators, and the experts.
101

PA137

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 22 of 40

165; DE 351at12). Throughout the investigators' interaction with Bourgeois, he was extremely
useful but also paradoxically deceptive. Mr. Gilmore explained that Bourgeois "gave [them] names
and telephone numbers of everybody that [they] should contact." (DE598 at 146). Testimony from
the evidentiary hearing showed that Bourgeois himself communicated with the investigator, Mr.
Tenore, about the individuals who could provide information. (DE 598 at 184). Bourgeois,
however, also provided misinformation. Bourgeois, for instance, untruthfully told his attorneys that
he had been in an accident on a three-wheeled ATV and had been in a coma for two months. He
exaggerated the successes in his life. Bourgeois' dishonesty hampered the defense's development
of evidence.
In the weeks after the first meeting, the investigators interviewed several individuals. 82 Their
efforts, however, were not universally expeditious. On December 1, 2003, Dr. Cunningham's office
sent the defense attorneys an email inquiring about the status of the mitigation investigation. Dr.
Cunningham's office then informed counsel that they had not yet received any information from the
mitigation investigators. Counsel immediately responded and indicated that the mitigation experts
had requested more time to prepare, which would require a trial continuance. Counsel asked Dr.
Cunningham for clarification on whether the mitigation investigators should feed him information
or whether it should go to both of them. The record does not contain a response from Dr.
Cunningham. (DE 598 at 193).
At the recommendation of the mitigation investigators, on December 9, 2003, defense
counsel filed a motion for a continuance to allow them more time to explore Bourgeois' background.

82

In October 2003, the defense informed the Court that their mitigation investigators
had started interviewing witnesses and had been in Corpus Christi the week before. (DE 351 at 17).
102

PA138

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 23 of 40

(DE 134). 83 By this point, the mitigation investigators had already interviewed several of Bourgeois'
relatives. (PX-165). Trial counsel informed the Court that the mitigation investigators "cannot
properly complete their investigation of this case until August, 2004." (DE 134). The Court held
a hearing on December 10, 2003. (DE 358). The Court expressed concern that the mitigating
investigators had delayed their efforts to that point. The Court cautioned the defense that a failure
to get the investigation "done in a timely manner" was "very close to bad faith." (DE 358 at 4). 84
The Court told the defense that the mitigation investigation "had to be finished by trial." (DE 358
at 14).
In the same hearing, the parties discussed the appointment of expert witnesses. The Court
has already appointed experts to explain why Bourgeois killed and whether he premeditated the
murder. 85 The defense wanted to retain Dr. Estrada as a mental-health expert. To trial counsel's

83

That same day defense counsel filed a motion for a psychological examination
because they observed "highly unusual, often bizarre behavior, listened to abnormal conversations,
and ... noticed an unnatural writing style[.]" (DE 132 at 1). Around this same time, trial counsel
even requested, and received, funds to employ a jury selection specialist. (DE 129). Also, they had
experts look at the bite-mark and DNA evidence.
84

Bourgeois emphasizes the concerns this Court expressed in that hearing as evidence
that trial counsel's mitigation investigation fell below acceptable standards. Bourgeois' motion for
a continuance, however, has to be considered in the context of that time. Trial counsel assured the
Court that the mitigation investigators could complete their investigation in five months before the
February 2004 trial setting. Trial counsel's motion asking for an additional lengthy amount of time
came before the Court at the same time as serious concerns arose about the safety of witnesses.
Bourgeois had, through correspondence, threatened to kill witnesses. At least one had been killed.
The Court told defense counsel: "I have to believe the past representation of [the Government] that
every month delayed puts these witnesses in danger." (DE 358 at 14). This Court had to balance
security concerns against the period needed for an adequate investigation. As the Court informed
trial counsel: "this may be a matter oflife and death for many people besides your client." (DE 358
at 101 ).
85

The defense sought the assistance of other experts whose participation in the defense
do not play a major role in the instant proceeding. For instance, trial counsel also secured the help
(continued ... )
103

PA139

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 24 of 40

"dismay," Dr. Estrada was already retained by the Government. (DE 598 at 156; DE 118; DE 358
at 11 ). By the time of trial, Mr. Gilmore had worked with Dr. Estrada for a decade and considered
him a trusted, candid witness. (DE 595 at 154-57). Trial counsel believed that they could still get
the information they needed on cross-examination. While the Government expressed concern that
the motion for a mental-health evaluation was only a delay tactic by the defense (DE 132), the parties
agreed to have Dr. Estrada examine Bourgeois. (DE 135, 149).
After the December 10th hearing, trial counsel moved to withdraw its request for a
continuance. (DE 145). Trial counsel informed the Court that the mitigation investigators had said
"they would suspend their work on other investigations and concentrate on completing their
investigation on this case." (DE 145 at 1). The mitigation investigators "assured counsel that their
work [would] be completed in time for the February trial setting." (DE 145 at 1).

85

( ... continued)
of Dr. Joseph C. Rupp, a forensic pathologist, to testify about whether the forensic evidence
suggested that Bourgeois committed a premeditated killing. (DE 350 at 82). The Court would not
allow Dr. Rupp to testify in the guilt/innocence phase and questioned its relevance to the punishment
proceedings. (DE 350 at 91-92). Trial counsel chose not to call Dr. Rupp as a witness. Trial
counsel had retained a jury selection specialist. (DE 129). On October 10, 2003, the Court
appointed Dr. George W. Holden to provide psychological explanation for Bourgeois' crime,
focusing on "provid[ing] the jury with insight about dynamics of family violence as they related to
Mr. Bourgeois' intent and state of mind at the time of the death of his infant daughter." (PX-20 at
1). Trial counsel provided Dr. Holden a "box of material" relating to Bourgeois' background. After
reviewing the available material, Dr. Holden provided an explanation for the murder: Bourgeois was
upset about the potty training failure, was stressed from living with his family in the truck, and had
little attachment to the victim. Dr. Holden suspected that Bourgeois had been abused as a child and
thus learned that violence was an appropriate parenting technique. Dr. Holden explained that,
"although this is evidently a case of horrible child physical abuse, it appears to be largely
understandable and not uncommon- just a more extreme case with a tragic end." (DE 397, Exhibit
9). Dr. Holden filed an addendum letter on February 25, 2004, in which he addressed his opinion
as to whether Bourgeois premeditated the killing. (DE 397, Exhibit 10). In a March 1, 2004 hearing,
the Court found that Dr. Holden could not provide a physiological justification for the murder in the
guilt/innocence phase. (DE 350 at 69).

104

PA140

Case 2:02-cr-00216 Document 660-2

2.

Filed in TXSD on 05/19/11 Page 25 of 40

Preparations Before the Guilt/Innocence Phase

As the trial date neared, the defense ramped up efforts to prepare a mitigation defense. The
mitigation investigators began interviewing witnesses in earnest, contacting dozens of individuals
in the two months left before jury selection began. (PX-165). Mr. Bierbaum "spent a significant
amount of time in Louisiana." (DE 342 at 16). Before trial, the mitigation investigators would
interview each of Bourgeois' siblings (except the one who suffers from cerebral palsy). The
investigators spoke with several members of Ms. Mary's family, long-time friends of Bourgeois, and
other family members. Their investigation would inform decisions made by trial counsel and the
defense experts.
On January 20, 2004, Dr. Estrada submitted a forensic evaluation finding Bourgeois
competent to stand trial and sane at the time of the offense. Importantly, Dr. Estrada found that
Bourgeois "appears to have an above average intelligence and memory and an average knowledge
commensurate with his level of education and experience." (DE 152 at 6). Dr. Estrada found that
he could "remember and describe the details and postulate alternative theories for his defense; none
of which involves disturbed mental status." (DE 152 at 7). Also, Dr. Estrada's review of taped
telephone conversations with family members showed "no altered mental status at the time, no
presence of delusions, and no presence of irrational thinking or irrational behavior or inability to
know right and wrong." (DE 152 at 7). 86

86

Bourgeois gave Dr. Estrada some untruthful information. He claimed to have
attended Louisiana State University for two years and to have worked as a police officer.
Importantly, Dr. Estrada reported that "[h]e denies any history of childhood abuse, physical or
sexual, neglect or trauma." (DE 152 at 4). Other information, such as his employment history with
trucking companies, was correct. Dr. Estrada made observations about Bourgeois' presentation. He
found him "alert, attentive, well-oriented to the four spheres .... His thought processes show no
thought disorder, no delusions, no hallucination, no obsessions, and no compulsions. " (DE 152 at
(continued ... )
105

PA141

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 26 of 40

On January 21, 2004, Mr. Gilmore told the Court that the defense was "still in the process
of investigating mitigating evidence" and was still waiting for a final report from the mitigation
investigators. (DE 389 at 8-9). The next few weeks included frequent communication between the
mitigation investigators and Dr. Cunningham. On January 30, 2004, mitigation investigators sent
Dr. Cunningham and trial counsel "a bunch of material from Bourgeois' case" and expressed a desire
to set up a meeting. (PX-60 at 1). Still, the mitigation investigation continued. In a subsequent
email, the mitigation investigator advised that there remained "about 10 more probab[l]e witnesses
and about 20 more witnesses to contact." (PX-60 at 2). Dr. Cunningham's records also show
continual phone calls and correspondence with the defense team throughout February and March.
(PX-151). 87 Mr. Bierbaum created a memorandum recording the results of a lengthy interview he
and Mr. Tinker conducted with Bourgeois in late January, 2004. The memorandum records
significant details about the abuse Bourgeois' mother heaped on him, along with other significant
mitigating circumstances. (PX-61 ).
In early February, trial counsel got authorization for Dr. Cunningham to come to Corpus
Christi. Dr. Cunningham interviewed Bourgeois, met with trial counsel, and made his own phone
calls to potential witnesses. (PX-151 ). Dr. Cunningham interviewed Bourgeois for 51/2 hours. He
also described conducting "extended telephone interviews" with Bourgeois' older siblings. 88 From

86

( ... continued)

6).
87

For instance, the defense asked Dr. Cunningham for advice about what questions to
ask prospective jurors (PX-60 at 5), promised to send him photographs of Bourgeois and video tapes
(PX-60 at 6), and updated him on additional interviews and investigation (PX-60 at 8-12).
88

Despite characterizing the interviews as "extended" in 2004, Dr. Cunningham now
downplays the information he solicited and blames others for what he later considered to be
(continued ... )
106

PA142

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 27 of 40

that investigation, Dr. Cunningham became concerned that Bourgeois had a history of rage episodes
that could be related to a traumatic brain injury he reportedly suffered. Four days later, Dr.
Cunningham advised counsel to have a neurological evaluation performed to provide explanatory
and mitigating evidence about Bourgeois' behavior. He also advised counsel to obtain Bourgeois'
medical records, which trial counsel had already ordered. 89 Nothing suggests that Dr. Cunningham
expressed any contemporaneous concern that insufficient time remained to be ready for trial. (DE
182).
The defense team formed strategy through emails, including correspondence with Dr.
Cunningham, on how to deal with trial matters such as Bourgeois' choice to testify. (PX-60 at 16).
The defense scheduled another meeting and requested Dr. Cunningham's presence telephonically.
(PX-60 at 14). Trial counsel also asked Dr. Cunningham to provide a summary of his findings and
opinions regarding possible mitigation evidence. (PX-2, 3 ). In a short letter Dr. Cunningham listed
"a number of adverse developmental factors that singly and collectively increased the likelihood of
an adverse and/or criminally violent outcome in adulthood," including: abandonment by his father,

88

continued)
inadequate preparation:
( ...

Given the eleventh-hour realization of this problem, occasioned by defense counsel
not providing me with reliable investigation data in a timely manner, and the
simultaneous demands of other professional obligations, I did not conduct as many
interviews as needed to be accomplished, and the ones that I did conduct were not as
comprehensive as I would have preferred. Given more time, and more reliable reports
of preliminary interviews, I believe I would have been able to find even more
psychologically significant information.
(DE 397, Exhibit 6).
89

On January 29, 2004, the defense filed a motion for a subpoena requesting medical
records for Bourgeois, his mother, his wife, and his daughters. Trial counsel received Bourgeois'
medical records in late February. (PX-81).
107

PA143

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 28 of 40

emotional rejection and abuse, physical abuse, the death of his older brother, and rage attacks related
to a head injury. (PX-2). Dr. Cunningham also pointed to "pro-social patterns and positive
relationship patterns" including a good work history, that he"[ w]as an involved father who provided
economic support as well relationship [sic] to his children," and "[d]isplayed an ongoing interest
in and was a constructive influence on his nieces and nephews." 90 Dr. Cunningham also gave trial
counsel a separate letter describing his opinion of whether Bourgeois would be a risk of committing
violent acts while incarcerated. (PX-3 ). Dr. Cunningham's report seemed detached from Bourgeois'
record of misconduct after his arrest. 91 Additionally, Dr. Cunningham compared Bourgeois to
studies of life-sentenced capital inmates. He observed that most life-sentenced capital inmates had
a 20-30% risk exists for acts of assaultive violence and an 8-10% chance of"a more chronic violence
problem" in prison. Dr. Cunningham thought that Bourgeois' incarceration history would reduce

90

Dr. Cunningham's conclusions seem detached from the facts of this case considering
that the Government would argue that Bourgeois reluctance to support more children played into his
murder. Also, the Government would use Bourgeois' abusive treatment of a nephew as an
aggravating factor.
91

By this point, Bourgeois had threatened to kill several individuals before trial, had
been prohibited from communicating with anyone other than his attorneys but still smuggled out
letters nonetheless, had threatened to assault jailers, and lunged at a Federal Marshal. Bourgeois'
threats and violence required him to be isolated from all other inmates. Dr. Cunningham told trial
counsel that "it is my understanding that Mr. Bourgeois has not engaged in any assaults on inmates
or staff and further that he has received few if any disciplinary write-ups." Dr. Cunningham
recognized that Bourgeois had made threats of inflicting some violence from prison, but stated that
"the credibility of these reports has not been determined." Dr. Cunningham disregarded Bourgeois'
ability to order any violence from prison because, in his opinion, he lacked sufficient financial
resources or ties to organized criminal groups to carry them out. He also expressed confidence that,
"should the Department of Justice conclude that there is good cause to fear Mr. Bourgeois' violent
reach, special conditions of confinement can be brought to bear that would restrict and monitor his
communications," without recognizing that Bourgeois had already bypassed similar conditions
before trial. Dr. Cunningham cannot blame trial counsel or mitigation experts for his
misunderstanding about the heightened security due to Bourgeois' threats and violence. He had
already interviewed Bourgeois in jail, witnessed his level of security, and, with his professed
expertise in incarceration, should have recognized the exceptional efforts made to isolate Bourgeois.
108

PA144

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 29 of 40

his own risk to around one or two percent. Dr. Cunningham emphasized that Bourgeois age, work
history, and "continuing relationships with family members" would further reduce his likelihood of
violence.
Jury selection began on February 19, 2004. Trial counsel continued preparing expert
testimony for trial.

At Dr. Cunningham's recommendation, trial counsel explored whether

neurological issues contributed to Bourgeois' crime. (PX-1 ). Trial counsel had received court funds
to employ a neurologist to perform an EEG and other studies to investigate Bourgeois' rage episodes.
(DE 182). The results of the EEG did not reveal any abnormalities. On February 28, 2004, Dr.
Donald Weiner performed a neuropsychological evaluation of Bourgeois that found him in the
"impaired range, although some tests were only slightly impaired. " 92 His performance on other parts
of the test suggested results consistent with individuals who "have a tendency to exhibit
inappropriate behavior under stress circumstances, without always being aware of the
inappropriateness of their actions."
Jury selection ended on February 25, 2004. The guilt/innocence phase began on March 1,
2004. As the punishment phase approached, trial counsel began to choose which mitigating

92

Bourgeois told Dr. Weiner that he had been in a three-wheeler accident in 1984 which
resulted in "his being in a coma for 1-2 months." Bourgeois' performance on neurological testing
suggested "mild overall cerebral damage, with moderate cerebral damage in the posterior portion of
the cerebral cortex ... likely die to the injuries sustained in the three-wheeler accident[.]" Dr.
Weiner administered for tests: the Wechsler Adult Intelligence Scale-Revised ("WAIS-R"); the Wide
Range Achievement Test-Third Edition ("WRAT-III"); the Halstead-Reitan Neurological Test
Battery for Adults, and the Test of Memory Malingering. Dr. Weiner found no evidence of
malingering and believed that his test results were "a valid indication of his current level of
neuropsychological functioning." (DE 391, Exhibit 16). As previously mentioned, Bourgeois relies
on Dr. Weiner's testing to support his Atkins claim. Dr. Cunningham's billing records show that he
reviewed Dr. Weiner's neurological report on March 4, 2004. (PX-151 at 3; DE. 597 at 248). It is
telling, given his knowledge of Dr. Weiner's results, his expertise, and his own personal interaction
with Bourgeois, that Dr. Cunningham never recommended that the defense pursue mental retardation
as a mitigation defense.
109

PA145

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 30 of 40

witnesses would testify. The investigators and attorneys had contacted "over 50 people" to discuss
mitigating evidence. (DE 598 at 184). 93 The mitigation investigators had provided trial counsel
detailed summaries of their interviews with possible witnesses and with Bourgeois himself. (PX-61
at 24-39). The record plainly shows that the mitigation investigators had already pursued various
avenues of investigation and interviewed many family members. After Bourgeois' conviction, trial
counsel informed the Court that they were meeting with witnesses and would let the Court know
who they planned to call. (DE 347 at 99).
Despite the defense efforts, not everyone was willing to testify on Bourgeois' behalf.
Bourgeois family did not all look favorably on the prospect of testifying. His ex-wives and others
still feared him. Others felt constrained in talking about his childhood because they did not want to
disparage his still-living mother. Mr. Tinker explained: "My recollection is that information was
gathered that might have helped our case, but that other information gathered would have a negative
impact on our case. I don't recall the specifically [sic] what the information was, but I recall family
members being split on the issue." (PX-82 at 9).
Prior to the punishment phase, trial counsel met with a large group of family members possibly as many as fifty - and interviewed them personally. Mr. Gilmore explained in the
evidentiary hearing:
The Government:

And let me ask you, on some of the people that Mr. Bourgeois
told you to go to and speak to, did you - was what they were
saying not good for your defense?

Mr. Gilmore:

We brought down - I think we spoke with over 50, at least
through the investigators, spoke with over 50 people.

93

One time line records interviews by the mitigation team with nearly 40 individuals,
and some were interviewed multiple times. (PX-165). At trial, Mr. Tenore testified in a hearing that
they had contacted "probably over 50" potential witnesses. (DE 342 at 15).
110

PA146

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 31 of 40

The Government:

And let me ask you, during the trial, did you rent a room, a
little conference room over in the hotel that's next to here?

Mr. Gilmore:

We got a small conference room and then a bigger room. We
had all the witnesses in the big room, and then we'd take them
individually into the conference room and talk to them
individually.

The Government:

And how many witnesses do you think were there when you
did that?

Mr. Gilmore:

I don't remember. It was a lot. It took most of the day talking
to them.

The Government:

Okay. And after you went through this group of witnesses, is
that when you decided, after talking, decide which ones to
call?

Mr. Gilmore:

We make a decision, you know, how they're going to present
in court and whether or not they have relevant evidence,
whether or not they've got too much baggage in terms of prior
convictions, things like that.

(DE 598 at 184-85). Trial counsel sorted through those and chose to call only ones whose testimony
would help more than it hurt.
But trial counsel did not make those decisions unilaterally. Mr. Gilmore testified that the trial
attorneys "always discussed the witnesses with Mr. Bourgeois." (DE 598 at 154). For instance,
Bourgeois insisted that his defense call his cousin as a witness, even though he had prior convictions.
(DE 598 at 185).
With that background, the defense decided to present its mitigating case through the crossexamination of one expert witness and the somewhat-brief testimony of three lay witnesses. Because
Dr. Cunningham's proposed testimony "did not fit with [the chosen] defense," (DE 598 at 182), they
decided not to have him testify. To recount the punishment-phase defense briefly, cross-examination
of Dr. Estrada established that Bourgeois "had suffered neglect and rejection, and there was some
111

PA147

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 32 of 40

physical abuse by his mother." (DE 341 at 23). In fact, his mother singled him out for abuse. (DE
341 at 24). That abusive background contributed to Bourgeois' own abuse of children. (DE 341 at
47). Also, violence in Bourgeois' past caused him to be violent when under stress. Specifically,
heavy stress around the time of the murder caused Bourgeois to explode in anger at JG1999. (DE
341 at 41 ). Three lay witnesses, Bourgeois' sister Michelle Denise Armont, his cousin Carl Kevin
Henry, and former neighbor Herman Clayton, Jr., described his impoverished and abused childhood.
The witnesses explained that Bourgeois "suffered a lot of abuse" and received many "whippings"
from his mother including with "the extension cord from the fan." (DE 341at113-14, 125). For
instance, witnesses described how his mother cruelly cleaned his nose with her long fingernails "and
as time go on it developed a real, real bad sore" that "always would be bloody." (DE 341at114).
Neighborhood children, and even his own siblings, teased him, primarily because his father was not
around. (DE 341 at 116). Bourgeois developed problems with anger and would "get[] red in the
face," but his sister could usually calm him down. (DE 341 at 100).
Trial counsel's closing argument discussed mitigating factors in Bourgeois' background.
Trial counsel highlighted abuse from his mother and teasing from his siblings. 94 Trial counsel

94

Trial counsel stated:

The things that we have shown you about Alfred Bourgeois, knowing that you feel
that he's guilty of this crime, are that Alfred is a 38-year-old man who was born in
Louisiana, the product of a relationship, his mother and father weren't married. He
has 22 siblings. His brothers and sisters that he lived with made fun of him because
he never saw his father. His father had a one-night stand with his mother and then
left and didn't support him until sometime when he was in high school, when he
made contact with him. And his brothers and sisters made fun of him. And his
mother singled him out for abuse. So much so that he went to live with Miss Mary,
the elderly lady, to get away from his mother. And despite the fact that the
Government may have you say he would - may want you to believe that he was
doing that for his own convenience, he sacrificed to go and live with Miss Mary to
(continued ... )
112

PA148

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 33 of 40

claimed that, with the lingering effects of childhood and stress swirling about him, Bourgeois just
"snapped" and "it got out of hand and it ended up killing her. That's not to excuse his behavior; it's
to - in an attempt to try to explain what happened." (DE 342 at 50).

3.

Trial Counsel Made a Constitutionally Sound Investigation

With that background in mind, the Court finds that counsel made a probing effort to
investigate mitigating evidence.

While the defense team delayed part of their investigation

somewhat, the Court is more concerned with the results than the timing of their efforts. Bourgeois
draws the Court's attention to Williamsv. Taylor, 529 U.S. 362 (2000), forthe proposition that "[t]he
Supreme Court has held that when counsel leave themselves such a truncated period of time to
prepare a complex mitigation investigation, they perform deficiently." (DE 649 at 30). The
Supreme Court, however, has never set a minimum length of time necessary for an adequate
mitigation investigation. In fact, recent Supreme Court cases focus on whether the scope of the
investigation was broad enough and the inquiry deep enough, not whether the attorneys met some
pre-appointed time line.
Of particular importance, the Supreme Court has found no error where trial counsel began
preparing much earlier than the "week before the trial" as in Williams. In Bobby v. Van Hook, 130
S. Ct. 13, 18 (2009), the Supreme Court found it "simply incorrect" to refer to a mitigation
investigation started much later than the one in the instant case as "last minute." The defense in Van

94

( ... continued)
take care of her. And he stayed with her until her death. And then after that, he did
not want to go back home. You heard Michelle Armont testify that he didn't want
to go back, that he didn't want to go back because of the way that his mother treated
him.

(DE 342 at 47).
113

PA149

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 34 of 40

Hook contacted their lay witnesses early and often. They were in touch with their expert witnesses
more than a month before trial, and they met with the other for two hours a week before verdict. The

Van Hook defense tried to enlist a mitigation specialist five weeks before trial. The Supreme Court
found that this mitigation investigation did not amount to deficient performance. See Van Hook,_
U.S. at_, 130 S. Ct. at 18. The defense team in this case began its probing investigation even
earlier than the attorneys in Van Hook.
The time line Bourgeois submitted into evidence amply shows that the investigators began
interviewing witnesses months ahead of trial. (PX-165). They turned over information to the
defense team and to Dr. Cunningham with increased regularity as the trial neared, but certainly well
before the beginning of the guilt/innocence phase. The defense sought the assistance of several
expert witnesses whose efforts informed their decision making. While some decisions were made
as the penalty phase drew nearer, the evidence before the Court shows that the defense team amassed
much of the evidence well before trial. With the possible exception of Dr. Weiner's evaluation that
the Court will discuss below, Bourgeois simply fails to prove the trial counsel's investigation was
not done quickly enough. With that in mind, the Court turns to Bourgeois' allegation that trial
counsel failed to adduce sufficient evidence from lay and expert witnesses.

C.

The Unpresented Evidence

Bourgeois faults counsel for not presenting (1) additional information about childhood
physical and sexual abuse; (2) testimony that he suffers from borderline personality disorder; (3)
evidence that he suffers from brain damage; and (4) evidence that he did not premeditate the killing.
In reviewing those allegations, the Court keeps in mind that each category of evidence Bourgeois
faults trial counsel for not adducing carries sharp aggravating factors with its mitigating thrust. Such
evidence functions as a "two-edged sword." Penry v. Lynaugh, 492 U.S. 302, 324 (1989); see also
114

PA150

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 35 of 40

Vasquez v. Thaler, 389 F. App'x 419, 429 (5th Cir. 2010) ("The Supreme Court has held that
evidence of mental impairment can be both mitigating and aggravating[.]"). On one hand "it might
well have helped the jury understand [the defendant], and his horrendous acts," but on the other
"might not have made [him] any more likable to the jury[.]" Sears v. Upton,_ U.S._, 130 S.
Ct. 3259, 3264 (2010). Worse, the "double-edged" nature of the evidence may have militated in
favor of finding that Bourgeois was a future danger to society. Cantu v. Thaler,_ F.3d_, 2011
WL 222986 at *5 (5th Cir. 2011); Woods v. Thaler, _F.3d_, 2010 WL 4272751at*12-13 (5th
Cir. Oct. 25, 2010); Vasquez v. Thaler, 389 F. App'x 419, 429 (5th Cir. 2010); Martinez v.

Quarterman, 481F.3d249, 254 (5th Cir. 2007); Bryan v. Gibson, 276 F.3d 1163, 1178 (10th Cir.
2001); Motley v. Collins, 18 F.3d 1223, 1228 (5th Cir. 1994). Trial counsel's decisions must be
weighed with the recognition that the evidence Bourgeois faults them for not adducing was not
exclusively mitigating. Courts defer to counsel's strategic decisions, and especially so when the
withholding of beneficial information staves off the disclosure of harmful information.

I.

Lay Witnesses

Bourgeois has provided declarations from many individuals to support his claim that counsel
did not give the jury a full view of his background. The defense team spoke with many of those
individuals. Many of those who were not interviewed were distant relations or friends. 95 For
instance, Bourgeois' section 2255 motion relies on affidavits from three second cousins, the friend

95

The trial team apparently never contacted: his sister-in-law Anita Ferdinand; his
second cousin Murray Bourgeois; his maternal uncle Wilmer Bourgeois; a former girlfriend's friend
Lawanda Cook; Ms. Mary's granddaughter Beverly Frank (though the investigators spoke with her
father); his second cousin Allen Henry; his second cousin Jersey Henry; his second cousin Yvonne
Robinson Joseph; his sister-in-law Jevona Jeanette Rixner; a former neighbor Louis Russell, Jr.; and
a former girlfriend Ivy Thomas. While their statements say that the defense never contacted them,
the Government had subpoenaed his cousin Isaac Bourgeois III and his sister-in-law Anita Ferdinand
to testify at trial.
115

PA151

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 36 of 40

of a former girlfriend, and a neighbor from decades past. Also, the trial team never spoke with two
of Ms. Mary's granddaughters, though the records from the mitigating investigators show they spoke
with other members of the Clayton family.
The Court placed no limitation on Bourgeois' ability to call witnesses in the evidentiary
hearing to testify about the failure-to-present-mitigating-evidence claim. 96 Bourgeois chose only to
present testimony from Claudia Williams, Beverly Frank, Brenda Goodman, Carl Henry, Donald
Reese, Murray Bourgeois, and Kerry Brown. Most of those witnesses were not unfamiliar to the trial
team. The mitigating experts repeatedly interviewed Claudia Williams. Dr. Cunningham himself
interviewed her more than once. She and Carl Henry testified at trial. Dr. Cunningham, and possibly
other members of the defense team, interviewed both Carl Henry and Kerry Brown. While trial
counsel and the mitigation investigators did not include the granddaughters of Ms. Mary (Beverly
Frank and Brenda Goodman) in their investigation, they interviewed other members of Ms. Mary's
family.
Bourgeois primarily relies on the witnesses' testimony to show an abused childhood, sexual
abuse, and low intelligence. The evidentiary hearing testimony about his abused childhood followed
familiar territory, but also introduced some new information. Ms. Williams provided compelling
broad outlines that Bourgeois had a difficult childhood, one without nurturing or love on the part of

96

In a court date before the evidentiary hearing, counsel for Bourgeois informed the
Court that the defense would limit the number oflay witnesses it would call: "We have proffered 23
declarations. I don't think we have to call 23. Perhaps we can pick our best ten and proffer the
remaining 13. And we will try to cover different areas so the Court's not seeing the same thing."
(Transcript of hearing held on April 20, 2010, DE 496 at 39). The Court provided Bourgeois a full
and fair opportunity to substantiate his claim that trial counsel should have called additional
witnesses in the penalty phase of trial. (DE 576 at 55-61). Bourgeois has not given the Court any
indication that the declarants he did not call as witnesses would have provided some critical, but
missing, piece of information. The Court assumes that their testimony would have followed similar
themes as the live testimony Bourgeois presented.
116

PA152

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 37 of 40

his mother. She remembered severe whippings that left Bourgeois bloody. She explained that her
mother beat Bourgeois "constantly." (DE 597 at 14). She also recounted one time that her mother
cut off the tip of Bourgeois' finger with a meat cleaver because he would not eat his mother's
cooking. (DE597 at 14). She explained: "My mother did Alfred some wrong things, bad things."
(DE 597 at 14). Ms. Mary's granddaughter, Beverly Frank, provided credible testimony insofar as
she had insight to Bourgeois' home life. She explained why Ms. Mary took Bourgeois in: "she
brought Alfred in more or less because Alfred was really mistreated by his mom. We saw a lot of
abuse. And my grandmother just took him under her wing to stay with her." (DE 597 at 97).
Another of Ms. Mary's granddaughters, Brenda Goodman, described Bourgeois' mother as
"overwhelmed, frustrated all time" and neglectful because of her alcohol abuse. (DE 597 at 132-33).
Bourgeois' cousin Carl Henry provided some context for Bourgeois' mothers abuse: "his
mother had a resentment from him, due to his father and her [had] a relationship that was a one-night
relationship, and it didn't work out." (DE 597 at 322). Without providing specifics, he testified that
he had observed abuse. (DE 597 at 322-23). Bourgeois' cousin Murray Bourgeois explained that
he "got mistreated, treated different more than the rest of his sisters and brothers." (DE 597 at 396).
He was "abused more than the rest" and would "from time to time ... have red whelps on him."
(DE 597 at 397).
These witnesses' testimony, however, came with caveats. For example, Ms. Williams was
confused, easily led by attorneys' questioning, and not a good historian. On cross-examination she
admitted that she had talked to the mitigation investigators several times before trial, but had never
conveyed the story about Bourgeois' mother cutting off the tip of his finger or that she whipped him
with an electrical cord until he bled. (DE 597 at 51). She explained: "the reason why I didn't say,
because it was sad. I was ashamed of my mother." (DE 597 at 51). She said that, because her
117

PA153

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 38 of 40

mother was still alive during the time of trial, family members did not want to talk about the way she
treated Bourgeois. (DE 597 at 52). The witnesses had not only seen Bourgeois being abused, but
had seen him abuse others. Ms. Williams explained that she knew that Bourgeois himself beat his
other wives and children. (DE 597 at 54). She told FBI agents before trial that she was sure
Bourgeois was capable of killing Robin and that "Alfred knew the difference between right and
wrong, and he made the choice to kill JG1999." (DE 597 at 54-55).
With regard to his abused childhood, this is not a case where the defense attorneys "failed
to pursue known leads" or "ignored ... useful information[.] Skinner v. Quarterman, 576 F.3d 214,
220 (5th Cir. 2009). The trial investigators made a wide-ranging investigation that uncovered
information about Bourgeois' abusive childhood. 97 Each of the four witnesses that trial counsel
called in the punishment phase described his abused childhood. Even so, Bourgeois claimed not to
have been abused and his family was hesitant to discuss the abuse until his mother died. While
mostly ambiguously discussing "whippings," (DE 341 at 135), witnesses still specifically mentioned:
(1) that Bourgeois received more abuse than others; (2) this abuse included being "whipped ... with

an extension cord"; (3) his mother routinely picked at his nose with her long fingernails; and (4) the
abuse was continual. Trial counsel presented the same type of evidence relating to child abuse that
Bourgeois has adduced in these proceedings. 98

97

Bourgeois now complains that the Government at trial disputed the accuracy of the
accounts that Bourgeois' mother abused him, hoping that additional witnesses would have shored
up the jury's confidence in that mitigation theory. The Government questioned the reliability of the
testimony concerning abuse because Bourgeois himself lied to Dr. Estrada about his homelife (DE
342 at 59) Dr. Estrada concluded that he had lied about his childhood (DE 341 at 17, 22-23).
98

In many respects, Bourgeois' abuse of JG 1999 mirrors that which he claimed to have
experienced. Of his children. Bourgeois singled out JG 1999, his "outside child" for abuse. Like his
mother, he beat her with extension cords, continually picked at open wounds, and otherwise
(continued ... )
118

PA154

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 39 of 40

The Fifth Circuit has refused to find Strickland error when trial counsel presented similar
mitigating evidence, even if only in outline form, at trial. See Coble v. Quarterman, 496 F.3d 430,
437 (5th Cir. 2007); Rodriguez v. Quarterman, 204 F. App'x 489, 501 (5th Cir. 2006); Alexander

v. Quarterman, 198 F. App'x 354, 359-60 (5th Cir. 2006); Parr v. Quarterman, 472 F.3d 245, 25758 (5th Cir. 2006). This Court "must be particularly wary of 'arguments that essentially come down
to a matter of degrees. Did counsel investigate enough? Did counsel present enough mitigating
evidence? Those questions are even less susceptible to judicial second-guessing."' Dowthitt v.
Johnson, 230 F.3d 733, 743 (5th Cir. 2000) (quoting Kitchens v. Johnson, 190 F.3d 698, 703 (5th
Cir. 1999)). Here, the defense presented evidence of the same nature as that has developed after trial.
To whatever extent the trial testimony lacked the depth exhibited by Bourgeois' post-trial evidence,
the breadth of testimony about his abused child hood is nearly identical. The trial evidence largely
followed the same themes and allowed for the jury to arrive at the same conclusions as they would
if they had before them the entirety of the mitigating evidence developed after trial. With regard to
the evidence of Bourgeois' abused childhood, "[i]t must be conceded that the jury was presented a
clear, if not fully portrayed, picture of [Bourgeois'] life." N ea!, 28 6 F. 3d at 24 3. "[T]hough perhaps
not as effectively as it might have been, the jury did hear [the child-abuse] evidence." Parr, 472
F.3d at 258. 99

98

( ... continued)
maltreated her. Bourgeois excluded JG 1999 from family activities. Bourgeois' childhood abuse
came full circle, but manifested itself in cruelty and savagery that culminated in murder. Dr.
Estrada's testimony sufficiently blamed Bourgeois' violence as an adult on his childhood abuse.
Further discussion would only have emphasized that Bourgeois was like his mother, only much
worse.
99

Moreover, Bourgeois was forty years old at the time of trial. The jury may have come
to the conclusion that as Bourgeois "aged and became more chronologically removed from his
(continued ... )
119

PA155

Case 2:02-cr-00216 Document 660-2

Filed in TXSD on 05/19/11 Page 40 of 40

Low intelligence and sexual abuse were the main areas in which the evidentiary hearing
testimony exceeded the outlines counsel drew at trial. The most troubling allegation Bourgeois
makes is that trial counsel failed to investigate whether he was sexually abused by two men, one a
son of Ms. Mary and the other the church choirmaster. Testimony from the evidentiary hearing
could not credibly validate those allegations. Murray Bourgeois, Ms. Williams, and Mr. Henry had
never heard that Bourgeois had been sexually assaulted. (DE 597 at 57, 74-76, 357-68, 414). Mr.
Henry expressed skepticism that it happened as Bourgeois now alleges. (DE 597 at 357-58). Only
Ms. Goodman could provide any testimony about Bourgeois' claiming to have been sexually abused.
She explained: "[M]y uncle raped Alfred. Now, I don't know at what age that happened, but when
we discovered my uncle had AIDS, and Alfred told me this when he was older, that Uncle Jake had
raped him." (DE 597 at 142). Even then, her testimony is somewhat suspect because it was based
solely on what Bourgeois told her; no other witness could corroborate that he had been sexually
assaulted. In fact, witnesses expressed surprise and disbelief that Bourgeois had experienced sexual
abuse, particularly at the hand of the church choirmaster.
Even Ms. Goodman was hesitant to divulge that information until late in the legal process.
Although Bourgeois' post-conviction investigators asked Ms. Goodman questions about abuse in
Bourgeois' background, she did not report it in her initial statement and had only mentioned it
recently. (DE 597 at 167). Her reluctance to tell others about what she described as a "dark thing"
that she "couldn't tell [her] family" gives no confidence that she would have relayed the information
to counsel. (DE 597 at 143). The Fifth Circuit refused to hold "attorneys responsible for introducing

99

continued)
difficult childhood and traumatic experiences ... his troubled background would exercise a lesser
degree of influence over his actions, thereby rendering him less of a future danger." Coble v.
Quarterman, 496 F.3d 430, 447 (5th Cir. 2007).
( ...

120

PA156

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 1 of 40

mitigation evidence that their client and other witnesses fail to disclose." Johnson v. Cockrell, 306
F .3d 249, 252-53 (5th Cir. 2002). Bourgeois has not shown that trial counsel erred in not presenting
evidence of sexual abuse.
Bourgeois has extensively relied on lay testimony to bolster his claims of mental retardation.
Independent of the psychological testimony, the witnesses uniformly expressed that, at least as a
child, Bourgeois was slow. 100 Their testimony, however, varied in the extent to which that impacted
Bourgeois' life. Some witnesses described how, at least at a young age, Bourgeois had problems
with activities such as cooking. Some testimony showed that Bourgeois had complained about being
asked to perform "girl's work" such as washing clothes and making food. Other witnesses, however,
described such activities as part of his daily routine at Ms. Mary's house. 101 Nevertheless, the Court
is not convinced that a reasonable attorney would encourage the jury to choose a life sentence based
on Bourgeois' intellectual limitations. The jury would have heard his cogent, descriptive testimony
that lacked any sign of mental impairment. The jury would have viewed his interaction with counsel
and his ability to follow the course of the legal proceedings. The jury would have known that

100

In addition to the information about Bourgeois' intellectual abilities as a child,
witnesses talked about his adulthood. Donald Reese, a former co-worker, described problems
Bourgeois experienced when they worked as team drivers. Bourgeois had problems with some of
the equipment, got lost when driving, only brought a small amount of clothing with him on long
trips, and was uncomfortably talkative. Kerry Brown, an attorney Bourgeois previously had retained
for legal matters, provided testimony relating to his mental impairments. Mr. Brown described
Bourgeois as controlling, continually in debt, a bad money manager, "dealing with a lot of issues"
involving his family and business, and under stress. (DE 598 at 237-47). Cross-examination of Mr.
Brown would have revealed that Bourgeois "was jealous, overbearing, owed everybody child
support, beat up his mother-in-law, and then ... destroyed property[.]" (DE 598 at 249). Mr.
Brown's testimony, particularly that revealing that Bourgeois "beat the hell out of his mother-inlaw," would not have helped the defense. (DE 598 at 248).
101

The witnesses did not agree on whether Ms. Mary rescued Bourgeois from an abusive
atmosphere or whether his mother sent him to serve as a care giver to the elderly, physically impaired
woman.
121

PA157

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 2 of 40

Bourgeois successfully worked for years as a truck driver. The Government would assuredly subject
any witness attesting to his low intelligence to the same cross-examination from the evidentiary
hearing. The Court finds that a reasonable attorney could weigh the probable benefit against the
possible loss of credibility and decide not to focus the defense on Bourgeois' low intelligence.
The Court has reviewed the whole of the unpresented mitigation evidence and concludes that
trial counsel did not provide ineffective assistance in the investigation, preparation, or presentation
of lay testimony in the punishment phase. The Court, therefore turns to Bourgeois' claim that trial
counsel should have amplified the case relating to his mental health.
2.

Expert Testimony

Bourgeois claims that trial counsel should not have relied only on the cross-examination of
Dr. Estrada, but should have called additional expert witnesses in the punishment phase. Bourgeois
hopes that expert testimony would have discussed: (1) the effects of his abused childhood on his
mental state (as explained by Dr. Cunningham); (2) his borderline personality disorder; (3) how
neurological impairment affected his ability to control his impulses and make decisions; and (4) Dr.
Holden's conclusion that he did not premeditate the crime. In those post-judgment proceedings,
Bourgeois has called seven expert witnesses - Drs. Gelbort, Estrada, Swanson, Weiner, Toomer,
Cunningham, and Holden - who testified to a greater or lesser extent about each of those theories.
The witnesses described Bourgeois as a man with overlapping and interlacing mental illnesses that
made him prone to excessively violent reactions when under stress. The Court will describe their
testimony as it relates to each theory he faults trial counsel for not presenting.
As an initial matter, however, the Court notes that "[c]ounsel's decision not to hire experts
falls within the realm of trial strategy." Yohey v. Collins, 985 F.2d 222, 228 (5th Cir. 1993); see also
Colburn v. Cockrell, 37 F. App'x 90 (5th Cir. 2002) ("The hiring of expert witnesses and the
122

PA158

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 3 of 40

presentation of their testimony is a matter of trial strategy."). To reiterate, trial counsel secured the
assistance of mental health experts before the punishment phase. Trial counsel sought Dr. Holden's
assistance to determine if Bourgeois had committed a premeditated filicide. Trial counsel sought
testing for competency by Dr. Estrada and later relied on his cross-examination to place mentalhealth information before the jury. Dr. Cunningham synthesized the mitigating evidence and
provided guidance about mental health issues. At Dr. Cunningham's direction, trial counsel had Dr.
Weiner perform neurological testing. No doubt exists that trial counsel was amply aware of the
results of their testing. The record contains numerous on-the-record discussions about whether trial
counsel would use their proposed testimony. Trial counsel decided only to rely on Dr. Estrada. The
Court will review whether that decision met constitutional standards.
a.

Dr. Cunningham's testimony

Bourgeois claims that trial counsel should have put a psychological varnish on the evidence
about his abused childhood, showing that it had a '"profound impact' on [his] behavior." (DE 402
at 3 7). Trial counsel sought Dr. Cunningham's assistance early in the case for that purpose. While
Bourgeois claims that trial counsel was unfamiliar with Dr. Cunningham's conclusions, the record
shows otherwise. As previously discussed, trial counsel had sufficient communication with Dr.
Cunningham as the trial approached. Trial counsel reviewed Dr. Cunningham's report, spoke with
him on the telephone, met with him for several hours, and sat by him at the counsel table during trial.
Trial counsel even edited the PowerPoint slides that Dr. Cunningham had prepared to excise any
reference to Dr. Weiner's testing. 102 This Court's interaction with the trial attorneys and the plain

102

At some point before trial, Dr. Cunningham prepared a PowerPoint presentation and
gave trial counsel a binder with the proposed slides. He provided for two presentations: a mitigating
presentation and one showing Bourgeois' future threat. Dr. Cunningham would have testified that
(continued ... )
123

PA159

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 4 of 40

evidence in the record gives no reason to slight counsel's familiarity with Dr. Cunningham's
proposed testimony.
While Bourgeois complains vigorously that trial counsel failed to get information to Dr.
Cunningham about childhood abuse in an expeditious manner, the record does not show any similar
concern from Dr. Cunningham as the trial approached. The investigators turned over to Dr.
Cunningham the results of their investigation well before the guilt/innocence phase started. Other
than an email sent by an employee months before trial, the record contains no contemporaneous
complaint from Dr. Cunningham about the timing or completeness of that information. Dr.
Cunningham interviewed potential witnesses himself. The record does not contain any indication
that Dr. Cunningham's own interviews unveiled a wealth of evidence that still laid uncovered. Trial
counsel relied on Dr. Cunningham and he did not signal to them that the mitigation investigation was
substandard before trial.

102

( ... continued)
various "damaging factors" - an overwhelmed family system, abandonment by his father, "childhood
problems putting on the brakes," emotional rejection and abuse, physical abuse, and
neuropsychological problems- served as a pressure cooker that exploded when set afire by Robin's
infidelity, martial problems, and financial concerns. In his second presentation, Dr. Cunningham
would have provided general information about behavior in secure environments, including the
Bureau of Prisons, and specific items that would make Bourgeois less likely to be a threat in prison:
his age, his "behavior in pre-trial custody," his continuing relationship and contact with family, and
stable history in the community. Bourgeois attached a copy of some of the PowerPoint slides to his
2255 motion. (DE 397, Exhibits 5 and 6). Before the sentencing hearing began, the Court talked
with Dr. Cunningham about how to best place his intended PowerPoint presentation on the record.
(DE 348 at 2-4). After addressing the manner in which to preserve Dr. Cunningham's presentation,
the discussion turned to the substance of his testimony. The Government wished to exclude any part
of Dr. Cunningham's testimony that discussed the Bureau of Prison's policy and practices, and the
related speculation about how offenders in general behave in prison, and focus instead on Bourgeois'
own propensity toward violence. (DE 348 at 4-6). The Court refused to limit the scope of Dr.
Cunningham's testimony, but allowed the Government to call its own witness to rebut Dr.
Cunningham's testimony. (DE 348 at 5-6). The Government announced that it intended to rely on
its own expert from the Bureau of Prisons, John Shaw, if the defense called Dr. Cunningham. (DE
348 at 5; 341 at 78).

124

PA160

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 5 of 40

In the end, trial counsel said that he decided not to call Dr. Cunningham because his theory
of the case conflicted with Bourgeois' chosen defense. 103 Trial counsel discussed his abused
childhood and history as a sympathetic, not explanatory or as a justifying factor. (DE 598 at 21011 ). 104 Importantly, Bourgeois agreed with that decision.

As Mr. Gilmore explained in the

103

Trial counsel also knew that calling Dr. Cunningham would bring along "so many
hazards." (DE 347 at 106). The Government informed the Court that, if Dr. Cunningham testified
about Bourgeois' future danger, the door would be open to harmful evidence that did not come
before the jury. (DE 347 at 106). This information possibly included additional information that
Bourgeois claimed to have committed another killing, had told people he wanted to kill Robin, had
sexually assaulted AB 1994, and was cruel to animals. (DE 34 7 at 82, 88, 92-94, 105-06). Other
aspects of his testimony would offend jurors. In one portion of his proposed testimony, he would
have told jurors to excuse Bourgeois' repeated fierceness against women because domestic violence
is a common, and in his view, apparently accepted feature in society. Jurors may be expected to
react with revulsion to that information. This is not an isolated example. At its core Dr.
Cunningham's testimony was detached from the extensive testimony that the jury had already seen
about the person Bourgeois was. To the extent that Dr. Cunningham's testimony would deal with
Bourgeois' threat of violence when incarcerated, rather than his "pressure cooker" theory, trial
counsel adduced the same information through Dr. Estrada. Mr. Gilmore testified: "we elicited that
testimony from Dr. Estrada, and I thought Dr. Estrada was effective for us." (DE 598 at 209). Dr.
Estrada opined that Bourgeois would only be violent "in a family situation." (DE 341 at 50). Dr.
Estrada testified that with "higher ... supervision available" Bourgeois would have a "lesser degree
of all kinds of violent incidents[.]" (DE 341 at 52). While probably not as extensively as anticipated
by Dr. Cunningham, trial counsel adduced expert testimony to show that Bourgeois would not be
violent when in "a cage within a cage within a cage." (DE 342 at 63).
104

Mr. Gilmore's closing argument, for example, differentiated between abuse as
sympathy and as an excuse:
Now, these things are offered to you not as an excuse for committing this crime, but
to try to help you understand his mindset, and trying to help you understand where
he comes from. This is - it's not an excuse for him, ifyou believe he committed this
crime, for him doing it. It's something to show you that he's a human being. We're
all human beings. And we're - we're all capable of doing bad things in the right
circumstances, or the wrong circumstances as it may be. At the time that this
incident occurred, these factors came into play along with his current situation; the
current situation being that he was having economic problems, he and his wife were
having problems, they'd had problems since - since she had the affair. And I realize
he had affairs, too. But this was what was going on in his mind, the fact that his wife
had an affair.
(continued ... )
125

PA161

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 6 of 40

evidentiary hearing:
The Government:

Okay. And when you showed [a notebook containing a copy
of the material in Dr. Cunningham's proposedPowerPoint] to
Mr. Bourgeois, did he have any reflection on it? Did he make
a statement as to this presentation?

Mr. Gilmore:

Well, his position all along was that he did not commit the
crime. And so specifically what did he say? I just remember
we told him that we didn't think we were going to call Dr.
Cunningham, and he did not oppose that. And we told him
why, because his theory of the mitigation part of the case
didn't jive with our theory of defense.

The Government:

Did he make some kind of statement to the effect that, "This
means that Dr. Cunningham's saying I'm guilty"

Mr. Gilmore:

It's something to that effect. I can't remember exactly what
was said. But I, you know, explained to him that that's what
those arrows meant that he had all the pressure on him, and
that's why he exploded and did this.

The Government:

And after you explained that to him, did he want to present
Dr. Cunningham?

Mr. Gilmore:

He agreed with our assessment.

(DE 596 at 183).
In the evidentiary hearing, Mr. Gilmore further elaborated on other reasons why they decided
not to call Dr. Cunningham as a witness: "We weren't impressed with Dr. Cunningham. We didn't
particularly think he was going to impress the jury, and we did not like his presentation." (DE 598
at 211). From this Court's own observations, Dr. Cunningham would not have been a good witness
for the defense. When trial counsel told Dr. Cunningham they weren't going to use him, he was

104

( ••• continued)
(DE 342 at 48) (emphasis added). Trial counsel also explained during Dr. Estrada's crossexamination that he was "not asking these questions to help excuse what Mr. Bourgeois did, but to
explain it." (DE 341 at 23-24).

126

PA162

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 7 of 40

"very angry." Mr. Gilmore explained: "If you tell a professional witness that you're not going to use
them, you know, he should be professional about it, and he wasn't." (DE 598 at 186). Mr.
Gilmore's recollection comports with this Court's own observations. In the evidentiary hearing, Dr.
Cunningham's demeanor, even though his speech was generally of a level pitch, was consistently
argumentative and condescending in tone and facial expression. Dr. Cunningham openly showed
scorn, both in his physical manifestation and his substantive testimony, for the defense's case at trial.
He did not appear as an impartial scientific expert, but as someone seeking to advance an agenda. 105
Dr. Cunningham's testimony came off as distant from the facts of the case before the jury.
For example, Dr. Cunningham vigorously asserted that his academic research proved that Bourgeois
was not a violent risk while kept in a highly structured environment. The jury, however, would
compare that opinion with Bourgeois' actual behavior before trial. While in custody in the state jail
facility, he ordered hits on witnesses. His threats were not toothless; witnesses were murdered
before trial. Even when security isolated Bourgeois, he continued to sneak out communications,
threaten security personnel, and even tried to attack a United States Marshal. 106 Dr. Cunningham's
testimony would seem hollow- and even unbelievable - given Bourgeois' vicious nature. His claim
that Bourgeois would not be violent could offend the jury and lessen trial counsel's credibility with
the finder of fact.
His evidentiary hearing testimony was removed from the reality of the defense's efforts

105

Testimony from a hearing at the time of trial showed that counsel was not only
familiar with Dr. Cunningham's presentation, but had tried to excise any reference to Dr. Weiner's
findings without sacrificing any important part of it. (DE 34 7 at 19).
106

Bourgeois' brother, Lloyd Ferdinand, made threats against witnesses and intimidated
those who would testify against Bourgeois. When Bourgeois tried to hire Longoria to eliminate
witnesses, Mr. Ferdinand was the one who would have paid him. (DE 347 at 52-54).
127

PA163

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 8 of 40

before trial. He bore an arrogant demeanor as he broadly faulted defense efforts and lauded his own.
He criticized the mitigating investigators for not feeding him enough information, but the record
does not show that he responded when counsel asked him whether he or the investigators should
provide him with information. He complained about the cursory nature of the information, but never
said whether he actually communicated that concern to trial counsel or the investigators. The Court
appointed him as an expert eight months before trial, but his records show that he did little, if
anything, until the last few weeks before trial. He himself interviewed witnesses, some of whom
testified in the evidentiary hearing, and himself could have secured the information he claims went
undiscovered. Even then, his presentation consisted of information he had apparently prepared in
the numerous cases in which he had previously testified.
Dr. Cunningham's testimony showed that both the mitigation experts and trial attorneys gave
him information and were familiar with the basic issues of the case. The Court has viewed not only
Dr. Cunningham's testimony in the detached context of the federal evidentiary hearing, but can also
plug that testimony into the trial context that it observed. The Court's observation of the trial
landscape and the jurors' reaction to evidence provides a vantage point to consider the effect any
proposed testimony would have. The jury already had before it evidence that Bourgeois' mother had
abused him, and trial counsel concluded that Dr. Cunningham's proposed testimony was not
convergent with or helpful to their chosen defense. A reasonable and zealous trial attorney could
find that Dr. Cunningham was not a witness whose testimony, both in content and tone, would
benefit the defense. 107

107

Once supported by an adequate investigation, "counsel's selection of a strategy is
unchallengeable[.]" Bower v. Quarterman, 497 F.3d 459, 467 (5th Cir. 2007); see also Strickland,
466 U.S. at 690. "A conscious and informed decision on trial tactics and strategy cannot be the basis
(continued ... )
128

PA164

Case 2:02-cr-00216 Document 660-3

b.

Filed in TXSD on 05/19/11 Page 9 of 40

Borderline personality disorder

Testimony from the evidentiary hearing showed that Bourgeois had some sort of mental
disorder, though the testimony varied somewhat as to its etiology, effect, and treatability. Drs.
Estrada, Gelbart, Swanson, Toomer, Price, and Moore all examined Bourgeois and agreed that he
suffered from borderline personality disorder. Bourgeois claims that trial counsel should have put
that information before the jury.
Each expert provided different insight to the nature and effect of borderline personality
disorder. Dr. Estrada provided the fullest view into how that disorder effected Bourgeois. Dr.
Estrada did not diagnosis Bourgeois with a borderline personality disorder when he initially
examined Bourgeois before trial. Dr. Estrada testified in the evidentiary hearing that he had
suspected that Bourgeois had a personality defect, but that additional information about his
background confirmed it. 108 Dr. Estrada defined the psychological condition:

107

( ... continued)
for constitutionally ineffective assistance of counsel unless it is so ill chosen that it permeates the
entire trial with obvious unfairness." United States v. Jones, 287 F.3d 325, 331 (5th Cir. 2002).
"Strickland requires ... [courts to] defer to counsel's decision ... not to present a certain line of
mitigating evidence when that decision is both fully informed and strategic, in the sense that it is
expected, on the basis of sound legal reasoning, to yield some benefit or avoid some harm to the
defense." Moore, 194F.3dat615;seealsoSt.Aubinv. Quarterman,470F.3d 1096, 1102(5thCir.
2006); Riley v. Dretke, 362 F.3d 302, 306 (5th Cir. 2004).
108

Dr. Estrada explained in his deposition:

In this case, I had only suspicions at the time, but then with all the information I have
reviewed since, it has become clear that my suspicion regarding this person's
background is correct and my suspicions regarding his personality organization were
correct; and these are the two elements that, in my opinion, resulted in this terrible
behavior. Regarding the background, the documentation that I reviewed now is
clearly indicating that he suffered not only from rejection and abandonment and
physical abuse by his natural mother, but in addition, he suffered from sexual abuse
and exploitation by the people that he trusted; and finally, he suffered for many years
(continued ... )
129

PA165

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 10 of 40

Borderline personality disorder is characterized by a chronic habitual and automatic
pattern of relationships that is characterized by extremes of love and hate triggered
by satisfaction. The person becomes idealized, if is fulfilling the individual needs,
to extreme devaluation and rage ifthe person is frustrating. As a result of this basic
problem, the individual has extremely unstable relationships, often leading to
breaking up the relationship if the pattern is strong enough to leave or having the
battered wife syndrome and family violence syndrome when the wife is - or the
spouse is weak and cannot separate, resulting in having episodes of honeymoon,
followed by episodes of hate and violence .
. . . [T]he person suffering from a borderline personality due to this instability of his
attitudes about the people they are involved with, [is] extremely vulnerable to stress.
And during episodes of stress, they are involved in impulsive behavior, behavior with
very poor judgment, bordering in psychotic, irrational behavior. That's why the
name borderline. It's a border between the psychosis and the neurosis come from
and is often associated with drug and alcohol abuse.
(PX-163 at 28). Dr. Estrada noted two sources of the disorder: a genetic one and a childhood
plagued by "rejection, neglect and abandonment[.]" (PX-163 at 25).
Dr. Estrada connected the disorder to Bourgeois' abuse of JG 1999:
This is a pattern in which he reacts to frustration in this rage without any concern for
consequences; and in my opinion, this is very poor judgment.
Then he's calmed down the following day, and he's able to navigate through the
highways in the country without losing track like nothing has happened. This is, in
my opinion, very poor judgment and a characteristic of borderline under stress. You
do crazy things. You do terribly violent things, and they act the next day like so what,
that was yesterday.
(PX-163 at 36). This rage would "impact his executive" function and inhibit his "[j]udgment,
planning, decision making, control of impulses, control of affects, managing cause and

108

( ... continued)
of teasing, humiliation and discrimination because of his mixed race and his
limitations in intellect and physical conditioning. These, in my opinion, resulted in
developing a narcistic and borderline personality disorder. The narcistic personality
disorder is what is most obvious when one meets this man.

(PX-163 at 22).
130

PA166

Case 2:02-cr-00216 Document 660-3

consequences[.]"

(PX-163 at 36).

Filed in TXSD on 05/19/11 Page 11 of 40

Thus, Bourgeois did not intentionally kill the child but

succumbed to the stressors about him. (PX-163 at 39). 109
Testimony from the other experts, both for Bourgeois and for the Government, also probed
his borderline personality disorder, although not as deeply as Dr. Estrada did. Dr. Toomer testified
that the borderline disorder "affects all aspects of an individual's functioning" including "instability
that manifests itself across a variety of activities, interpersonal relationships, personal identity, mood
and emotionality as well as self-image." (DE 594 at 297). Dr. Price agreed that Bourgeois had a
"personality disorder that's longstanding and pervasive" and that such mental disorders are
"oftentimes associated to childhood abuse." (DE 595 at 204, 232). Dr. Moore confirmed that people
with borderline personality disorder most often act out at those with whom they have a close
relationship.

(DE 599 at 160). None of the experts questioned the diagnosis of borderline

personality disorder. All agreed that the disorder caused Bourgeois to be emotionally unstable,

109

In Dr. Estrada's words:

And my opinion, in summary, is this man under the serious stress that he was facing,
finances, marital problems and being dumped with a new child that he didn't expect
and fatherhood, care and financial obligations, under this stress, he reacted in a
typical borderline fashion caused by his background of trauma, neglect and rejection
by losing control of his anger and torturing, tormenting and abusing this child
intermittently throughout six weeks with periods in which he was actually caring and
nice to the child in typical borderline fashion that ultimately the abuse caused this
child's death.
It is my opinion, therefore, that this is not the act of a premeditation, an act where he
was looking for some gain, getting rid of the child, getting rid of the wife or blaming
the wife or the child. There would be better ways.

(PX-163 at 39). To some extent, this disorder mirrors Dr. Cunningham's "pressure cooker"
demonstrative and would present similar concerns for the defense.
131

PA167

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 12 of 40

impulsive, and to have difficulties in his interpersonal relationships. 110
Because Bourgeois relies on Dr. Estrada, the expert trial counsel relied on to place
Bourgeois' mental state before the jury, the Court must address two questions. First, did trial
counsel supply Dr. Estrada with sufficient information to allow him to come to a diagnosis of
borderline personality disorder? Second, even with that diagnosis, would a reasonable attorney put
that information before a jury? See Harrington v. Richter, _U.S._, 131 S. Ct. 770, 789 (2011)
(finding no error when counsel failed to uncover evidence because it would "be reasonable to
conclude that a competent attorney might elect not to use it"); Neal, 239 F.3d at 687 ("We must
determine whether there is a gap between what counsel actually did and what a reasonable attorney
would have done under the circumstances."). The Court finds that neither of the answers to those
two questions supports a finding of Strickland deficient performance.
Dr. Estrada had significant information, apparently given by both parties, before he examined
Bourgeois. He interviewed Bourgeois himself. Dr. Estrada sat in the courtroom and heard the
entirety of the punishment-phase evidence. He had enough information to diagnose Bourgeois with
the closely related disorder of narcissism. Yet he did not diagnose Bourgeois with borderline
personality disorder. Instead, he concluded that narcissism explained much of Bourgeois' behavior.
After Bourgeois' conviction and sentence, and considering new information, Dr. Estrada
reached this new psychological conclusion. Possibly because of Bourgeois' tangled mental-health
issues, it would be a "difficult assessment" to diagnose him with borderline personality disorder.
(DE 594 at 111 ). That, however, does not mean Dr. Estrada could not have done so with the

110

Dr. Cunningham's testimony, however, did not discuss borderline personality disorder
but referred to a "history of rage attacks that had been occurring since his childhood or adolescence,
with marked changes in his consciousness and demeanor, and with memory deficits that occurred
afterwards for the events during that rage." (DE 597 at 234).
132

PA168

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 13 of 40

information before him at trial. Admitting that he has "more information now," Dr. Estrada
conceded in his deposition that it is "possible" that he had sufficient information at the time of trial
to arrive at a diagnosis of borderline personality disorder. (PX-163 at 60). At the time of trial Dr.
Estrada already knew that Bourgeois had suffered neglect, rejection, and physical abuse at the hands
of his mother. (PX-163 at 60, 62-63 ). He admitted that many of the same factors that underscored
the diagnosis of narcissism he arrived at before trial contributed to his diagnosis of borderline
personality disorder. (PX-163 at 61). Dr. Estrada attributed his new diagnosis to "thinking more
about it and reviewing the pattern of relations, particularly the relations to women, and a social
border interview of all of his wives, then it became more clear that that was a pattern of borderline
personality." (PX-163 at 60).
Bourgeois has not convincingly shown that Dr. Estrada did not have the tools necessary to
reach a borderline-personality-disorder diagnosis before trial. Dr. Estrada had interviewed Bourgeois
and was aware of his violence toward his wives. (DE 341 at 45). The Government's case at the
punishment phase emphasized a life-long unrelenting pattern of aggression. Dr. Estrada sat
throughout the punishment phase of trial and listened as Bourgeois' ex-wives explained their
turbulent and violent marriage to him. The instability of Bourgeois' relationships was fully before
Dr. Estrada, as it was before the jury. He testified that he saw "a pattern of abusive relationships
again and again and again." (DE 341 at 50). Still, he conceded that the "key features of his violent
actions ... haven't changed from the information [he] ... received since the trial has been over."
(PX-163 at 52). 111

Ill

Dr. Estrada remembered:

discussions with both the government and the defense regarding Mr. Bourgeois'
(continued ... )
133

PA169

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 14 of 40

Once given sufficient information, trial counsel has a right to rely on the conclusions of the
experts he retains. No constitutional right exists to the effective assistance of expert witnesses.
After placing the building blocks for the diagnosis before the expert witnesses, trial counsel
complied with their duty to investigate possible mental illness. Trial counsel cannot be held
accountable for relying on his experts after providing them sufficient evidence. See Bell v.
Thompson, 545 U.S. 794, 810 (2005) (endorsing state court finding that because "two experts did

not detect brain damage, counsel cannot be faulted for discarding a strategy that could not be
supported by a medical opinion"). Trial counsel relied, as Bourgeois does now, on Dr. Estrada to
identify salient mental health concerns. Bourgeois has not shown that trial counsel was to blame
because mental-health experts did not diagnose him with borderline personality disorder earlier.
Even so, to succeed on this claim Bourgeois must show that a reasonable attorney would have
presented evidence of that psychological disorder. While admittedly a more difficult question, the
Court finds that a zealous attorney could weigh the value of the borderline-personality-disorder

111

continued)
background and information gathered from wives and other people who knew him
and that I have given my opinion to both about the - the - the impact of the
background of child abuse and rejections and neglect, the pattern of violence with
multiple wives and intimate relationships, and the fact that this made him a
potentially dangerous person, because the basic fault, so to speak, was not treated or
fixed, and - but I also remember that I was not able or allowed to elaborate in how
the background is affecting the current situation.
( ...

(PX--163 at 70). Bourgeois argues that Dr. Estrada was told not to base his opinion on Dr.
Cunningham or Dr. Weiner's reports. (PX-163 at 70). Dr. Estrada, in fact, used the background
information from Dr. Cunningham while testifying. (DE 341 at 25). The Court limited the ability
to refer to Dr. Weiner's report, but did not prevent him from relying on the information from Dr.
Cunnignham that did not directly implicate that derived from Dr. Weiner. (DE 341 at 33). Dr.
Cunningham's report, however, did not address the problems Bourgeois had with his wives any more
specifically than the trial testimony did. It is telling that Dr. Cunningham's report did not mention
the possibility of a borderline personality disorder, while Bourgeois now finds the condition to be
abundantly obvious.
134

PA170

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 15 of 40

diagnosis against possible harm, and stay his hand. Bourgeois has not sufficiently recognized the
aggravating edge of that evidence, the Government's use of similar evidence against him at trial, and
the absence of any testimony about rehabilitation.
In many ways, Dr. Estrada's deposition testimony differed little from that adduced at trial by
both parties, but particularly by the Government as an aggravating circumstance. 112 The Government
had elicited testimony from Dr. Estrada that Bourgeois had engaged in "repetitive acts of violence"
and was a "rageaholic or impulsive in [his] decisions." (DE 348 at 283). Even ifthe defense placed
the mitigating influence of that diagnosis before the jury, cross-examination would go like it did in
the hearing and even at trial. The Government would surely ask: "[E]very time someone's abused
as a child, do the - do they act out and abuse children later in life?" (DE 341 at 57). The
Government would ask, as it did Dr. Price, why this disorder was "directed at certain things[.]" (DE
595 at 231). The Government would be able to adduce rebuttal evidence similar to Dr. Price's
testimony that the commission of the murder more as a function of "antisocial psychopathic traits
and features." (DE 595 at 231 ). 113 The jury would respond to the information much in the same way

112

The experts stated that a narcissistic personality disorder can be found in the same
category of disorders as borderline. The Government adduced the evidence that he had a narcisstic
personality disorder. (DE 348 at 284 ). The two disorders are apparently not entirely dissimilar. Dr.
Swanson vacillated between I "put[ting] him personality disorder NOS, some put him narcissistic
and some people put him borderline. I tend to probably want to go more borderline, but all those are
in the same cluster of personality disorders that they have and there is definitely mood problems
there[.]" (DE 594 at 103). Dr. Price also described the two disorders similarly. At trial, Dr. Estrada
described the narcissism in a way similar to his description of borderline personality disorder. He
described such people as being "lively, likeable, exiciting, interesting, sometimes very persuasive
or charismatic" at the start of a relationship bit with time "their personal problems are inevitable and
result in friction that may lead to simple break ofrelationships ... or actual violence." (DE 348 at
285-86).
113

Even Bourgeois' expert Dr. Gelbort had not decided whether he was a sociopath, but
"would absolutely agree that many of the behaviors [he had] seen described can be caused by
(continued ... )
135

PA171

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 16 of 40

as Dr. Gelbort: "I don't want them for my neighbor." (DE 560 at 75).
One problem trial counsel would face in presenting the evidence of Bourgeois' various
mental disorders is that the testimony did not show any hope of diminishing or susceptibility to
treatment. Dr. Estrada testified that, while the borderline personality disorder would explain what
Bourgeois did, it would not make him less violent in the future. (PX-163 at 67). No evidence
suggested that psychologists could control Bourgeois' mental issues or cause them to go into
remission. The same evidence that would explain Bourgeois violence toward his child would predict
violence toward others. One circuit has noted that sentencers "may not be impressed with the idea
that to know the cause of viciousness is to excuse it; they may conclude instead that when violent
behavior appears to be outside the defendant's power of control, capital punishment is appropriate
to incapacitate." Foster, 223 F.3d at 637. Without some indication that treatment or confinement
would control the effects of his mental illness, the jury would be left to assume that Bourgeois'
violent acts would persist immutably.
As the Fifth Circuit has explained, a juror could "have seen the evidence as only aggravating,
because [the defendant's] borderline personality disorder and the difficulty of treating it increase the
likelihood that [he] will act out violently again." Nelson v. Quarterman, 472 F.3d 287, 307-08 (5th
Cir. 2006); see also Cantu v. Thaler,_ F.3d _ , 2011 WL 222986 at *5 (5th Cir. 2011) (finding
no error when the defense chose not to have neuropsychological testing because "[t]he potentially
detrimental results of such an examination could have strengthened the State's position that [the
defendant] was a sociopath and thus a future danger, thereby warranting the death penalty.").
Without additional evidence, the jury may think that successful treatment of his mental illness would

113

( ... continued)
sociopathic etiology." (DE 560 at 73).

136

PA172

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 17 of 40

be unlikely. 114 The thrust of the evidence that would dull the Government's case would also sharpen
the chance for a death sentence. The proposed evidence "would still acknowledge that [Bourgeois]
has the same dangerous disposition; [his experts] now simply opine[] that [they] can explain why."
(DE 443 at 119).
Bourgeois' new evidence of mental illness would blame the killing on an apparently
intractable mental condition. A reasonable attorney may have viewed the whole of the evidence and
face a difficult choice, but could rationally decide not to present evidence of borderline personality
disorder.
c.

Neurological impairment

As previously discussed, at Dr. Cunningham's suggestion trial counsel retained Dr. Weiner
to perform a neuropsychological examination based on head injuries Bourgeois claimed to have
received as a child. Dr. Weiner administered the WRAT-III, the Halstead-Reitan Neuropsyhological
Test Battery for Adults, and the Test of Memory malingering. Dr. Weiner concluded that Bourgeois'
results on some categories of the Halstead-Reitan indicated brain damage. Dr. Weiner's report noted
"overall mild impairment with moderate cerebral damage in the posterior portion of the cerebral
cortex. In all likelihood, this damage is due to the injuries Mr. Bourgeois sustained in a threewheeler accident that took place in 1984, resulting in a coma lasting 1-2 months." (DE 397, Exhibit
16).
Trial counsel seriously considered calling Dr. Weiner as a punishment-phase witness. After
the guilt/innocence phase, the defense turned his report over to the Government. In a March 17,

114

The evidence before the Court in this case differs from one in which the parties
presented evidence that "although borderline personality disorder is treatable, success is by no means
certain and is expressly conditioned on intensive therapy" but "successful treatment is often the
exception rather than the rule." Nelson v. Quarterman, 472 F.3d 287, 308-09 (5th Cir. 2006).
137

PA173

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 18 of 40

2004, hearing Government stated that Dr. Estrada had reviewed the material and had found serious
flaws in his methodology. The Government told the Court that they were bringing in their own
neuropsychologist to test Bourgeois. (DE 340 at 25-27). Trial counsel objected to any additional
testing. (DE 340 at 27). According to the Government, Dr. Weiner had brain scans done that came
back negative for impairment. (DE 340 at 27). The Court ordered a hearing on Dr. Weiner's
proposed testimony to find out what testing he performed. (DE 340 at 36, 47-48).
In a hearing on March 19, 2004, the defense informed the Court that had decided not to call
Dr. Weiner as a witness. (DE 347 at 14). Trial counsel informed the Court that "Dr. Estrada
disagreed with some of Dr. Weiner's findings." (DE 347 at 18). The trial court told the defense that,
if they were not going to call Dr. Weiner as a witness, they could not rely on the results from his
testing. (DE 347 at 16). Accordingly, Dr. Cunningham and Dr. Estrada could not use Dr. Weiner's
report during his potential testimony. (DE 347 at 16-19).
Bourgeois claims that trial counsel's choice not to call Dr. Weiner as a witness violated his
constitutional rights. Bourgeois supports this claim with a new report and testimony from Dr.
Weiner. Dr. Weiner explained that "as [he] understood the situation, the lawyers were concerned
that [his] conclusions were not reliable because they were not sure that Mr. Bourgeois accurately
reported the head injury referenced on page three of [his] report." (DE 397, Exhibit 16 at 2). He
opined, however, that his "test results and conclusions are valid regardless of how the damage was
caused, and regardless of what Mr. Bourgeois told [him] about the damage." (DE 397, Exhibit 16
at 2).
Bourgeois also presented testimony in the evidentiary hearing regarding the results of Dr.
Weiner's testing. Dr. Weiner affirmed the validity of his testing and explained that the brain
dysfunction would impair Bourgeois' cognition so that "he may at times perceive things in a
138

PA174

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 19 of 40

distorted way and act in an inappropriate manner." (DE 594 at 240). The brain impairment would
influence his emotions, impulse control, and ability to make judgments. (DE 594 at 240). Dr.
Gelbort testified that his testing agreed with Dr. Weiner, though he may have localized the injury in
another part of the brain. In addition, Dr. Gelbort did not see the source of the impairment as
influential as its effect.
Against that background, trial counsel obviously made a strategic decision not to rely on Dr.
Weiner's testing. Mr. Tinker explained in his answers to interrogatories: "I do recall having a
neurological exam done, because there was a claim that Mr. Bourgeois had been in a car accident
and had been in a coma. I do not recall the exam resulting in any information that would have been
helpful at trial. Further, the government informed us that they had evidence that Mr. Bourgeois was
never in a coma and that he only sustained broken bones in the accident."

(Mr. Tinker

Interrogatories at 9). A strategic decision by trial counsel is "virtually unchallengeable." Strickland,
466 U.S. at 690. Evidence since trial confirms that trial counsel made a reasonable decision. See
Yarborough v. Gentry, 540 U.S. 1, 8 (2003) ("When counsel focuses on some issues to the exclusion

of others, there is a strong presumption that he did so for tactical reasons rather than through sheer
neglect.").
As an initial matter, Dr. Weiner premised his conclusion on Bourgeois' claim that he suffered
a coma from a three-wheeler accident. The record plainly shows that Bourgeois lied; he had no
coma, no serious head injury, and no neurological impairment from that injury. While Bourgeois
now points to other potential episodes that may have resulted in brain trauma, the fact is that Dr.
Weiner's testimony would have allowed the Government to label him a manipulator and a liar. With
Bourgeois' chosen defense to blame the killing on Robin, and his decision to take the stand, trial

139

PA175

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 20 of 40

counsel would have incentive to shore up his credibility. 115 Trial counsel's decision not to call Dr.
Weiner on that basis alone is a reasonable one, meant to avoid more harm to the defense.
Additional factors developed in the evidentiary hearing confirm the wisdom of trial counsel's
decision. Bourgeois has repeatedly criticized Dr. Weiner for using an outdated IQ test. Dr. Price
testified that he also used outdated methodology. Dr. Price testified that Dr. Weiner's attempt to
"localize" the injury in Bourgeois' brain was an out-of-date approach, now jettisoned by current
psychological thinking. (DE 595 at 218). More importantly, Dr. Price credibly testified that Dr.
Weiner relied on the raw scores from the Halstead-Reitan rather than applying norms - called the
Heaton norms - which research confirms as valid. The Heaton norms adjust the raw Halstead-Reitan
scores for demographic factors, including race. 116 Neither Dr. Gelbort nor Dr. Weiner applied norms

115

Dr. Price's testimony suggested that Dr. Weiner should have used greater care in
relying on Bourgeois' self-reported coma. He testified:
In a forensic evaluation you already go into this as the evaluator with a certain
amount of skepticism and with an eye to evaluate the response style of anybody you
talk to to evaluate how much weight you give to evidence, and when you find that
some of the information that you have been provided by someone isn't accurate, then
it would lead us to be even more critical or skeptical of other information. And it
could be a sign that they are trying to present in a way as being more impaired than
they actually are, or, in your hypothetical, creating a situation that would likely be
interpreted as a traumatic event.
(DE 595 at 198).
116

Dr. Price explained:

Well, using the norms most similar to the person, including race, that - what the
literature describes race as an adjustment as a proxy for other factors in the person's
life, cultural enrichment, educational opportunities, quality of education and a
socioeconomic status. It stands as a proxy for that. And to avoid over identifying or
- you would get a greater degree of impairment comparing someone to Caucasians
as you would to comparing them to African Americans.
(continued ... )
140

PA176

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 21 of 40

to their raw scores. (DE 621, Exhibit 1 at 32). When applying the norms for the general population,
Bourgeois has mild mental impairment. However, Bourgeois, though of a mixed-racial background,
was "raised in an African American family, in an African American community." (DE 621, Exhibit
1 at 35). Applying the Heaton norms for African-Americans to Weiner's testing places Bourgeois
outside of the impaired range. (DE 621, Exhibit 1 at 18, 22).
While Bourgeois elicited testimony from Dr. Price that "some controversy" exists in
psychology over the use of the Heaton norms, he did not show that their application was not good,
or even necessary, psychological practice. (DE 621, Exhibit 1 at 17). With the scores from the
Heaton norms finding no impairment, Dr. Price attributed the defects that Dr. Weiner described to
a personality disorder, not a brain injury. (DE 595 at 223). Application of the Heaton norms would
also "not be consistent with somebody that's mentally retarded." (DE 621, Exhibit 1 at 41-42).
In the end, counsel must approach the decision whether to present evidence of brain damage
with careful deliberation. Evidence of mental and neurological conditions is double-edged: while
it can create jury sympathy, it can equally bolster the Government's claims of future dangerousness
by showing poor ability to control impulses and learn from past mistakes. The Fifth Circuit defers
to counsel's strategic decision not to present such double-edged mitigation evidence. With the surety
that presenting Dr. Weiner's testimony would reveal Bourgeois' manipulation, the credible testimony
that he had applied the wrong norms, and the marginal benefit to the defense, trial counsel's decision
not to adduce evidence of neurological impairment is not Strickland deficient performance.

116

( ... continued)
(DE 621, Exhibit 1 at 16).

141

PA177

Case 2:02-cr-00216 Document 660-3

d.

Filed in TXSD on 05/19/11 Page 22 of 40

Premeditation

Finally, Bourgeois claims that trial counsel should have called Dr. Holden in the punishment
phase to testify that he did not premeditate his crime. The defense elicited Dr. Holden's help well
before trial. After receiving a box of material from the defense, Dr. Holden provided a report that
he later supplemented after receiving additional information. Dr. Holden opined that Bourgeois did
not commit an intentional or premeditated "filicide": "[i]t is highly unlikely that Mr. Bourgeois had
decided to (or thought about) killing [the victim]. Instead, what probably happened was that in a fit
of rage over the spilled potty, he lost control of himself and in the course of administering physical
discipline fatally injured [her]."
Trial counsel initially wanted to call Dr. Holden as a guilt/innocence phase witness. Dr.
Holden wanted to testify that Bourgeois did not intend to murder JG 1999, but that "this death
resulted in a continuation of harsh punishment." (DE 350 at 37). Dr. Holden would have testified
that "Bourgeois had never formed a close bonding, attachment, love relationship with the child ...
. So, he was stressed financially, emotionally with the child, fatigued, and then when the child spilled
the potty, my interpretation is that he totally lost it and [be ]came very punitive trying to teach her
never to do that again." (DE 350 at 19-20). Dr. Holden conceded that he based his whole opinion
about intent on the theory that Bourgeois was the murderer. (DE 350 at 17). Although the defense
had supplied Dr. Holden with a "box of information" with "more than 100 pages" including the
results of DNA analysis, CPS records, and the autopsy(DE 350 at 55-57), Dr. Holden seemed
unaware of many facts surrounding the killing. After a more complete discussion of the evidence,
Dr. Holden weakened his opinion on Bourgeois' guilt. In the end, he weakly stated "it's possible
that it was not premeditated." (DE 350 at 65).
It was obvious that Dr. Holden's testimony would not benefit the defense in the

142

PA178

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 23 of 40

guilt/innocence phase. (DE 350 at 21 ). Dr. Holden himself agreed that he would not be much help
to the jury on the question of guilt. (DE 350 at 54). The Court held that Rule 704(b) prevented Dr.
Holden's testimony in the guilt/innocence phase. (DE 350 at 64, 69). The defense, though, indicated
that "intend[ed] to make another offer [at] the punishment phase to have him testify." (DE 350 at
70). Trial counsel ultimately chose not to call Dr. Holden in the punishment phase.
The record does not contain a clear statement of why counsel chose not to call Dr. Holden
as a witness. As the questioning before the guilt/innocence phase revealed, Dr. Holden would have
premised his testimony on Bourgeois' having committed the murder - a theory incompatible with
that chosen by the defense. Dr. Holden's testimony would have conflicted with Bourgeois' own
statements before the jury in the punishment phase.
Bourgeois secured a new declaration from Dr. Holden in these proceedings. Unlike his
earlier testimony, he now has backed away somewhat from his earlier focus on whether the crime
was premeditated. Now, with new information, his focus would be on the "family violence ... that
sadly repeats itself through generations," which when combined with "numerous psychological
factors that impaired Mr. Bourgeois' ability to control his actions," would have explained the murder
as the act of"an abuse-survivor, experiencing high stress, with low functioning, and with consequent
impairments in impulse control." (PX-20 at 7).
At any rate, this Court's observation in the two times he has appeared before the Court was
that a reasonable attorney would not have called him. His testimony came off as academic,
speculative, and untethered to the facts of the crime. After seeing how his opinions fared when
subjected to scrutiny, a reasonable and competent attorney might not have chosen for him to testify.
In fact, the Government seemed eager to put his testimony before the jury knowing how it would
benefit them. (DE 350 at 21). The Court's observations assure that trial counsel did not render
143

PA179

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 24 of 40

deficient performance in not calling Dr. Holden as a punishment phase witness.
D.

Conclusion of Deficient Performance Analysis

This case differs fundamentally from those in which the Supreme Court has found deficient
performance. 117 "This is not a case in which the defendants attorneys failed to act while potentially
powerful mitigating evidence stared them in the face, or would have been apparent from documents
any reasonable attorney would have obtained[.]" Van Hook, _U.S._, 130 S. Ct. 13, 19 (2009)
(citing Rompilla, 545 U.S. at 389-93 and Wiggins, 539 U.S., at 525). Trial counsel zealously
gathered the tools necessary to make a probing investigation into a mitigation defense. Trial counsel
used those tools to craft a defense which would remain true to Bourgeois' wishes but still advocate
for a sentence less than death. In doing do, trial counsel amassed information not fundamentally
different, for the most part, from that Bourgeois relies upon in this proceeding. In reviewing the
accumulated defensive material, the Government's case, the credibility of witnesses, the jury's
composition, and Bourgeois' wishes, trial counsel made hard choices. See Richter,_ U.S. at_,
_

S. Ct. at_ ("There are, however, countless ways to provide effective assistance in any given

117

See Sears v. Upton, _U.S. _ , 130 S. Ct. 3259, 3264 (2010) (trial counsel
essential failed to conduct any mitigation investigation and none of the evidence relied upon was
known to trial counsel); Porter v. McCollum, _U.S._, 130 S. Ct. 447, 453 (2009) (with a
month to prepare before sentencing the attorney "had only one short meeting with [the defendant]
regarding the penalty phase. He did not obtain any of [his] school, medical, or military service
records or interview any members of [his] family."); Rompilla v. Beard, 545 U.S. 374, 389 (2005)
(finding deficient performance when defense lawyers failed to "to look at a file he kn[ew] the
prosecution w[ ould] cull for aggravating evidence . . when the file [was] sitting in the trial
courthouse, open for the asking"); Wiggins v. Smith, 539 U.S. 510, 516-19 (2003) (trial counsel
wholly failed to prepare a social history and ignored serious issues that required further
investigation); Williams v. Taylor, 529 U.S. 362, 395 (2000) ("[T]rial counsel did not begin to
prepare for [the punishment] phase of the proceeding until a week before the trial[,] ... failed to
conduct an investigation that would have uncovered extensive records graphically describing [the
defendant's] nightmarish childhood, .. .introduce available evidence that [he] was 'borderline
mentally retarded' and otherwise ignored readily available evidence).
144

PA180

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 25 of 40

case. Even the best criminal defense attorneys would not defend a particular client in the same
way."). This Court will defer to those decisions.
That is not to say that trial counsel did not make mistakes. No trial is perfect. See United
States v. Hasting, 461 U.S. 499, 508 (1983) (noting that "there can be no such thing as an error-free,

perfect trial"). But the Supreme Court recently emphasized that "the Federal Constitution imposes
one general requirement: that counsel make objectively reasonable choices." Van Hook,_ U.S.
at_, 130 S. Ct. at 17 (quoting Roe v. Flores-Ortega, 528 U.S. 470, 479 (2000)); see also Gentry,
540 U.S. at 8 ("The Sixth Amendment guarantees reasonable competence, not perfect advocacy
judged with the benefit of hindsight."). Hindsight and second-guessing may possibly suggest
different courses of action, but with eyes focused on how trial counsel viewed the landscape before
them, this Court finds that trial counsel engaged in reasonable decision making bolstered by a
reasonable investigation. The Court finds that Bourgeois has failed to show deficient performance
under Strickland.

E.

Cumulative Effect of Prejudice

Even if Bourgeois could show that trial counsel's performance fell below constitutional
expectations, he would still have to show actual prejudice. The Court will consider the entirety of
Bourgeois' unpresented evidence conjointly. The Fifth Circuit "ha[s] construed [Supreme Court
precedent] to require that an evaluation of Strickland prejudice include consideration of both the
quantity and quality of the additional mitigating evidence." Hood v. Dretke, 93 F. App'x 665, 669
(5th Cir. 2004); see also Strickland, 466 U.S. at 695 ("[T]he question is whether there is a reasonable
probability that, absent the errors, the sentencer - including an appellate court, to the extent it
independently reweighs the evidence - would have concluded that the balance of aggravating and
mitigating circumstances did not warrant death."). Particularly, "Williams, Wiggins, and Rompilla
145

PA181

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 26 of 40

looked at the quality of the mitigation case put forward by trial counsel as compared to what the
petition suggested should have been presented." Alexander v. Quarterman, 198 F. App'x 354, 361
(5th Cir. 2006).
In addition, the prejudice inquiry looks at all available evidence, not just that favoring the
defense.

Strickland, 466 U.S. at 695 ("In making this determination, a court hearing an

ineffectiveness claim must consider the totality of the evidence before the judge or jury."). In
assessing the relative weight of the new mitigating evidence, a reviewing court compares and
contrasts the new evidence with that from the trial. See Wongv. Belmontes, -

U.S. - -, 130 S.

Ct. 383, 390 (2009) ("[T]he reviewing court must consider all the evidence-the good and the
bad-when evaluating prejudice."). The Fifth Circuit has indicated that a court looks to see if the
petitioner's new evidence will "lessen the impact of the other evidence against him[,]" Conner v.
Quarterman, 477 F.3d 287, 294 (5th Cir. 2007), because "overwhelming aggravating factors" can
outweigh unpresented mitigating evidence. Sonnier v. Quarterman, 476 F.3d 349, 360 (5th Cir.
2007). For instance, the "horrific facts of the crime," Martinez, 481 F.3d at 259, the "brutal and
senseless nature of the crime," Smith, 471 F.3d at 576, or the "cruel manner in which he killed,"
Miniel v. Quarterman, 339 F.3d 331, 347 (5th Cir. 2003), may weigh heavily against a finding of
Strickland prejudice. See also Strickland, 466 U.S. at 700; Knightv. Quarterman, 186 F. App'x 518,
535 (5th Cir. 2006); Ladd v. Cockrell, 311 F.3d 349, 360 (5th Cir. 2002); Andrews v. Collins, 21
F.3d 612, 624 n.23 (5th Cir. 1994); Russell v. Lynaugh, 892 F.2d 1205, 1213 (5th Cir. 1989).
Additionally, if the "evidence of ... future dangerousness was overwhelming ... it is virtually
impossible to establish prejudice." Ladd, 311 F.3d at 360 (citing Strickland, 466 U.S. at 698).
Finally, federal courts consider whether or not the new evidence is double-edged or
introduces new aggravating circumstances into the calculus of sentencing. A court must consider
146

PA182

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 27 of 40

whether the material upon which a petition bases his Strickland claim contains unhelpful
information. See Burger v. Kemp, 483 U.S. 776, 793-95 (1987); Strickland, 466 U.S. at 700. The
Fifth Circuit has refused to find prejudice if the unpresented evidence "also contained evidence that,
if disclosed, would have been detrimental to [the defense] case." Ransom v. Johnson, 126 F.3d 716,
724 (5th Cir. 1997); see also Dowthitt v. Johnson, 230 F.3d 733, 745 (5th Cir. 2000); Kitchens v.
Johnson, 190 F.3d 698, 703 (5th Cir. 1999); Cockrum v. Johnson, 119 F.3d 297, 304 (5th Cir. 1997);
West v. Johnson, 92 F.3d 1385, 1410 (5th Cir. 1996), Woods v. Johnson, 75 F.3d 1017, 1035 (5th
Cir. 1996); Callins v. Collins, 998 F.2d 269, 278 (5th Cir. 1993).
The facts of this case are atrocious. Bourgeois committed a horrible murder. This Court
need not to recount again the evidence showing the torture, neglect, and abuse that he inflicted on
his helpless victim. He was indifferent to JG 1999' s injuries, unremitting in his beatings, uncaring
about her death, and unremorseful at trial. He bit her, beat her with various objects, and probably
sexually assaulted her. The Government presented significant evidence that the rage he reserved for
his young daughter resulted from financial concerns, not psychological conditions.
The episode that resulted in JG1999's death was not an isolated incident. Bourgeois had
been violent in the past and continued his violence while in custody. He had been cruel to children
before, beat his wives, assaulted his mother-in-law, threatened jail guards, and tried to assault a
United States Marshal. He threatened that his daughter's death would not be the only one. In fact,
he threatened to kill witnesses. The jury saw Bourgeois as a violent man.
Trial counsel adduced some of the evidence upon which Bourgeois now relies. The jury
knew that his mother neglected and abandoned him. Psychological testimony from Dr. Estrada put
some of the blame on mental health issues. While Bourgeois has now presented more nuanced and
detailed defensive theories, the jury would not respond more favorably than to those trial counsel
147

PA183

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 28 of 40

fashioned to conform to Bourgeois' chosen defense. Given the whole of the evidence, the Court
finds no reasonable probability of a different result. The Court denies Bourgeois' Strickland claim.

III.

Jurisdiction (claim three)

Bourgeois claims that he did not kill JG 1999 on federal property.

Under 18 U.S.C.

§ 1111 (b ), "[w]ithin the special maritime and territorialjurisdiction ofthe United States, [w]hoever
is guilty of murder in the first degree shall be punished by death or by imprisonment for life[.]"
(emphasis added). "[C]rimes committed within the confines of federal military reservations [fall]
within the special territorial jurisdiction of the United States." United States v. Bell, 993 F.2d 427,
429 (5th Cir. 1993). 118 The Corpus Christi Naval Air Station is within the United States territorial
jurisdiction. According to Bourgeois, the Government did not meet its burden of showing, beyond
a reasonable doubt, that JG1999 died from injuries inflicted on federal property.
Federal law decides jurisdiction by the place of the fatal injury, not death. See 18 U.S.C.

§ 3236 ("[T]he offense shall be deemed to have been committed at the place where the injury was
inflicted, or the poison administered or other means employed which caused the death, without
regard to the place where the death occurs."). Jurisdiction in this case came from Bourgeois beating
his daughter's head against the truck window on the naval base. Bourgeois' jurisdictional argument
presupposes that earlier injuries, unrelated to the vicious beating, caused the victim's death. In other
words, the prior injuries he administered in another jurisdiction killed the toddler, not the beating
on federal property. Bourgeois faults trial counsel for not basing the trial defense around a

118

Congress has defined this jurisdiction as including"[ a]ny lands reserved or acquired
for the use of the United States, and under the exclusive or concurrent jurisdiction thereof, or any
place purchased or otherwise acquired by the United States by consent of the legislature of the State
in which the same shall be, for the erection of a fort, magazine, arsenal, dockyard, or other needful
building." 18 U.S.C. § 7.
148

PA184

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 29 of 40

jurisdictional challenge. He also asks the Court to reopen the evidentiary hearing to allow more
testimony on this matter.

A.

The Autopsy and Trial Testimony

Dr. Elizabeth Rouse performed the autopsy and noted numerous external scars and wounds
on JG 1999' s head in various stages of healing. The extent and severity of the numerous injuries
Bourgeois inflicted over time created a complexly tangled patchwork of bruises, scars, wounds,
lacerations, and other injuries. The overlapping and all-encompassing nature ofthe victim's external
injuries chronicled weeks of abuse by her father.
The autopsy and Dr. Rouse' s subsequent trial testimony provided important information
about the victim's external and internal head injuries. Dr. Rouse discussed the "severe head injuries,
what I call a closed head injury," including "the injuries that actually resulted in her death. And ...
there's a number of different components of those head injuries[.]" (DE 345 at 121). Dr. Rouse
described layers of injuries, from the skin, to the undersurface of the scalp, to the brain itself. For
example, Dr. Rouse described a "recent bruise" on tissue that "indicate[d] that at that spot on her
head, there was an impact. ... right at the hair line on the right forehead and a "fairly complex bruise
... that would indicate actually multiple impacts at that site." (DE 345 at 126-27). She observed
a "multitude of smaller [bruises] ... across the back of her scalp, across the back of her head ...
where something either hit her head, or her head hit something." (DE 345 at 129-30). Dr. Rouse
identified a total of 10 bruises on the undersurface of the scalp. (DE 345 at 123). 119 She also
described a subgaleal hemorrhage that "indicates an impact to the head, the actual point on the head

119

JG 1999 also had "impact bruises on the front of her scalp, on the right, and then all
across the back. ... Both sides in the back. ... [A] fairly large one behind the right ear." (DE 345
at 144).
149

PA185

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 30 of 40

where force was transmitted." (DE 345 at 146). She explained: "all appear what we would call
recent injuries .... within the past few days[.]" (DE 345 at 130-31, 146).
Bourgeois correctly observes that these wounds alone are not evidence of a recent lifethreatening injury. Dr. Rouse explained that the bruises "did not result in the death. But what they
indicate is the mechanism of what ultimately caused the injury to her head. What she actually died
from is the forces that were transmitted on the brain. That's what resulted in her death." (DE 345

at 131) (emphasis added). The scalp wounds "are just markers for where those impacts occurred,
where that force was transmitted to the brain." (DE 345 at 132). The most important part of the
autopsy was its description of what that force did to JG 1999' s brain.
As part of the autopsy procedure, Dr. Rouse sent slides of JG 1999's brain away for
microscopic examination. The autopsy report incorporates a conclusion prepared by Dr. Kathlenne
S. Kagan-Hallet, an associate professor of pathology with the University of Texas Health Science
Center at San Antonio. In a report dated September 17, 2002, Dr. Kagan-Hallet noted that the
autopsy revealed "subgaleal bruising and subdural hematoma, as well as pattern injuries to the
skin." 120 In the portion of her report entitled "microscopic findings and comments," Dr. KaganHallet noted older injuries and some "in a stage of early organization." In the section designated
"neuropathologic diagnosis," she noted a "history of head trauma," and described" {Right} subdural
hematoma, mostly recent, minimal organization (approximately 10 days' duration)" She also noted
"Cerebral white matter. Organized contusion infarcts (7+ days' duration), myelin tearing and axonal
bodies." (DE 397, Attachment 50).

120

The autopsy report notes "two discrete areas of recent subgaleal hemorrhage in the
right frontal scalp" and "[a]cross the occipital scalp ... a total of eight discrete areas of recent
subgaleal hemorrhage." She also observed a "semisolid subdural hematoma ... over the right
occipital region" and a "patchy subarachnoid hemorrhage over the brain."
150

PA186

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 31 of 40

Dr. Rouse's trial testimony provided the most important insight into Dr. Kagan-Hallet's
observations. In discussing the intercranial findings, Dr. Rouse described several indicators that the
victim had experienced significant trauma: (1) a subdural hematoma ("where blood has leaked, and
that indicates where tremendous forces have been applied to the brain, resulting in her death"); (2)
a subarachnoid hemorrhage ("which is blood over the actual surface of the brain"); (3) swelling of
the brain; (4) "feuxsaxonal" injury ("injury to the actual nerves and cells of the brain ... the injury
to the brain itself'); and (5) fresh hemorrhaging in the victim's retina ("[w]hen there are injuries to
the brain, those forces are often commonly transmitted also to the eyes, and you'll also get
hemorrhage. The blood doesn't leak from around the brain to the eyes."). (DE 345at132, 134, 138,
139). All those factors indicated significant blows to the head that transmitted force to the brain
itself. (DE 345) ("[T]o get a hemorrhage within the brain, it certainly indicates significant impact
to the head.").
Despite this recent bruising on the underside of her scalp, Dr. Rouse did not discuss the age
of the intercranial features, particularly the subdural hematoma. She did, however, give her opinion
as to the cause of death. She testified that "the feuxsaxonal (phonetic) injury, injury to the brain
itself. And that's what actually resulted in her death. The scalp hemorrhages are just markers for
where those impacts occurred, where that force was transmitted to her brain." (DE 345 at 132)
(emphasis added). Dr. Rouse elaborated:
The actual cause of death - we can go through my, basically the summary is my
autopsy findings. The cause of death is what we call a closed head injury, an impact
to the head resulting in a devastating brain injury, which we could see looking at the
brain, by the bruising ofthe scalp, the bleeding over the brain, both under the dura
and over the lining of the brain, and then also microscopically, when we looked at
the actual brain tissue, we could see injury throughout the brain. I actually sent
those sections to a neuropathologist to confirm that there was extensive injury in the
brain which would have resulted in her death. She has the hemorrhage along the
optic nerves, as well as the hemorrhage on the back ofthe retina on both eyes, which
151

PA187

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 32 of 40

again that's very protected. You do not see that type of retinal hemorrhage in
accidental trauma, specifically not in any sort of trivial accident. Certainly, you could
get it with something of the magnitude such as a car accident. That type of injury is
required to get retinal hemorrhage.
(DE 345 at 170) (emphasis added). Acknowledging that the medical evidence did not allow Dr.
Rouse to establish precisely when and where JG 1999 died, the Government asked her if the fatal
injuries were consistent with the AB1994's version of the events. (DE 345 at 171). Dr. Rouse
testified that the beating which AB 1994 witnessed "could certainly explain the injuries that were
seen on the child." (DE 345 at 171).

B.

Bourgeois' Post-Judgment Arguments and Post-Conviction Testimony

Bourgeois' claim thathe did not kill JG 1999 on federal property turns on Dr. Kagan-Hallet's
observations from the autopsy report. In his Motion to Vacate, Bourgeois based his jurisdictional
argument on the subdural hematoma of"approximately 10 days' duration[.]" Treating the subdural
hematoma as an indication of when JG 1999 received the fatal blows, Bourgeois argued that he could
not have inflicted the killing injury on federal property. As support, Bourgeois first secured an
affidavit from Dr. Werner Spitz, a forensic pathologist. Dr. Spitz opined that the fatal injuries were
a week or more old:
The neuropathology report by Dr. Kathleen Kagan-Hallet indicates mild to moderate
cerebral edema with hemorrhagic necrosis of cerebellar tonsillar tips, subdural
hematoma of approximately 10 days duration and organized contusion infarcts of 7+
days duration as well as, myellin tearing and axonal bodies. The scalp bruises are
relatively small and do not conform with one or more falls or forceful impacts. I
disagree with the witness testimony (ABJ 994) whereby the child's head was struck
multiple times on the interior of the vehicle. I am also surprised to see what appear
to be fresh bruises of 1 or 2 days in the scalp, while the subdural bleed and contusion
infarcs in the white matter show evidence or organization compatible with a week or
longer. The findings place in question causation of the injuries and their timing. The
scalp injuries in and of themselves would not have been life threatening and there is
no question as to the life threatening nature of the cerebral injuries.
(DE 397, Declaration of Werner Spitz, MD dated May 10, 2007, Attachment 53) (emphasis
152

PA188

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 33 of 40

added). 121 Relying on Dr. Spitz's assumption that trial testimony claimed that the oldest part of the
subdural hematoma represented the killing injury, Bourgeois claims that the federal government
never properly had jurisdiction to try him for capital murder.
From the outset, Dr. Spitz's affidavits lacks credibility because he dismisses AB 1994' s
testimony without having viewed her in court. His willingness to dispute a well-settled factual
account calls his conclusions into question. The Court observed AB 1994's trial testimony. AB 1994
was a highly credible witness who convincingly described, to the best of her ability and beyond
expectations for her young age, what her father did to her little sister. Dr. Spitz's disregard for her
testimony, as well as the other evidence showing an obvious serious injury on federal property,
makes his declaration not credible.
When this Court allowed limited factual development of this claim, Bourgeois wisely did not
secure any additional testimony from Dr. Spitz. Instead, Bourgeois obtained two reports from Dr.
Jan E. Leestma, a consultant in forensic neuropathology. Dr. Leestma examined the evidence,
including the autopsy photographs and conceded that "[i]t seems inescapable that this child had been
physically assaulted over a considerable period of time before death." (DE 641, Exhibit 2). He did
not, however, give a definite answer to the "critical question ... of when the fatal head injuries to
the child were caused." Acknowledging that "she had sustained a number of head impacts allegedly
due to having been beaten over a period of time," Dr. Leestma's report did not list a cause of death.

121

The courts in this circuit that have considered Dr. Spitz's testimony have found him
not useful or credible. For instance, one court in the Western District of Texas labeled his
methodology "simplistic and preposterous[.]" Bittner v. General Motors Corp., 2005 WL 5977561,
at * 1 (W.D. Tex. 2005). In another case, Dr. Spitz formed conclusions based on "no evidence."
Galvan v. City ofSan Antonio, 2008 WL 5352945, at *6 (W.D. Tex. 2008) (emphasis in original);
see also Hill v. Carroll County, Miss., 2008 WL 2066526, at* 5 (N.D. Miss. 2008) (noting that Dr.
Spitz relied on a conclusion that was "wholly speculative").
153

PA189

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 34 of 40

He suggested that some of the brain injuries - specifically "a coagulopathy which appears to have
included sagittal sinus thrombosis and possibly cortical venous infarctions" - may have "resulted
in the child's death at any time with or without any new episode of trauma." (DE 641, Exhibit 2).
He refused, however, to look at anything other than the medical evidence in ascertaining a cause of
death. Where Dr. Spitz had criticized AB 1994' s testimony, Dr. Leetsma ignored her account and
any other evidence that would put JG 1999' s injuries into context. 122
The parties deposed Dr. Leetsma on January 10, 2011.

(DE 641 ).

In response, the

Government called Dr. Rouse as a witness and the parties questioned her by telephone in a hearing
on January 13, 2011. The resultant evidentiary record provides a highly technical view of the
overlapping and interwoven injuries Bourgeois inflicted on his daughter. While disagreeing on many
points, the experts found some areas of consensus. Both Dr. Leetsma and Dr. Rouse found serious
brain damage in the victim. Both experts observed both recent ("acute") and older ("chronic") brain
injury. 123 They both opined that the injuries were complex and hard to separate, age, and gauge. Dr.

122

In the end, he explained:

Much of the pathology in this child is not acute. The scalp injuries are of variable
ages in which the hemorrhages show aging of red cells cellular repair and
inflammatory reactions and healing-scarring. The brain lesions range from possibly
few days in age to days to weeks old. The child may have had coagulopathy which
appears to have included sagittal sinus thrombosis and possibly cortical venous
infarctions. These processes could have resulted in the child's death at any time with
or without any new episode of trauma.
(DE 641, Exhibit 2). Admitting that the "child's condition deteriorated after the reported incident
in the father's truck," Dr. Leestma opined that "there is very little information derived from the
autopsy that can accurately pin point what physical injury resulted from this alleged incident or that
it directly caused the child's death." (DE 641, Exhibit 2).
123

Dr. Rouse testified: "[C]learly the multitude ofinjuries makes this a complex picture.
We can categorize the injuries into, you know, ones that appear to be six weeks old, you know, five,
(continued ... )
154

PA190

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 35 of 40

Rouse explained that "you have a complex constellation of things going on in response to that
injury." (DE 646 at 7). Dr. Leetsma agreed that the mixture of acute and chronic injuries made this
a difficult case. (DE 641 at 88-89).
Without question, both experts could place injuries into two time periods - those more than
a week old and those less than three days. The victim died around 24 hours after the ambulance took
her from the naval base. Neither doctor could medically pinpoint the exact time of the newest
injuries, though both agreed they occurred within three days of death. Dr. Leetsma explained:
I don't know anyone who has a magical formula to break down into smaller
increments this two- to three-day acute injury scenario. Red blood cells just don't
change over that period of time. It's at the three-day mark and beyond that they begin
to undergo some changes. The inflammatory reactions that can occur with an impact
to the scalp, or any other place, are so variable between individuals that I know of no
reliable reproducible scale that someone can use. That means they may have
opinions on this matter, but I don't know of any reliable method that can sharpen our
razor, so to speak, or turn up the power of the microscope to answer these kinds of
question.
(DE 641 at 94-95). Dr. Rouse agreed:
[S]he has many injuries of many, many ages, on different parts of her body.
Unfortunately, we cannot, with medical certainty, get down very close on the aging
of any of the injuries. We can, however, put them in categories of things that are
more chronic, they're healing. The body is clearly healing in response to this injury.
And some of those are where there's scarring. You know, that clearly takes weeks
for a scar to develop. Other things show more along the time frame of about a week.
And when I say, "a week," seven days, ten days. I can't differentiate between those
two. But you know, clearly a few days have passed from the time of injury. And
then she also has injuries that appear to have been in the last day or two. And you
know, one to three days. I don't think you can distinguish between one day and two
days, particularly when her last day was very altered.
(DE646 at 17).

123

continued)
six weeks old, to some that are, like I said, a week old, some that are days old. You know, days,
weeks or months. We can't pinpoint exactly any injury, as far as pinpoint down to the day, this
occurred on this date." (DE 646 at 22).
( ...

155

PA191

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 36 of 40

In another example of agreement, both experts thought that the subdural hematoma was not
a major cause of the victim's death. Dr. Leetsma observed
two components to the subdural hematoma. The chronic component ... aged and
dated ten days to two weeks before this incident. The fresh blood or more recent
blood cannot be accurately aged and dated within about three days, two days from the
time of death. So it is possible that some blood that is in this compound subdural
hematoma came during the time period you just discussed, but there is absolutely no
way I can tell you if that happened.
(DE 641 at 48). "The estimate of the age of the healing of the subdural hematoma, or the reaction
that we're talking about, on the order of ten days to two weeks." (DE 641 at 35). Dr. Leetsma
opined that, while still a factor, the subdural hematoma was "a rather minor component because of
the relatively small volume estimated of that subdural hematoma." (DE 641 at 25). Dr. Rouse
agreed that the subdural hematoma, "'space-wise' ... was not a large collection of blood. But there
are other injuries to the brain that are all causing, that are - there are other markers of injury to the
brain." (DE 646 at 7). In those other injuries was where the experts differed. Some of the matters
on which the experts disagreed include:
•

Dr. Leetsma considered venous thrombosis ("clotting of cerebral veins ...
and the superior sagittal sinus") to have caused the most significant precursor
to the intercranial swelling that he thought caused her death. (DE 641 at 26).
The clotting of the venous channel under the skull "led to infarctions in the
brain and cerebral edema and bleeding." (DE 641 at 26-27). However, he
could only date "some aspects" of the venous thrombus. (DE 641 at 32). He
thought that the clot "ha[d] been there for some days ... [T]he recent red
blood cells could be anywhere two to three days from the time of death. The
blood clot itself is probably more than that, several days. And that's about
as good as we can do with that particular component." (DE 641 at 32-33).
The thrombosis occurred before "the collapse and decompensation of this
child that was discovered at the naval base and leading to the hospitalization
and then ultimately the child's death 24 hours or so later. The thrombosis
antedates that whole business, that whole process by several days most
likely." (DE 641 at 50). Dr. Rouse, on the other hand, explained: "As you
go to the thrombus, that appears I think all within a few days .... One to
three days." (DE 646 at 18). She also testified that the thrombosis was "all
a constellation of injury that is acutely going on two to three days, on top of
156

PA192

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 37 of 40

previous injury a week prior." (DE 646 at 20). In short, she testified: "I
don't think the thrombus alone is a significant injury to the brain. I think it's
in response to the other injuries to the brain." (DE 646 at 10).

•

Dr. Leestma did not believe that the recent portion of the subdural hematoma
was consistent with injuries sustained on the naval base. (DE 641 at 48). Dr.
Rouse, however, "would argue that the acute [component] does not conflict
with occurring 24 hours prior to her death." (DE 646 at 27).

•

The experts also disagreed about the source of the retinal bleeding observed
when JG 1999 arrived at the hospital. Dr. Leetsma explained that the retinal
bleeding was "a consequence of the increased intercranial pressure this child
had." (DE 641 at 45). Dr. Rouse, however, thought that "a tremendous
transmission of forces" had caused the retinal hemorrhage. (DE 646 at 14). 124

•

Dr. Rouse noted that Dr. Leetsma omitted any reference to intercranial
evidence of trauma. He did not "mention[] the tearing of the myelin and the
axonal body. That's sheering of the fibers in the brain. These are all
traumatic." (DE 646 at 11). Dr. Rouse explained that "[t]he actual neurons
and tissue of the brain itself was damaged" and credibly testified "we see
microscopically different manifestations, but it's all due to trauma. Trauma
explains all of the findings." (DE 646 at 7, 12).

•

Dr. Rouse testified "You cannot ignore the scalp hemorrhage, which are
impact sites on the head, meaning her head hit- either something hit her head
or her head hit something." (DE 646 at 40). 125 Dr. Leetsma, however, would
"argue about does that really represent an impact site" and stated that "it's
difficult to tell when those [impacts] occurred or how they occurred." (DE
641 at 43).

124

Dr. Leetsma opined that

First of all, physical forces generally do not and cannot cause the kind of retinal
bleeding we see here. They can certainly lead to it if you have a car crash and a giant
subdural or tremendous cerebral edema, that's going to produce intercranial pressure
which can produce the retinal hemorrhages. But directly as a result of physical
forces, that would not be acceptable or is not scientifically proven.
(DE 641 at 46-47).
125

Dr. Rouse testified: "The scalp injuries, the bruising, which as we call it subgaleal
hemorrhage, that means bruising of the scalp - and contusion is the same as a bruise - those are
recent. And I would say within days. There's fresh blood in those bruises of the scalp. And they
indicate an impact site." (DE 646 at 18).
157

PA193

Case 2:02-cr-00216 Document 660-3

•

Filed in TXSD on 05/19/11 Page 38 of 40

In the end, Dr. Leetsma found one cause of death: "increased intercranial
pressure which had its consequences causing her to remain comatose,
nonresponsive, nonbreathing, and ultimately destroyed the circulation of the
brain[.]" (DE 641 at 24 ). Dr. Rouse clarified that the "intercranial pressure"
was "one of the physiologic responses that led to her death" but "a complex
constellation of things" such as trauma, swelling, the thrombus, and the
subdural hematoma contributed to her death. (DE 646 at 8). 126 If the
swelling had been occurring before the incident on the naval base, "[y ]ou
would have expected a different scenario, where she would have had more
symptoms leading up to the death, nausea, vomiting, being somnolent, sleepy,
head-you know, older people describe headaches, that she would have been
irritable. There would have been signs, as she was incurring increasing
intercranial pressure ... rather than a very abrupt change." (DE 646 at 40).

Most importantly, the experts disagreed about the manner in which an expert must consider
the bare medical findings in light of other evidence. Both experts saw evidence of recent injury.
Both experts opined that the most recent ofJ G 1999' s injuries occurred within a three-day window. 127
Both also agreed that they could not with any degree of precision place a date and hour on the most
recent injuries. However, the most substantive disagreement between the experts was how to factor
additional information into their conclusions.
The Government criticizes this claim because Bourgeois "seeks to have this Court view
evidence narrowly based upon a defense expert's opinion but without reference or reliance upon
other contextual evidence." (DE 654 at 5). Dr. Leetsma turned a blind eye to anything other than
the autopsy findings. Dr. Leetsma would not take into account any testimony about the circumstances

126

Dr. Rouse described the difference between Dr. Kagan-Ballet's description of the
edema as "mild to moderate" and the CAT scan as "severe" to be "broad terms" in which there is
"a subjective assessment of a finding" and "overlap." (DE 646 at 46). "And I would attribute
differences to a neuropathologist and a radiologist are looking at different, using different
terminology, using different references." (DE 646 at 46).
127

Dr. Rouse testified that dating the injuries did not take into consideration the time
after JG 1999 died, "[b ]ecause the physiology stopped at the time of death." (DE 646 at 28).
158

PA194

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 39 of 40

of JG 1999's death, such as ABl 994's testimony. Accordingly, he could not say whether the victim
died from the injuries on the naval base. 128
Unlike Dr. Leetsma, Dr. Rouse testified that professionals use the circumstances surrounding
the death to inform their findings: "We use the physical findings in conjunction with the
investigative information .... Pull the two together, view each in light of the other." (DE 646 at
43). Dr. Rouse testified that a forensic examiner looks at
all the investigative information. Some we discount, some does not fit, some fits. I
mean, but we consider all the information that's available .... And we would, we
certainly look at the medical evidence, but that is always looked at in conjunction
with clinical evidence, with eyewitness statements, with medical records, physicians'
previous examinations. We would pull that all together to come to our conclusion.
(DE 646 at 26). Dr. Rouse credibly explained that
certainly the circumstances help place how significant the injury is in resulting in the
death. For example, this child has evidence of brain injury that is a week old. By all

128

He explained:

First of all, the aging and dating of the acute component of the subdural we have
imprecision there, we can't do any better than a couple of days. Meaning if -- I
couldn't tell you whether a red blood cell in that clot came five minutes before the
heart stopped in this child or two days before. I can't. I can't do it. So that limits
that.
We have other processes that are involved in this child. The older component of the
subdural. The cerebral thrombosis clearly predates the arrival of this child at the
naval base. The bruising on the scalp and so forth and so on, of which there are a
number of them, all of those have both acute and chronic components and the issue
is the same. I can't tell you if bleeding that is there of an acute nature or recent nature
precisely when it occurred or how it occurred.
(DE 641 at 51 ). Even to the limited extent he considered the circumstances leading up to JG 1999' s
death, Dr. Leetsma did not have a full understanding of the facts. For instance, he stated that"[t]he
child apparently at some point was reported to have drunk her own urine because she was hungry
or thirsty." (DE 641 at 79-80). He used that to infer that "this child had been ill in some fashion
prior to this incident." (DE 641 at 79-80). Dr. Leedemsa had a misconstrued understanding of the
incident in which the victim drank, and was forced to drink, her father's urine.
159

PA195

Case 2:02-cr-00216 Document 660-3

Filed in TXSD on 05/19/11 Page 40 of 40

accounts, she was functioning neurologically fairly normally during that week. She
was conscious, talking, walking. She has evidence microscopically ofrecent injury,
days. At a point on the 27th, clinically her neurologic status changed abruptly. She
lost consciousness, was no longer walking, talking. That fits very well
microscopically with the acute injuries. The timing fits well.
(DE 646 at 22).
In this case, Dr. Rouse' s testimony indicated that a medical expert cannot ignore the
significant amount of recent trauma that would place the killing injury just before JG 1999 arrived
at the hospital. In essence, Dr. Rouse looked at the information like a jury would have to plugging
scientific observations into eyewitness accounts.

C.

Evidence of Recent, Extensive, and Fatal Head Trauma

Given the pervasive and prolonged abuse JG 1999 suffered at Bourgeois' hands, the existence
of different-aged brain injuries is not surprising. Unquestionably, Bourgeois' whipping, hitting, and
beating the victim over time - including his barbarous assaults with a plastic baseball bat - inflicted
head injuries. In his Motion to Vacate and related briefing, Bourgeois treated the subdural hematoma
and related injuries' age as the only indicator of when JG1999 received the fatal injury. This is a
myopic view of the trial testimony and autopsy findings. Trial testimony did not refer to the subdural
hematoma as the only, or even a major, cause of death. Rather, trial testimony was consistent with
the evidentiary hearing explanation that a complex serious of injuries caused JG 1999" s death. In
sum, she died from trauma to the brain.
The Court does not find Dr. Leetsma's testimony persuasive insofar as he contends that
intercranial pressure from earlier wounds caused the victim's death. Regardless of the mention of
a ten-day-old hematoma, Dr. Rouse's trial testimony convincingly described how recent injuries
killed JG 1999. Nothing in the record suggests any major neurological side effects before her arrival

160

PA196

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 1 of 40

on federal property .129
Trial testimony helped place the killing injury on the naval base. Bourgeois asserts: "There
was no evidence offered through [AB 1994] or any other witness to demonstrate that the fatal blows
were inflicted on the grounds of the [Naval] Air Station." (DE 402 at 28). Bourgeois seriously
downplays how AB 1994' s testimony as it fits into the context of other trial testimony. True, she
chronicled a weeks-long pattern of abuse toward JB 1999 that fashioned the complex constellation
of wounds observed by forensic experts. She saw her father spank, hit, bite, whip, and beat the
young child. AB 1994 recalled more than one head injury her father caused. He told AB 1994 that
he wanted to kill the child, and certainly acted like he wanted to kill her. Fresh blood was present
in the bruises on JG 1999's head which corresponded to the internal injuries that caused her death.

But most importantly, AB1994 saw the murder on federal property. Bourgeois takes
advantage of AB 1994' s testimony told through her childhood view to argue that no time line would
place his violent act on federal property. He fails to recognize how, even ifher trial testimony drifted
from event to event without always following chronology, it harmonizes with the accounts of others
who saw Bourgeois on federal property. After entering the naval base, two individuals saw

129

Dr. Rouse emphasized the lack of any report showing impaired functioning before
Bourgeois slammed his daughter's head into the truck window. Dr. Rouse credibly explained
If she died from an injury that the insult that occurred a week prior, again, yes, at
some point you would go from conscious to unconscious. But you would anticipate
days of symptoms prior, lethargy, not eating, vomiting for several days' duration, you
know, that you would anticipate a constellation of symptoms. Typically also it would
be, the loss of consciousness would be closer to the insult, not a week later.
Typically it may be a day or two, but you would expect it to occur more recently and
with symptoms in the intervening period.

(DE 646 at 45).
161

PA197

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 2 of 40

Bourgeois before he arrived at the loading dock. Hal Resides, the Occupational Safety and Health
Manager for Corpus Naval Air Station, saw Bourgeois' waving for him to stop just after 10:00 a.m.
on July 27, 2002. Bourgeois leaned out of the driver's side window and asked for directions to the
warehouse. After he turned the engine off so they could talk, Mr. Resides saw a young girl looking
out the window. (DE 355 at 113-116). 130 Mr. Resides' description of his encounter with Bourgeois
suggested that JG 1999 had not yet suffered a life-threatening injury.
By 10 :25 a.m. Bourgeois had notified his dispatch that he was on the naval base, but his truck
would not start. (DE 337 at 283). Carl Mead Arnoux, an employee at the naval base, saw
Bourgeois' truck in front of the compound with the hood up. (DE 355 at 132). He helped Bourgeois
jump start his vehicle. 131 These witnesses observed no sign of emergency while Bourgeois was on
federal property- Bourgeois was "very kind" and not "frustrated" or "upset." (DE 335 at 143-44).
The testimony from Mr. Resides and Mr. Armoux suggest that there was no concern about JG 1999' s
welfare before Bourgeois brought her on federal land.
At approximately 11 :00 a.m., Bourgeois pulled the tractor-trailer parallel to the loading dock
atthe Navy Exchange warehouse. (DE 335at147). ABl 994then described how her father stopped,
told her not to get out, and then went to ask for directions. (DE 241 at 36). AB 1994 described
JG 1999 as active and wiggling around when they arrived to unload the truck. (DE 245 at 36-37).
When the truck started to back up, JG1999 tipped the potty. (DE 241at36).
After she spilled the potty, Bourgeois ordered AB 1994 to hand him the infant. Bourgeois

130

While Bourgeois asked for directions and shut off his vehicle, he did not describe
either of them leaving their vehicles.
131

AB 1994 remembered that her father's truck would not start, but she did not remember
helping him start it as he and Mr. Arnoux jumpstarted it. (DE 241 at 36).
162

PA198

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 3 of 40

took off JG 1999's pants and spanked her. AB 1994 then described the murder:
AB 1994:

He took her by the shoulders, and he started hitting her head on the
window.

Ms. Booth:

And could you see her face, AB 1994?

AB1994:

Yes.

Ms. Booth:

What was her face doing?

AB 1994:

Like making a real, real sad face.

Ms. Booth:

Okay. And when she was making this real sad face, did you tell him,
"Stop, Daddy, stop"?

AB1994:

No.

(DE 245 at 39). Bourgeois hit her head against the window four times, put JG 1999's clothes back
on, and told AB1994 "to catch her and put her right next to [her] seat." (DE 245 at 39). AB1994
"was awake, and then she just, like, fell asleep." (DE 245 at 40). 132 Bourgeois then concocted his
story and played it out to the hilt.
Dr. Rouse's testimony harmonized with other testimony from other medical experts who
examined JG 1999 before she died. When she arrived at the hospital she bore signs of recent
trauma. 133 Dr. Rouse credibly explicated: "She had a multitude of injuries, the relative role of which

132

Bourgeois tries to create inconsistency between AB 1994' s account and the other trial
testimony. AB 1994's recollection harmonizes in many respects, other than the murder itself, with
what Bourgeois said happened before he dashed the victim's head into the window. (DE 344 at
187). Also, her testimony does not hint that the killing blows happened somewhere other than the
naval base they had entered an hour before. Bourgeois' and AB 1994' s actions in the hour leading
up to the murder, as described by those who came into contact with them, do not even suggest the
urgency that they showed once it became clear that JG 1999 was dying. No basis exists to raise
reasonable doubt about the location of the killing.
133

For instance, Dr. Noorullah Akhtar, the pediatric intensive care physician that first
evaluated and treated JG 1999, realized when she was first brought to the hospital that the recent head
(continued ... )
163

PA199

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 4 of 40

I don't think you can dissect out. But clearly that last injury pushed it till the brain could no longer
compensate and resulted in her death." (DE 646 at 39). Abundant and conclusive evidence showed
trauma both consistent with AB 1994's testimony and amply sufficient to cause JG 1999's death.
Most importantly, Bourgeois' own words place the killing injury on federal property. He
described how, when he arrived on the naval base and his truck broke down "JG 1999 came into the
front of the truck with him. While he could not start his truck, Bourgeois described interacting with
JG 1999: "At that time we were playing. Me, her - at this time I was broken down. Me, her, AB
1994, we were singing ABC's." (DE 33 8 at 50). After a man helped jumpstart his truck, JG 1999
went into the sleeper area of the truck. (DE 338 at 51). When they arrived to unload the truck,
JG 1999 was "sitting on a potty in the sleeper and getting her hair combed." (DE 338 at 49, 52).
Bourgeois made similar statements to FBI Agents soon after the incident. (DE 344; 46 R. 185-186).
His own words do not show any hint of critical injury before they stopped to unload at the naval
exchange.
Dr. Spitz and Dr. Leetsma' s opinions, far removed from trial proceedings and testimony, do
not credibly challenge the location of the murder. The Court finds that Bourgeois has not adduced

133

( ... continued)
injuries included extensive blood in the brain and edema of the brain. Ms. Carol McLaughlin, a
registered nurse with expertise in child abuse, was on duty when JG 1999 arrived and observed
several pattern injuries on the child. Dr. Ronald R. Kuffel, Jr., a board certified ophthalmologist.
who Dr. Akhtar requested examine JG 1999 because she had so much blood in her eyes, observed
"multiple hemorrhages ... all over the back of the eye." (DE 345 at 87). He testified that trauma
to the head could cause such injuries. (DE 345 at 89). He explained that he had previously observed
mild hemorrages which "go away within days to a week or so" but JG 1999' s were "quite extensive"
and "not mild at all." (DE 345 at 91). He described how he observed "massive subinterlimiting
hemorrhages, a very extensive amount of blood throughout both eyes." (DE 345 at 91). He
described that type of hemorrhage as "usually associated with life-threatening injuries." (DE 345
at 91 ). He credibly testified that the injury was consistent with AB 1994' s description of Bourgeois
beating his young daughter's head against the window of his truck. (DE 345 at 91).

164

PA200

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 5 of 40

credible evidence to challenge the jurisdictional element of his crime. Bourgeois does not show that
trial counsel could have initiated a valid jurisdictional defense. Trial counsel was aware before trial
that the forensic evidence could be interpreted in such a manner that "it could have occurred more
than two days before." (DE 350 at 80). Had trial counsel tried to argue insufficiency of the evidence
showing jurisdiction, he might have lessened his credibility with jurors. The Court denies this claim
and will not allow additional factual development on the issue.

IV.

Trial Counsel Provided Ineffective Assistance by Failing to Call an Expert Witness to
Rebut Forensic Evidence Indicting Sexual Assault (claim four)
Bourgeois claims that trial counsel provided ineffective assistance in defending against the

accusation that he sexually assaulted JG 1999. The possibility that Bourgeois sexually assaulted his
daughter was an inflammatory, but not essential, part of the Government's case. The evidence about
possible sexual assault came from two sources: (1) the examination of autopsy photographs by an
expert in the sexual abuse of children and (2) testing done on rectal swabs taken during the autopsy.
Bourgeois claims that trial counsel should have sought expert assistance to rebut both types of
evidence.

A.

The Trial Evidence

During the autopsy, Dr. Rouse administered a sexual assault examination on the victim. She
took swabs from JG 1999's mouth, vagina, and anus. Dr. Rouse made slides from those swabs and
turned them over to the FBI for testing. (DE 345 at 172, 176-77). Dr. Rouse however, did not
observe any external trauma to JG 1999's genital area. In fact, the autopsy report stated: "The
external genitalia are those of a normal female child, and there is no evidence of any trauma to the
labia or introitus. The hymen is present and appears atraumatic. The back is straight and the anus
is unremarkable and atraumatic." (DE 397, Exhibit 52, Autopsy Report of Dr. Elizabeth Rouse, PA,

165

PA201

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 6 of 40

p. 3). Nevertheless, the Government used the autopsy photographs and the results from testing the
swabs to argue that Bourgeois sexually assaulted his daughter.
The Government's opening argument promised to show that "there was seminal fluid in the
rectum of that baby." (DE 335 at 42). Testimony about Bourgeois' sexual assault on his young
daughter began after AB 1994 testified on the fourth day of trial. Previously, the parties had carefully
avoided asking about any sexual abuse Bourgeois inflicted on his daughters. The forensic evidence
allowed the Government to prove that the murder was only the culminating event in a barrage of
abuse that also contained a sexual component.
The Government first called Dr. Scott Anthony Benton, the Medical Director of the Childrenat-Risk Evaluation Center and a Clinical Associate Professor with Louisiana State University and
Tulane Schools of Medicine. Dr. Benton testified that he examined JG 1999 on May 21, 2002, after
Child Protective Services in Louisiana had received a complaint that JG 1999 had vaginal bleeding.
(DE 346 at 23-24). At that point, Bourgeois only had possession of the child for a few days. (DE
346 at 28). In his head-to-toe examination of her, Dr. Benton did not observe signs of abuse.
Specifically, he found nothing in the vaginal or rectal area that would indicate bleeding or sexual
trauma. (DE 346 at 31-32). 134
Dr. Benton, however, found a much different picture when he reviewed the autopsy
photographs. At trial, Dr. Benton briefly contrasted the appearance of the victim's genital area in
his initial examination with what he saw later:
[T]he autopsy photograph is specific that it is blood outside of a vessel. Okay? And
the reason I can say that is because all of the other parts of her vagina are white.
When you drain blood from a mucus membrane, it turns white. But that area doesn't.

134

He noticed inflamation around her urethra, but did not see any evidence of trauma.
(DE 346 at 45).
166

PA202

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 7 of 40

It stays - it's a black red. And that tells me that that's blood outside of a blood
vessel. So ... this could have been trauma[.] ... This one is blood outside and most
likely is trauma[.]

(DE 346 at 46). The bulk of Benton's testimony about sexual assault did not focus on external
observations, but on the possibility that the FBI had detected semen in her rectum.
Dr. Benton did not perform any testing on substances taken from JG 1999' s corpse. However,
the Government laid a foundation for later testimony by asking Dr. Benton about how forensic
testing can indicate sexual abuse. Dr. Benton testified that three tests could confirm the presence
of semen: ( 1) a test for acid phospatase, which is a substance predominantly produced in the male
prostrate and deposited in ejaculation or pre-ejaculation; (2) testing for the presence of the prostatic
specific antigen, also known called by the terms "P30" or "PSA"; and (3) the "more confirmatory"
observation of sperm cells. (DE 346 at 22-23). The Government asked what it would mean if
testing found indications of semen, but no sperm could be observed. (DE 346 at 49). Dr. Benton
explained that sexual abuse may still have occurred under some circumstances, such as if the man
has had a vasectomy, 135 ifhe only deposits only pre-ejaculate fluid, or he has been ill. (DE 346 at
50-52). Finally, the Government asked Dr. Benton specifically about what substances contain the
PSA protein, thus allowing for a positive result on the P30 test. Dr. Benton testified that the P30
could only be found in secretions from the prostate and in breast milk. (DE 346 at 53).
Cross-examination did not challenge Dr. Benton's observation of possible vaginal trauma.
Instead, trial counsel focused on the reliability of P30 testing. Dr. Benton explained that, although
"very low levels of false positives" are associated with the P30 test, "there is no such thing as 100

135

Before trial, trial counsel told the Court that Dr. Johnson "asked [him], as a matter
of fact, .... whether or not [their] client had a vasectomy, and [they] discovered he has not." (DE
388 at 33).
167

PA203

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 8 of 40

percent accuracy." (DE 346 at 55). He testified there are "multiple ways to test for the P30,just to
confirm that it really is there." (DE 346 at 55). He conceded, however, that the P30 test still had a
chance of being erroneous. (DE 346 at 55).
The Government next called Caroline Zervos, a forensic serology examiner with the DNA
Analysis Unit for the FBI laboratory in Quantico, Virginia.

Ms. Zervos testified about the

Government's testing of postmortem swabs, labeled Q5 through Q7, taken from JG1999's rectum.
Ms. Zervos described how the forensic laboratory generally uses two tests, the presumptive acid
phospatase and the confirmatory PSA, to determine the presence of semen. (DE 346 at 63-64).
Here, the laboratory only performed a confirmatory P30 test in order to avoid a false positive. (DE
346 at 87). The test was positive for samples Q5 and Q7. (DE 346 at 85). Throughout Ms. Zervos'
testimony, she equated a positive score on the P30 testings with a positive finding of semen.
Cross-examination probed whether anything other than prostate proteins could result in a
positive P30 test. Ms. Zervos testified that low levels of P30 could be in 'peripheral male blood, as
well as male urine" but at "very low concentrations." (DE 346 at 104). She did not believe that the
protein could be found in female fluids. (DE 346 at 105-06). Also, she did not know if anything
could be injected that would have the same reaction. (DE 346 at 106). In a discussion with the
Court, Mr. Tinker expressed that he "got more than he wanted" from Ms. Zervos because she "didn't
know whether things in food might cause" a false positive. (DE 346 at 107).
Anthony Onorato, a forensic DNA examiner with the FBI, testified that the only DNA present
on the rectal swabs, Q5-Q7, came from JG-1999. (DE 346 at 118). He explained, however, that it
was not uncommon to have a sample where semen, but not male DNA, is detected. (DE 346 at
127-28). On cross-examination, Mr. Onorato testified that the only place outside of male semen
where the P30 protein can be found is the blood of a male with prostate cancer. (DE 346 at 128-29).
168

PA204

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 9 of 40

Also, Mr. Tinker emphasized that the FBI testing was negative for sperm and for male DNA. (DE
346 at 130).
During guilt/innocence closing, the Government argued:
The DNA, our DNA, expert testified that the swabs that were taken from JG-1999' s
little bottom had semen on them. There was semen in that baby's bottom. But the
swabs were taken at the autopsy and the autopsy was done on June 29th. The baby
was thrown on the side of the truck on June 27th and died on the 28th, two days. Dr.
Benton testified, the DNA specialist testified that the sperm is very delicate, that it
degrades quickly. But when you get a confirmatory test for semen, you've got
semen. It's an ejaculate from a man, not from a woman, from a man from sexual
arousal. And that's what we know.
The other thing that Dr. Benton told us, as many of the other physicians, is that there
can be things happen and not show. You know, I thought it was real interesting
yesterday when Mr. Bourgeois was testifying because I said, what was that around
her eyes? I said, wt [sic] that Vaseline? No, we don't have Vaseline in the truck.
What is so bad about having Vaseline? I thought that was interesting. It's a lubricant.
Why would you have to deny that?
(DE 339 at 20).
The defense's closing argument responded by pointing out weaknesses in the evidence of
sexual assault: "They say sexually abused. And they don't talk about the fact that they found no
evidence of trauma to the rectum or the genitalia when they examined this child at the hospital."
(DE 339 at 24). In addition to calling the post-mortem observations into question, trial counsel
pointed out forensic weaknesses in the Government's testing. Trial counsel asserted that the testing
should have "no reliability as far your decision making in this case" since the Government's case
rested on "nothing but insinuations since that test for the semen, the advanced test, I don't know
what it's call[ed], was negative. There's no evidence of semen, I suggest to you, being found on this
child." (DE 339 at 41-42).
The Government did not adduce any additional evidence of sexual assault in the punishment

169

PA205

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 10 of 40

phase. In the punishment closing arguments, the Government chronicled the extensive physical
injuries Bourgeois inflicted on the victim. Pages and pages of transcript recount his unrelenting
torture. In that closing, the Government twice briefly mentioned that Bourgeois' semen had been
found in the victim. First, when discussing how Bourgeois had laughed in videotapes while
subjecting children to abuse and traumatic episodes, Ms. Booth asked: "Was he laughing when he
beat JG-1999 to death? Was he laughing when he bit her, or he burns her, or he put his filthy semen
in her little body?" (DE 342 at 70) (emphasis added). Second, the Government argued that
Bourgeois had not shown remorse:
Let's talk about lack ofremorse. The Defendant spoke to you. Was there remorse
in his voice? Did he ever admit to you that he lost it and accidentally killed the baby,
and that it was his background that did it to him? No, he didn't. Not ever. He
murdered this baby. His signature with his teeth marks and his semen is all in that
baby.
(DE 342 at 75-76) (emphasis added).
Bourgeois argues that trial counsel should have presented expert testimony to undercut Dr.
Benton's observation of sexual abuse and to blunt the forensic evidence. The Court observes,
however, that to succeed on this claim Bourgeois must prove both that the Dr. Benton was incorrect
in his physical observations and that the positive P30 did not necessarily equate to a positive result
for semen. Absent evidence that would likely eviscerate the effect of either prong, the other would
give the jury a sufficient basis to find that Bourgeois sexually assaulted his daughter.

B.

Dr. Benton's Observation of Sexual Trauma

Bourgeois argues that Dr. Benton had no reliable basis for his testimony about sexual trauma.
Bourgeois premises his argument on (1) Dr. Rouse's autopsy report that did not find evidence of
sexual trauma and (2) an affidavit from Dr. Spitz in which he criticizes Dr. Benton's testimony. Dr.
Spitz has opined that:
170

PA206

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 11 of 40

As a forensic pathologist, being aware of the type of exposure of the body available
to a pathologist performing an autopsy and directly viewing the body, I take
exception with Dr. Benton's observations and consider them questionable. Dr.
Rouse was in a much better position to determine if a bruise was present. She
examined the entire area, described it, and determined it was normal.
(DE 397, Exhibit 53, Declaration of Werner U. Spitz, M.D., PA document at ,-i 15).

136

Bourgeois

faults trial counsel for not questioning Dr. Rouse about her autopsy findings or otherwise verifying
that JG 1999 did not suffer sexual abuse.
Bourgeois did not call any witness in the evidentiary hearing to criticize Dr. Benton's
observations. Bourgeois did not question Dr. Rouse during her post-conviction testimony about her
sexual-assault examination. Bourgeois relies entirely on Dr. Spitz affidavit that does not necessarily
eviscerate Dr. Benton's interpretation of the evidence, it only opines that the person performing the
autopsy would be in a "better position to determine if a bruise was present."
Bourgeois has not presented any evidence showing that Dr. Rouse's initial observation of no
trauma was more valid than Dr. Benton's trial testimony. In particular, he has not shown that Dr.
Benton's specialized knowledge about childhood sexual abuse and prior treatment of JG 1999 did
not provide sufficient support for his expert opinion. Unlike Dr. Rouse, Dr. Benton could comment
on the condition of JG 1999' s genital area over time; he could compare her autopsy photographs with
those taken a month before her death. Bourgeois' ineffective-assistance claim relies on the unproven
speculation that Dr. Rouse would not defer to Dr. Benton's observations. Bourgeois has not shown
that trial counsel should have relied on an expert witness such as Dr. Spitz, who can only say that
it is better to defer to the autopsy doctor's observations. At best, Bourgeois has shown that experts
can disagree on how to interpret the evidence collected during the autopsy.

136

From the onset, Dr. Spitz's testimony on this issue is suspect. As previously noted,
Dr. Spitz is not a credible expert.
171

PA207

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 12 of 40

Even without calling additional witnesses, trial counsel exploited weaknesses in the evidence
of sexual trauma. For example, during the cross-examination of Carol Ann McLaughlin, the
registered nurse who examined JG 1999 the day after her death, trial counsel stressed that she saw
no evidence of sexual trauma to her genitalia. (DE 595 at 65). Trial counsel also brought out that
Ms. McLaughlin observed no trauma in her pelvic examination. (DE 595 at 69-70). During closing
arguments, the first thing Mr. Tinker stressed was that "they found no evidence of trauma to the
rectum or genitalia when they examined this child at the hospital." (DE 339 at 24). On postconviction review, Bourgeois has not adduced any evidence or testimony that would put a stronger
case against the evidence of sexual trauma than the essence of that brought out by trial counsel.
Bourgeois has not shown that trial counsel performed deficiently in addressing Dr. Benton's
testimony.

C.

Forensic Evidence of Semen

Before trial, Bourgeois' attorneys sought expert help in performing their own testing on the
rectal swabs. The Court appointed Dr. Elizabeth Johnson as a DNA expert pursuant to trial
counsel's ex parte request well before trial. (DE 122; DE 351 at 18-19). Trial counsel had
confidence in Dr. Johnson's abilities after seeing her presentations at a seminar. Trial counsel
communicated with her repeatedly. (DE 388 at 14, 33, 35). Dr. Johnson identified sufficient
biological material for further serological and DNA testing. Trial counsel made sure that the
Government sent the remaining samples to Dr. Johnson in January 2004. (DE 388 at 32-34). 137 To

137

Bourgeois has raised a related Brady claim which asserts that the Government did not
turn over a report relating to its testing. (DE 614). Specifically, Bourgeois notes the existence of
a document now labeled PX-179 entitled "P30 Test Results"that "indicates that on the three swabs,
Q5-Q7, that were subjected to p30 testing by the FBI, the results were 'very weak, very weak and
weak,' respectively." (DE 611 at 6). The basis for this Brady claim is that this report, while
(continued ... )
172

PA208

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 13 of 40

that point, Dr. Johnson had been "good about talking to [the defense] about issues." (DE388 at 35).
Dr. Johnson first ordered an acid phosphatase test, which detects an enzyme present in
several body fluids, but in a particularly high concentration in seminal fluid, that came back negative.
(DE 575 at 7-8). Next, she ordered her own P30 test which came back as a "weak positive." (DE
575 at 18). 138 The negative results from her microscopic sperm search, which was even more
sensitive than that done by the FBI, made her question the accuracy of the P30 results. In light of
the absence of sperm cells, Dr. Johnson interpreted the weak positive P30 test as a "false positive"
that could be "due to bacterial proteins found in the rectal swab. If there was actually sperm on the
swab, they should be observed." (DE 575 at 23). To that end, she formed the following opinion:

137

( ... continued)

contained in additional collections of trial material, was not in the documents trial counsel submitted
to Bourgeois' current attorneys. According to Bourgeois, PX-179 was also not in the material trial
counsel turned over to Dr. Johnson and trial counsel apparently did not rely on that information in
cross-examination. Bourgeois asserts that his attorneys only became aware of PX-1 79 during the
evidentiary hearing. A Brady claim requires the defendant to show that (1) the Government
intentionally or inadvertently suppressed (2) material favorable to the defense which (3) was
materially prejudicial. See Strickler v. Greene, 527 U.S. 263, 281-82 (1999); Brady v. Maryland,
373 U.S. 83, 89 (1963). Bourgeois has not shown by a preponderance of the evidence that the
Government, whether intentionally or by accident, withheld PX-179. The Government called a
witness to explain how in late 2003, the Goverment received 358 pages of material from the FBI lab,
including PX-179, and then soon thereafter sent the defense 358 pages of material. (DE 655 at 5457). Also, the records trial counsel turned over to Bourgeois' current attorneys did not contain other
documents the Government disclosed before trial. (DE 655 at 63-64). While PX-179 was not found
in trial counsel's files, the preponderance of the evidence certainly indicates that the Government
fulfilled its Brady obligation. At any rate, as the Court will discuss with respect to his Strickland
claim, a notation of weak results on the P30 test does not indicate an absence of seminal fluid, but
triggers a confirmatory search for sperm. The "weak" or "very weak' results from PX-179 signal
a small amount, not an absence, of seminal fluid. At any rate, Dr. Johnson's own testing, fully
available to the defense, came to the same conclusion.
138

Dr. Johnson explained that "P30 is a protein that is found in abundance in human
seminal fluid, and it is found in lesser concentrations in some other fluids. . .. Amniotic fluid has
been reported, breast milk, urine from men, some serum from men, and some female serum, and
some female urine." (DE 575 at 13).
173

PA209

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 14 of 40

"Taking all of the test results, some of which were negative, negative for sperm, negative for acid
phosphatase, negative for DNA, even on the Y chromosome testing, that it was not reasonable to
conclude that there was semen present on the swabs." (DE 575 at 19).
By the time Dr. Johnson finished her testing, trial loomed near. Trial counsel faced an
oncoming deadline for the disclosure of all expert reports. As the parties were tardy in disclosure,
on February 25, 2004, the Court ordered that all experts whose reports were not produced within two
days would be excluded from testifying. (DE 196). Trial counsel stepped up efforts to secure a
report from Dr. Johnson. 139
On March 1, 2004 - immediately before the guilt/innocence phase - Dr. Johnson provided
trial counsel with a two-page summary of her proposed the testimony. In a handwritten report that
she obviously prepared hastily, 140 Dr. Johnson summarized the results of her testing. She reported
that her AP test and microscopic sperm search came out negative, but her P30 test yielded a weak
positive. Dr.Johnson did not see the weak positive, however, as dispositive particularly because her
microscopic search showed no sperm. She told counsel that the P30 result could be a false positive
due to bacterial from the rectal swab or from other substances where prostatic specific antigen (PSA)
has been detected, such as amniotic fluid, breast milk, saliva, female urine and female serum.
Trial counsel did not call Dr. Johnson as a witness. In his post-conviction answer to
interrogatories, Mr. Tinker explained:

139

She later testified that she did not previously known that there was any urgency to the
preparation of her report. (DE 575 at 27).
140

Dr. Johnson explained in the evidentiary hearing that she provided him "a handwritten
document, because I was in Colorado on another case and didn't have my file, and he kind of caught
me off guard needing something. So I put together a handwritten document for him, to assist him in
cross-examination." (DE 575 at 21).
174

PA210

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 15 of 40

I had met Dr. Johnson at a seminar and was very impressed with her presentation.
I spoke with her afterward about helping us with Mr. Bourgeois' case. I had a great
deal of problems getting her to return my phone calls. I learned, during my dealings
with her that she did not have her own lab. She did not do the testing I requested in
a timely fashion and, therefore, we did not utilize her services.
(PX-82 at 14).
In his Motion to Vacate, Bourgeois faults counsel for not calling an expert such as Dr.
Johnson to challenge the forensic evidence of sexual assault. Bourgeois' attack to trial counsel's
efforts emphasizes three themes: (1) the P30 result was only a "weak positive," which he argues
raises the accompanying possibility that it was a "false positive"; (2) substances other than semen
could have provided the P30 antigen that gave the weak positive result; and (3) no observation of
sperm cells confirmed the presence of semen.

Bourgeois' challenge, however, cannot stand

independent of what his attorneys did at trial. In fact, Respondent persuasively argues that, although
trial counsel did not call Dr. Johnson as a witness, the flow of his questioning suggests that he used
her report to prepare for cross-examination.
Trial counsel did not leave forensic testimony about sexual assault unrebutted. For instance,
trial counsel's cross-examination of Dr. Benton centered on whether the P30 test was susceptible to
false-positive results. (DE 346 at 53-55). Trial counsel asked both Ms. Zervos and Mr. Onorato
whether substances other than semen could give a positive result on the P30 test. (DE 346 at 102-06,
128-29). Trial counsel even elicited from Ms. Zervos that she did not know if digested food could
contain the P30 antigen - a factor which Dr. Johnson's testimony would have refuted. (DE 346 at
106). Trial counsel's questioning and argument also highlighted that the Government's experts
observed no sperm cells. (DE 346 atl30). In fact, trial counsel's questioning showed that the
absence of sperm made the Government experts recommend DNA testing. (DE 346 at 130).
Without calling an expert witness, trial counsel's cross-examination touched on the issues
175

PA211

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 16 of 40

raised in Bourgeois' Motion to Vacate. "Strickland does not enact Newton's third law for the
presentation of evidence, requiring for every prosecution expert an equal and opposite expert from
the defense." Richter, _U.S. at_, 131 S. Ct. at 791. "In many instances cross-examination will
be sufficient to expose defects in an expert's presentation." Id. (noting also that "[w]hen defense
counsel does not have a solid case, the best strategy can be to say that there is too much doubt about
the State's theory for a jury to convict"). If based on an adequate investigation and understanding
of the issues, an attorney's decision to attack the Government's expert witnesses on crossexamination rather than calling additional experts can be reasonable performance. See Bower v.

Quarterman, 497 F.3d 459, 467 (5th Cir. 2007). Trial counsel's questioning manifested a familiarity
with the issues presented in Dr. Johnson's report and, in fact, introduced doubts that could not have
been raised by expert testimony, such as that digested food could contribute to the positive P30
results.
Validating trial counsel's cross-examination through expert testimony certainly could have
provided some benefit to the defense. Bourgeois has made much of Dr. Johnson's opinion that the
P30 testing resulted in a "weak positive," hoping that it would discount the possibility of sexual
assault. In the hearing, Dr. Johnson's explanation of her testing tracked the pre-trial report she gave
counsel, but she explicitly drew a distinction between her test results and that from the FBI testing
on the P30 assay: they reported a "positive" and she reported a "weak positive" because the test line
on the P30 test card "was barely visible ... It's actually very difficult to see on a photograph even."
(DE 575 at 72). 141 Bourgeois particularly hopes that her qualification of the P30 results as a "weak

141

Dr. Johnson explained that in 2004 she tested rectal swabs for the presence of seminal
fluid and spermatozoa. (DE 575 at 6). The swabs were tested using the acid phospatase test, which
came up negative. (DE 575 at 6, 8). A microscopic search for spermatozoa was negative. (DE 575
(continued ... )
176

PA212

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 17 of 40

positive" would have undermined the certainty of the Government testing about semen. The value
in Dr. Johnson's testimony, therefore, would have been in showing that the evidence should have
compelled the Government to perform the more-confirmatory sperm search.
Dr. Johnson's testing, however, did not completely discount the possibility that Bourgeois
sexually assaulted his daughter. On cross-examination, Dr. Johnson admitted that a finding of"weak
positive" indicated that the test had only detected a lesser amount of PSA, not that it did not find any
semen. (DE 575 at 74-75, 87-88). She elaborated: "the test is designed to detect p30. But whether
or not - you can make some double-checks and checks and balances based on the intensity of the
color reaction, which gives you an idea of concentration or the amount of material you're dealing
with." (DE 575 at 87). In other words, a weak positive indicates the amount, not the presence of,
PSA. Testimony in the evidentiary from Jerrilyn Conway, an FBI forensic examiner, confirmed that
"[t]he weak positive result means that there is a limited amount of PSA present, which means that
there is a limited amount of semen present." (DE 576 at 13).
In that regard, Dr. Johnson's proposed trial testimony would only have reconfirmed that a
substance with PSA was contained in the victim's rectum. Dr. Johnson's testimony would most
benefit the defense if she could identify a substance high enough in PSA content to react with the
P30 test. The testimony at trial and on post-conviction review was not completely in agreement
about what materials contain PSA. Ms. Zervos did not know if substances from female could

141

( ... continued)
at 9-10). She also performed a P30 test. She explained that the P30 protein had been found in
"[a]mniotic fluid ... , breast milk, urine from men, some serum from men, and some female serum,
and some female urine." (DE 575 at 13). She did not know if studies identifying the P30 protein
had included two-and-a-half year old children. (DE 575 at 17, 100, 105). She explained that:
"Taking all of the test results, some of which were negative, negative for sperm, negative for acid
phosphatase, negative for DNA, even on the Y chromosome testing, that it was not reasonable to
conclude that there was semen present on the swabs." (DE 575 at 19).

177

PA213

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 18 of 40

contain PSA/P30. The trial testimony allowed for it to exist in females from lactation. The postconviction record shows that the P30 antigen exists in different substances produced by both males
and females. Dr. Johnson explained that it had been found in "[a]mniotic fluid ... , breast milk,
urine from men, some serum from men, and some female serum, and some female urine. (DE 575
at 13). Because the blood on JG 1999's underwear tested negative for PSA/P30, and Dr. Johnson
agreed that her blood could not have been the source of the substance in her rectum (DE 575 at 10608), the substance was likely foreign to the victim's body. Not even Bourgeois' other expert, Charles
Alan Keel, however, could conclusively identify a substance naturally occurring in a two-year-old
infant that would contain the P30 protein. (DE 57 5 at 13 ). 142
Problematically for Bourgeois, Dr. Johnson did not discuss the level at which PSA occurs
in substances other than semen. Ms. Conway, however, explained that the P30 test was designed
not to react to substances with a lower concentration of PSA than semen. (DE 576 at 10, 20-21).
According to Ms. Conway, research had shown that substances such as female urine or female
serum, both of which Dr. Johnson identified as a source of PSA, would not trigger a positive reaction
on the P30 test. (DE 576 at 20-21 ). Studies have shown that PSA levels in pre-pubescent girls were
not high enough to account for a "false positive." (DE 576 at 26). The only substance containing
PSA at a level near that which could trigger a positive reaction was breast milk. (DE 576 at 22).
Especially where the circumstances of this case do not present a circumstance where breast milk
would be present in JG 1999's rectum, Ms. Conway credibly explained that "if the PSA test was

142

Mr. Keel did not know if a toddler can produce the P30 antigen. (DE 575 at 129).
He also opined that "there's really no such thing ... as a false positive .... It's whether or not the
result is coming from P30 or not." (DE 575 at 130). Mr. Keel viewed the P30 test as "a screening
tool, in the same way that we use acid phosphatase ... it's only a presumptive test." (DE 575 at
135).
178

PA214

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 19 of 40

positive, they can be assured that that came from semen." (DE 576 at 20). With that understanding,
Dr. Johnson's post-conviction testimony still allows for the P30 reaction coming from a substance
external to the victim, which still carries with it the possibility of sexual assault. 143
Taken in the context of the trial and post-conviction record, the testimony from Dr. Johnson
and Mr. Keel does not show that trial counsel provided ineffective deficient in relying on crossexamination to poke holes in the Government's forensic evidence. Here, the forensic evidence of
sexual assault was not of the strongest sort, but was not inconsequential either. Given the complex
scientific issues at play, and the fact that his experts could question but not conclusively eliminate
the possibility of sexual assault, Bourgeois has not shown that using experts to highlight that
information would have swayed the jury. In particular, the Court's observation of Mr. Keel and Dr.
Johnson showed that they would not be persuasive witnesses before the jury. They identified the
same errors in the testing that trial counsel had, yet bogged down their testimony with fine
distinctions which did not completely discount the possibility of sexual assault. A reasonable trial
attorney could certainly be concerned that a prolonged attack without a clear-cut resolution could
make a minor, but highly inflammatory, issue a much more prominent feature in the jury's

143

Bourgeois hopes that Dr. Johnson's testimony would have discounted Dr. Benton's
testimony treating sperm as easily degradable. Dr. Johnson criticized Dr. Benton's testimony that
the sperm could have degraded over time as "totally erroneous" because "[s]perm are very durable.
They can be found in decomposing bodies 30 days after" death. (DE 575 at 15, 101-02).Dr. Johnson
explained that, according to their own guidelines, the FBI testing should not have allowed a
conformation of sexual assault because FBI protocol only allowed identification of sperm when it
was "intact, with a tail attached[.]" (DE 575 at 103). Additional experts in the hearing bolstered Dr.
Johnson's testimony. Charles Alan Keel, a forensic scientist with Forensic Science Associates who
"specialize[s] in the identification and genetic characterization of human body" testified that "there's
no proof of semen being detected .. .in the evidence that was presented at trial." (DE 575 at 123,
127). His testimony, in essence, was that a positive P30 could not reliably predict the presence of
seminal fluid without the presence of sperm. Ms. Conway, however, disagreed and stated that sperm
cells will break down quickly, likely only susceptible to identification for a day. (DE 576 at 25).
She expected, though, the sperm cells to survive as long as the PSA would. (DE 576 at 47).
179

PA215

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 20 of 40

deliberation.
For the reasons outlined above, Bourgeois has not shown that trial counsel provided
ineffective assistance by not calling expert witnesses such as Dr. Johnson or Mr. Keel at trial.

D.

Prejudice From Trial Counsel's Defense Against Allegations of Sexual Assault

To succeed, Bourgeois must also show a reasonable probability of a different result had trial
counsel vigorously attacked the evidence of sexual assault. In doing so, Bourgeois would both have
to (1) discount the presence of semen through a false positive on the two rectal swabs and (2)
conclusively show through Dr. Johnson's testimony that Dr. Benton incorrectly identified vaginal
trauma. 144 Even if he could rebut that evidence, testimony hinted that Bourgeois committed
improprieties on his daughters when he spent nights locked in a bedroom alone with them. The
testimony of bruising and semen only confirmed that Bourgeois sexually assaulted JG 1999.
To some extent, an aggressive challenge to the sexual-assault evidence could have opened
the door to additional prejudicial information. Trial counsel had acted to prevent the Government
from adducing "[a]ny evidence that the defendant may have or did sexually abuse his daughter,
[AB1994]." (DE 160 at 3). The Court refused to allow the Government to adduce evidence in its
case-in-chief that witnesses "saw [him] french kiss AB 1994," have her sit on his lap inappropriately,
and treat her like a mature adult. (DE 347 at 92, 94-95). In fact, the Court commented without
rejoinder from trial counsel that "everybody in the room knows what was going on with Mr.
Bourgeois and AB 1994." (DE 347 at 94). An additional and aggressive challenge to the allegation
that he sexually assaulted JG 1999 may have allowed the Government to discuss what he had done

144

Because Brady's materiality standard is "identical to" the standard for prejudice under
Strickland, Johnson v. Scott, 68 F .3d 106, 109-10 (5th Cir. 1995), the discussion that follows above
also shows why Bourgeois cannot succeed on his related claim that the Government withheld
information about its DNA testing.
180

PA216

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 21 of 40

to his other daughter.
Regardless, the evidence of sexual abuse was an inflammatory, but not decisive, factor in
both phases of trial. Without much question, Bourgeois' sexual abuse of his daughter did not
substantially impact the factors the jury had to consider reaching a verdict as to his guilt. Bourgeois
expresses the most concern about the Government's reliance on sexual assault at the punishment
phase. The Court's review of the trial and the evidentiary hearing testimony indicates that he has
not shown a reasonable probability of a different result had trial counsel's efforts disputed the
sexual-assault evidence.
As discussed above, the post-conviction evidence questioned, but did not completely
eliminate, the possibility that Bourgeois sexually assaulted his daughter. Even so, that evidence was
not a pronounced feature of the trial. Even if trial counsel had conclusively rebutted the testimony
from both Dr. Benton and from the other forensic experts, the jury still had already heard vivid
testimony about how Bourgeois viciously abused his daughter in numerous other ways. While the
evidence of sexual abuse made Bourgeois seem more selfish, uncaring, and inhuman, the jury still
had before it a graphic understanding of the unrelenting abuse he heaped upon the young child. The
Government's brief mention of sexual assault in the punishment phase closing argument was only
another reminder that JG 1999 bore the signs of her father's abuse throughout the rest of her body.
While certainly similar information could unduly inflame a jury in other circumstances, Bourgeois'
abusive and violent tendencies prevent any reasonable likelihood that jurors would have reacted
differently in the punishment-phase had they not known that Bourgeois had raped his daughter.
In sum, Bourgeois has not shown that, had trial counsel challenged the evidence of sexual
abuse in the manner he proposed, there would have been a reasonable probability of a different
result. The Court will deny Bourgeois' ineffective-assistance claim based on those allegations.
181

PA217

Case 2:02-cr-00216 Document 660-4

V.

Filed in TXSD on 05/19/11 Page 22 of 40

Trial Counsel Provided Ineffective Assistance by Not Litigating a Daubert Challenge
to Three of the Government's Expert Witnesses (claims five and six)
As discussed at length above, the autopsy revealed that JG 1999' s body bore numerous and

varied wounds suggesting a long, tormented series of physical assaults. The Government sought
expert assistance to describe those injuries to the jury. Those expert witnesses used the autopsy
photographs to chronicle the dozens of bruises, lacerations, and other wounds throughout the young
victim's body. For example, forensic odontologists Dr. Senn and Dr. Chrz's testimony linked
Bourgeois to bite marks on JG 1999' s arm and lower back. As a demonstrative device, expert
witnesses relied on digitally enhancements made to the autopsy photographs by Dr. Oliver.
Bourgeois faults trial counsel for not challenging the scientific and technical reliability of ( 1)
Dr. Oliver's use of digitally enhanced autopsy photographs (claim five) and (2) Dr. Senn and Dr.
Chrz's opinion about bite mark evidence (claim six). Bourgeois asserts that, had counsel asked the
Court to subject the experts' opinions to the rigors of Daubert v. Merrell Dow Pharm., Inc., 509 U.S.
579 (1993), their testimony would not have come before the jury. The Court finds that Bourgeois
has not met his burden under Strickland with regard to these claims.

A.

Dr. Oliver's Reliance on the Digitally Enhanced Autopsy Photographs (claim
six)

The Government sought the assistance of Dr. William Oliver to ascertain the extent of
external injuries on the victim. Dr. Oliver, a medical doctor board certified in anatomical, clinical,
and forensic pathology who also possesses a master's degree in computer science, received copies
of the autopsy photographs which had been taken with a 35mm camera. Dr. Oliver digitally
enhanced the autopsy photographs using a method called Contrast-Limited Adaptive Histogram
Equalization ("CLAHE") which redistributed colors to accentuate certain features. For his trial
testimony, Dr. Oliver created a PowerPoint presentation with three representations of many autopsy
182

PA218

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 23 of 40

photographs: the original, a digital enhancement of the original image, and the enhanced photograph
with markings indicating the external injuries. Other experts relied on Dr. Oliver's enhancements.
During a pre-trial hearing trial counsel raised concerns about the use of the enhanced images,
but did not lodge a Daubert challenge. (DE 350 at 103; DE 345 at 14). Mr. Tinker informed the
Court that his particular concern was that the photographs were more prejudicial than probative, not
that Dr. Oliver's testimony lacked reliability. (DE 345 at 30). The Court told the parties that it would
like to hear about Dr. Oliver's methodology before his enhanced photographs came before the jury.
(DE 350 at 103-04).
Before Dr. Rouse began her testimony in the guilt/innocence phase that would use the
enhanced photographs, the Court again said it wanted to hear about "whatever [Dr. Oliver's]
expertise is on this enhanced picture taking." (DE 346 at 174). Dr. Oliver testified outside of the
jury's presence about the enhancement of the photographs. (DE 345 at 7-9). As Dr. Oliver began
discussing the digital enhancements, the Court asked if his imaging technique had been peer
reviewed, which he said it had. (DE 345 at 14 ). Dr. Oliver outlined the process he used to
accentuate the external injuries. He explained that his method of image processing changed the
relative value or prominence of features already visible in the image. (DE 345 at 17). Mr. Tinker
asked if "this is something that you do, or are there other people in the country that do this kind of
thing?" (DE 595 at 29). Dr. Oliver described a "long history of all this" and referred to "contrast
enhancement in the 1960s for bite mark analysis. So the general practice of doing image processing
to evaluate imagery is actually fairly old." (DE 595 at 29). The specific technique he used "has been
in use since the mid 1980s." (DE 595 at 30).
Nevertheless, Dr. Oliver stressed that his forensic conclusions came from the original
photographs, not the enhancements. He stated that his "conclusions are based on going back to the
183

PA219

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 24 of 40

original image" and that the CLAHE technique only served to "make features in an image more
obvious." (DE 345 at 13). When he later testified before the jury, he reiterated that "you don't want
to draw conclusions from" the enhanced images but you must "go back to the previous image." (DE
345 at 26). The trial court allowed the admission of the enhancements "as an aid to the jury." (DE
345 at 30). Other witnesses, most notably Dr. Senn and Dr. Chrz, used Dr. Oliver's enhanced
images to accentuate the injuries they identified. Only the unenhanced autopsy photographs went
with the jury into deliberations. (DE 345 at 33).
Bourgeois claims that Dr. Oliver's method of enhancing the autopsy photographs is not
reliable or scientifically endorsed. The Federal Rules of Evidence and the Supreme Court's Daubert
jurisprudence govern the admission of expert testimony. Both essentially require that expert
testimony be reliable and relevant. Bourgeois' attack on Dr. Oliver's testimony does not allege that
all digital enhancement of photographic evidence violates scientific principles. Instead, Bourgeois
claims that the specific CLAHE technique Dr. Oliver utilized has not been peer reviewed, distorts
the original image, and otherwise insert a degree of unreliability into the expert's analysis.
Bourgeois also contends that trial counsel should have sought expert assistance to dispute the
Government's reliance on the enhanced images. To that end, Bourgeois has adduced significant
technical evidence criticizing Dr. Oliver's methodology.
However, this Court's analysis cannot stray far from Strickland's inquiry into what trial
counsel should have done and how it would have made a difference at trial. The ultimate inquiry
is not an expert's strict compliance with scientific principles or paradigms, but Strickland
performance and prejudice. 145 With that in mind, the Court only needs to summarize the highly

145

In his answers to the interrogatories, Mr. Tinker stated: "I reviewed the government's
(continued ... )
184

PA220

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 25 of 40

detailed evidence in order to conclude that Bourgeois has not met Strickland's deficient performance
or actual prejudice prong on these claims.
Bourgeois primarily relies on three sources to challenge Dr. Oliver's CLAHE technique.
First, Bourgeois put forward C. Michael Bowers, a forensic odontologist and dentist, as an expert
in photo imaging and enhancement. Dr. Bowers prepared a report that coupled his review of the
CLAHE method with his own examination of the Daubert analysis. In the hearing, however, Dr.
Bowers revealed that his expertise with digital enhancement came from "weekend courses in [his]
town ... put on by ... the junior college." (DE 598 at 40). His scientific works on the subject
consisted of a book he self-published. Dr. Bowers is not expert in image enhancement. 146 As the
Court will discuss with respect to his testimony about the bite mark evidence, Dr. Bowers was also
not a credible witness.
Second, in the hearing Bourgeois called United States Army Colonel J. Curtis Dailey, DDS,
who the Government had initially consulted as a witness in this case, to testify about the use of the
enhancements for identifying bite marks. Dr. Dailey opined that he had never seen Dr. Oliver's
CLAHE procedure used before. (DE 597 at 425). Dr. Dailey, however, is not an expert in digital
enhancement. As the Court will discuss at greater length below, Dr. Dailey's self-interest clouds his
credibility in this case.
Finally, in a report bearing the names of Michael Cherry and Manfred Schenk, Bourgeois also

145

( ... continued)
evidence and reports; and personally met and interviewed the government's experts. I believe I had
an expert review the evidence, but at this time, I do not recall who that person was."
146

To the extent that he testified from his use of digital enhancements, he explained
"Digital enhancement standards at this point are actually quite lax, even with the study working
groups that they've established." (DE 598 at 81).
185

PA221

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 26 of 40

included a report from CherryBiometrics criticizing Dr. Oliver's enhancement of the photographs.
The report states that Dr. Oliver's use of CLAHE
disort[ed] almost everything in the newly created image. There is no way to know
whether his enhancements distorted the areas he claims he improved. Therefore his
enhanced images cannot be used as a fair and accurate building block to analyze bite
marks or 'injuries' that were not visibly present in the original autopsy photographs.
The report noted problems with Dr. Oliver's approach, including that he used a substandard scan of
the original photograph, changed the image into inaccurate shapes and colors, lost information in the
file structure of the images, and further distorted the images when converting them into a PowerPoint
program. (DE 397, Exhibit 43 at 3). Bourgeois also presented testimony from Manfred Schenk, one
of the co-authors of the report from Cherry Biometrics through a videotaped deposition. The
Government objected to his qualification as an expert in digital imaging. (DE 609, Deposition of
Manfred Schenk, at 18). Mr. Schenk complained that a loss of detail and accuracy could accompany
Dr. Oliver's techniques.
As a counterbalance to Bourgeois' evidence, the parties also deposed Dr. Oliver, who
defended his technique and explained his demonstrative use of the photographs.
The Court's summary only captures the briefest outline of the sizeable evidence Bourgeois
has amassed to denigrate Dr. Oliver's enhancement technique. The wide-ranging development of
this claim, however, threatens to side-rail the focus from what happened at trial. The knowledge that
Dr. Oliver's digital enhancement technique somewhat distorts the resultant image is not new. At
trial, Dr. Oliver explained how his process left "artifacts" or otherwise compromised portions of the
image in order to enhance others. (DE 345 at 203). Alterations in the enhanced images were
apparent to the Court and the jury through Dr. Oliver's three-part presentation in which the jury saw
the original image, the enhancement, and the enhancement with the injuries marked. Even without

186

PA222

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 27 of 40

the layers of expert testimony from post-conviction review, Dr. Oliver has never denied that his
CLAHE method alters the original image.
The question is how the enhancements affected the data upon which Dr. Oliver based his
expert opinion, that is, the identification of the injuries Bourgeois inflicted. Dr. Oliver's use of the
images has caused the parties to see the nature of his testimony differently. The Government
considers the heart of Dr. Oliver's opinion to rest on his observations and conclusions drawn from
the original photographs, with the digital enhancements serving as a demonstrative aid whose
formation does not fall under Daubert' s strictures. Bourgeois instead views the enhancements as
the foundational basis for Dr. Oliver's expert opinion, subjecting their creation to the rigors of
Daubert.

It is obvious from the trial transcript and post-conviction hearing record that Dr. Oliver's trial
opinions rested on observations he made from the original autopsy photographs. At trial, Dr. Oliver
emphatically told the jury that if
you notice a feature in one of these images, go back and look at the original. If you
don't see it in the original image, it doesn't matter who says it's there, ifl say it's
there or anybody else says it['s] there. If you don't see it in the original image, don't
believe them. It's that simple. This isn't rocket science.
(DE 345 at 204). In his deposition Dr. Oliver reiterated that he only counted injuries observable on
the original autopsy photographs. (DE 609 at 31). Simply, the original photographs, not the
challenged enhancements, formed the basis for his expert assessment. As Bourgeois has not
seriously challenged Dr. Oliver's expertise to identify external injuries from autopsy photographs,
he has not raised any concern that would have prevented Dr. Oliver from testifying.
Moreover, Dr. Oliver's digital enhancements were not the genesis for the claim that
Bourgeois physically assaulted JG 1999. The enhanced digital images were not by far the only

187

PA223

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 28 of 40

evidence that Bourgeois tormented his young daughter with extensive abuse. Dr. Oliver's testimony
only served to reconfirm observations made by medical personnel when JG 1999 arrived at the
hospital. Ms. McLaughlin, the registered nurse who could not perform a typical head-to-toe
examination because of her serious condition, observed numerous pattern injuries and bruising
throughout JG 1999' s body. The original autopsy photographs themselves undeniably confirmed the
graphic testimony recounting Bourgeois' abuse. Dr. Rouse's autopsy report included a section
listing "injuries indicative of chronic abuse" with included a litany of severe trauma throughout the
victim's body. In addition, Dr. Rouse observed deep tissue bruising when she cut into JG1999's
body. Dr. Benton described the numerous wounds he observed in the unaltered autopsy photographs.
An FBI agent describing visiting JG 1999 in the hospital and observe bruising, whip marks, burn
marks, and other extreme injuries. (DE344 at 176). Importantly, AB 1994 provided a detailed
account of Bourgeois' savage abuse that meshed seamlessly with the injuries highlighted in the
digital enhancements. Removing the digital enhancements from the evidentiary equation would not
have measurably changed the case before the jury.
Bourgeois' highly technical challenge to Dr. Oliver's digital enhancement obfuscates the
sources, nature, and pervasiveness of the evidence showing that Bourgeois viciously abused his
daughter. Given the fact that Dr. Oliver based his conclusions on the original autopsy photographs
and in light of the mountain of additional evidence showing harsh physical abuse, Bourgeois has not
shown Strickland deficient performance or prejudice respect to counsel's failure to raise a Daubert
challenge to Dr. Oliver's digital enhancements. Any alleged error by trial counsel by not litigating
a Daubert challenge did not call into question the fundamental fairness of either phase of trial.

188

PA224

Case 2:02-cr-00216 Document 660-4

B.

Filed in TXSD on 05/19/11 Page 29 of 40

Testimony from Dr. Senn and Dr. Chrz Concerning Bite-Mark Evidence (claim
five)

Bourgeois claims that trial counsel should have raised a Daubert challenge to the two experts
- Dr. Senn and Dr. Chrz- who linked Bourgeois to bite marks found on JG1999's right arm and
on her back just above the waist. As discussed below, strong evidence showed that Bourgeois was
the one who bit his young daughter. Bourgeois has not presented any credible evidence that would
undercut the trial testimony.
Dr. Rouse had testified that she observed multiple bite marks on the victim. (DE 345 at 156).
In particular, Dr. Rouse described two "arched contusions, contusions that are, you know, this type
of shape, that have discrete areas that are consistent with a bite mark ... on the right forearm, and
then one on her left flank ... [j]ust kind of the side between her belly and her back, lower." (DE 345
at 174). Dr. Rouse testified that she took pictures of the bite marks. (DE 345 at 175-76).
Before trial, the Government had sought the assistance of United States Army Colonel J.
Curtis Dailey, a consultant for the Armed Forced Institute of Pathology, to analyze the bite-mark
evidence, but did not call him as a witness. Using only a portion of the available photographic
evidence, Dr. Dailey compared dental casts taken from Bourgeois, Robin and AB 1994 to the bite
marks. Dr. Dailey could not "rule in, or rule out" Bourgeois, Robin, AB 1994 "as the possible
biter." 147 (DE 397, Exhibit 45). Dr. Dailey did not testify at trial. He did, however, try to bill the

147

Dr. Dailey explained that he could not include or exclude any of the three because
the bite marks had diffuse presentation in the photographs, the bite marks were in distorted positions,
the ruler in the photographs was in a different spatial plane than the marks, and the three individuals'
dentition had similar metric and spatial pattern relationships. (PX-140 at 1). Bourgeois provided
an affidavit from Dr. Dailey with his section 2255 motion. Dr. Dailey stated that, when he told the
Government the results of his analysis, Assistant United States Attorney Booth was "irate" and told
him that Bourgeois "was a really bad man." When he told her that information was irrelevant to his
analysis, "she then told [him] that if [he] could not help her she would go out and find an expert who
(continued ... )
189

PA225

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 30 of 40

Government for his work on this case. He also apparently tried to secure an appointment as an
expert witness once his commission ended.
The Government sought the opinion of additional forensic odontologists, Dr. Senn and Dr.
Chrz. Dr. Senn's role was twofold: (1) determine whether the injuries were indeed bite marks and,
if so, (2) determine which of the individuals with access to JG 1999 he could exclude as a possible
biter. (DE 345 at 254-56). Dr. Senn testified that the injuries on her arm and back were consistent
with bite marks. (DE 345 a 250, 252). Comparing models taken from the three potential biters, Dr.
Senn could not exclude or include any of them from biting JG1999 on the arm. (DE 345 at 274).
He could, however, exclude Robin and AB 1994 from biting her on the back. (DE 345 at 279).
The American Board of Forensic Odontology Guidelines for Bite Mark Analysis require a
second opinion. (DE 345 at 283-84; DE 388 at 28). Dr. Senn sent the photographs and dental
models to Dr. Chrz, who is also a dentist and an expert in forensic odontology. Dr. Chrz conducted
a similar bite mark analysis but utilized a technique called grey scale shading that allowed
identification with greater detail. (DE 345 at 297-312). Dr. Chrz also identified the injury on
JG 1999' s arm as a probable bite mark and excluded Robin and AB 1994 as the one who left the bite
on JG 1999' s back. (DE 345 at 311 ). Because this was a "closed situation" where only the three
people in the truck could have bitten JG 1999, Dr. Chrz explained that only left Bourgeois "as a
suspect capable of causing the pattern injury that is seen on her back." (DE 345 at 311 ).
Well before trial counsel Mr. Tinker met with Dr. Senn and questioned him about his
findings. (DE 388 at 28). Mr. Tinker was not unfamiliar with forensic odontology. During a
hearing Ms. Booth told the Court that Mr. Tinker's pre-trial questioning of Dr. Senn was "brilliant"

147

( ... continued)
could help her." (DE 397, Exhibit 45; DE 597 at 426-27).

190

PA226

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 31 of 40

and that he had been "the very first Prosecutor in the State of Texas to get a conviction with bite
mark evidence[.]" (DE 388 at 36). Trial counsel considered whether to challenge Dr. Senn's and
the other experts' qualifications through Daubert, but informed the Court that they had instead
chosen to just attack the substance of their opinions. (DE 388 at 38-42). Trial counsel filed a motion
in limine asking that Dr. Senn only be allowed to testify "to a medical certainty," not that they
"might be or could be or probably are teeth marks." (DE 160 at 3).
Bourgeois launches two attacks on the bite-mark evidence. First, Bourgeois claims trial
counsel should have objected to Dr. Senn and Dr. Chrz's testimony because the science of forensic
odontology is not sufficiently reliable under Daubert. Second, assuming that a court can consider
bite-mark evidence, Bourgeois asserts that the science would not have pointed to him as the one who
bit the infant girl. The Court will only discuss Bourgeois' claim briefly because, in the context of
the testimony he adduced in the hearing and the trial record, he has not made a colorable showing
of possible merit.
Bourgeois supported his Motion to Vacate with a report in which Dr. Bowers assumed
expertise in digital imagery, made legal conclusions aboutDaubert's application, and denigrated the
relevance of his profession in court. He wrote:
[B]oth experts otherwise adhere to the general rules and methods of their forensic
board, the ABFO. The acceptability of methods does not impact, however, on
analytical judgment and interpretation of the evidence. In my opinion, the limits of
the bitemark evidence in Bourgeois have been ignored by both of my colleagues. The
methods they used are inappropriate and not relevant to the injuries on the child's
body.
(DE 397, Exhibit 52 at 3). Dr. Bowers was not a credible witness. Aside from his claim to be an
expert in an area for which he had no expertise, he also assumed too much when he presumed as a
forensic odontologist that he could inform the Court whether the Government's testimony should

191

PA227

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 32 of 40

have been excluded under Daubert. His decision to educate the Court on legal conclusions reflects
his testimony in the evidentiary hearing. His testimony was condescending and argumentative. His
testimony was slippery; he evaded giving answers that would not benefit Bourgeois. 148 Most
troubling, the essence of Dr. Bowers' testimony was that forensic odontology's only role in criminal
cases was to identify something as a bite mark, without attempting to identify who may have or may
not have been the biter. (DE 598 at 109). On cross-examination, Dr. Bowers admitted that he did
not know of any other forensic odontologist in the nation who was testifying in court that bite mark
evidence is not reliable. (DE 598 at 85-86). To his knowledge, bite mark evidence has never been
excluded in a case. (DE 598 at 86). 149 Dr. Bowers' testimony - both in general and relating to the
specific factors a competent odontologist would consider in this case - was not credible or even
useful to the Court. His testimony would not have resulted in the exclusion of Dr. Senn or Dr. Chrz
under Daubert.
Bourgeois has not raised a credible attack on Dr. Senn or Dr. Chrz' s conclusions. Aside from
Dr. Bowers, Bourgeois relies on Dr. Dailey' s testimony not to exclude Robin or AB 1994 as possible
biters. From the trial record and the evidentiary hearing, it was apparent that Dr. Dailey had not

148

For instance, Dr. Bowers agreed that bite mark evidence is generally reliable for the
purposes of excluding individuals as the biter, (DE 598 at 87), but refused to do so in this case. He
carefully selected problems Dr. Senn had noted with forensic odontology without giving voice to
guiding themes such as: "Bite mark analysis is too important and valuable to the investigation and
adjudication of certain crimes to be discounted or overlooked" and "The use of bite mark analysis
to exclude suspects is powerful and important." (DE 598 at 94-95). Aside from his conclusion
about the evidence in this case, cross-examination showed that Dr. Bowers' testimony in another
case shifted after one party agreed to pay him. (DE 598 at 109-13). In that case, Dr. Bowers
apparently initially refused to exclude as a biter a man who had no teeth. (DE 598 at 110). He
admitted that he gave "incorrect" testimony under oath in that case. (DE 598 at 112-13 ).
149

At the same time he criticized the foundational aspects of Dr. Senn's testimony, Dr.
Bowers asserted that he had no reason to question Dr. Senn's integrity and his reasons for coming
to his conclusions in this case. (DE 598 at 118).
192

PA228

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 33 of 40

considered the whole of the evidence in this case. He based his conclusions on a limited amount of
information. Worse, his request for reimbursement for his services while a government employee
taints his testimony with self-interest. Even in his live testimony, Dr. Oliver did not appear credible.
Neither of Bourgeois' post-conviction witnesses would have been persuasive in any way to the jury.
Even if trial counsel should have made the challenge to the bite-mark evidence that
Bourgeois proposes, he has not shown a reasonable probability of a different result. Again,
prolonged discussion of highly technical scientific factors cannot brush aside the heart-wrenching
testimony the jury heard. Bourgeois brashly, and incorrectly, argues that "[t]he bite marks found on
the victim cannot be traced to [him] with certainty any greater than guess work." (DE 459 at 2).
AB 1994' s trial testimony is conspicuously absent from Bourgeois' discussion of prejudice on these
claims. AB 1994 provided vivid testimony showing that Bourgeois often bit JG 1999.
AB 1994 described how she saw her father bite JG 1999' s feet"[ m ]any times" until she would
cry. (DE 245 at 14). Bourgeois never bit any of his other daughters, but he bit JG 1999's hands until
they got "ugly." (DE 245 at 15). AB 1994 recalled that her father even bit JG 1999 on the head: "He
just opened his mouth wide, and he just started biting her right there." (DE 245 at 23). AB 1994
testified that JG 1999 wore socks "[b ]ecause she was bitten all up, and her feet looked bad." (DE 346
at 3). She elaborated:
The Government:

Okay. Did you ever see your dad hit her while she was sitting
on the potty? Or do you remember?

AB1994:

I don't remember.

The Government:

Okay. Did you ever see her bleeding after your dad hit her?

AB1994:

When he bit her.

The Government:

Okay. And when he bit her, what do you mean? Where did
he bite her?
193

PA229

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 34 of 40

AB1994:

Right on the forehead.

The Government:

How about her hands? Did you see her bleed when he bit her
on the hands?

AB1994:

A little.

The Government:

How about her feet? Did you see her bleed when he bit her
on the feet?

AB1994:

Yes.

(DE 346 at 5). Even if trial counsel could have prevented Drs. Senn and Chrz from testifying,
AB 1994 had already provided emotionally wrenching testimony that Bourgeois repeatedly bit
JG1999's feet and hands making her cry out in pain. The fact that AB1994 did not mention that
Bourgeois bit JG 1999 on the arm and back would aid the defense little in light of the unimpeached
testimony of his ruthless biting elsewhere on the infant. The Court finds that Bourgeois has wholly
failed to prove deficient performance or prejudice with respect to this claim.
VI.

The Government Violated its Duty under Brady v. Maryland, 373 U.S. 83 (1963), by
Failing to Disclose That the Government Promised Inmates Some Benefit for Testifying
Against Bourgeois (claim seven)

Bourgeois' seventh claim alleges that the Government breeched its duty under Brady v.
Maryland, 373 U.S. 83 (1963), to provide exculpatory evidence to the defense. "[T]he special role

played by the American prosecutor in the search for truth in criminal trials" encourages the full
disclosure to the defense of all exculpatory or impeachment evidence. Strickler v. Greene, 527 U.S.
263, 281 (1999). "Courts, litigants, and juries properly anticipate that 'obligations [to refrain from
improper methods to secure a conviction] ... plainly rest[ing] upon the prosecuting attorney, will
be faithfully observed."' Banks v. Dretke, 540 U.S. 668, 697 (quoting Berger v. United States, 295
U.S. 78, 88 (1935)). Bourgeois asserts that the Government breeched its duty to reveal deals it

194

PA230

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 35 of 40

allegedly made with inmate witnesses.
The Government relied on inmates to relate incriminating statements Bourgeois made while
incarcerated before trial. In his Motion to Vacate, Bourgeois argued that the Government secured
the testimony of four inmates - Adam Longoria, Orlando Campos, Wiley Taylor, and Darick
Moore 150 - by making them promises that they did not divulge to the defense. At the time of trial,
Longoria faced state drug charges and Campos was serving a 12-year state sentence. Taylor and
Moore had not yet been sentenced on federal drug charges. 151 The inmates' collective testimony
showed that Bourgeois said he killed his daughter and was going to make it look like an accident,
admitted to beating his wife and the victim, had alleged drug trafficking connections, and had
ordered hits from prison. The Government verified Bourgeois' ordering of hits from his prison cell
through notes he passed to Longoria. (DE 348 at 159).
The parties questioned each of the inmates about what benefit they expected to receive for
their assistance. Longoria and Campos testified that the Federal Government could not help with
their state court cases. (DE 344 at 216; DE 348 at 167, 184-86). Longoria, in fact, explicitly stated
that he did not expect the United States Government to "come in and testify on [his] behalf that [he]
cooperated[.]" (DE 348 at 186). Campos agreed that the Government "told [him] clearly" that they
"can't reduce [his] time," but he still "hop[ed] that [the Government] will relay to authorities that
[he] came in and testified in a murder case[.]" (DE 344 at 216, 223-26). Moore and Taylor

150

The pleadings, transcripts, and record provide various spellings for Moore's first

name.
151

At the time of trial, Moore had pleaded guilty to a federal charge of possessing with
intent to distribute cocaine base but he had not yet been sentenced. (DE 344 at 200). Taylor had
pleaded guilty to a charge of conspiracy with intent to distribute more than 50 grams of
methamphetamine, but had not yet been sentenced. (DE 344 at 228)
195

PA231

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 36 of 40

explained that they hoped the Government would ask for a downward departure of their sentences
because they cooperated against Bourgeois. (DE344 at 202-03, 209, 231 ). Bourgeois now argues
that he can prove that the Government promised to help each of the men in exchange for their
testimony.
Three essential elements compose a valid Brady claim: '"The evidence must be favorable to
the accused, either because it is exculpatory, or because it is impeaching; that evidence must have
been suppressed by the State, either willfully or inadvertently; and prejudice must have ensued."'
Banks, 540 U.S. at 691 (quoting Strickler, 527 U.S. at 281-282). Here, Bourgeois claims that the

alleged Government deals would have impeached the inmates' testimony. Without question,
impeachment evidence "falls within the Brady rule[.]" United States v. Bagley, 473 U.S. 667, 676
(1985); see also Giglio v. United States, 405 U.S. 150, 155 (1972) ("[E]vidence of any understanding
or agreement as to a future prosecution would be relevant to [a witness'] credibility and the jury [is]
entitled to know of it. "). 152
A.

No Evidence of Concealed Deals with Government Witnesses

Bourgeois did not call any of the inmates in the federal evidentiary hearing. 153 Without direct

152

For the first time in his Memorandum of Law in Support of Motion for Relief
Pursuant to 28 U.S.C. Section 2255, Bourgeois argues that the Government's failure to disclose deals
with its witnesses violated its affirmative burden to correct testimony which it knows to be false
under Napue v. Illinois, 360 U.S. 264 (1959), and Giglio v. United States, 405 U.S. 150 (1972). The
Supreme Court has not yet decided whether a Brady claim is distinct from a false-evidence claim.
See Banks v. Dretke, 540 U.S. 668, 690 n.11 (2004). Courts generally assume that a Napue/Giglio
claim has three components: "( 1) the testimony in question was actually false; (2) the testimony was
material; and (3) the prosecution had knowledge that the testimony was false." United States v.
Webster, 392 F.3d 787, 801 (5th Cir. 2004). For the same reasons discussed above, Bourgeois has
not shown that the witnesses gave false testimony or that their testimony was constitutionally
material.
153

Bourgeois, knowing that he was in custody in Kansas, sought a subpoena for Longoria
(continued ... )
196

PA232

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 37 of 40

testimony from the inmates, Bourgeois' Brady claim rests on an uncertain foundation. Bourgeois
largely supports his Brady claim on hearsay statements from others and inferences. "[S]peculation
about the suppression of exculpatory evidence is an insufficient basis to support a Brady claim."
Medellin v. Dretke, 371F.3d270, 281 (5th Cir. 2004); see also Woodv. Bartholomew, 516 U.S. 1,

6 (1995) (denying a Brady claim based on "mere speculation"); Hughes v. Johnson, 191 F .3d 607,
630 (5th Cir. 1999) ("[S]peculation does not support a Brady claim.").
Bourgeois did not adduce any evidence in the hearings suggesting that the Government
concealed any agreement with Moore, Taylor, and Campos. The evidence does not hint that the
Government made undisclosed deals with those inmates. Bourgeois claims that the two federal
inmates - Taylor and Moore - more than hoped for a downward departure; the Government had
promised to ask for a reduced sentence. Bourgeois has apparently abandoned his allegations
regarding Taylor. 154 Bourgeois did not call Moore in the evidentiary hearing, but rests on a
declaration in which Moore claimed that: "[Ms. Booth] told me ifl testified against Bourgeois she
would contact my prosecutor, Lance Duke, and make sure that my sentence was reduced." (DE 402,
Affidavit/Declaration of Darrick Moore dated September 18, 2007, Exhibit 67). The facts reveal that

153

( ... continued)
to appear. Bourgeois did not request that the Court issue a writ requiring the officials in Kansas to
release Longoria to federal custody for his testimony. (DE 598 at 23, 30-33). The United States
Marshals tried to serve subpoenas on Campos and Moore, but Bourgeois had not provided them with
an accurate address. (DE 598 at 77). Bourgeois forfeited his opportunity to have those individuals
testify.
154

In his Motion to Vacate, Bourgeois claimed that the Government entered into an
undisclosed deal with Wiley Taylor. (DE 396 at 107-09). His Memorandum of Law in Support of
his Motion for Relief does not mention Taylor. Bourgeois has not adduced any evidence showing
that the Government engaged in a deal with Taylor. Bourgeois seems to have abandoned his claim
with respect to Taylor.
197

PA233

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 38 of 40

he received a lighter sentence partially because of his assistance in this and another case. 155 Yet
Bourgeois has not shown that a plea agreement or other formal understanding existed between
Moore and the Government. The defense and the jury knew that Moore expected to receive
something for his testimony. Bourgeois has not shown that the Government substantially withheld
any additional promise that induced his testimony.
With respect to Campos who was serving a 12-year sentence for a drug charge in state court,
Bourgeois claims that either Ms. Booth or an FBI agent promised Campos they would help him get
a reduced sentence if he testified. According to Bourgeois, Campos was paroled after only serving
three years of that sentence. Yet he has not provided a declaration, affidavit, or other competent
statement from Campos detailing any promise from the Government that resulted in his testimony
or his early release from State custody. 156 Bourgeois instead relies on an affidavit from an
investigator who purports to relate what Campos told her. (DE 397, Declaration of Kathleen Kaib
dated May 14, 2007, Attachment 30). Bourgeois has not shown how her hearsay account could be
admissible. He has not otherwise verified what the investigator alleges Campos said. Bourgeois
bases his claim relating to Moore entirely on speculation.

155

Moore was sentenced on April 25, 2004. Assistant United States Attorney Lance
Duke recommended that Moore receive 75 months where the original guidelines range was 151 to
188 months because of Bourgeois' assistance in this and another case. Also, the Government noted
that Moore had experienced "a great deal of coercion and harassment by his fellow inmates for
testifying on behalf of the Government." (United States v. Moore, C-03-CR-75 [S.D. Tex.], DE 41
at 6). Recognizing Moore's assistance in the instant case, this Court sentenced Moore to 65 months.
AUSA Duke later filed a Motion to Reduce Sentence Pursuant to Rule 35(b) based on Moore's
substantial assistance in another case.
156

Ms. Booth did, however, communicate to Campos that: "The best thing I could do
for you would be to tell the authorities that you cooperated here." (DE 646 at 198). Nevertheless,
at trial she thought that nothing could be done to reduce Campos' sentence. (DE 340 at 56-57). In
the end, she assured: "I promised him nothing." (DE 340 at 57).
198

PA234

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 39 of 40

Bourgeois has provided the most evidentiary support for his claims relating to Longoria.
Longoria has provided a declaration in which he claims that AUSA Patti Booth said "she could not
provide me anything now but after I testified she would be happy to help me in the future with my
case or parole." Longoria claims that the state prosecutor in his case, James Sales, and his trial
attorney, William May, each knew about the deal he made with the Government. Bourgeois claims
that a letter Ms. Booth later wrote to the Texas Board of Pardons and Paroles confirms that she
entered into a deal with him.
Bourgeois, however, has not verified Longoria' s story. Bourgeois subpoenaed Longoria as
a witness in the evidentiary hearing. Longoria did not appear, which is unsurprising as he currently
faces state capital murder charges in Kansas. Bourgeois called other witnesses in an attempt to
confirm Longoria' s story, but their testimony did not show that the Government concealed a deal
with him. For example, Bourgeois called Longoria's former girlfriend as a witness to provide
hearsay recitations about what he allegedly said contemporaneous with trial. 157 She testified that
Longoria told her several times that "he was planning on trying to make a deal [with prosecutors]
so he can get out early to be with [her] and [their] baby." (DE 598 at 26-27). However, she had no
personal knowledge if Longoria actually made a deal. She did not have any direct knowledge about
any agreement; she only knew what Longoria told her. (DE 598 at 28). Her recitation of hearsay
statements carries little weight, especially after she testified that Longoria was a liar. (DE 598 at 28,
30). She did not know if Longoria was being truthful when he claimed that he was going to cut a
deal with prosecutors. (DE 598 at 30).

157

Bourgeois also wanted another inmate to provide hearsay testimony about what he
heard Moore say. (DE 598 at 255-56). The Court disallowed the presentation of hearsay testimony.
199

PA235

Case 2:02-cr-00216 Document 660-4

Filed in TXSD on 05/19/11 Page 40 of 40

Longoria's former attorney Mr. May appeared in the evidentiary hearing by video. 158 Mr.
May's testimony credibly established that the Government never promised to do anything on
Longoria's behalf. (DE 655 at 14). Mr. James Sales, the prosecutor who handled Longoria's state
case, testified that he did not remember having any communication with the Government prior to
Longoria's sentencing. (DE 655 at 29). He explained that the State's plea agreement with Longoria
had nothing to do with Bourgeois' case. (DE 655 at 32). Ms. Booth never told Mr. Sales that she
made a deal with Longoria. (DE 655 at 39).
Importantly, Ms. Booth explained on the record that she did not offer Longoria any benefit
for his testimony. (DE 655 at 79). At one point before his testimony Longoria hinted that he wanted
help with his state case, but Ms. Booth clearly told him that she would promise him nothing. (DE
655 at 85-86, 100). She did not tell Mr. May that she would do anything to help his client. (DE 655
at 99). Years later, another attorney requested that she write a letter on Longoria's behalf to the

158

Mr. May testified that AUSA Booth contacted him and asked for permission to speak
with Longoria. (DE 655 at 7). Longoria told Mr. May that he was "going to be a witness and that
he hoped that Ms. Booth would eventually give him some benefit from that." Mr. May responded
that, in his experience, "generally you would get some benefit from that, but what it would be, I had
no way of knowing and we'd just have to wait and see, since she was not a state court prosecutor."
(DE 655 at 9). Mr. May then filed a continuance in Longoria's criminal case, hoping that, with all
of the evidence against Longoria, holding off trial until after the Bourgeois trial would allow him to
seek some benefit from the state court. (DE 655 at 10). Mr. May explained what then happened:
When I went into court, I approached the state court prosecutor, James Sales. I asked
him ifhe had had a chance to talk to Patti Booth about the case. He said that he had.
I asked him what he was going to recommend. He told me seven years on each case,
concurrent with one another, and that he would be willing to drop it down to five
years if Mr. Longoria testified against a different Defendant in a potential state court
case. I can't recall who that target was. And I conveyed that to Mr. Longoria, and he
accepted the offer.
(DE 655 at 11). On cross-examination Mr. May explained that Longoria only hoped to receive some
benefit; the Government had not promised a quid pro quo deal. (DE 655 at 13-14).
200

PA236

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 1 of 25

Parole Board, which she did. (DE 655 at 83). She had never promised to do that and her actions
after trial did not retrospectively trigger Brady.
In all, Bourgeois has not brought forth any credible evidence that would show that the
Government promised to help Longoria in return for his testimony. Mr. May, Mr. Sales, and Ms.
Booth's testimony credibly proved that the Government did not make a deal with Longoria. There
is absolutely no factual basis for the Brady claim based on the four inmates' testimony.
B.

Materiality

Notwithstanding Bourgeois' failure to meet the first two prongs of the Brady analysis, the
Court likewise finds that he has not shown that any alleged suppression of information was material.
The Brady materiality standard requires a defendant to show a "reasonable probability of a different
result." Kyles, 514 U.S. at 434; see also Bagley, 4 73 U.S. at 682 ("The evidence is material only of
there is a reasonable probability that, had the evidence been disclosed to the defense, the result of
the proceedings would have been different."). A court must ask whether "the favorable evidence
could reasonably be taken to put the whole case in such a different light as to undermine confidence
in the verdict." Kyles v. Whitley, 514 U.S. 419, 435 (1995). 159 The Court considers all alleged Brady
violations collectively. See id. at 421-22; United States v. Hughes, 230 F.3d 815, 819 (5th Cir.
2000).
"[M]ateriality is a fact-intensive examination done on a careful, case-by-case basis." Banks
v. Thaler, 583 F.3d 295, 322 (5th Cir. 2009). In the guilt/innocence phase, the Government called
the inmates to provide testimony on main two points: ( 1) Bourgeois had caused his daughter's death

159

This standard corresponds to Strickland's requirement that "[t]he defendant must
show that there is a reasonable probability that, but for counsel's unprofessional errors, the result of
the proceedings would have been different." Strickland, 466 U.S. at 694.
201

PA237

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 2 of 25

and (2) he told Robin Bourgeois to lie about the source of the toddler's injuries. 160 The inmate
witnesses were far from the centerpiece of the Government's case. See United States v. Sipe, 388
F.3d 471, 478 (5th Cir. 2004) ("The materiality of Brady material depends almost entirely on the
value of the evidence relative to the other evidence mustered by the state."). Other testimony
strongly confirmed that Bourgeois, despite his attempts to pin the murder on Robin, killed JG 1999.
In addition to forensic evidence and circumstantial factors substantiating the case against Bourgeois,
AB 1994 convincingly told the jury that her father beat JG 1999 against the truck window. Both
Robin Bourgeois and AB 1994 testified persuasively that Bourgeois had ordered them to fabricate
an explanation for the toddler's death. The additional evidence more that corroborated the inmates'
testimony, it eclipsed their brief statements and provided a strong independent basis for Bourgeois'
conviction. Bourgeois has not shown that the alleged Brady errors were material to his conviction.
In addition to emphasizing guilt/innocence testimony about Bourgeois' callous boasting
about the murder, see Cone v. Bell, -

U.S. -

, 129 S. Ct. 1769, 1784 (2009) ("Evidence that is

material to guilt will often be material for sentencing purposes as well[.]"), the Government called
the inmates in the penalty phase to emphasize Bourgeois' lawlessness and propensity toward
violence. Some of the other testimony in the penalty phase covered the same ground as that provided
by the inmates. For instance, the inmates' testimony established that Bourgeois had physically

160

Moore explained that, while Bourgeois initially claimed that JG 1999's death was an
accident, he later claimed that she was a "bad child" who would shake her butt all the time." (DE
344 at 205-06). Bourgeois told Moore he whipped JG 1999 with an extension cord and otherwise
abused her. (DE 344 at 206). Bourgeois told Taylor that he killed the victim, Robin did not keep
to their agreed-upon story, and he previously beat his wife. (DE 344 at 230). He called JG 1999
"that fucking baby." (DE 344 at 231). Campos testified that, after telling one story, Bourgeois said
that he "hit his little girl and that him and his wife ... had a plan to go by and make it look like she
had fell out of his 18-wheeler." (DE 344 at 219). Campos also testified that Bourgeois admitted to
beating his wife. (DE 344 at 220).
202

PA238

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 3 of 25

abused his wife. Other witnesses, including Bourgeois' former wives, more vividly and dramatically
expounded on Bourgeois' habitual violence against women. Robin's own mother provided detailed
testimony about how Bourgeois abused her daughter. Also, other witnesses, including Robin,
confirmed that he had issued violent threats from his prison cell. Also, Bourgeois' calloused
statements about his young victim only echoed the indifferent attitude he repeatedly showed to her
passing. The inmates' testimony largely repeated themes more vividly developed elsewhere in the
Government's case. The inmates' testimony only showed that Bourgeois made efforts to actualize
the threats he had already made. "[W]hen the undisclosed evidence is merely cumulative of other
evidence [in the record], no Brady violation occurs." Spence v. Johnson, 80 F.3d 989, 995 (5th Cir.
1996).
To the extent that the inmates' testimony provided the only information about some issues,
Bourgeois has not shown that any alleged Brady error impinged on the fairness of his trial. For
instance, no other witnesses testified that Bourgeois had drug connections. In the entire context of
the penalty phase, however, Bourgeois' drug running was only one piece of a detailed picture of his
criminality. The jury had to consider more relevant acts of violence, such as his repeated and
heartless aggression toward women and children. In the entire context of the highly incriminating
case for a death sentence, the inmates' testimony only played a minor theme.
Even then, the inmates did not come before the jury unblemished. Trial counsel's opening
argument accused the inmates of "look[ing] around [to] find somebody else to serve their time."
(DE 216 at 5). Trial counsel extensively questioned each inmate about their lengthy criminal
records. (DE 344 at 209-10, 232-33, 271-72; DE 348 at 167-68, 177-79). Trial counsel probed the
inmates' incentive to testify for the Government. (DE 344 at 23 5). Trial counsel's closing argument
hammered that the inmates were men who had committed crimes, were not trustworthy, and "were
203

PA239

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 4 of 25

paid or hoped to be paid" for their testimony. (DE 339 at 30-31). Trial counsel argued that they "are
liars" who, when arrested, "try to find "someone else to serve their time." (DE 339 at 30). Whatever
impeachment may have resulted from confirming the alleged deals only would have added one more
layer of concern to what trial counsel already put before the jury.
Given the whole evidentiary landscape against Bourgeois, the corroborating evidence that
verified the inmates' testimony, and the minor effect of the evidence unique to their testimony, the
Court find that Bourgeois has not shown that, "had the evidence [of an alleged deal] been disclosed
to the defense, the result of the proceedings would have been different." Bagley, 473 U.S. at 682.
The Court will deny Bourgeois' Brady claim.

VII.

Trial Counsel Labored under a Conflict of Interest Because of His Representation of
Clients Associated with this Case (claim eight)
Apart from his other arguments about trial counsel's representation, Bourgeois also claims

that conflicting interests prejudiced his attorneys' ability to defend him zealously. This is not a case
where trial counsel actively represented multiple defendants with competing interests. Nor did trial
counsel's current or former clients testify against Bourgeois. Instead, Bourgeois' conflict-of-interest
claim arises out of three circumstances involving his attorney, Mr. Gilmore:
•

Mr. Gilmore had previously represented Ross Griffin in a federal criminal
action. Bourgeois alleges that Griffin acted as a jailhouse informant for the
Government. Bourgeois states that Griffin "had been offered favorable
treatment to cooperate against [him]." (DE 396 at 110). Griffin never
testified against Bourgeois.

•

Mr. Gilmore had called Adam Longoria as a witness in the trial of another
criminal defendant. 161

161

In that case, Longoria apparently related conversations he heard while residing on the
same cell block as Bourgeois, though Bourgeois does not allege that the testimony in that case
concerned him directly. Mr. Gilmore's cross-examination of Longoria in this case discussed how
(continued ... )
204

PA240

Case 2:02-cr-00216 Document 660-5

•

Filed in TXSD on 05/19/11 Page 5 of 25

Mr. Gilmore had represented Roel Contreras who was a co-defendant of
Orlando Campos. Campos initially testified against Contreras in exchange
for a reduced sentence, but at some point tried to disavow his prior testimony
against Mr. Gilmore's client.

Bourgeois summarily asserts that these three circumstances created a conflict of interest that
fenced in trial counsel's efforts to defend him.
With its guarantee of effective legal representation, the Constitution promises a criminal
defendant conflict-free counsel. "A conflict will exist only 'when defense counsel is compelled to
compromise his or her duty of loyalty or zealous advocacy to the accused by choosing between or
blending the divergent or competing interests of a former or current client.'" United States v.

Garcia-Jasso, 472 F.3d239, 243 (5th Cir. 2006)(quotingPerillo v. Johnson, 205 F.3d 775, 781 (5th
Cir. 2000)); see also United States v. Culverhouse, 507 F.3d 888, 893 (5th Cir. 2007) (stating that
an actual conflict exists "when the attorney knows that his clients' interests diverge and must then
choose between the interests of multiple clients, or be compelled to compromise his duty of
loyalty"). To succeed on a conflict-of-interest claim, however, an inmate must show more than a
"mere possibility of a conflict of interest." See Cuyler v. Sullivan, 446 U.S. 335, 350 (1980). The
Supreme Court has explained that '"an actual conflict of interest' mean[s] precisely a conflict that
affected counsel's performance - as opposed to a mere theoretical division of loyalties." Mickens

v. Taylor, 535 U.S. 162, 164 (2002). Accordingly, "[t]o establish a Sixth Amendment violation on
the basis of a conflict of interest the defendant must demonstrate: (1) that his counsel acted under
the influence of an actual conflict; and (2) that the conflict adversely affected his performance at
trial." Culverhouse, 507 F.3d at 892; see also Cuyler, 446 U.S. at 348-50.

161

( ••• continued)
he had called him as a witness in the earlier case. (DE 348 at 179-80).

205

PA241

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 6 of 25

Bourgeois has not shown "more than a speculative or potential conflict." Culverhouse, 507
F.3d at 892. Mr. Gilmore's relationship with criminal defendants tenuously connected to this case
did not conflict with his advocacy for Bourgeois. Bourgeois, in fact, exaggerates and misrepresents
the nexus between the three circumstances listed above and his own case. For example, Bourgeois
alleges that "[p ]rior to and during [his] trial, Mr. Gilmore represented ... Ross Griffin ... [who] was
under indictment in the United States District Court for the Southern District of Texas for the
distribution and sale of marijuana." (DE 396 at 110). Griffin was actually sentenced on June 17,
2003, before the Government even designated this a capital case. (United States v. Griffin, 2 :02-CR309-2 (S.D. Tex.)). Griffindid not appeal and it appears that Mr. Gilmore's representation of Griffin
ended when judgment issued. Bourgeois also labels Griffin a "government witness" against him.
(DE 402 at 107). 162 The Government never called Griffin as a witness in the case. In fact, Bourgeois
has not shown that the Government made any attempt to act on the information Griffin provided,
particularly because Griffin's account was inconsistent with known evidence. Moreover, Bourgeois
has never substantiated his claim that Griffin, after he had already been sentenced for his crime, "had
been offered favorable treatment to cooperate against [Bourgeois]." (DE 402 at 107). Nothing
suggests that Griffin's action in making statements to a government agent after sentencing divided
Mr. Gilmore's loyalties.
In the two other circumstances, Bourgeois likewise summarily speculates that the entangled
web of information given by snitches in the Nueces County jail hindered Mr. Gilmore's ability to

162

An FBI agent did not interview Griffin until June 30, 2003. (DE 396, Exhibit 60).
Bourgeois emphasizes that "Griffin was housed with [Bourgeois] in the Nueces County Jail along
with Mr. Adam Longoria and Mr. Darrick Moore," both of whom testified against Bourgeois at trial.
(DE 396 at 110). The record Bourgeois relies upon, however, does not arise out of conversations
in the county jail facility, but in a federal court holding cell during earlier hearings.
206

PA242

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 7 of 25

cross-examine witnesses in his case. Bourgeois, however, does not show that anything limited Mr.
Gilmore's ability to probe the truth. Speculation about tenuous relationships between criminal cases
does not equate to an actual conflict of interest.
Bourgeois has simply failed to show that an actual conflict impaired Mr. Gilmore's ability
to advocate ardently on his behalf. The Court denies Bourgeois' speculative claim that Mr. Gilmore
operated under a conflict of interest.

VIII. The Government Engaged in Misconduct by Making Improper Argumentative
Statements in the Guilt/Innocence and Penalty Phases (claim nine)
Given the horrific facts of this case and the emotionally charged trial atmosphere, both
parties' closing arguments passionately championed their cause. The Government's attorneys in
particular used strong language and forceful argument. Bourgeois claims that the Government
crossed the line into constitutionally prohibited misconduct with certain comments made during the
closing arguments in both phases of trial. Bourgeois complains that the Government improperly (a)
disparaged Bourgeois and his attorneys; (b) appealed to the jury's civic responsibility and to religious
sentiments; (c) knowingly made false arguments; (d) interjected personal information; and (d) diluted
the jury's consideration of mitigating evidence. The Court finds that the Government's statements
did not amount to prosecutorial misconduct.
In its zealous advocacy, the Government may strike hard, but not foul, blows. See Berger

v. United States, 295 U.S. 78, 88 (1935). A criminal conviction "is not to be lightly overturned on
the basis of a prosecutor's comments standing alone," United States v. Bernard, 299 F .3d 467, 488
(5th Cir. 2002), which require relief only "in only the most egregious cases." Ortega v. McCotter,
808 F .2d 406, 408 (5th Cir. 1987). A two-step process governs claims of prosecutorial misconduct.
"First, we ... initially decide whether or not the prosecutor made an improper remark." United

207

PA243

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 8 of 25

States v. Gallardo-Trapero, 185 F.3d 307, 320 (5th Cir. 1999). Second, "[i]f an improper remark

was made, we must then evaluate whether the remark affected the substantial rights of the
defendant." Id. "The determinative question is whether the prosecutor's remarks cast serious doubt
on the correctness of the jury's verdict."' Bernard, 299 F .3d at 488 (quoting United States v. Jredia,
866 F.2d 114, 117 (5th Cir. 1989)) Under that framework, the Court will evaluate Bourgeois'
prosecutorial-misconduct claim.
With respect to each prosecutorial statement, the Government correctly responds that"[m Jost
of the comments were nothing more than a fair comment upon the evidence" and some "were
analogies that are commonly permissible during argument" while other "challenges are flatly
incorrect." (DE 443 at 96). With a firm recollection of the atmosphere in the closing arguments, and
having reviewed the record with respect to each allegation, the Court finds no merit to Bourgeois'
prosecutorial-misconduct claim. In each instance, the Government's statements were strong, but not
constitutionally improper.
For instance, Bourgeois asserts that the Government urged the jury to base its decision on
religion. "Courts universally condemn" injecting religion into legal proceedings. Hicks v. Collins,
384 F.3d 204, 223 (6th Cir. 2004). However, the context of the questioning shows that the
Government did not tell the jury to jettison legal standards or to let religion guide their deliberations.
The Government twice mentioned that "pride comes before the fall," (DE 339 at 11, 46), a phrase
which has a biblical origin but has also entered the common parlance. 163 The Government did so

163

Bourgeois also objects to when the Government stated: "He called it 'it'. The kid that
died. The fucking kid and those words are sacrilegious when you speak about this lamb because he
didn't see it as human." (DE 339 at 17) (emphasis added). Bourgeois does not identify what
Biblical passage the Government invoked by using the words "sacrilegious" or "lamb." While
perhaps harkening to religious imagery, that statement does not directly refer to commonly known
(continued ... )
208

PA244

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 9 of 25

rhetorically, not as an encouragement to convict him based on religious views. See United States
v. Bailey, 123 F.3d 1381, 1401-02 (11th Cir. 1997) (finding no error when "[t]he prosecutor did not
suggest that [the defendant] should be adjudicated under Biblical law, and he did not ask the jury to
decide the case on a religious or emotional basis."). Bourgeois has not pointed to any case
expunging similar comments from the courtroom setting. 164
The phrase in which Bourgeois alleges that the Government told the jury it had a civic duty
to convict him merely commented on its own duty to investigate and prosecute criminal acts:
The Defendant never dreamed in his arrogance that the CPS would care about that
baby, that FBI would be called, that FBI would care about that baby, that the United
States would care about that baby because he saw it as thing for his pleasure.
Shocked that he couldn't drive away. Shocked that he couldn't have his truck back
and leave. The arrogance of his cruelty. The arrogance to think that the United
States would not care about one of its citizens even if it was a little citizen. The
arrogance of his cruelty.
(DE 339 at 17-18). This statement did not encourage the jury to protect society by convicting him;
it inferred that Bourgeois did not think that the Government would act to prosecute.

The

Government did not ask the jury to apply extra-judicial standards in considering the evidence.
Bourgeois invited some of the challenged prosecutorial comments. For example, he says that
the Government interjected personal information into the penalty-phase closing by conveying that

163

( ... continued)
elements of religious belief, much less encourage the jury to let religious persuasion influence its
decision.
164

Even in cases where the Government has made the extremely troubling argument that
a jury should return a sentence of death because the Bible required it, courts have found no error
when the comments are isolated and the facts of the crime egregious. See Middlebrooks v. Bell, 619
F.3d 526, 543 (6th Cir. 2010); Coe v. Bell, 161F.3d320, 351 (6th Cir. 1998); but see Romine v.
Head, 253 F.3d 1349, 1370-71 (11th Cir. 2001)(finding error under the circumstances of that case)
209

PA245

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 10 of 25

it was difficult to try this capital case. 165 The Government, however, only responded to the final
portion of Mr. Tinker's argument where he stated that "it's easy for Ms. Booth to say let's kill him,
because she is not the one that does it." (DE 342 at 64). Ms. Booth, who argued next, responded
that seeking a death sentence was the most difficult thing she had done. (DE 324 at 66-67). A
prosecutor may validly respond to the defense argument without committing misconduct. See United
States v. Mendoza, 522 F .3d 482, 492 (5th Cir. 2008) (holding that a reviewing court does "not view

the prosecutor's remarks in isolation but consider the effect of those remarks in the context of the
entire trial."); United States v. Saenz, 747 F.2d 930, 939 (5th Cir. 1984) ("Allegedly improper
prosecutorial comments must be considered in context when determining their propriety.").
Other challenged statements were permissible summaries of the evidence. For example,
Bourgeois alleges that the Government falsely argued that Orlando Campos testified "not because
he hoped to get lesser time but because he had a child, a six year old, and he believed that this man

165

Bourgeois refers to the following colloquy in the penalty phase:

Ms. Booth:

Now, Mr. Tinker told you this was going to be very easy for me to ask
for someone's death. And he's very wrong. I've raised five children,
I've buried family -

Mr. Tinker:

She's outside the record here, your Honor, and I just-

Ms. Booth:

Judge I'm responding to - he opened the door.

Mr. Tinker:

About how many kids she's got doesn't have anything to do with the
trial in this case.

The Court:

Go ahead, Ms. Booth

Ms. Booth:

My baby brother is in Iraq serving his country. Things are hard, and
this is the hardest thing that I have ever done in my life.

(DE 324 at 66-67).

210

PA246

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 11 of 25

should be held accountable." (DE 339 at 58). Bourgeois complains that this was a false statement
because "Orlando Campos more than 'hoped' he would be getting a sentence reduction for his
cooperation with the Government, he knew he would be getting a deal." (DE 402 at 129). The Court
has already found that Campos did not have a deal with the Government. The Government's
statement accurately comports with the evidence: the federal government had no power to change
Campos' state-court sentence and the prosecutor's comments accurately recalled Campos' testimony
about why he testified.
In another instance, Bourgeois complains that the Government claimed that, by securing Dr.
Senn's assistance after Dr. Dailey could not help them, they were not "expert shopping." (DE 339
at 19-20). 166 Bourgeois seems to believe that Dr. Dailey "was unable to provide them with favorable
bite mark evidence," meaning that the Government shopped for experts until they found one who
would testify in their favor. (DE 402 at 116). In reality, Dr. Dailey "could not rule in or out any of
the three individuals as the possible biter." (DE 387, Attachment 45). Bourgeois has not shown that
the Government "expert shopped" by seeking out someone who could answer the question asked of
them, and thus the closing argument was not "false argument." In addition, as discussed above,

166

During the guilt/innocence phase closing, the prosecutor stated:

Now the defense told you in their opening, first of all, that there was going to be
testimony that a child could have made those marks. You didn't hear that. The only
child whose bite was analyzed was excluded. He told you that there was forum
shopping by the United States on our experts and what did you hear? We sent our
teeth to Dr. Senn. Dr. Senn made his analysis and sent it for a second opinion. In
serious and solemn matters of our health, like to get surgery or to do some kind of
other procedure on us, many times we'll get a second opinion. Is that expert
shopping or is that just making sure?
3/16/04 at 19-20. Bourgeois argues that "the Government had engaged in forum shopping for
favorable bite mark evidence" by first consulting with United States Army Colonel J. Curtis Dailey,
M.D. Dr. Dailey could not conclusively identify Borugeois as the biter.
211

PA247

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 12 of 25

forensic odontology requires a second opinion in similar cases. (DE 339 at 43).
Bourgeois also argues that the Government told the jury to abandon its duty to consider his
mitigating evidence. In closing, the prosecutor stated:
The mitigation that the Defense wants you to look at and decide that that overpowers
the aggravating factors that he's alleged to, and they are that he was under substantial
duress, that he was - that he was driving in an 18-wheeler with three children, that
he had family and economic pressures. You know and I thought, "Oh, well, that's
just life, that's not mitigation."
(DE 342 at 74). Bourgeois argues that "[w]hile the jury in this case was certainly free to decide that
the mitigation proffered on behalf of Mr. Bourgeois did not outweigh the aggravating circumstances,
the prosecutor's argument that Mr. Bourgeois' evidence 'was not mitigation,' improperly prevented
the jury from considering the mitigating evidence." (DE 402 at 121). Nevertheless, if the jury
instructions properly outline the use of mitigating evidence, the Government can freely comment on
the weight the jury should accord it. See Bland v. Sirmons, 459 F.3d 999, 1026 (10th Cir. 2006).
The Government did not tell the jury to ignore mitigating evidence, they only disputed the weight
of that evidence.
Bourgeois also complains that the Government called him names. In the guilt/innocence
phase argument, the Government stated that its bite-mark experts "did the best they could to
determine- to exclude, their goal was to see who they could exclude. And they excluded Robin. But
who did they not exclude? They didn't exclude this man, that thing that's sitting right there. (DE
339 at 48-49) (emphasis added). The Government contends that was a reasonable response to
Bourgeois' own use of "dehumanizing terms" for the victim. (DE 443 at 97). "The use of colorful
pejoratives is not improper." United States v. Fields, 483 F.3d 313, 360 (5th Cir. 2007) (quoting
United States v. Shoff, 151F.3d889, 893 (8th Cir. 1998)); see also United States v. Malatesta, 583
F.2d 748, 759 (5th Cir. 1978) ("Unflattering characterizations of a defendant do not require a new
212

PA248

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 13 of 25

trial when such descriptions are supported by the evidence."). As with the rest of the challenged
comments, the Government's reference to Bourgeois as a "thing" was isolated and not a pervasive
feature of the trial. The Court has reviewed all of the comments Bourgeois challenges in the context
of the whole trial and finds no prosecutorial misconduct.
Even assuming, arguendo, the Government's comments were improper, Bourgeois fails to
show the requisite prejudice. 167 As an initial matter, the Court instructed the jury that the parties'
arguments were not evidence. (DE 339 at 61); see United States v. Pittman, 401 F. App'x 895, 900
(5th Cir. 2010) (finding that a similar instruction "[a]meliorat[ed] the government's [allegedly]
improper argument and cross-examination and their resultant prejudice"); United States v. Tomblin,
46 F.3d 1369, 1390 (5th Cir. 1995) (presuming a similar instruction sufficient "unless there is an
overwhelming probability that the jury will be unable to follow the instruction and there is a strong
probability that the effect [of the prosecutorial misconduct] is devastating."). Had this been a close
case, perhaps the jury instruction itself may not have been enough to dispel the taint of the alleged
prosecutorial misconduct. However, the evidence of Bourgeois' guilt was overwhelming and the
case for a death sentence especially strong. The allegedly prejudicial comments were not the
centerpieces of the Government's argument, but isolated rhetorical flourishes and intermittent

167

The prejudice step "sets a high bar ... The determinative question is whether the
prosecutor's remarks cast serious doubt on the correctness of the jury's verdict." United States v.
Fields, 483 F.3d, 313, 358 (5th Cir. 2007); see also Lowenberg, 853 F.2d at 301 ("The ultimate
question before us, however, is not the impropriety of the prosecutor's remarks but whether these
remarks were so inflammatory that they entitle the defendant to a new trial."). Courts reviewing the
prejudice from the prosecution's unfair arguments focus on three factors: (1) the magnitude of the
prejudicial effect of the prosecutor's remarks; (2) the efficacy of any cautionary instruction by the
judge; and (3) the strength of the evidence supporting the conviction. See United States v. McCann,
613F.3f486, 496 (5th Cir. 2010); United States v. Gallardo-Trapero, 185 F.3d 307, 321 (5th Cir.
1999); United States v. Diaz-Carreon, 915 F.2d 951, 956 (5th Cir. 1990); United States v.
Lowenberg, 853 F.2d 295, 302 (5th Cir. 1988).
213

PA249

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 14 of 25

themes. Where, as here, "numerous witnesses, pieces of evidence, and issues [are] placed before the
jury," it is highly unlikely that "the prosecutor's statements overshadowed what had come before and
unduly prejudiced the [defendant's] case. See Gallardo-Trapero, 185 F.3d at 320-21.

The

overwhelming evidence against Bourgeois and the detailed jury instructions prove that the comments
did not prejudice Bourgeois. The allegedly improper comments were not of a sufficient magnitude
to cast serious doubt on the jury's verdict. The Court denies Bourgeois' claims of prosecutorial
misconduct.
IX.

Trial Counsel Provided Ineffective by Not Rebutting Evidence of Bourgeois'
Indifferent Demeanor (claim ten)

The Government portrayed Bourgeois as a heartless man who, while his infant daughter lay
dying, only worried about his own interests. Multiple government witnesses related their surprise
at Bourgeois' lack of emotion and inaction. Indifference marked what little attention Bourgeois paid
to his dying daughter. One witness summed up the testimony about Bourgeois' demeanor as "just
kind of heartless." (DE 335 at 289). Bourgeois faults his trial attorneys for not calling expert
witnesses to explain that mental illness caused his apathy.
Testimony from the evidentiary hearing only inferentially addressed this claim.

As

previously discussed, experts have diagnosed Bourgeois with various interlocking psychological
conditions. Bourgeois argues that his demeanor on the day he killed his daughter was not one of a
deeply flawed character, but a deeply disturbed man. Bourgeois claims that his alleged mental
retardation - or at least his impaired intelligence - inhibited his ability to process new information,
making him unable to understand fully the events he caused. Overlapping mental conditions, such
as borderline personality disorder, "which can cause individuals to dissociate, or separate themselves
both emotionally and mentally, in times of stress" allegedly caused him to "'spac[e] out'" while his

214

PA250

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 15 of 25

daughter was dying. (DE 402 at 127). Bourgeois claims that trial counsel should have presented the
mental-health evidence in the guilt innocence phase to "humanize him in the eyes of the jury."
(DE402 at 127). He also claims that the information in the penalty phase would have mitigated
against a death sentence.
With regard to the guilt/innocence phase, Bourgeois does not claim that his attorneys should
have presented an insanity, diminished capacity, or other defense by which his mental state would
exculpate him. Instead, Bourgeois hopes that a psychologist could have "humanized" him so that
the jury would not see him as a calloused killer. 168 The proposed testimony was not relevant. 169
Bourgeois' theory addresses his apathetic attitude after the killing, but mental disorders do not
explain his intent as he killed. As trial counsel recognized in the closing argument, the jury "had to
decide one of three things. One, is it murder with malice and premeditation. Is it murder with
malice not premeditated. Is it not murder at all." (DE 339 at 25). The lay depictions of the
circumstances surrounding the crime were unquestionably properly before the jury; Bourgeois' still-

168

In recognizing that "there are countless ways to provide effective assistance in any
given case," the Supreme Court recently cited with approval a case stating that "[t]he current
infatuation with 'humanizing' the defendant as the be-all and end-all of mitigation disregards the
possibility that this may be the wrong tactic in some cases because experienced lawyers conclude
that the jury simply won't buy it." Cullen v. Pinholster, _ S. Ct._, 2011 WL 1225705, at* 17
(2011) (citing Pinholster v. Ayers, 590 F.3d 651, 692 (9th Cir. 2009) (Kozinski, C.J., dissenting)).
169

The federal rules do not commonly permit Bourgeois' proposed guilt/innocence
defense. Under Federal Rule of Evidence 704(b),
No expert witness testifying with respect to the mental state or condition of a
defendant in a criminal case may state an opinion or inference as to whether the
defendant did or did not have the mental state or condition constituting an element
of the crime charged or of a defense thereto. Such ultimate issues are matters for the
trier of fact alone.
FED. R. Evm. 704(b ).
215

PA251

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 16 of 25

unproven explanation for his demeanor would not have been.
With respect to the punishment phase, Dr. Estrada examined Bourgeois but apparently did
not come to the conclusion that mental illness made him grossly indifferent. Nevertheless, trial
counsel elicited from Dr. Estrada that his disinterested demeanor toward his daughter's dying was
common to those who, because they had been abused, became abusers themselves. (DE 341 at 3638). Trial counsel secured expert assistance before trial and used Bourgeois indifference to benefit
the defense, though for a different way than he proposes now. See Strickland, 466 U.S. at 689
("There are countless ways to provide effective assistance in any given case.").
A reasonable attorney would not necessarily put forth mental illness as an excuse for
Bourgeois' indifferent attitude. As previously noted, Bourgeois' claim of mental retardation is not
strong and is inconsistent with a holistic view of his life. Placing evidence that mental disorders
blunted Bourgeois' response after the killing would not seriously persuade the jury's consideration
of his intent during the killing or his reaction to the murder. 170 The jury would have to place the
mental-health evidence into the broader context of Bourgeois' relationship with his daughter.
Bourgeois heartlessly mistreated her, callously cursed her, viciously abused her, and vocally wished
her dead. Psychological testimony about his indifferent demeanor as she died did not explain his
inhumane treatment of her overtime. Emphasizing this aspect of Bourgeois' personality also would
only have reinforced the Government's emphasis on his "decrease in the capacity for empathy or
decrease in the regard for others" as a feature of his future danger to society. (DE 348 at 283). The
Court finds that the proposed mental-health testimony does not show deficient performance by trial
counsel or create a reasonable probability of a different result.

170

The evidence as it was allowed trial counsel to argue that Bourgeois' actions did not
show callous disregard, but a desire hurry on to the hospital. (DE 339 at 28)
216

PA252

Case 2:02-cr-00216 Document 660-5

X.

Filed in TXSD on 05/19/11 Page 17 of 25

A Witness Improperly Relied on Bourgeois' Interactions with Counsel as a Basis to
Formulate an Adverse Opinion about Him (claim eleven)
Bourgeois argues that the Government's questioning of Dr. Estrada violated his constitutional

rights. Dr. Estrada's direct testimony revealed that Bourgeois would be a future societal danger,
manipulated others, and was narcissistic. Dr. Estrada based his opinion, in part, on his in-trial
observations of Bourgeois, particularly those relating to his interaction with counsel:
I would say that in my opinion, Mr. Bourgeois' attitude throughout these proceedings
has been one of a member of the defense team, and rather than the Defendant or the
father of the victim. He has been very attentive, has made profuse notes and has been
able to discuss and provide assistance to his defense team as needed.
In addition, he also, to me, portrayed the impression of feeling often disgusted with
the presentation and answers of the witnesses and having a sense that whatever the
witnesses may be saying was not going to shake him or affect him. And I think that
these two characteristics that I mention are very consistent with a diagnosis of a
narcissistic personality disorder.
(DE 348 at 286). Bourgeois claims that the Government used his constitutional rights against him
through this statement. In essence, he argues that "[t]he Government's reliance on a mental health
opinion that was based upon Petitioner's participation as 'part of the defense team' violated
Petitioner's right to participate in his trial and to assist counsel. In effect, Petitioner was penalized
by invoking and exercising these fundamental rights." (DE 396 at 129).
Bourgeois does not point to any case law limiting an expert witness' in-court observations
only to issues unrelated to the exercise of constitutional rights. Instead, Bourgeois draws comparison
to Supreme Court authority preventing the Government from commenting on a defendant's postarrest silence. See Doyle v. Ohio, 426 U.S. 610 (1976); Griffin v. California, 380 U.S. 609, 614
(1965).

However, Bourgeois' argument is similar to one rejected by the Supreme Court in

Portunondo v. Agard, 529 U.S. 61 (2000). In Agard, the prosecutor's closing argument mentioned
that, because he was the last witness called by the defense, the defendant had the benefit oflistening
217

PA253

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 18 of 25

to all prior accounts before testifying. Drawing a comparison to Doyle and Griffin, the Agard
defendant argued that the prosecutor's comments stifled his right to be present at trial, confront
witnesses, and testify. The Supreme Court refused to extend Doyle and Griffin because a jury
making observations about the courtroom events "is natural and irresistible" and "what the jury is
perfectly entitled to do." Agard, 529 U.S. at 67-68. Also, the Supreme Court said that commenting
on a defendant's credibility and other related issues fundamentally differs from commenting on his
guilt. See id. at 69.
Here, the Government did not mention Bourgeois' failure to testify, nor could Dr. Estrada's
testimony reasonably be construed to encroach on his right to silence. Dr. Estrada's testimony did
not directly address Bourgeois' right to appear at trial or right to consult with his attorneys. The
challenged comments related to Bourgeois' demeanor and actions before the jury. Courts have held
that prosecutorial discussion of a defendant's trial demeanor does not violate his constitutional
rights. See Bates v. Lee, 308 F.3d 411, 421 (4th Cir. 2002) ("[P]rosecutorial comments about the
lack of remorse demonstrated by a defendant's demeanor during trial do not violate a defendant's
Fifth Amendment right not to testify."); Hall v. Wainwright, 733 F.2d 766, 773 (I Ith Cir. 1984)
(holding that the jury would not interpret a comment simply related to a defendant's demeanor
during the trial as a comment on the defendant's failure to testify); Cunningham v. Perini, 655 F.2d
98, 100 (6th Cir. 1981) (holding that comments related to the defendant's demeanor in court did not
run afoul of the Fifth Amendment). Bourgeois has not shown that the Constitution prevents
witnesses for the Government from testifying about matters that inferentially touch upon a
defendant's constitutional rights. See Bates,, 308 F.3d at 422 (finding no error in the prosecutor
comments on the defendant's demeanor at trial); Williams v. Chrans, 945 F.2d 926, 953-54 (7th Cir.
1991) (finding that comments related to lack of remorse did not violate Griffin because jury could
218

PA254

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 19 of 25

consider remorse in light of defendant's demeanor and testimony);
Even when the Government improperly discusses a defendant's valid exercise of
constitutional rights, a reviewing court must still decide if, beyond a reasonable doubt, the jury
would have found against the defendant absent the prosecutor's improper statements. See United
States v. Martinez-Larraga, 517 F.3d 258, 269 (5th Cir. 2008) (citing the harmless doubt standard

from Brecht v. Abrahamson, 507 U.S. 619 (1993)). Dr. Estrada's remarks focused on his opinion
that Bourgeois had a narcissistic personality. Before commenting on his trial observation, Dr.
Estrada made that same diagnosis based on "all the information that [he] ha[d]," without mentioning
anything that would implicate Bourgeois' constitutional rights. (DE 348 at 285). Dr. Estrada's
testimony along this vein was brief and was not a decisive issue throughout the remainder of the
sentencing proceedings. Even ifthe Government's witness improperly commented on the exercise
of Bourgeois' constitutional rights, any error was harmless. This is particularly the case because the
Court and the jury could make the same lay assessment of Bourgeois' courtroom behavior. In fact,
the jury was in the best position to view and assess how Bourgeois interacted with his attorneys. For
those reasons, the Court will deny this claim.

XI.

Ineffective Assistance of Appellate Counsel (claim twelve)
Mr. Gilmore and Mr. Tinker represented Bourgeois on appeal. They raised four issues on

appeal that required a probing review by the Court of Appeals for the Fifth Circuit. Bourgeois'
criticism of their representation extends to their appellate efforts. In three tersely briefed claims,
Bourgeois argues that appellate counsel should have argued that:
•

the Court improperly admitted into evidence inflammatory and prejudicial
photographs of the victim.

•

Dr. Estrada's testimony comparing his background to others sentence to death
violated his Eighth Amendment rights, and trial counsel should have lodged
219

PA255

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 20 of 25

an objection on that basis.
•

"failing to raise all of the record-based claims discussed herein, which were
not properly raised or objected to at trial." (DE 396 at 127).

"[I]neffective assistance of appellate counsel claims are governed by the test set forth in
Strickland[.]" Amador v. Quarterman, 458 F.3d 397, 410 (5th Cir. 2006). An inmate challenging
his appellate counsel's selection of claims must show both deficient performance and that "the
outcome of the appeal would have been different." Id.; Pitts v. Anderson, 122 F.3d 275, 279 (5th
Cir. 1997); Sharp v. Johnson, 107 F.3d 282, 286 n. 9 (5th Cir. 1997). The Court finds that Bourgeois
has not met Strickland's demanding burden with respect to his ineffective-assistance-of-appellatecounsel claims.
Appellate counsel did not provide constitutionally deficit representation by not advancing
a challenge to the admission of photographic evidence at trial. The Government carefully selected
only photographs that were necessary for the trial testimony. Trial counsel reviewed the autopsy
photographs and then strongly and repeatedly challenged their prejudicial nature. (DE 350 at 102;
DE 345 at 1-8, 92-111). The Court carefully considered trial counsel's objections, studied the
relative importance of each photograph, and weighed the impact it could have on the jury. The Court
admitted into evidence only those photographs that would not be unduly prejudicial. With that
background, the Court finds that a reasonable appellate attorney would not raise a claim based on
the autopsy photographs and that the outcome of the appeal could not have been different had
appellate counsel done so. See Ries v. Quarterman, 522 F.3d 517, 531-32 (5th Cir. 2008) ("Counsel
need not raise every nonfrivolous ground of appeal, but should instead present solid, meritorious
arguments based on directly controlling precedent.").
Similarly, appellate counsel would not be ineffective for not challenging Dr. Estrada's

220

PA256

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 21 of 25

testimony. During the Government's direct questioning of Dr. Estrada, ittried to extract information
about how common it was for death row inmates to have been abused:
The Government:

Do you know much about the background of people that have
actually murdered somebody and been given the death
penalty? Do you know much about any of that?

Dr. Estrada:

Unfortunately I have been involved in a number of those
cases.

The Government:

And there are - are there people that have been abused as
children that were ultimately sentenced to death because of
their actions?

Dr. Estrada:

Not the majority.

The Government:

Okay. But some have been?

Dr. Estrada:

Yes.

(DE 341at57). After Dr. Estrada's testimony, trial counsel objected thathe had violated Bourgeois'
right to individualized sentencing. (DE 341 at 74-78). Bourgeois now claims that appellate counsel
should have argued that Dr. Estrada's testimony denied him sentencing as a "uniquely individual
human being," because it compared him to others. Woodson v. North Carolina, 428 U.S. 280, 304
(1976).171

Appellate counsel did not provide ineffective representation by not raising Bourgeois' variant
on a Woodson claim. Bourgeois has not cited any case where the Supreme Court has reversed a
death sentence because a witness discussed the outcome of mitigating circumstances in other cases.
Nevertheless, Dr. Estrada's isolated comment by no means played a major part in the jury's
consideration of mitigating evidence. To the extent that it had any effect, the testimony helped

171

In Woodson, the Court struck down a statute that mandated an automatic death
sentence for those convicted of first-degree murder because the statute failed to require a
consideration of the defendant's character, record, or circumstances of his crime.
221

PA257

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 22 of 25

Bourgeois more than it harmed him. The jury heard that childhood abuse could be a sufficient basis
to impose a life sentence. Dr. Estrada's comment likely helped the defense because he told the jury
that the "majority" of those who had been abused as children did not receive a death sentence. (DE
341 at 58). 172 That information would only help the jury facing a mountain of reasons to sentence
Bourgeois to death. Bourgeois has not shown that appellate counsel violated his constitutional rights
by not advancing a Woodson claim.
Insofar as Bourgeois raises a generalized complaint that appellate counsel should have raised
each record-based claim that he advances in his Motion to Vacate, the Court has already extensively
discussed each and finds them without merit. As the Court has found no error or prejudice flowing
from the underlying claims, Bourgeois cannot meet the Strickland standard. See Mayabb v. Johnson,
168 F.3d 863, 869 (5th Cir. 1999) (applying Strickland to an ineffective assistance of appellate
counsel claim and noting that "[w]hen we do not find prejudice from the trial error, by extension,
we cannot find prejudice from an appellate error predicated on the same issue").
In the end, an appellate attorney cannot be faulted for not raising meritless claims. See
United States v. Kimler, 167 F.3d 889, 893 (5th Cir. 1999) ("An attorney's failure to raise a meritless

argument thus cannot form the basis of a successful ineffective assistance of counsel claim because
the result of the proceeding would not have been different had the attorney raised the issue.");
Williams v. Collins, 16 F.3d 626, 634 (5th Cir. 1994). "Failure to raise meritless objections is not

ineffective lawyering; it is the very opposite." Clark v. Collins, 19 F.3d 959, 966 (5th Cir. 1994);
see also Green v. Johnson, 160 F.3d 1029, 1037 (5th Cir. 1998) ("[F]ailure to make a frivolous

172

Interesting, Dr. Estrada's testimony bears strong similarities to Dr. Cunningham's
comparison of Bourgeois's future risk for violence to that of other offenders. Bourgeois faults trial
counsel for not calling Dr. Cunningham to compare him to other inmates.
222

PA258

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 23 of 25

objection does not cause counsel's performance to fall below an objective level ofreasonableness
.... "). The Court denies Bourgeois' ineffective-assistance-of-appellate-counsel claim.
XII.

Cumulative Error (claim thirteen)
Bourgeois claims that, even if each claim raised by his Motion to Vacate alone does not

require relief, accumulating the effect of them all does. He argues: "Each of the above-described
claims of constitutional error stand on their own and independently require relief. However, should
this Court find error, but believe that individually they do not merit relief, the Court should consider
the cumulative impact of the constitutional violations." (DE 396 at 134). This Court sat at trial, has
held numerous hearings, and has considered voluminous evidence. With complete surety, the Court
concludes that Bourgeois received all the Constitution affords him, and then some. Whether taken
singly or as a whole, the issues Bourgeois raises in his 2255 motion do not show a flawed trial laden
with unfairness. See Westley v. Johnson, 83 F.3d 714, 726 (5th Cir. 1996) ("Meritless claims or
claims that are not prejudicial cannot be cumulated, regardless of the total number raised."); Mullen

v. Blackburn, 808 F.2d 1143, 1147 (5th Cir. 1987) ("Twenty times zero equals zero."). Bourgeois
was lawfully convicted and sentenced to death. The Court finds no merit to his cumulative-error
claim.
XIII. Lethal Injection (claim fourteen)
As his final claim, Bourgeois argues that the United States of America employs an
unconstitutional method of execution. Bourgeois summarily argues that "unnecessary pain and
suffering in violation of the Eighth Amendment" will result when the Government carries out his
death sentence because of "the combination of drugs to be used, the protocol governing the
execution, the use of untrained non-medical and unqualified personnel and the physical space in
which the execution would be carried out." (DE 396 at 128). Nevertheless, Bourgeois provides two
223

PA259

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 24 of 25

reasons that make the instant action an improper vehicle to address his claims. First, because
Bourgeois' execution "is far from imminent, the question is not yet ripe." (DE 396 at 128). Second,
"a challenge to lethal injection is properly brought in a separate civil rights action under 42 U.S.C.

§ 1983." (DE 396 at 128). Nevertheless, Bourgeois states that he "will be happy to litigate this
Eighth Amendment challenge in whatever forum is deemed appropriate." (DE 396 at 128). In
addition to those two reasons for dismissing Bourgeois' lethal-injection challenge, the Government
observes that the Supreme Court in Baze v. Rees, 553 U.S. 35 (2008), recently upheld the
constitutionality of a State's execution protocol which is similar to that used by the federal
government. 173
Both parties agree that this issue is not now properly before the Court. A motion pursuant
to§ 2255, by its own terms, challenges the constitutionality of a movant's conviction and sentence
of death, not the means of carrying out that sentence. The Court will dismiss this premature and
noncognizable claim.
CERTIFICATE OF APPEALABILITY
The AEDPA bars appellate review of a 2255 motion unless a district or circuit court certifies
specific issues for appeal. See 28 U.S.C. § 2253(c); FED.R.APP.P. Rule 22(b). Bourgeois has not
sought a Certificate of Appealability ("COA''), though this Court can consider the issue sua sponte.
See Alexander v, Johnson, 211 F.3d 895, 898 (5th Cir. 2000). The Court must address whether the
circumstances justify an appeal before issuing a final judgment. See Rule 11, RULES GOVERNING
SECTION 2255 CASES IN THE UNITED STATES DISTRICT COURTS.
A COA may issue when an inmate "has made a substantial showing of the denial of a

173

18 U.S.C. § 3596(a) provides that federal death sentences shall be implemented "in
the manner prescribed by the law of the State in which the sentence is imposed."
224

PA260

Case 2:02-cr-00216 Document 660-5

Filed in TXSD on 05/19/11 Page 25 of 25

constitutional right." 28 U.S.C. § 2253(c)(2); see also Slackv. McDaniel, 529 U.S. 473, 484 (2000).
Settled precedent forecloses relief on Bourgeois' claims. Under the appropriate standard, Bourgeois
has not shown that this Court should authorize any issue for appellate review. This Court will not
certify any issue for consideration by the Fifth Circuit.
CONCLUSION
The Court has fully considered the pleadings, the record, and the applicable law. Bourgeois
has raised many issues requiring serious judicial consideration. The Court commends Bourgeois'
current attorneys for their tireless efforts to defend him. They have zealously probed the legal and
factual background of this case looking for issues meriting judicial review. In their briefing and
argument, they have proven themselves competent and fervid defenders of their client's rights.
Nonetheless, this Court finds no error invalidating Bourgeois' capital conviction or death sentence.
As Bourgeois has failed to show that his sentence was imposed in violation of the Constitution or
laws of the United States, was in excess of the maximum authorized by law, or is otherwise subject
to collateral attack; his claims do not merit section 2255 relief.
Accordingly, the Court DENIES Bourgeois Motion to Vacate, DENIES WITHOUT
PREJUDICE any outstanding motions, and DISMISSES this case. The Court will not certify any
issue for consideration by the appellate court.
SIGNED and ENTERED on this/!i__ilaay

of--:../)1...:....L..<.,lf~f'---' 2011.

Q~~zf:t4 ~
United States District Judge

225

PA261

Case: 18-40270

Document: 00514626364

Page: 1

Date Filed: 09/04/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-40270
In re: ALFRED BOURGEOIS,

FILED
August 23, 2018
Lyle W. Cayce
Clerk

Movant

Motion for an order authorizing
the United States District Court for the
Southern District of Texas, Corpus Christi, to consider
a successive 28 U.S.C. § 2255 motion
Before KING, DENNIS, and HIGGINSON, Circuit Judges.
KING, Circuit Judge:
Alfred Bourgeois, a federal death-row inmate, asks us to authorize
consideration of a successive motion to vacate his death sentence. See 28 U.S.C.
§ 2255(h). In his successive motion, Bourgeois claims that he is constitutionally
ineligible for the death penalty because he is intellectually disabled. See Atkins
v. Virginia, 536 U.S. 304 (2002). While Bourgeois’s original motion
unsuccessfully raised an Atkins claim, he contends that the Supreme Court’s
decision in Moore v. Texas, 137 S. Ct. 1039 (2017), now makes his claim viable.
Bourgeois is barred from relitigating his Atkins claim. Under 28 U.S.C.
§ 2244(b)(1), “[a] claim presented in a second or successive habeas corpus
application under section 2254 that was presented in a prior application shall

PA262

Case: 18-40270

Document: 00514626364

Page: 2

Date Filed: 09/04/2018

No. 18-40270
be dismissed.” 1 By its terms, the provision applies to “second or successive
habeas corpus application[s] under section 2254”—the section governing state
prisoner habeas applications. But § 2244(b)(1)’s strict relitigation bar is
incorporated by 28 U.S.C. § 2255(h), the provision governing federal prisoner’s
successive § 2255 motions. Section 2255(h) states: “A second or successive
motion must be certified as provided in section 2244 by a panel of the
appropriate court of appeals to contain” either newly discovered evidence or a
new rule of constitutional law. Id. § 2255(h) (emphasis added). We have held,
in a pair of unpublished decisions, that this cross-reference incorporates §
2244(b)(1)’s strict relitigation bar into § 2255(h)’s scheme. See In re Hartzog,
444 F. App’x 63, 64 (5th Cir. 2011) (per curiam); Montalvo v. Casterline, 48
F. App’x 480, 2002 WL 31049451, at *1 (5th Cir. Aug. 29, 2002) (per curiam). 2
Every other circuit to take up the question agrees. See In re Bradford, 830 F.3d
1273, 1275 (11th Cir. 2016) (per curiam); Dawkins v. United States, 829 F.3d
549, 550 (7th Cir. 2016) (per curiam); United States v. Lee, 792 F.3d 1021, 1023
(8th Cir. 2015); In re Liddell, 722 F.3d 737, 738 (6th Cir. 2013) (per curiam);
United States v. Card, 220 F. App’x 847, 851 (10th Cir. 2007); Green v. United
States, 397 F.3d 101, 102 n.1 (2d Cir. 2005) (per curiam).
Bourgeois’s only rejoinder is unpersuasive. He argues that Congress’s
express limitation of § 2244(b)(1)’s scope to habeas applications brought “under
section 2254” shows that Congress intended for that section to apply only to
claims brought by state prisoners. He invokes the canon of expressio unius est
exclusio alterius (“the expression of one thing implies the exclusion of another”)

Bourgeois does not contest that his § 2255 motion is second or successive. Nor does
he contest that the Atkins claim he currently raises was “presented in a prior application.”
See 28 U.S.C. § 2244(b)(1).
2 As Hartzog and Montalvo are unpublished, they are non-precedential but “may be
considered persuasive authority.” See United States v. Torres-Jaime, 821 F.3d 577, 582 (5th
Cir. 2016).
1

2

PA263

Case: 18-40270

Document: 00514626364

Page: 3

Date Filed: 09/04/2018

No. 18-40270
as support. See Tex. Office of Pub. Util. Counsel v. FCC, 183 F.3d 393, 443 &
n.96 (5th Cir. 1999); see also POM Wonderful LLC v. Coca-Cola Co., 134 S. Ct.
2228, 2238 (2014) (applying the doctrine).
But the expression unius canon is not meant to be mechanically applied.
Express provision of one thing only “implies” the exclusion of another. See Tex.
Office of Public Util., 183 F.3d at 443 & n.96 (emphasis added). Context may
indicate that Congress did not wish for an express provision of one thing to
work towards the exclusion of another. See Christensen v. Harris County, 529
U.S. 576, 583 (2000); Springer v. Gov’t of Phil. Islands, 277 U.S. 189, 206 (1928)
(“Like other canons of statutory construction,” expression unius “is only an aid
in the ascertainment of the meaning of the law, and must yield whenever a
contrary intention on the part of the lawmaker is apparent.”).
Here, the larger statutory context favors applying § 2244(b)(1)’s strict
relitigation bar to federal prisoners. Section 2255(h) does not supply its own
procedures for processing successive § 2255 motions. Instead, it crossreferences the procedures set forth in § 2244. What is more, “the legislative
history does not distinguish between second or successive motions by federal
and by state prisoners.” Bennett v. United States, 119 F.3d 468, 469 (7th Cir.
1997), cited with approval in Reyes-Requena v. United States, 243 F.3d 893,
898 (5th Cir. 2001). And “it would be odd indeed if Congress had intended to
allow federal prisoners to refile precisely the same non-meritorious motions
over and over again while denying that right to state prisoners.” In re Baptiste,
828 F.3d 1337, 1339 (11th Cir. 2016) (per curiam); see White v. United States,
371 F.3d 900, 901 (7th Cir. 2004) (invoking a similar sentiment).
As Bourgeois’s successive § 2255 motion presents only a single claim that
was already presented in his original motion, his request for authorization is
DENIED.
3

PA264

Case: 20-1891

Document: 56

Filed: 12/01/2020

Pages: 2

In the

United States Court of Appeals
For the Seventh Circuit
____________________
No. 20-1891
ALFRED BOURGEOIS,
Petitioner-Appellee,
v.
T.J. WATSON, Warden, and UNITED STATES OF AMERICA,
Respondents-Appellants.
____________________
Appeal from the United States District Court for the
Southern District of Indiana, Terre Haute Division.
No. 2:19-cv-00392-JMS-DLP — Jane Magnus-Stinson, Chief Judge.

____________________
On Petition for Rehearing and Rehearing En Banc
____________________
December 1, 2020
____________________
Before SYKES, Chief Judge, EASTERBROOK, KANNE, ROVNER,
WOOD, HAMILTON, BRENNAN, SCUDDER and ST. EVE, Circuit
Judges.
PER CURIAM. On consideration of petitioner-appellee’s petition for panel rehearing or rehearing en banc, filed on

PA265

Case: 20-1891

2

Document: 56

Filed: 12/01/2020

Pages: 2

No. 20-1891

October 13, 2020, the judges on the original panel have voted
to deny rehearing. A judge in regular active service requested
a vote on the petition for rehearing en banc. A majority of
judges in regular active service voted to deny the petition for
rehearing en banc.
Circuit Judge Wood dissents from the denial of rehearing
en banc, on the ground that in her view the petitioner is entitled to a hearing on his claim that his execution will violate
the Federal Death Penalty Act, 18 U.S.C. § 3596(c), with whom
Circuit Judge Rovner joins.
Accordingly, the petition for panel rehearing or rehearing
en banc filed by petitioner-appellee is DENIED. Pursuant to
the panel’s October 6, 2020 opinion, the mandate shall now
issue immediately.

PA266

Case: 20-1891

Document: 57

Filed: 12/01/2020

Pages: 2

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

NOTICE OF ISSUANCE OF MANDATE
December 1, 2020

To:

Roger A. G. Sharpe
UNITED STATES DISTRICT COURT
Southern District of Indiana
104 U.S. Courthouse
Terre Haute , IN 47807

ALFRED BOURGEOIS,
Petitioner - Appellee
No. 20-1891

v.
T. J. WATSON, Warden, and UNITED STATES OF AMERICA,
Respondents - Appellants

Originating Case Information:
District Court No: 2:19-cv-00392-JMS-DLP
Southern District of Indiana, Terre Haute Division
District Judge Jane Magnus-Stinson

Herewith is the mandate of this court in this appeal, along with the Bill of Costs, if any. A
certified copy of the opinion/order of the court and judgment, if any, and any direction as to
costs shall constitute the mandate.
RECORD ON APPEAL STATUS:

No record to be returned

NOTE TO COUNSEL:

PA267

Case: 20-1891

Document: 57

Filed: 12/01/2020

Pages: 2

If any physical and large documentary exhibits have been filed in the above-entitled cause, they are
to be withdrawn ten (10) days from the date of this notice. Exhibits not withdrawn during this period
will be disposed of.
Please acknowledge receipt of these documents on the enclosed copy of this notice.
-----------------------------------

Received above mandate and record, if any, from the Clerk, U.S. Court of Appeals for the
Seventh Circuit.
Date:

Received by:

_________________________

____________________________________

form name: c7_Mandate(form ID: 135)

PA268

Case: 20-1891

Document: 39

Filed: 10/06/2020

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

FINAL JUDGMENT
October 6, 2020

Before:

MICHAEL S. KANNE, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
AMY J. ST. EVE, Circuit Judge

ALFRED BOURGEOIS,
Petitioner - Appellee
No. 20-1891

v.
T. J. WATSON, Warden, and UNITED STATES OF AMERICA,
Respondents - Appellants

Originating Case Information:
District Court No: 2:19-cv-00392-JMS-DLP
Southern District of Indiana, Terre Haute Division
District Judge Jane Magnus-Stinson

The judgment of the District Court is REVERSED, with costs, and this case is REMANDED
with instructions for the district court to deny Bourgeois’s motion for a stay of execution
and dismiss Bourgeois’s § 2241 petition. The above is in accordance with the decision of this
court entered on this date.
form name: c7_FinalJudgment(form ID: 132)

PA269

